                                                                                                                sigar
   SIGAR




                                    SIGAR | Quarterly Report to the United States Congress | January 30, 2013
   Special Inspector General
   for Afghanistan Reconstruction
                                                                                                                                 Special Inspector General for    Jan 30
                                                                                                                                 Afghanistan Reconstruction        2013
   2530 Crystal Drive
   Arlington, VA 22202

   www.sigar.mil




                                                                                                                 Quarterly Report to the United States Congress




                                    1

Jan2013_Cover.indd 1                                                                                                                                                  1/15/2013 9:42:47 AM
                       The National Defense Authorization Act for FY 2008 (P.L. 110-181)
                       established the Special Inspector General for Afghanistan
                       Reconstruction (SIGAR).
                       SIGAR’s oversight mission, as defined by the legislation, is to provide for the
                       independent and objective
                       •	 conduct and supervision of audits and investigations relating to the programs
                          and operations funded with amounts appropriated or otherwise made available
                          for the reconstruction of Afghanistan.
                       •	 leadership and coordination of, and recommendations on, policies designed
                          to promote economy, efficiency, and effectiveness in the administration of the
                          programs and operations, and to prevent and detect waste, fraud, and abuse
                          in such programs and operations.
                       •	 means of keeping the Secretary of State and the Secretary of Defense fully
                          and currently informed about problems and deficiencies relating to the
                          administration of such programs and operation and the necessity for and
                          progress on corrective action.
                       Afghanistan reconstruction includes any major contract, grant, agreement,
                       or other funding mechanism entered into by any department or agency of the
                       U.S. government that involves the use of amounts appropriated or otherwise made
                       available for the reconstruction of Afghanistan.

                       Source: P.L. 110-181, “National Defense Authorization Act for FY 2008,” 1/28/2008.


                       (For a list of the congressionally mandated contents of this report, see Section 3.)




                       Cover photo:
                       Children in Farah Province, Afghanistan, play with kites given to them by Afghan Local Police officers.   Afghan children get water from a village well, one of more than 3,000 built or rehabilitated with USAID funds to
                       (DoD/USMC photo)                                                                                          reduce waterborne diseases that kill 40,000 children each year. (USAID photo)




Jan2013_Cover.indd 2                                                                                                                                                                                                                                1/15/2013 9:42:50 AM
SIGAR OVERSIGHT PRESENCE IN AFGHANISTAN




                               JOWZJAN                      KUNDUZ              BADAKHSHAN
                                             BALKH                    TAKHAR


                                               SAMANGAN
                   FARYAB                                     BAGHLAN
                               SAR-E PUL                          PANJSHIR
         BADGHIS                                                       NURISTAN
                                                       PARWAN   KAPISA      KUNAR
                                             BAMYAN                 LAGHMAN
                                                             KABUL
HERAT
                                                    WARDAK
                                                                      NANGARHAR
                   GHOR                                    LOGAR
                                DAYKUNDI                              PAKTIYA
                                                   GHAZNI                 KHOWST

                             URUZGAN
 FARAH
                                                            PAKTIKA
                                           ZABUL




NIMROZ                                                                                 Current SIGAR offices
         HELMAND
                          KANDAHAR                                                     Provinces where SIGAR has conducted
                                                                                       audit, inspection, and investigation work
                          SPECIAL INSPECTOR GENERAL            FOR

                          AFGHANISTAN RECONSTRUCTION



I am pleased to submit SIGAR’s eighteenth quarterly report on the status of the U.S.-
funded reconstruction effort in Afghanistan.
    We find ourselves today at a critical juncture. Two years from now, the U.S. military
will have ended its combat mission in Afghanistan, a new Afghan president will have
been elected, and security responsibilities will have been transferred to the Afghan
government. These events will fundamentally change the landscape of the Afghanistan
reconstruction effort, and it is the recently sworn-in 113th Congress that will preside
over this most important period. The members of this Congress will ultimately deter-
mine the extent of U.S. assistance to support the Afghan security forces, to strengthen
the Afghan economy, and to promote good governance.
   The Congress has appropriated nearly $89 billion to rebuild Afghanistan—more
than the United States has ever spent on the reconstruction of any other nation. Of
the nearly $13.8 billion appropriated to four of the largest reconstruction funds for
FY 2012, about $8.6 billion remains to be obligated. The President’s FY 2013 budget
request includes nearly $10 billion for Afghanistan’s reconstruction. If appropriated,
these funds will bring the amount available to implementing agencies for obligation to
more than $19 billion. We must ensure these funds are spent judiciously and achieve
desired outcomes.
   In light of the narrowing window of opportunity as U.S. forces draw down in
Afghanistan and the unprecedented investment of taxpayer dollars, SIGAR has been
examining what we have learned about Afghan reconstruction and how our work can
ensure that these remaining funds are used wisely.
   While there has been major progress in Afghanistan, SIGAR’s work since 2009 has
repeatedly identified problems in every area of the reconstruction effort—from inad-
equate planning, insufficient coordination, and poor execution, to lack of meaningful
metrics to measure progress. We have found delays, cost overruns, and poor construc-
tion of infrastructure projects. We have also found U.S.-funded facilities that are not
being used for their intended purposes. These problems have resulted in lost opportu-
nities and in incalculable waste, but they have also presented opportunities to learn.

Key Questions
Based on our work and that of other Inspectors General and the Government
Accountability Office, we want to underline the importance of the following questions
which can help guide decision makers as they consider whether and how best to use
the remaining reconstruction funds. Section 1 of this report discusses these questions in
more detail:
•	 Does the project or program make a clear and identifiable contribution to our national
   interests or strategic objectives?
•	 Do the Afghans want it and need it?
•	 Has it been coordinated with other U.S. implementing agencies, with the Afghan
   government, and with other international donors?
•	 Do security conditions permit effective implementation and oversight?
•	 Does it have adequate safeguards to detect, deter, and mitigate corruption?



                        2530 CRYSTAL DRIVE ARLINGTON, VIRGINIA 22202
•	 Do the Afghans have the financial resources, technical capacity, and political will to
   sustain it?
•	 Have implementing agencies established meaningful, measurable metrics for deter-
   mining successful project outcomes?

   To the extent agencies can answer these questions in the affirmative, we believe
that a project or program has a better chance of achieving its objectives. However, if
the implementing agencies cannot answer these questions in the affirmative, we also
believe they need to reevaluate the project. If they still choose to proceed with it, they
need to clearly articulate and justify their reasons for doing so.
   SIGAR will also be considering these fundamental questions through our audits,
investigations, and inspections. We will be examining project justifications, and we
urge Congress to do the same, because nothing is more wasteful at this critical junc-
ture than an unwarranted project or one that realistically has no chance of success.
   SIGAR is particularly concerned about the effect the military drawdown will have
on our ability to oversee reconstruction spending. SIGAR and other oversight agen-
cies depend in part on military transport and protection in regions outside Kabul.
The shrinking U.S. military presence is already making it more difficult to visit
reconstruction projects in remote locations. Every government agency implementing
reconstruction projects must immediately develop plans to mitigate the challenge of
overseeing reconstruction in insecure areas. SIGAR will be reviewing those plans and
developing one of its own to ensure that U.S. taxpayer dollars are protected.
   Congress gave SIGAR broad responsibilities, empowering us to look at all aspects of the
reconstruction effort across departmental and mission boundaries, and to provide recom-
mendations on policies to promote the efficiency and effectiveness of the reconstruction
effort. We take this mission seriously and look forward to supporting implementing agen-
cies and Congress to achieve ultimate reconstruction success in Afghanistan.

Respectfully,




John F. Sopko
Special Inspector General for Afghanistan Reconstruction




                         2530 CRYSTAL DRIVE ARLINGTON, VIRGINIA 22202
TABLE OF CONTENTS




     SECTION 1
     	 1	 KEY QUESTIONS
     	 3	 Key Questions for Decision Makers
     	11	 Implications for Policy and Practice




     SECTION 2
     	13	 SIGAR OVERSIGHT ACTIVITIES
     	 15	Audits
     	28	Inspections
     	33	Investigations
     	 36	 Quarterly Highlight: Investigating Fuel Theft
     	44	 Special Projects
     	46	 SIGAR Budget
     	47	 SIGAR Staff




     SECTION 3
     	49	 RECONSTRUCTION UPDATE
     	 51	Overview
     	 55	 Status of Funds
     	69	Security
     	 95	Governance
     	123	 Economic and Social Development
TABLE OF CONTENTS




      SECTION 4
      	155	 OTHER AGENCY OVERSIGHT
      	158	 Completed Oversight Activities
      	164	 Ongoing Oversight Activities




      APPENDICES & ENDNOTES
      	178	 Appendix A:	 Cross-Reference of Report
            		 to Statutory Requirements
      	182	 Appendix B:	 U.S. Funds for Afghanistan
            		Reconstruction
      	184	 Appendix C:	 SIGAR Written Products
      	188	 Appendix D:	 SIGAR Investigations and Hotline
      	191	 Appendix E:	 Abbreviations and Acronyms
      	194	Endnotes
     “This year, we’ll mark another
  milestone—Afghan forces will take
 the lead for security across the entire
 country. And by the end of next year,
2014, the transition will be complete—
Afghans will have full responsibility for
 their security, and this war will come
         to a responsible end.”
                   —U.S. President Barack Obama




           Source: White House, Joint Press Conference by President Obama and President Karzai, January 11, 2013.
1   KEY
    QUESTIONS




        1
                                               CONTENTS
                                               CONTENTS
                                               Key Questions for Decision Makers	      3
                                               Implications for Policy and Practice	   11




Photo on previous page
U.S. Secretary of State Hillary Rodham Clinton hosts a working
dinner for Afghan President Hamid Karzai, second from left, at the
State Department, January 10, 2013. (State Department photo)




                                                   2
                                              KEY QUESTIONS




KEY QUESTIONS
FOR DECISION MAKERS
Since 2002, the United States Congress has appropriated nearly $89 billion
for reconstruction of Afghanistan; the current continuing resolution and
budget requests entail billions more. These funds have been used as part
of a multi-pronged effort to build a stable Afghanistan with a government
capable of defending and administering its territory—critical factors for the
overriding U.S. goal of defeating al-Qaeda, which used a Taliban-controlled
Afghanistan to plan and train for the September 11, 2001, attacks against
the United States. Over the next two years, the reconstruction phase will
fundamentally change as the footprint of U.S. and coalition forces grows
smaller and ultimate security responsibility transfers to the Afghan National
Security Forces (ANSF) by the end of 2014.
   Between now and then, the newly installed members of the 113th
Congress and Executive Branch decision makers have the opportunity to
ensure that the next stage of a decade-long reconstruction effort is directed
toward those activities and projects that will have the greatest opportunity
for long-term success.
   Getting this right is urgent and important. Additional spending, whether
through appropriations or another continuing resolution, will likely bring
total U.S. funding for Afghan reconstruction to nearly $100 billion by
the end of FY 2013. While most of these funds have been obligated and
expended over the last decade, implementing agencies still have billions
of dollars to fund reconstruction efforts during this vital transition period.
Of the nearly $13.8 billion appropriated to four of the largest reconstruc-
tion funds for FY 2012, $8.6 billion remains to be obligated. In addition,
nearly $10 billion in reconstruction funding is proposed to be appropriated
for FY 2013. All of these funds will require good stewardship and robust
oversight to ensure they are not wasted on projects that the Afghans do
not need or cannot sustain, or that simply do not work. See Section 3,
pages 55–67, for a complete analysis of appropriations, obligations, and dis-
bursements related to the major U.S. reconstruction funds.
   The landscape in Afghanistan is changing. Current U.S. plans call for the
withdrawal of most of the 70,900 U.S. troops currently in Afghanistan by the
end of 2014; many of the 36,000 other foreign troops currently in Afghanistan




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2013              3
KEY QUESTIONS




Special IG John F. Sopko, speaking at the Stimson Center in Washington, DC,
January 2013. (SIGAR photo)


will also depart. This will greatly magnify the difficulty of providing security,
transportation, medical assistance, and casualty evacuation for Americans
still working on essential reconstruction missions there, including project
management, oversight, advising, and training. In their place a force of
352,000 Afghan soldiers and police officers and a state-owned enterprise
called the Afghan Public Protection Force will provide security. More than
$50 billion—over half of all U.S. reconstruction spending in Afghanistan—
has been devoted to paying, housing, feeding, training, equipping, and
supplying the Afghan security forces. Their ability to maintain security and
prevent insurgent groups from growing will determine whether other recon-
struction work can proceed safely and successfully.
    Sharpening the focus and improving the results of existing reconstruc-
tion programs is necessary if, as the Administration plans, such programs
are to replace direct U.S. military intervention. Strategic guidance signed by
the President and the Secretary of Defense in 2012 noted that “In the after-
math of the wars in Afghanistan and Iraq, the United States will emphasize
non-military means and military-to-military cooperation” to curtail the need
for major U.S. force commitments. Furthermore, the guidance adds, “U.S.
forces will no longer be sized to conduct large-scale, prolonged stability
operations” (emphasis in original).1
    Based upon its own audit and investigative work as well as that of fel-
low Inspectors General and the Government Accountability Office (GAO),
SIGAR believes that Congress and the relevant Executive Branch agencies
should carefully consider a series of questions as they evaluate current and
proposed reconstruction projects, including:
 •	 Does the project or program clearly contribute to U.S. national interests
    or strategic objectives?
 •	 Do the Afghans want it and need it?




   4                   SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
                                              KEY QUESTIONS




•	 Has the project or program been coordinated with the Afghan
   government, other implementing agencies, and international donors?
•	 Do security conditions permit effective implementation and oversight?
•	 Does the project or program include safeguards to detect, deter, and
   mitigate corruption?
•	 Do the Afghans have the financial resources, technical capacity, and
   political will to sustain the project or program?
•	 Have implementing agencies established real metrics for determining
   outcomes and measuring success?

   Organizations like the U.S.-led International Security Assistance Force,
the State Department, and the U.S. Agency for International Development
(USAID) are posing similar questions in their reviews of programs and
projects during the security-transition period. That is a good thing. The
scale of the security, financial, and geopolitical stakes in Afghanistan war-
rant the highest-level, government-wide effort to check, evaluate, diagnose,
and act to make necessary and prudent course corrections while opportu-
nities remain.
   The following discussion will present each key question and provide illustra-
tive instances of the issue, then highlight implications for policy and practice.

Does the project clearly contribute to our national interests
or strategic objectives?
America’s objective for using force in Afghanistan was laid out in a
Congressional resolution in September 2001: “to prevent any future acts
of international terrorism against the United States by such nations,
organizations or persons” as were involved in the September 11, 2001, ter-
ror attacks.2 In the years since, White House statements on Afghanistan
reflected nation-building and counter-insurgency doctrine by extending
stated U.S. objectives to include, for example, “establish[ing] a stable, mod-
erate and democratic state that respects the rights of its citizens, governs
its territory effectively and is a reliable ally in this war against extremists
and terrorists.”3
    More recently, however, President Obama has returned the national
objective in Afghanistan to confronting the threat of global terrorism.
During a 2012 visit to Afghanistan, he said, “Our goal is not to build a coun-
try in America’s image, or to eradicate every vestige of the Taliban. These
objectives would require many more years, many more dollars, and most
importantly, many more American lives. Our goal is to destroy al Qaeda, and
we are on a path to do exactly that.”4
    Accordingly, every reconstruction project should be evaluated and
regularly reassessed to confirm that it remains relevant to that basic goal.
A recent SIGAR audit (Audit 12-2), for example, found several U.S.-funded
projects supported by the Afghan Infrastructure Fund (AIF) could actually




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2013                5
                                                KEY QUESTIONS




                                                work against it. The audit found that the AIF projects “may result in adverse
                                                COIN [counter-insurgency] effects because they create an expectations
                                                gap among the affected population or lack citizen support.” The problems
                                                auditors identified included delays of six to 15 months in most AIF projects,
                                                including all power sector projects, except the Kandahar Bridging Solution.5

                                                Do the Afghans want it and need it?
                                                Best practice in offering assistance should include determining that the
                                                intended recipient actually wants and needs the project. SIGAR has not
                                                always found that to be the case in Afghanistan. Two recent SIGAR inspec-
                                                tion reports (Inspections 13-4 and 13-5), for example, found that most of the
                                                buildings at five Afghan Border Police facilities costing a total of $26 million
                                                in Kunduz and Nangarhar Provinces were either unoccupied or being used
                                                for unintended purposes, including one that was being used as a chicken
                                                coop.6 It is difficult to consider a project as wanted and needed if its
                                                intended recipients are not using it or are using it for an unplanned purpose.

This Afghan National Police district head-      Has the project been coordinated with the Afghan government,
quarters in northern Afghanistan is one of      other implementing agencies, and international donors?
many facilities built under contracts awarded   Part of SIGAR’s mandate is to determine the degree to which implementing
by the U.S. Army Corps of Engineers. SIGAR
                                                agencies are coordinating reconstruction projects. A number of audits have
has found some ANP facilities to be under-
or unutilized. (USACE photo)                    highlighted problems in this area. For example, developing Afghanistan’s
                                                financial sector, helping it recover from the fraud-driven failure of a major
                                                bank, and improving financial controls to prevent and detect financial crimes
                                                are important reconstruction goals. But a SIGAR audit (Audit 11-13) discov-
                                                ered that a financial-sector working group set up after the failure of Kabul
                                                Bank failed to include the U.S. Department of Homeland Security (DHS),
                                                which has been working on measures to gain visibility on currency flows
                                                out of Afghanistan. Auditors also noted that the Department of Defense’s
                                                (DoD’s) Task Force on Business Stability Operations, which was assisting
                                                Afghan institutions with electronic-funds transfer capabilities, was unaware
                                                of DHS’s work on installing bulk-currency counting devices. “Inconsistent
                                                Afghan cooperation” was cited as an additional concern. “Limited inter-
                                                agency coordination,” the audit said, “puts U.S. agencies at risk of working at
                                                cross-purposes or, at a minimum, missing opportunities to leverage existing
                                                relationships and programs.”7
                                                   On the energy front, SIGAR audits and reports commented for three
                                                years on the absence of a master plan to develop Afghanistan’s meager
                                                electrical sector. The supply of electricity there is unreliable, depends
                                                heavily on imported energy, and serves only 28% of Afghan households.
                                                This quarter, the Asian Development Bank—partially supported by U.S.
                                                funds—published a draft master plan that would expand electrical cover-
                                                age and reliability through a 20-year, $10 billion program of generation,
                                                transmission, and network-development projects.8 Such planning can help




                                                   6                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                              KEY QUESTIONS




the United States and other international donors maintain awareness of
component efforts and avoid duplicating efforts, leaving unintended gaps in
planning, or working at cross-purposes with other agents.
   Any reconstruction project should be checked to ensure that it is known
to and not destructive of the legitimate plans and operations of other
implementing agencies, the Afghan government, and non-governmental
organizations active in the region.

Do security conditions permit effective implementation
and oversight?
The expected end of the American combat role in Afghanistan by year-end
2014 will greatly increase the operational burden on the ANSF, slated to
meet its end-strength goal of 352,000 personnel at that time. The ANSF faces
a Taliban-led insurgency that the Department of Defense says “remains
adaptive and determined, and retains the capability to emplace substantial
numbers of IEDs [improvised explosive devices] and to conduct isolated
high-profile attacks” while showing “a significant regenerative capacity.”9
    If the insurgency continues to present a major challenge to ANSF capa-
bilities, the U.S.-led coalition’s drawdown can only multiply the difficulties
of providing adequate security for project sites to permit travel, manage-
ment, execution, and oversight.
    Those difficulties are already significant. As the USAID Office of Inspector
General reports, Afghanistan “remains a high-threat environment, and secu-
                                                                                   ANSF trainees receiving certificates, Farah
rity concerns often constrain the mission’s ability to implement and monitor       Province, January 2013. (USMC photo)
projects throughout the country.”10 A SIGAR audit team similarly observed
that “USAID has experienced a longstanding inability to adequately moni-
tor program implementation due to security concerns” (Audit 12-9).11 A 2010
SIGAR audit (Audit 11-3) reported that poor U.S. Army Corps of Engineers
oversight of a contractor building Afghan National Police facilities in Helmand
and Kandahar Provinces was “in part due to the volatile security condition
around each [of the six] site[s].”12 Meanwhile, the partially USAID-funded Asia
Foundation had to replace 168 of the 1,055 locations it sampled in 2011 for its
2012 survey of Afghan public opinion “due to security reasons.”13
    The U.S. and Afghan governments are currently negotiating an agreement
to determine the number and status of U.S. troops in Afghanistan after 2014.
Whatever that number turns out to be, the areas within prompt reach of
quick-reaction forces and medical-evacuation teams will shrink. If counter-
insurgency doctrine continues to entail building or operating reconstruction
projects in contested or unstable areas, security-related obstacles to on-site
management and oversight can only increase. SIGAR staff are, in fact, already
encountering problems in gaining access to some sites in Afghanistan.
    Evaluations of continuing or proposed projects should consider carefully
whether security conditions will permit effective levels of management and




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2013                7
KEY QUESTIONS




oversight, and if not, whether expected benefits of a constrained level jus-
tify the increased risks of waste, failure, or threat to human lives.

Does the project plan include safeguards to detect, deter,
and mitigate corruption?
Afghanistan’s reputation for corruption is deep-rooted and widespread. When
the Germany-based, non-profit Transparency International updated its global
Corruption Perceptions Index for 2012, results of its expert-opinion survey
placed Afghanistan in a tie for last place with North Korea and Somalia for
most corrupt countries.14 Among Afghans themselves, a 2012 survey found 60%
of respondents saw corruption as a major problem in their local government,
70% thought so for provincial government, and 79% believed it of the national
government.15 The joint Monitoring and Evaluation Committee, established in
2010 by the Afghan government and the international community to address
corruption issues, has reported that Afghanistan lacks the will to combat and
prosecute corruption, and that its capacity to do so is hampered by weaknesses
in staffing, legal and administrative structures, and oversight.16
    Corruption is not, of course, unique to Afghanistan. And corrupt activ-
ity there involves many foreigners, including U.S. commissioned and
non-commissioned officers and enlisted personnel, federal civilians,
contractors, and subcontractors. SIGAR investigations this quarter, for
example, have helped lead to a U.S. contractor pleading guilty to smug-
gling $1 million out of Afghanistan, and to another U.S. Army contractor
pleading guilty to accepting $50,000 in bribes. Numerous other SIGAR
investigations and audits since 2009 have highlighted corruption issues in
Afghanistan reconstruction.
    Maintaining a vigorous, cooperative, multi-agency U.S. anti-corruption cam-
paign is vital as a matter of law-enforcement and financial responsibility. The
great challenge for reconstruction after the security transition in Afghanistan
is to bolster that government’s commitment and capacity to combat corrup-
tion. The July 2012 international donors’ conference in Tokyo, for example,
produced a “Mutual Accountability Framework” that includes incentives for the
Afghan government to carry out commitments to combat corruption.17 One of
these (Audit 10-15) noted that “corruption, widely acknowledged to be a perva-
sive, systemic problem across Afghanistan, corrodes the Afghan government’s
legitimacy and undermines international development efforts,” and urged the
U.S. Secretary of State to implement a comprehensive anti-corruption strategy
and review the Afghan government’s need for more assistance in its anti-cor-
ruption efforts.18
    Without knowing how that initiative will unfold, and in view of the previ-
ously discussed prospects of increasing difficulty in performing oversight,
agencies should review their projects’ vulnerability to corruption and their
available counter-measures. SIGAR and other oversight and law-enforcement
agencies continue to audit and investigate corruption in Afghanistan.




   8                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                              KEY QUESTIONS




Do the Afghans have the financial resources, technical
capacity, and political will to sustain the program?
Afghanistan cannot generate the revenues to support the kind of govern-
ment and security forces the United States and its allies have helped it build
over the last ten years. Instead it must rely on U.S. and international donors
to meet its core operating budget requirements for the foreseeable future.
The international donor community concluded at its July 2012 conference
in Tokyo, “The Afghan Government will have special, significant, and con-
tinuing but declining fiscal requirements that cannot be met by domestic
revenues.”19 Moreover, the World Bank and the International Monetary
Fund concluded in June 2012 that Afghanistan is unlikely to reach fiscal
sustainability until at least 2032. Instead, Afghanistan is expected to have
a “financing gap” of $70 billion during the transformation decade of 2015–
2024, with billions of additional dollars needed for years to follow.20
    U.S. and European donors in NATO have pledged $4.1 billion a year—
about twice the Afghan government’s current domestic revenues—for
security support to Afghanistan in the years 2015–2017, but some have
not made their pledges concrete. At a December 2012 NATO meeting in
Brussels, Secretary of State Hillary Clinton urged allies to honor their
pledges: “We cannot afford to repeat the mistakes of 1989 and just disen-
gage,” opening the way for civil war.21
    Sustainability involves more than money, however. It also requires care-
ful assessment of maintenance and support needs, a cadre of suitably
trained personnel, and the political or administrative will to follow through
on essential tasks. All of those considerations are challenges in Afghanistan.
    In the Defense Department’s latest “Report on Progress Toward Security
and Stability in Afghanistan”—known as the “1230 Report,” for the section
of statute that requires it—DoD told Congress that the Afghan Ministry of
Defense (MoD) “made steady progress” and “remains one of the most capable
parts of the Afghan government.”22 Nonetheless, “The MoD, like many other
Afghan government institutions, lacks sufficient trained, educated, and pro-
fessional staff in order to plan and execute operations at a requisite pace.”23
    Routine support for the ANSF also poses a capacity challenge. A 2012
SIGAR audit (Audit 13-1) found the MoD could not provide operations-and-
maintenance supplies in timely fashion, that more than half of authorized
Afghan operations-and-maintenance jobs were unfilled, and that “The ANSF
lacks personnel with the technical skills required to operate and maintain
critical facilities, such as water supply, waste water treatment, and power
generation.”24 SIGAR’s audit (Audit 11-7) of the Commander’s Emergency
Response Program, or CERP, spending in Laghman Province concluded that
all $44.6 million of asphalt roads built there were “at risk due to the lack of
maintenance plans.”25 Another audit (Audit 12-12), this one on the use of
AIF projects, determined that State and DoD had not defined project-sus-
tainment costs or communicated this fact to the Afghan government.26




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2013              9
KEY QUESTIONS




   DoD, Treasury, and USAID support the Public Financial Management
Roadmap project that provides training, advisers, and assistance to the
Afghan Ministries of Defense and Interior, as well as to 37 civilian minis-
tries. However, a GAO audit found that agencies and their implementing
partners offered incomplete and inconsistent performance data. For USAID
in particular, GAO said “the absence of baselines, performance targets,
and data” makes it difficult to assess the results of the agency’s efforts to
improve Afghan financial-management capacity.27
   USAID and other agencies have issued sustainability-review guidelines,
but the need to create a high and enforced hurdle for treating sustainability
as a requirement for going forward is government-wide. Apart from possibly
obtaining short-term gratitude for foreign donors’ reconstruction efforts,
there would seem to be little benefit in setting up projects or programs that
the Afghans cannot or will not sustain once international forces depart and
international aid declines. That is why sustainability must be a key aspect of
project reviews for the transition period and the years beyond.

Have implementing agencies established real metrics for
determining project outcomes and measuring success?
Decisions to continue projects or launch new ones should include some
realistic consideration of whether meaningful and measurable indicators
can be devised to judge whether it will be successful.
   A recent Congressional Research Service report—one not confined to
Afghanistan—notes the difficulty of constructing and consistently applying
evaluation metrics to foreign aid programs, and the results of not doing so:
    In most cases, clear evidence of the success or failure of U.S. assistance
    programs is lacking, both at the program level and in aggregate. One reason
    for this is that aid provided for development objectives is often conflated
    with aid provided for political and security purposes. Another reason is that
    historically, most foreign assistance programs are never evaluated for the
    purpose of determining their impact, either at the time or retrospectively.…
    Numerous examples exist of hospitals, schools, and other facilities that were
    built with donor funds and left to rot, unused in developing countries that did
    not have the resources or will to maintain them. In some instances, critics
    assert that foreign aid may do more harm than good, by reducing govern-
    ment accountability, fueling corruption, damaging export competitiveness,
    creating dependence, and undermining incentives for adequate taxation.28

   A 2012 SIGAR audit (Audit 12-8) of USAID operations in the Local
Governance and Community Development project in Afghanistan exem-
plified several of these difficulties. The stabilization project was intended
to cost no more than $150 million and last three years. It actually cost
$400 million and ran five years, after which a USAID-requested indepen-
dent review found the project had not achieved its objective of promoting




  10                   SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
                                              KEY QUESTIONS




the legitimacy of the Afghan government. Contributing factors included
USAID’s difficulty in setting and measuring objectives, as well as the
impact of travel restrictions and security threats on performing oversight
and evaluation.29
   Devising and applying practical metrics that do not confuse outputs for
outcomes, can be objectively measured, and are resistant to gaming and
statistical outliers is hard work. But it is an essential task before committing
additional resources to reconstruction projects.


IMPLICATIONS FOR POLICY AND PRACTICE
International willingness to supply aid will likely decline as donor countries
withdraw their troops. Moreover, Afghan projections for increased domes-
tic revenues may be too optimistic given challenges in increasing revenue,
particularly from the mining sector. For these reasons, there are real con-
cerns that Afghanistan will simply lack the fiscal, operational, and technical
capacity to provide for security and other basic government functions,
much less to maintain and operate the hundreds of programs and projects
that the United States and other donors have established there. And it is not
clear if the Afghan government is prepared to work with the international
donor community to develop and apply a systematic triage mechanism to
weigh budget needs against resources and make considered judgments on
what projects should be suspended, terminated, descoped, or consolidated.
   Significant amounts of money are still at risk in Afghanistan, and, as
work by SIGAR and other oversight agencies has established, many U.S.
policies and practices need attention and improvement. Carrying defective
practices and weak oversight into the Afghan “Decade of Transformation,”
even at lower levels of funding and effort, would carry great risk of massive
new waste, fraud, and abuse. This risk will grow if the troop drawdown and
security concerns—already a growing obstacle to SIGAR’s accessing some
Afghan sites—restrict opportunities for effective oversight of reconstruc-
tion programs and projects in Afghanistan.
   During the 113th Congress, lawmakers and Executive Branch agencies
have an opportunity to conduct a strategic reexamination of reconstruction
issues. That reexamination might reaffirm existing plans, or lead to post-
poned, reduced, cancelled, reinforced, redesigned, or repurposed projects.
To the extent such analysis and action produce projects more likely to func-
tion and succeed in post-2014 Afghanistan, they can deliver real benefits to
U.S. military and civilian personnel, American taxpayers, the Afghan people,
and U.S. national interests.




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2013               11
    “My team and I are committed to
   ensuring that taxpayer dollars are
  spent wisely and are protected from
waste, fraud, and abuse. If we don’t get
 it right, then those lives and treasure
spent over the last 11 years may have
   been spent in vain–something that
we at SIGAR will do everything in our
             power to avoid.”
    —Special Inspector General John F. Sopko




           Source: John F. Sopko, speech at Stimson Center, January 10, 2013.
2   SIGAR
    OVERSIGHT




        13
                                               CONTENTS
                                               CONTENTS
                                               Audits	15
                                               Inspections	28
                                               Investigations	33
                                               Quarterly Highlight:
                                               Investigating Fuel Theft	         36
                                               Special Projects	                 44
                                               SIGAR Budget	                     46
                                               SIGAR Staff	                      47




Photo on previous page
A SIGAR special agent conducts a field interview in Afghanistan. (SIGAR photo)




                                                  14
             SIGAR OVERSIGHT ACTIVITIES




SIGAR OVERSIGHT ACTIVITIES
This quarter, SIGAR issued nine written products, including three audits, one
alert letter, two inspections, two special project reports, and one investiga-
tive report. SIGAR also recovered $310,000 worth of government property,            COMPLETED AUDITS
saved $825,000 in contract costs, and prevented $4.8 million worth of fuel from     •	 Audit 13-2: Afghanistan’s National
                                                                                     Power Utility
being stolen. Its investigations led to four U.S. citizens and five Afghans being
arrested and eight U.S. citizens pleading guilty to charges that include bribery,   •	 Audit 13-3: ANP Vehicle Maintenance
                                                                                       Contract
smuggling, and theft. SIGAR announced two new audits, bringing the total
                                                                                    •	 Audit 13-4: ANA Petroleum, Oil,
number of audits under way to 11. It referred 16 contractors found to have             and Lubricants
engaged in criminal activity for suspension and debarment. As the U.S. combat
                                                                                    ALERT LETTER
mission winds down in Afghanistan, SIGAR will provide the 113th Congress
                                                                                    •	 Inaccuracies in Geospatial Database of
with focused and aggressive oversight of the ongoing reconstruction effort.          Development Projects
   This quarter, SIGAR found:
                                                                                    COMPLETED INSPECTIONS
•	 $4.2 billion in appropriations and future estimates for fuel assets provided
                                                                                    •	 Inspection 13-4: Kunduz ANP Provincial
    to the Afghan National Army (ANA) not supported by validated fuel                Headquarters
    requirements or actual consumption data and possibly overstated                 •	 Inspection 13-5: Imam Sahib Border
•	 a $17.7 million Afghan National Police provincial headquarters that may           Police Headquarters
    be unusable and unsustainable                                                   INVESTIGATIVE REPORT
•	 $12.8 million in DoD-purchased electrical equipment sitting unused and           •	 Investigative Report 13-1: Shredded Fuel
    a contractor paid by USAID for work not done                                     Purchase Records
•	 a $7.3 million Afghan Border Police facility sitting largely unused              COMPLETED SPECIAL PROJECT
•	 $6.83 million unnecessarily paid to service Afghan police vehicles               REPORTS
•	 geospatial database for development projects contains some                       •	 Report SP-13-1: Bulk Cash Flows at
    inaccurate locations                                                               Kabul Airport
                                                                                    	• Report SP-13-2: Iranian Fuel Purchases

AUDITS
Since its last report to Congress, SIGAR has completed three audit reports.
This quarter, SIGAR also began two new audits, bringing the total number
of ongoing audits to 11. The published reports identified concerns with the
commercialization of Afghanistan’s national power utility, a contract for
Afghan police vehicle maintenance, and fuel for the ANA. The audits made a
total of 15 recommendations to ensure that equipment meant for the power
utility does not go to waste, that the U.S. government is not overcharged for
Afghan police vehicle maintenance, and that fuel for the ANA is not subject
to theft and waste.




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2013               15
                                               SIGAR OVERSIGHT ACTIVITIES




                                               Audit Reports Published
COMPLETED AUDITS                               Audit 13-2: Afghanistan’s National Power Utility
                                               $12.8 Million in DoD-Purchased Equipment Sits Unused, and USAID Paid a Contractor
•	 Audit 13-2: Afghanistan’s National Power
   Utility: $12.8 Million in DoD-Purchased     for Work Not Done
   Equipment Sits Unused, and USAID Paid       Afghanistan’s national power utility, Da Afghanistan Breshna Sherkat
   a Contractor for Work Not Done              (DABS), operates and manages electric power generation, import, trans-
•	 Audit 13-3: Afghanistan Police Vehicle      mission, and distribution throughout Afghanistan. Since 2009, the U.S.
   Maintenance Contract: Actions Needed        government has supported the Afghanistan government by obligating
   to Prevent Millions of Dollars from Being
                                               almost $88 million to assist in commercializing DABS. U.S. government
   Wasted
                                               projects—funded by U.S. Forces-Afghanistan (USFOR-A) and the U.S.
•	 Audit 13-4: Afghan National Army: Con-      Agency for International Development (USAID)—focus on assisting DABS
   trols Over Petroleum, Oil, and Lubricants
   for Vehicles, Generators, and Power         in increasing cost recovery, reducing losses, and building its capacity
   Plants Need Strengthening to Prevent        to manage, operate, and maintain a national power system. This report
   Fraud, Waste, and Abuse                     provides information on equipment purchased to support DABS efforts
                                               in Kandahar and on fees paid to a USAID contractor. SIGAR will address
                                               additional findings related to U.S. government projects to assist in DABS
                                               commercialization in a forthcoming audit report.

                                               FINDINGS
                                               As part of its ongoing audit of U.S.-funded projects to help commercialize
                                               DABS, SIGAR identified two issues that the agency believes warrant imme-
                                               diate attention.
                                                   First, almost $12.8 million in equipment purchased to meet urgent needs
                                               in support of the counterinsurgency strategy is sitting unused in storage
                                               controlled by the U.S. Army Corps of Engineers-Afghanistan Engineer
                                               District South (USACE-TAS) without a clear plan for installation. USFOR-A
                                               approved the projects under the Commander’s Emergency Response
                                               Program (CERP)—intended to enable U.S. commanders to respond to
                                               urgent requirements by carrying out programs that will immediately
                                               assist local populations—and originally intended to turn the equipment
                                               directly over to DABS-Kandahar for installation. However, due to the lack
                                               of an installation plan, nearly all of the equipment is currently stored at
                                               Shorandam Industrial Park outside Kandahar City.
                                                   USFOR-A funded the procurement of the equipment without considering
                                               DABS-Kandahar’s lack of capacity to install and manage the equipment and
                                               without requiring an initial, achievable plan for installation. Although the
                                               first contract was awarded in August 2010, none of the agencies involved—
                                               USFOR-A, USACE-TAS, USAID or DABS—completed an installation plan,
                                               either prior to or following procurement of the equipment. USACE-TAS
                                               officials now cite the poor technical capacity of DABS-Kandahar as a bar-
                                               rier preventing it from properly installing and managing the equipment
                                               independently, but this factor was not considered earlier in the funding or
                                               procurement processes.




                                                 16                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
               SIGAR OVERSIGHT ACTIVITIES




Unused wire reels sitting in storage facility. (SIGAR photo)


   Further contributing to the ongoing storage of the equipment is confu-
sion regarding which agency is responsible for the installation of some
equipment. In response to SIGAR’s initial request for baseline information
on commercialization projects, USACE-TAS officials stated that approxi-
mately 50,000 customer electric meters would be installed by USAID or its
contractor as part of USAID’s task order. However, a modification to the
task order states that the contractor only would be responsible for provid-
ing an installation plan and not for actual installation. USAID reported that
the contractor has not completed the installation plan for the meters as
required by the task order modification but has offered no further informa-
tion about why this has not been done. Although the agencies reported
different accounts of who was responsible for the installation of the meters,
SIGAR could find no written agreement between the agencies supporting
either agency’s assertions.
   The meters procured as part of the starter and completion kits have a war-
ranty of two years from the date of dispatch from the manufacturer (March 3,
2012). Given the amount of time that has already lapsed since purchase, if the
meters are found to be faulty following installation, the warranty may already
have expired. This would leave the U.S. government with no recourse for the
manufacturer to replace defective equipment under warranty.
   A second issue is that USAID paid a contractor the full allowable fee on a
task order, despite the contractor’s failure to complete 26 of the 34 deliverables
required. In 2009, USAID awarded the $3.4 million cost-plus-fixed-fee Task
Order 22 for the Afghanistan Infrastructure and Rehabilitation Program to
Louis Berger Group Inc./Black & Veatch Special Projects Corp. Joint Venture.
The task order, with an original period of performance of May 10, 2009 to
May 9, 2011, was initially awarded to provide expert technical assistance,




REPORT TO THE UNITED STATES CONGRESS        I   JANUARY 30, 2013           17
SIGAR OVERSIGHT ACTIVITIES




training, and contract advisory support to DABS Corporate in Kabul. However,
several modifications followed, resulting in an entirely revised scope of work
focusing on commercialization activities in Kandahar; an extended period of
performance through December 31, 2011; modified deliverables; and a near
doubling of the original contract value to almost $6.8 million.
    Although USAID had disbursed approximately $5.76 million to the contrac-
tor as of July 31, 2012, the contractor did not complete 76% of the deliverables
required by the task order. Specifically, according to the task order and modifi-
cations, the contractor was responsible for providing a total of 34 deliverables
to USAID. USAID was able to provide evidence that the contractor completed
seven deliverables on time and one additional deliverable late. Neither USAID
nor the contractor provided evidence that the contractor completed any of
the remaining 26 deliverables. Furthermore, SIGAR found no evidence that
USAID assessed the deliverables provided by the contractor or held the con-
tractor responsible for providing required outputs. Among the deliverables not
completed are a draft and final meter installation plan, procurement and instal-
lation of 231 boundary meters, and a transition manual and handover plan for
Kandahar commercialization activities.

RECOMMENDATIONS
To ensure equipment purchased will be used to rebuild, repair, and expand
electrical distribution grids, SIGAR recommends that the Commanding
General, USFOR-A Regional Command-South, determine whether
$12.8 million of equipment procured for Kandahar province can and should
be installed in Kandahar and either develop a plan for installation or con-
duct a needs assessment to determine other uses for the equipment. SIGAR
also recommends that the USAID Mission Director for Afghanistan instruct
the mission’s contracting office to complete a comprehensive assessment
of task order deliverables and contractor performance and seek reimburse-
ment for any fixed fee paid in excess of the appropriate amount.

AGENCY COMMENTS
USFOR-A and USAID concurred with SIGAR’s recommendations

Audit 13-3: Afghan Police Vehicle Maintenance Contract
Actions Needed to Prevent Millions of Dollars from Being Wasted
Through November 2012, the United States provided more than 30,000 vehi-
cles to the Afghan National Police (ANP) and plans to distribute thousands
more. According to DoD, the ANP is not expected to be self-sufficient until
late 2014.
   To account for the ANP’s current lack of capacity to conduct logis-
tics and maintenance on U.S.-provided vehicles, the Combined Security
Transition Command-Afghanistan (CSTC-A) has relied on contractors to
perform these functions. On December 30, 2010, the U.S. Army Contracting




  18                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
            SIGAR OVERSIGHT ACTIVITIES




Command, at the direction of CSTC-A, awarded a firm fixed-price contract
valued at about $350 million for ANP vehicle maintenance to Automotive
Management Services FZE (AMS).
   This report assesses whether (1) DoD paid for services for the actual
number of vehicles receiving maintenance, (2) the contractor performed
within the terms and conditions of the contract, and (3) DoD agencies pro-
vided effective oversight of the contract.
   SIGAR conducted its work in eight provinces in Afghanistan from
January 2012 to December 2012 in accordance with generally accepted gov-
ernment auditing standards.

FINDINGS
SIGAR found that CSTC-A unnecessarily paid $6.3 million from April 2011 to
September 2012 because the U.S. Army Contracting Command and CSTC-A
based the firm fixed-price rates on vehicles purchased for the ANP, but they
did not account for vehicles that had not been seen for service in over a year
or had been destroyed. In addition, SIGAR estimated that CSTC-A paid at          Destroyed vehicles at Herat Regional
least $530,000 more than necessary because the minimum number of vehi-           Maintenance Center, July 18, 2012,
cles in the contract exceeded the number of vehicles serviced. For example,      included in lists of vehicles to be serviced.
once adjusted for vehicles not seen for service in over a year or destroyed,     (SIGAR photo)
the November 2012 list of vehicles to be serviced contained 21,555 vehicles,
but the U.S. government will pay for servicing a minimum of 24,000 vehicles
beginning with the second option year on December 29, 2012. In addition,
future option years under the contract do not provide CSTC-A the flexibility
to lower the list of vehicles to be serviced if the number of vehicles deter-
mined to need servicing is lower than the contracted minimum or if the ANP
begins to assume maintenance responsibilities. Furthermore, improvements
in removing destroyed vehicles from the list of those to be serviced could
result in lowering the number of vehicles for which the ANP receives fuel
allocations, resulting in decreased fuel costs.
   AMS generally performed and billed in accordance with the contract’s
terms and conditions, but SIGAR found inaccuracies in AMS’s spare parts
inventory. AMS generally met the contract-established 90% operational read-
iness rate for ANP vehicles. Additionally, AMS’s firm fixed-price invoices
were billed at the agreed upon rates. For cost-reimbursable spare parts
purchases, AMS invoiced the U.S. government for the price it paid on parts.
However, at 11 sites visited by SIGAR, AMS’s electronic inventory manage-
ment system did not accurately reflect spare parts on hand.
   CSTC-A and the Defense Contract Management Agency did not conduct
monthly oversight of all AMS facilities. Of the 453 contracting officer repre-
sentative (COR) reports required between April 2011 and August 2012, 121
reports (27%) were missing. One site did not receive any COR oversight,
two sites did not receive any oversight until June and July 2012, and addi-
tional sites had large lapses of time when no oversight was reported. Of the




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2013             19
SIGAR OVERSIGHT ACTIVITIES




453 reports required, 170 were based on site visits, 121 were conducted by
phone or email, and 41 were reports that an audit could not be performed.
While the lack of site visits was largely due to logistical and security con-
straints, SIGAR found that many reports lacked support for why an audit
could not be performed.

RECOMMENDATIONS
SIGAR is making five recommendations to the Commanding General,
CSTC-A, and Commanding General, U.S. Army Contracting Command, to
adjust contract terms to more accurately reflect ANP vehicle maintenance
requirements and to improve inventory accuracy and contractor oversight.
In addition, the report includes two recommendations to the Commanding
General, CSTC-A and the Director, Defense Contract Management Agency
(DCMA), to improve contract oversight.

AGENCY COMMENTS
CSTC-A, in coordination with the U.S. Army Contracting Command,
concurred with all seven of the recommendations. DCMA also provided
technical comments and concurred with recommendations six and seven to
improve oversight of CORs and to assist CSTC-A where possible in execut-
ing their responsibilities.

Audit 13-4: Afghan National Army
Controls Over Fuel for Vehicles, Generators, and Power Plants Need Strengthening to
Prevent Fraud, Waste, and Abuse
Since 2005, Congress has appropriated almost $50.7 billion to the
Afghanistan Security Forces Fund (ASFF) to train, equip and sus-
tain the Afghan National Security Forces (ANSF), which include the
Afghan National Army (ANA) and the ANP. The NATO Training Mission-
Afghanistan/Combined Security Transition Command–Afghanistan (NTM-A/
CSTC-A) has primary responsibility for purchasing ANA’s petroleum,
oil, and lubricants (POL) and training top-level ANA and Ministry of
Defense (MoD) officials. The International Security Assistance Force Joint
Command assists CSTC-A by training the rank and file of the ANA. The
MoD is responsible for requesting, distributing and accounting for ANA fuel.
   This report assesses whether (1) internal controls were in place to account
for ANA POL and to prevent fraud, waste, and abuse, (2) funding requests for
ANA POL were based on accurate data needed to support requirements, and
(3) CSTC-A’s efforts to ensure the MoD has sufficient capacity to manage the
purchase, delivery, storage, and consumption of ANA POL following the draw-
down of U.S. and Coalition forces by the end of 2014. To accomplish these
objectives, SIGAR obtained data and met with officials from the International
Security Assistance Force, CSTC-A, Task Force 2010, the DoD Inspector
General, U.S. Army Audit Agency, and the Defense Logistics Agency. This




  20                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




report builds on a September 2012 interim report and alert letter. SIGAR con-
ducted this work in Kabul, Afghanistan from February to November 2012 in
accordance with generally accepted government auditing standards.

FINDINGS
The successful U.S. transition of military forces by the end of 2014 depends
on, among other things, Afghanistan’s ability to provide for its own security.
A logistics capacity—including the ability to purchase, track, and account
for POL—underpins the security forces and the transition. However, the
fuel process that NTM-A/CSTC-A is preparing to hand over to the Afghan
government needs strengthened accountability and financial controls to
reduce the risk of fraud, waste, and abuse.
   CSTC-A lacked sufficient accountability in the process used to order,
accept deliveries, and pay for diesel fuel, aviation fuel, and packaged fuel
and firewood for ANA vehicles, generators, and power plants. This lack
of accountability increases the risk that U.S. funds and fuel will be stolen.
SIGAR found that:
•	 CSTC-A records relating to fuel purchases paid for between March 2010
   to February 2011 were missing;
•	 CSTC-A’s data on fuel purchases covering the period March 2011 to
   March 2012, was inaccurate and incomplete; and
•	 CSTC-A could not account for fuel that was spilled or lost.

   In addition, CSTC-A’s processes for price approval, ordering, receipt, deliv-
ery and payment of fuel were beset by major vulnerabilities. For example:
•	 CSTC-A approved payments for fuel without verifying vendors’
   statements that they had made deliveries in full and of acceptable quality.
•	 CSTC-A fuel orders were not based on required consumption data and,
   for power plants, the fuel orders did not follow the authorized process.

   Furthermore, Congress appropriated over $1.1 billion for ANA POL
from fiscal years 2007 through 2012, and CSTC-A estimates that another
$3.1 billion will be required for the next six fiscal years (2013 through 2018).
This $4.2 billion of appropriations and estimates for fuel, as well as other
amounts to be funded by international donors, are not supported by vali-
dated fuel requirements or actual consumption data and may be overstated.
   Concurrently, in January 2013, CSTC-A should have more than $266 mil-
lion of fiscal year (FY) 2012 funds still available to purchase fuel in FY 2013. If
CSTC-A implements SIGAR’s recommendation to keep FY 2013 funding at the
FY 2012 level of $306 million, there should be sufficient funds to meet ANA
POL requirements until CSTC-A develops and validates a systematic process
for estimating funds needed to meet fuel requirements.
   CSTC-A plans to directly contribute more than $1 billion in U.S. funds
to the Afghan government to purchase ANA fuel despite CSTC-A’s fuel




REPORT TO THE UNITED STATES CONGRESS    I   JANUARY 30, 2013                21
SIGAR OVERSIGHT ACTIVITIES




accountability issues, assessments questioning its oversight of prior
direct contributions, and reports on the Afghan government’s lack of
capacity. During the audit, CSTC-A officials informed SIGAR about
various actions they were taking to improve the process for managing
ANA POL. This included issuing new blanket purchase agreements to
strengthen controls over the delivery and receipt of fuel and reducing the
number of fuel delivery sites. SIGAR will validate these actions as part of
the audit follow-up process.

RECOMMENDATIONS
SIGAR recommends six actions to the Commander, NTM-A/CSTC-A.
Specifically, SIGAR recommends three actions to improve accountability
of U.S. funds and purchased fuel through full compliance with required
MOD logistics processes; two actions to develop more realistic fuel budget
requests and future year funding estimates, with the potential for realizing
substantial savings immediately and in the future; and one action to assure
proper stewardship and transparency of U.S. funds and fuel purchases
when fuel management responsibility is transferred to the MoD.

AGENCY COMMENTS
NTM-A/CSTC-A generally concurred with all six of SIGAR’s
recommendations.

Alert Letter Published
SIGAR issued one alert letter this quarter.

Geospatial Database Has Incorrect Coordinates for
Some Sites
SIGAR this quarter conducted an analysis of data contained in a web-based
geospatial database intended to provide USAID with a comprehensive
and accurate picture of infrastructure development in Afghanistan. The
Afghanistan Infrastructure and Security Cartography System (AISCS) was
developed by a USAID contractor, International Relief and Development
Inc. (IRD). The data center was designed to include geospatial information
about development activities, including construction of roads, schools, clin-
ics, hospitals, and public buildings such as courthouses and district centers.
Under the terms of its contract, IRD was to obtain infrastructure project
site information from the USAID mission in Afghanistan, as well as from
DoD, and verify the accuracy of that information. According to IRD, it has
“stringent ongoing multi-tiered quality control protocols in place to insure
accuracy and precision collected data” [sic].
   SIGAR decided to conduct its analysis after identifying duplicate records
and instances of missing data elements within records and observing that
out of 33,000 records in AISCS, only 16% were shown as having confirmed




  22                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
            SIGAR OVERSIGHT ACTIVITIES




locations. SIGAR selected 10 projects from AISCS and asked the Criminal
Investigation Task Force (CITF) to corroborate the projects’ stated loca-
tions using a variety of unclassified and classified sources. CITF found that
coordinates for three of the sites were significantly inaccurate, and it could
not find three of the projects at all. Because this initial test raised con-
cern, SIGAR conducted a more rigorous analysis. It submitted 227 sample
records from AISCS of USAID-funded schools in urban and rural areas to
the National Geospatial-Intelligence Agency (NGA) for analysis.
   NGA could only confirm 81% of our sample as being located at or near
the given coordinates. SIGAR and others rely on complete and accurate
data on the location of U.S.-funded infrastructure in Afghanistan to con-
duct oversight of the reconstruction effort. Incomplete and/or inaccurate
data limits agencies’ ability to verify the effectiveness of expended recon-
struction funds, to validate that projects are being used for their intended
purpose, and to analyze the efficiency and effectiveness of U.S.-led recon-
struction efforts. SIGAR therefore encouraged USAID to carefully assess
how IRD verifies and maintains AISCS and to hold IRD accountable if short-
comings in this process are identified.

New Audits Announced this Quarter
During this quarter, SIGAR initiated two audits. The audits will assess:
•	 implementation and oversight of the ANSF literacy training program            NEW AUDITS
•	 training of Afghan justice sector personnel                                   •	 Afghan National Security Forces Literacy
                                                                                  Training
ANSF Literacy Training                                                           •	 Training of Afghan Justice Sector
Illiteracy in the ANSF remains a major obstacle to effectively developing         Personnel
a capable and self-sustaining force that can operate independently and
defend the Afghan people. The U.S. has funded three contracts, valued
at $200 million through 2015, to provide ANSF literacy training with the
goal of significantly reducing its illiteracy levels. SIGAR will evaluate the
implementation and oversight of the ANSF literacy training program under
the three contracts. It will assess whether the contractors provide quali-
fied instructors and services; the extent to which CSTC-A monitored the
contractor’s performance and training outcomes; and the extent to which
the contracts are meeting the goal of providing basic, sustainable levels of
literacy for the ANSF.

Training of Afghan Justice Sector Personnel
The United States has made it a strategic reconstruction priority to estab-
lish rule of law in Afghanistan and is providing assistance programs and
funds to support justice-sector development. This audit will focus primarily
on the Department of State’s Judicial Sector Support Program. This pro-
gram aims to train justice-sector personnel and build the overall capacity of
the Afghan judicial system. SIGAR also plans to review DoD’s Rule of Law




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2013             23
                                               SIGAR OVERSIGHT ACTIVITIES




                                               Field Force-Afghanistan and USAID’s Rule of Law Stabilization Program,
                                               both of which also seek to train justice personnel.

                                               Ongoing Audits
ONGOING AUDITS                                 USAID’s Southern Region Agricultural Development Project’s
•	 USAID’s Southern Region Agricultural        Partnership with International Relief and Development Inc.
   Development Project’s Partnership with      USAID is funding the Southern Region Agricultural Development Project to
   International Relief and Development Inc.   combat regional instability, increase agricultural employment and income,
	• USAID Planning for Sustainability of its    and assist the region’s transition from an insecure area to one with a sus-
   Development Programs in Afghanistan         tainable and prosperous agricultural economy. In February 2012, SIGAR
•	 Tariffs, Taxes, or other Fees Imposed by    received allegations that USAID’s implementing partner, International Relief
   the Government of the Islamic Repub-
                                               and Development Inc. (IRD), had failed to coordinate sufficiently with the
   lic of Afghanistan on U.S. Contractors
   Conducting Reconstruction Activities in     local government and military officials and was spending funds on solar
   Afghanistan                                 panels and farm tractors without justification. SIGAR is conducting this
•	 Air Mobility Support for Afghan Drug        examination to assess the basis for the acquisition and distribution of solar
   Interdiction Operations                     panels and farm tractors, and to determine whether IRD’s expenditures
•	 U.S. Government Efforts to Assist in        complied with the terms of its strategic partnership agreement and the
   the Commercialization of the Afghani-       intended goals of the program.
   stan Electricity Utility—Da Afghanistan
   Breshna Sherkat (DABS)
                                               USAID Planning for Sustainability of Its Development
•	 State’s Financial Audit Coverage of Costs   Programs in Afghanistan
   in Afghanistan
                                               The United States risks wasting billions of dollars if U.S.-funded develop-
•	 DoD Compliance with the Prohibition on      ment programs cannot be sustained, either by the Afghan government or
   Contracting with the Enemy
                                               by continued donor support. In June 2011, USAID issued guidance to better
•	 USAID’s Direct Assistance to the Ministry
   of Public Health                            integrate sustainability planning into the design of its assistance programs
	• Ongoing Construction Projects for the       for Afghanistan. Congress subsequently mandated that State, in consulta-
   ANSF                                        tion with USAID, certify that the funds would be used in accordance with
	• Afghan National Police Petroleum, Oils,     this guidance. SIGAR is conducting this audit to assess USAID’s planning
   and Lubricants                              for the sustainability of its development programs in Afghanistan.
	• $230 Million in Missing Repair Parts
                                               Tariffs, Taxes, or Other Fees Imposed by the Government
                                               of the Islamic Republic of Afghanistan on U.S. Contractors
                                               Conducting Reconstruction Activities in Afghanistan
                                               The United States relies primarily on contractors and their subcontractors
                                               to implement U.S. reconstruction programs in Afghanistan. The Afghan
                                               government is reportedly charging tariffs, taxes, and other fees on materials
                                               imported for U.S.-funded reconstruction programs. This audit will deter-
                                               mine what fees are being levied and whether these fees are in accordance
                                               with applicable international agreements. As part of this audit, SIGAR will
                                               also assess the impact that declining coalition activity after the 2014 transi-
                                               tion will have on the Afghan government’s operating budget.




                                                 24                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




Air-Mobility Support for Afghan Drug Interdiction Operations
Despite efforts by the international community and the Afghan govern-
ment to reduce poppy cultivation and illicit drug trafficking, Afghanistan
still produces about 90% of the world’s opium. The illicit drug trade also
supports the insurgency. The U.S. counter-narcotics strategy strives to cut
off the flow of funds to the insurgency through interdiction operations.
These operations depend on U.S.-funded air-mobility support to U.S. and
Afghan law-enforcement officials. U.S. efforts to enhance the capabilities
of the Afghan Special Missions Wing—also known as the Air Interdiction
Unit—are critical to sustaining counter-narcotics operations. This audit
will determine the extent to which U.S. assistance provides responsive
air-mobility support to law enforcement officials for drug interdiction oper-
ations, assess U.S. government agencies’ oversight of their assistance to the
Air Interdiction Unit, and evaluate the extent to which U.S. assistance has
resulted in developing a sustainable capability to provide air-mobility sup-
port for counter-narcotics efforts.

U.S. Government Efforts to Assist in the Commercialization
of the Afghanistan Electricity Utility-Da Afghanistan
Breshna Sherkat
The United States has been supporting efforts to commercialize DABS, the
national power utility, as part of an overall effort to expand a self-sustain-
ing power network. Several USAID-funded projects have come to a close
and USAID plans to award several new contracts to continue its support of
the development of the electricity utility. This audit will identify the extent
to which the United States has funded programs to assist in the commer-
cialization of DABS and assess the outcomes of those efforts. The audit
will also evaluate the degree to which U.S. implementing agencies have
coordinated their efforts to develop a self-sustaining DABS. SIGAR issued
an interim report this quarter (see p. 16). A full audit report will be issued
next quarter.

State’s Financial Audit Coverage of Costs in Afghanistan
Since 2002, the State Department has awarded $6.1 billion in
Afghanistan reconstruction funds to its implementing partners through
244 contracts, cooperative agreements, and grants. Financial audits
of funds expended under such awards provide State with independent
assessments of how those funds were used. In 2012, SIGAR completed
an audit of USAID’s audit coverage for reconstruction efforts (SIGAR
Audit 12-9). Now it is conducting a similar audit of financial audit cover-
age of costs incurred under State’s cooperative agreements and grants,
to be followed by an audit on financial audit coverage of costs incurred
under State contracts.




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2013              25
SIGAR OVERSIGHT ACTIVITIES




DoD Compliance with the Prohibition on Contracting
with the Enemy
The National Defense Authorization Act passed by Congress in 2012
includes Section 841-Prohibition on Contracting with the Enemy in the
U.S. Central Command (CENTCOM) Theater of Operations. In this audit,
SIGAR plans to identify the processes established by CENTCOM and its
contractors to comply with the provisions of Section 841. SIGAR will also
(1) assess whether the processes established by CENTCOM and its contrac-
tors fully address the requirements stipulated in Section 841, and (2) assess
whether CENTCOM and its contractors are fully complying with the estab-
lished contracting policies and procedures. This audit will also assess the
extent to which the State Department and USAID, which are not subject to
Section 841, have established policies and procedures to prevent contract
awards from funding persons or entities identified as actively supporting
the insurgency or opposing U.S. or coalition forces.

USAID’s Direct Assistance to the Ministry of Public Health
In July 2008, USAID approved $236 million in direct funding to the Ministry
of Public Health (MoPH) over five years. USAID provided this direct assis-
tance to fund the Basic Package of Health Services in 13 provinces, the
Essential Package of Hospital Services in five provinces, and capacity
development at the central ministry. The Basic Package of Health Services
delineates the services that should be provided by each type of primary
health care facility in the Afghan health system. The Essential Package
of Hospital Services includes what hospitals in the Afghan health system
should provide in terms of general services, staff, equipment, diagnostic
services, and medications. SIGAR’s audit will look at whether the direct
assistance to the MoPH is being used for intended purposes and is achiev-
ing expected outcomes. It will also determine whether USAID and MoPH
implemented the financial and other internal controls required by the bilat-
eral direct assistance agreement.

Construction Requirements for the ANSF
As of June 30, 2012, the United States had 311 ongoing construction proj-
ects for the ANSF valued at about $3.73 billion and an additional 244
planned projects valued at about $2.4 billion. SIGAR will examine CSTC-A’s
justification and support for the project requirements. The audit will also
assess: (1) the extent to which U.S. and coalition basing plans for the ANSF
reflect ANSF force strength projections; (2) whether CSTC-A fully consid-
ered alternatives to new construction; (3) whether CSTC-A developed and
used appropriate criteria to ensure that current and proposed construction
projects for the ANSF are necessary, achievable, and sustainable by the
Afghan government.




  26                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




Afghan National Police Petroleum, Oils, and Lubricants
SIGAR this quarter published an audit of ANA logistics capacity for petro-
leum products. SIGAR Audit 13-4 identified the need for controls over ANA
POL to prevent fraud, waste, and abuse of more than $1.1 billion in U.S.
funds. ANP POL is subject to the same short transition timelines and chal-
lenges as ANA POL, and SIGAR anticipates that similar issues will surface
in the audit of ANP logistics capacity. The new audit will focus on the two
main issues identified in regard to ANA POL: accuracy of fuel requirements,
and accountability for fuel purchases.

$230 Million in Missing Repair Parts
In September 2012, the Commander of ISAF’s Advisory and Assistance
Team—a military assessment team—reported that CSTC-A could not
account for 474 out of 500 shipping containers with $230 million worth of
repair parts for ANSF equipment. CSTC-A purchased the repair parts for the
Afghan forces between 2007 and 2011. The team that discovered the parts
were missing said this may have triggered a requirement that CSTC-A reor-
der additional repair parts at a cost of nearly $137 million. The team issued
a report recommending that SIGAR investigate CSTC-A’s process for order-
ing and managing these repair parts. The report identified accountability
issues throughout the entire logistics life cycle of the repair parts, including
the shipment of parts into Afghanistan, acceptance of the parts by the U.S.
government in Kabul, storage of the parts by ANSF contractors and subcon-
tractors, and conveyance of the parts to the ANSF.
   The SIGAR audit will (1) assess the process CSTC-A uses to determine
requirements and to acquire, manage, store, and distribute Class IX repair
parts for the ANSF; and (2) evaluate the internal controls in place to
determine if they are sufficient to account for Class IX repair parts and to
prevent fraud, waste, and abuse.

Financial Audits
SIGAR’s financial-audit program uses a risk-based approach to identify
and carry out audits of costs incurred under U.S.-funded contracts, grants,
and cooperative agreements for Afghanistan reconstruction. The program
was established after Congress and the oversight community expressed
concerns about the growing backlog of financial audits for Overseas
Contingency Operations contracts and grants. Through this initiative,
SIGAR will:
•	 confirm that costs incurred by the recipients of U.S. contracts and grants
   for Afghanistan reconstruction are reasonable, allocable, and supportable;
•	 evaluate the internal control environment related to the contract or grant;
•	 in instances of noncompliance or weak internal controls, identify
   potential fraud or abuse; and
•	 follow up on findings and recommendations from prior audits.




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2013               27
                                              SIGAR OVERSIGHT ACTIVITIES




                                                 During this reporting period, SIGAR awarded contracts to competi-
                                              tively selected independent audit firms to conduct 12 financial audits.
                                              The audits have a combined estimated total of more than $1.1 bil-
                                              lion in auditable costs. All twelve audits are currently underway.
                                              Eleven of these audits have a targeted completion date of May 2013,
                                              while one audit, awarded in January 2013, is expected to be com-
                                              pleted in July 2013. A list of the ongoing financial audits can be found
                                              in Appendix C on page 185. SIGAR is currently identifying the next
                                              tranche of financial audits and will begin the procurement process for
                                              these audits in February 2013.


                                              INSPECTIONS
                                              This quarter, SIGAR completed two inspections and has 18 inspections
                                              under way. The completed inspections identified usability and sustainability
                                              issues at an ANP headquarters and at an Afghan Border Police facility in
                                              Kunduz province. The agency also announced two new inspections. The
                                              first was a series of inspections of medical, educational, police, and agricul-
                                              tural facilities in the western provinces. The second was of the Kajaki Dam
                                              and related construction projects in Helmand province.

                                              Inspections Reports Published
COMPLETED INSPECTIONS                         Inspection 13-4: Kunduz Afghan National Police
•	 Inspection 13-4: Kunduz Afghan             Provincial Headquarters:
   National Police Provincial Headquarters:   After Construction Delays and Cost Increases, Concerns Remain About the Facility’s
   After Construction Delays and Cost         Usability and Sustainability
   Increases, Concerns Remain about the
                                              In August 2010, USACE-TAN awarded a $12.4 million contract task
   Facility’s Usability and Sustainability
                                              order to ECCI-C METAG Joint Venture to design and build facilities at
	• Inspection 13-5: Imam Sahib Border
   Police Company Headquarters in Kunduz      the Afghan National Police (ANP) Provincial Headquarters in Kunduz
   Province: $7.3 Million Facility Sits       province. Subsequent modifications to the contract increased its total
   Largely Unused                             value to $17.7 million. On November 15, 2012, SIGAR conducted a site
                                              inspection at the facility to determine whether construction was being
                                              completed in accordance with contract requirements and applicable
                                              construction standards.
                                                 In preparation for its site inspection, SIGAR reviewed contract docu-
                                              ments, technical specifications, design documents, geotechnical reports,
                                              and quality control and quality assurance reports. SIGAR conducted its
                                              work in Kunduz province and in Kabul, Afghanistan, from September to
                                              December 2012, in accordance with Quality Standards for Inspection and
                                              Evaluation published by the Council of the Inspectors General on Integrity
                                              and Efficiency.




                                                28                  SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




FINDINGS
Construction quality at the Kunduz ANP Provincial Headquarters generally
meets contract specifications, although USACE-TAN’s failure to address the
potential for collapsible soils as part of the award of the contract caused a
10-month delay and a $5 million cost increase. A collection of 37 structures,
the project was approximately 50% complete when SIGAR visited the site
on November 15, 2012. Most of the buildings were structurally complete. No
significant construction deficiencies were noted.
   Nevertheless, SIGAR’s inspection identified usability and sustainability
issues with the facility. Specifically, a failure of the facility’s only source of
power—a single diesel generator with no back-up or connection to the local
electrical grid—could lead to significant sewage overflows that threaten the
health and safety of the facility and its occupants. Also, there are no plans
for an operation and maintenance contract or to train Afghans to keep
complex systems such as sewage treatment and electrical power in good
working order. Therefore, in SIGAR’s view, U.S. investment in this facility
                                                                                      Over-excavation of sewage filter beds.
may be at risk.
                                                                                      (SIGAR photo)

RECOMMENDATIONS
SIGAR made recommendations to the Commanding General, USACE, to
install electrical back-up at the sewage treatment plant lift station. SIGAR
is also making recommendations to the Commanding General, USACE, in
coordination with the Commanding General, NTM-A/CSTC-A, to review an
earlier decision to not connect the site to the local electrical grid; and, if this
decision was warranted, install back-up site electrical power to help ensure
a continuous supply of electricity; and to consider awarding an operation
and maintenance contract to ensure the facility’s long-term sustainability,
particularly in light of the technical complexity and cost of supporting the
sewage treatment plant and power plant.

AGENCY COMMENTS
USACE concurred with SIGAR’s three recommendations and plans to
address these issues, pending NTM-A/CSTC-A direction and funding.
Specifically, USACE is prepared to (1) install an electrical backup at the lift
station; (2) to conduct a cost-benefit and technical analysis associated with
connecting the site to the local electrical grid and; (3) issue a task order
against the existing operations and maintenance contract.

Inspection 13-5: Afghan Border Police Facilities
Imam Sahib Border Police Company Headquarters in Kunduz Province: $7.3 Million
Facility Sits Largely Unused
In March 2010, the U.S. Army Corps of Engineers-Afghanistan Engineer
District-North (USACE-TAN) awarded a $5.7 million firm fixed-price
contract to Omran Construction, Consulting and Engineering Company




REPORT TO THE UNITED STATES CONGRESS    I   JANUARY 30, 2013                29
SIGAR OVERSIGHT ACTIVITIES




to design and build facilities at the Imam Sahib Border Police Company
Headquarters in Kunduz province. Subsequent modifications to the con-
tract increased its total value to $7.3 million. The facility was turned over
to the Afghan Border Police on September 3, 2012. As part of its inspection
program, SIGAR conducted a site inspection at the facility to determine
(1) whether construction was being completed in accordance with contract
requirements and applicable construction standards; and (2) whether facili-
ties were being used as intended and maintained.
   In preparation for its site inspection, SIGAR reviewed contract docu-
ments, technical specifications, design documents, geotechnical reports,
and quality control and quality assurance reports. SIGAR conducted its site
inspection on November 19, 2012. SIGAR conducted its work in Kunduz
province and in Kabul, Afghanistan from September to December 2012, in
accordance with Quality Standards for Inspection and Evaluation pub-
lished by the Council of the Inspectors General on Integrity and Efficiency.

FINDINGS
SIGAR’s inspection was limited to only two buildings and a portion of a third
building of the total 12 buildings at the facility because most buildings were
locked and on-site personnel did not have the keys. Of the buildings SIGAR
was able to examine, no major construction quality issues were identified.
   Originally built with a capacity for 175 persons, only about 12 Afghan
personnel were on site at the facility at the time of SIGAR’s inspection.
Most buildings appeared unused and some previously installed equip-
ment—specifically, wood-burning stoves installed near the site’s dining
facility—had been dismantled.
   SIGAR also noted that the facility lacks back-up electrical power. In
addition, successfully sustaining the facility will require personnel with
appropriate skills to keep the electrical generator; fueling station; water
treatment system; and heating, ventilation, and air conditioning systems
in proper working order. However, there is neither an operation and main-
tenance contract nor plans to train local Afghan personnel to operate and
maintain equipment. This raises questions about the facility’s sustainability.

RECOMMENDATIONS
SIGAR recommends that USACE, in coordination with NTM-A/CSTC-A,
review plans for constructing Afghan Border Police facilities to determine
whether site construction contracts can be downsized or facilities rede-
signed to reduce unnecessary costs or if facilities, including this location,
are needed. If it is determined that this facility is needed and plans are in
place for its use, SIGAR recommends reviewing the feasibility of installing
backup power or connecting to the local grid, awarding an operation and
maintenance contract or providing training to Afghan personnel, and deter-
mining why wood-burning stoves at the site were dismantled.




  30                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




AGENCY COMMENTS
USACE noted that, in its view, the recommendations should have been
more appropriately addressed to NTM-A/CSTC-A because it is responsible
for determining project requirements and scope of work. USACE concurred
with three of SIGAR’s four recommendations, stating that it is prepared
to address these issues, pending NTM-A/CSTC-A direction and funding.
Specifically, USACE is prepared to reduce the scope of design and construc-
tion contracts, to evaluate the feasibility of installing a backup generator
or connect to the local power grid, and to issue a task order against the
existing operations-and-maintenance contract. USACE did not concur with
SIGAR’s fourth recommendation, stating that because the facilities were
completed and turned over to the customer, it has no control or authority
over how a customer uses a facility. However, USACE is prepared to assist
NTM-A/CSTC-A in assessing the need to provide wood-burning stoves at
other facilities currently under construction or planned for the future, pend-
ing NTM-A/CSTC-A direction and funding.
    SIGAR understands USACE’s position; however, the inclusion of wood-
burning stoves in facility construction is a facet of construction standards
first adopted in 2009 and revised in 2011. The dismantling of the wood-
burning stoves shortly after taking possession of the facility indicates that
they may not be an effective element of the new construction standards.
Consequently, SIGAR continues to believe that USACE-TAN, in coordina-
tion with NTM-A/CSTC-A, should determine why the ANSF dismantled
the wood-burning stoves at the Imam Sahib Border Police Company
Headquarters and assess the need to provide wood-burning stoves at other
facilities currently under construction or planned in the future.

NEW INSPECTIONS
SIGAR is conducting inspections of construction projects awarded with
U.S. relief and rehabilitation funds throughout Afghanistan. This quarter
                                                                                 NEW INSPECTIONS
it initiated two new inspections. One is for inspections of medical, educa-      •	 Inspections of the Kajaki Dam and Re-
tion, police, and agricultural facilities construction projects in the western      lated Construction Projects in Helmand
provinces of Herat, Farah, Badghis, and Ghor. The other is for a series             Province
of inspections of the Kajaki Dam and related construction projects in            	• Inspections of Medical, Education,
                                                                                    Police, and Agricultural Facilities in the
Helmand province.
                                                                                    Western Provinces

Medical, Education, Police, and Agricultural Facilities
These inspections will focus on medical, education, police, and agricultural
facilities in the western provinces of Herat, Farah, Badghis, and Ghor. They
will determine whether (1) construction was completed, or is being done,
in accordance with contract requirements and applicable construction
standards; (2) construction deficiencies are corrected before acceptance
and transfer; and (3) facilities are used as intended and maintained and
appropriately sustained.




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2013              31
SIGAR OVERSIGHT ACTIVITIES




Kajaki Dam and Related Construction Projects
This series of inspections will focus on the Kajaki Dam and related construc-
tion projects in Helmand province including, but not limited to, USACE and
USAID projects. The inspections will determine whether (1) construction
was completed, or is being done, in accordance with contract requirements
and applicable construction standards; (2) construction deficiencies are cor-
rected before acceptance and transfer; and (3) facilities are used as intended
and maintained and appropriately sustained.

Status of SIGAR Recommendations
The Inspector General Act of 1978, as amended, requires SIGAR to report
on the status of its recommendations. This quarter, SIGAR closed 29 audit
recommendations contained in 13 audit and inspections reports. From 2009
through 2012, SIGAR published 67 audits and investigations and made 225
recommendations to recover funds, improve agency oversight, and increase
program effectiveness. To date, SIGAR has closed over 60% of these recom-
mendations. Closing a recommendation indicates SIGAR’s assessment that
the audited agency has either implemented the recommendation or other-
wise appropriately addressed the issue.
   Corrective actions taken for the closed audit reports this period include:
•	 developing a system to track issues for vehicles provided with U.S.
   funds to the Afghan National Security Forces (Audit 12-4)
•	 recovery in 2011-2012 of over $66,000 from transportation carriers for
   vehicles damaged or equipment lost or stolen during transit (Audit 12-4)
•	 recovery of over $46,000 paid by USAID for unallowable shipping and
   insurance costs associated with armored leased vehicles (Audit 12-11)

   The Inspector General Act of 1978, as amended, also requires SIGAR to
report on any significant recommendations from prior reports on which
corrective action has not been completed. In this quarter, SIGAR moni-
tored agency actions on recommendations of 15 audit and four inspection
reports. Two of the reports, which are over 12 months old, contain 13 sig-
nificant recommendations that are pending resolution. These two reports
addressed challenges with $9.9 million in insurance premiums charges to
the U.S. Government and the coordination and integration of U.S. agri-
culture assistance and capacity-building. Specifically, Audit Report 11-15,
Weaknesses in the USACE Defense Base Act Insurance Program Led to as
Much as $58.5 million in Refunds Not Returned to the U.S. Government,
was published on July 28, 2011. Four of its recommendations are directed
at USACE to strengthen a Defense Base Act (DBA) insurance contract and
address problems identified with data provided by the current insurance
provider. The report also includes four additional recommendations to
both USACE and the CENTCOM Joint Theater Contracting Command to
strengthen the DBA program and, where possible, recover refunds given to




  32                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
            SIGAR OVERSIGHT ACTIVITIES




contractors for their DBA insurance costs. Despite USACE’s commitment
to complete actions to resolve the problems SIGAR identified by the end of
2012, the eight recommendations in this report remain open.
   In addition, Audit Report 12-1, Actions Needed to Better Assess and
Coordinate Capacity-Building Efforts at the Ministry of Agriculture,
Irrigation, and Livestock, was published on October 20, 2011. Its five rec-
ommendations called for the U.S. Ambassador to Afghanistan to address
the integration and coordination of U.S. capacity-building efforts, more
closely integrate DoD’s agribusiness development team capacity-building
activities with those of civilian agencies, and more accurately and consis-
tently measure civilian-military progress made in building Afghan capacity
in Kabul and in Afghanistan’s provinces. These recommendations also
remain open.


INVESTIGATIONS                                                                   FIGURE 2.1

This quarter, SIGAR investigations resulted in nine arrests (four U.S. citi-     SIGAR INVESTIGATIONS: NUMBER OF OPEN
zens and five Afghan citizens), eight guilty pleas, five federal charges, and    INVESTIGATIONS, AS OF DECEMBER 31, 2012
one criminal charge under Afghan law for a range of crimes, including
stealing fuel, soliciting kickbacks, and taking bribes. SIGAR recovered                                 Total: 268
stolen government property worth $310,000 and saved $5.6 million in gov-
ernment monies. In addition, SIGAR referred 16 individuals and companies
for suspension and debarment. It also produced an investigative report on                                     Public
                                                                                                              Corruption
CSTC-A’s shredding of fuel documents.                                                                         and Bribery
                                                                                              Theft of        80
   During this reporting period, SIGAR initiated 63 new cases and closed 14,                  Property and
bring the total number of active investigations to 268, as shown in                           Services
                                                                                              94           Procurement
Figure 2.1. SIGAR is the lead agency on 217 of these cases.                                                Fraud
                                                                                                           79
Investigation Determines CSTC-A Cannot Account for
$201 Million in Fuel Purchases                                                   Miscellaneous
In this reporting period, SIGAR investigators determined that because of         15
CSTC-A’s failure to comply with record-retention polices, the U.S. govern-
                                                                                 Source: SIGAR Investigations Directorate, 1/8/2013.
ment still cannot account for $201 million in fuel purchased to support the
Afghan National Army (ANA). The SIGAR investigation began after Special
Inspector General John F. Sopko reported in Congressional testimony on
September 13, 2012, that CSTC-A officers had shredded documents covering
some $475 million in ANA fuel purchases from FY 2007 through February
2011. Following the hearing, CSTC-A found the records for FY 2007 to
February 2010. SIGAR continued to investigate the records missing from
March 2010 to February 2011. Investigators determined that two CSTC-A
                                                                                    COMPLETED INVESTIGATIVE REPORT
fuel-ordering officers shredded the documents after scanning them in order          •	 Afghan National Army: $201 Million in
to save storage space. However, CSTC-A was unable to locate the scanned               DoD Fuel Purchases Still Unaccounted
documents, despite being provided numerous electronic sites and physical              for Because Records Were Shredded
locations identified during the course of SIGAR’s investigation. Investigators




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2013             33
                                              SIGAR OVERSIGHT ACTIVITIES




                                              found no evidence that the document shredding was related to criminal
                                              activity. But the failure to retain the records violated the Federal Acquisition
                                              Regulation pertaining to record retention and CENTCOM orders.

                                              More Than $4.8 Million Saved by SIGAR Investigation
                                              of Fuel Theft
                                              In December 2012, SIGAR, together with the U.S. Army Criminal
                                              Investigations Division (CID) and other U.S. Army personnel, conducted
                                              two joint operations to identify and shut down a fuel-theft scheme at
                                              Forward Operating Base (FOB) Salerno in Khost Province. The success-
                                              ful operations resulted in an estimated annual fuel savings of more than
                                              $4.8 million, the recovery of 1,000 gallons of fuel valued at $15,000, the
                                              arrest of three Afghan nationals, and the permanent removal of more than
                                              60 Afghan fuel drivers and criminal associates from access to FOB Salerno
                                              and other U.S. and NATO military bases in Afghanistan.
                                                 SIGAR was brought into the investigation in November 2012, when
                                              the U.S. Army FOB Salerno Commander requested the agency’s help in
                                              disrupting an ongoing fuel-theft scheme. The commander estimated the
                                              U.S. government was losing almost 53,000 gallons a month to fuel thieves.
                                              Working together with base personnel, SIGAR investigators soon deter-
                                              mined that Afghan fuel trucks arriving at the FOB Salerno fuel depot carried
                                              fuel loads that were short 600 to 2,400 gallons of the amounts listed on their
                                              manifest. The investigators found no evidence of criminal involvement by
                                              American government personnel.
                                                 SIGAR investigators met with the U.S. military’s counterterrorism
                                              task force, Task Force Rakkasan, or the 3rd Brigade Combat Team, 101st
                                              Airborne Division; the Afghan Threat Finance Center (ATFC); U.S. “Rule
                                              of Law” attorneys seconded to the Afghan government by DoJ; and Afghan
                                              prosecutors and police to develop a plan to address the thefts. Afghan
                                              police set up surveillance of the fuel depot where the deliveries took place.
                                              SIGAR and CID conducted more than 30 investigative interviews on a short
                                              deadline. Task Force Rakkasan and the ATFC provided analytical support.
                                              The U.S. “Rule of Law” attorneys and Afghan prosecutors developed a strat-
SIGAR staff meet with an Afghan anti-
                                              egy for charging the Afghan suspects identified during the investigation.
corruption official in Kabul. (SIGAR photo)      The joint investigation culminated in two takedowns on December 23 and
                                              27 at the FOB Salerno fuel yard. Task Force Rakkasan and the Afghan police
                                              took control of the fuel depot to allow investigators to identify and interview
                                              Afghan drivers and fuel workers involved in the scheme. Based on SIGAR
                                              investigation and in coordination with Afghan and U.S. prosecutors, Afghan
                                              police authorities arrested three Afghan nationals for stealing the fuel.
                                              Investigators recovered some 1,000 gallons of stolen fuel valued at $15,000.
                                              Additionally, the FOB Salerno Commander barred more than 60 Afghan fuel-
                                              truck drivers and other Afghan nationals involved in the scheme from access
                                              to FOB Salerno or other U.S. and NATO installations in Afghanistan.




                                                34                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
              SIGAR OVERSIGHT ACTIVITIES




SIGAR agent supervising the offloading of stolen fuel back into the US military fuel
depot at Camp Marmal, Mazar-e-Sharif. (SIGAR photo)


Influential Afghan Official Arrested, $310,000 in Stolen
Government Property Seized, and $825,000 Saved in
Contract Costs
SIGAR investigators working out of the agency’s new base in Mazar-e-Sharif
uncovered a large-scale fuel-theft scheme targeting U.S. military instal-
lations at Camp Jordania and Camp Marmal in Balkh Province. In a joint
investigation with military and International Contract Corruption Task
Force (ICCTF) law-enforcement officials, SIGAR investigators learned
that Ibrihim Ashna, an influential local Afghan official, was engaged in a
sophisticated scheme to defraud the U.S. government. Ashna, who provided
and brokered fuel deliveries to Camp Jordania and Camp Marmal, was
submitting forged or altered “transportation movement requests” (TMRs)
that falsely reported the delivery of fuel to a local fuel depot. Ashna then
charged the U.S. government for fuel that was never delivered.
   SIGAR investigators obtained recorded conversations of Ashna discussing
the scheme and confirmed that he was paying bribes to fuel-depot personnel.
SIGAR determined that he and his associates were using several different
methods for defrauding the U.S. government. Most commonly, Ashna and his
associates paid bribes to fuel-depot personnel to illegally overfill fuel trucks
by up to 2,500 gallons during loading, allowing them to depart with significant
quantities of excess fuel. They also submitted forged or altered documents
falsely claiming that fuel had been delivered. In addition, Ashna paid bribes
to fuel-depot personnel to falsely report that fuel was delivered when it had
(Continued on p. 38)




REPORT TO THE UNITED STATES CONGRESS       I   JANUARY 30, 2013                    35
                                  QUARTERLY HIGHLIGHT




                                                                 SIGAR works with the Afghan Attorney General’s
INVESTIGATING                                                office to have the Afghan drivers prosecuted locally.

FUEL THEFT                                                   The agency has third-country nationals suspended
                                                             and debarred to prevent them from having future
                                                             access to military bases. Through the Department
                                                             of Justice, SIGAR is also putting responsibility on
Fuel is “liquid gold” in Afghanistan—easy to steal,          the prime contractors for whom the drivers work
easy to sell on the black market. Buyers of stolen           to oversee their delivery process. Under their
fuel can be local gasoline stations, roadside ven-           contracts, the contractors have a responsibility to
dors, U.S. contractors without access to military            provide fuel and the U.S. government has a respon-
fuel depots, or Afghan insurgents. Whether gaso-             sibility to pay for the fuel delivered.
line, jet fuel, or diesel, fuel is readily transportable         Until now, the fact that the drivers were routinely
by truck, rail, or pipeline. Each mode has vulner-           shorting their deliveries had no impact on the prime
abilities to theft that SIGAR is trying to alleviate. At     contractors. They were paid the full amount of the
stake are hundreds of millions of dollars worth of           invoice with no deduction for the missing fuel. But
fuel that the United States buys each year to sup-           a SIGAR investigation out of Kandahar is using a
ply its personnel and the Afghan National Security           new process to make sure that all of the fuel the
Forces (ANSF).                                               contractor is responsible for delivering is accounted
   SIGAR has 24 open investigations concerning               for. Investigating agents have used computerized
fuel. This quarter a SIGAR audit showed that better          data from generators to calculate the total amount
controls over some $4.2 billion in fuel that has been        of fuel used on a U.S. military installation and com-
and will be supplied to the Afghan National Army             pared it to the total amount Supreme Fuels GmbH
are needed to prevent fraud, waste, and abuse.               & Co. KG was paid during a specific time frame. The
SIGAR also published a limited-scope review high-            difference is potentially significant; negotiations are
lighting the risk that U.S. funds could be used to           underway with Supreme for repayment.
purchase Iranian fuel in violation of U.S. economic              SIGAR has also sought to go up the ladder and
sanctions. Another audit will assess the process of          obtain evidence against fuel-theft rings. One recent
supplying fuel to the Afghan National Police.                investigation centered on an Afghan contractor for
   Most of SIGAR’s criminal fuel investigations              USAID, Ibrihim Ashna, who could provide several
concern drivers, either Afghan or third country              trucks a day to enter military bases and steal fuel.
nationals, for contractors who have U.S. gov-                Ashna asked a SIGAR agent, working undercover,
ernment or military contracts to deliver fuel to             to provide forged documents that would allow his
military bases. Such prime-contractor drivers often          trucks to enter a U.S. military base and load fuel,
“short” the fuel they deliver. The fuel left in the          ostensibly for delivery to other military installa-
trucks is then taken off the base and sold on the            tions. SIGAR used video surveillance to record
black market. SIGAR has used undercover agents,              Ashna discussing the thefts with its agent and to
sources, and surveillance videos to record drivers           make infrared video of trucks leaving the base with
stealing fuel from U.S. installations in Afghanistan.        illicitly retained fuel. Afghan prosecutors are using
Most recently, SIGAR used infrared surveillance              this surveillance evidence in court against Ashna.
video to show delivery drivers attempting to leave               With its investigations, audits, and special
U.S. installations with tanks partially full of fuel         reports, SIGAR is preventing the waste and theft of
that they had not offloaded.                                 U.S.-funded fuel in Afghanistan.




                                     36                    SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                             QUARTERLY HIGHLIGHT




SIGAR investigators conducting field interviews in joint SIGAR/U.S. Army fuel theft investigation. (SIGAR photo)




REPORT TO THE UNITED STATES CONGRESS       I   JANUARY 30, 2013                   37
SIGAR OVERSIGHT ACTIVITIES




actually been stolen, thereby avoiding a $75,000 contract penalty charged by
the U.S. government for each unsuccessful or “no show” fuel mission.
   Ashna was arrested on October 21, 2012, at Camp Marmal by Afghan
authorities in the presence of SIGAR agents after he paid a $5,000 bribe to
have four fuel tankers each improperly loaded with 2,500 gallons above the
authorized load. The theft of 10,000 gallons of U.S. government fuel would
have been worth $150,000. SIGAR investigators also seized the four fuel
trucks, valued at $180,000; recovered $130,000 in stolen fuel; obtained $825,000
in cost savings by identifying fraudulent TMRs; recovered $42,000 in bribe
payments; and secured the permanent expulsion of Ashna and his four drivers
from U.S. military installations. As Afghan nationals, Ashna and those assisting
him were not subject to U.S. prosecution, but Ashna remains incarcerated on
Afghan bribery and fraud charges pending his trial in Balkh Province.
   The investigation represents a success for the recent SIGAR decision
to create a new base at Mazar-e-Sharif with two Special Agents assigned
to it to address potential fraud at the nearby U.S. military facilities. These
facilities will be supporting the operations to remove equipment and other
material as part of the U.S. military drawdown.

Former Contractor and Two Former U.S. Army Sergeants Plead
Guilty to $200,000 Afghanistan Contract Fraud Scheme
A former employee of a U.S. Army contractor and two former U.S. Army
staff sergeants pleaded guilty on December 19, 2012, before a U.S. District
Judge in the Northern District of Illinois for their roles in a fraud scheme
involving a $200,000 contract to provide armored vehicles to the U.S. military
in Afghanistan.
   The contractor, Raul Borcuta, pleaded guilty to one count of wire fraud
while former U.S. Army Staff Sergeants Zachery Taylor and Jarred Close
each pleaded guilty to one count of receiving an illegal gratuity.
   According to court documents, Borcuta operated a defense contracting
firm in Farah Province and Taylor and Close were U.S. Army staff sergeants
assigned to a Provincial Reconstruction Team. They belonged to a civil-
affairs task force charged with awarding and administering development
contracts in Afghanistan. Taylor and Close awarded a $200,000 contract
to Borcuta to provide the U.S. military with two armored vehicles to pro-
tect the governor of Farah Province, who had been threatened with death
by Taliban insurgents. Court documents say Taylor and Close authorized
a $200,000 payment to Borcuta before he delivered the vehicles. Borcuta
collected the payment, paid Taylor and Close $10,000 each and then failed
to deliver the vehicles. The three were arrested after an investigation by
SIGAR, the Defense Criminal Investigative Service, the U.S. Army CID and
the Federal Bureau of Investigation (FBI).
   At sentencing, Borcuta faces a maximum penalty of 20 years in prison;
Taylor and Close each face up to two years in prison. Borcuta is scheduled




  38                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




to be sentenced on April 2, 2013. Taylor and Close are scheduled to be sen-
tenced on April 3, 2013.

U.S. Contractor Pleads Guilty in Scheme to Smuggle $150,000
The former manager of a U.S. contracting company engaged in reconstruc-
tion work in Afghanistan pleaded guilty in federal court on December 13,
2012, to a scheme to smuggle $150,000 in cash from Afghanistan to the
United States. As the result of a joint investigation by SIGAR, the FBI, and
other law-enforcement agencies, the manager, Donald Gene Garst, pleaded
guilty in the U.S. District Court for the District of Kansas to charges of ille-
gal bulk cash smuggling.
   As a civilian manager for a U.S. contractor on Bagram Air Field, Garst
developed contract requirements to generate bid requests and award sub-
contracts to Afghan companies. In the course of his work, Garst received a
cash payment of $150,000 from an Afghan citizen who owned Somo Logistics,
an Afghan company. Garst tried to send the $150,000 in cash to his ex-wife
in Topeka, Kansas, in a DHL package mailed from Bagram Air Base. After
security officials discovered the cash in the package, Garst confessed to
attempting to smuggle the money to the United States. He awaits sentencing.
   A trial attorney on detail from SIGAR to the Department of Justice’s
Fraud Section and the U.S. Attorney’s Office for the District of Kansas are
prosecuting the Garst case.

Former U.S. State Department Contractor Arrested for
Accepting a $30,000 Illegal Gratuity
A criminal complaint charging a former U.S. Department of State personal-
services contract employee with one count of receipt of an illegal gratuity
by a public official and another count of willful receipt by an executive-
branch employee of an illegal payment was unsealed on October 15, 2012, in
the U.S. District Court for the District of Delaware. The employee, Kenneth
Michael Brophy, had been arrested on October 14, 2012, by officials from
SIGAR, the FBI, and State Department Office of Inspector General.
   Brophy was employed at the U.S. Embassy in Kabul from November 2008
to May 2010 to supervise contracts for a prison-renovation project, among
other things, according to the criminal complaint. The complaint alleges
that Brophy accepted a $30,000 payment from one of the Afghan companies
he was supervising on the prison contracts. The Afghan contractor report-
edly sought Brophy’s help in prosecuting a claim against USACE upon the
termination of its contracts. According to the complaint, Brophy personally
lobbied a USACE official, assisted in drafting documents to be submitted to
USACE, and provided general advice regarding the Afghan company’s com-
munications with USACE. The complaint also alleges that Brophy initially
provided false statements to federal officials about the gratuity payment. A
trial date has not yet been set for Brophy.




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2013               39
SIGAR OVERSIGHT ACTIVITIES




Former Employee of U.S. Company Arrested for Receiving
More than $90,000 in Illegal Payments and Kickbacks
The former vice president of a contracting company was arrested on
December 13, 2012, on charges of accepting more than $90,000 in gratu-
ities from U.S. taxpayer-funded subcontractors during his employment in
Afghanistan. After a joint investigation by SIGAR and other federal law-
enforcement agencies, contractor Elton Maurice McCabe III was arrested
on a federal criminal complaint charging him with receiving illegal kick-
backs and committing wire fraud.
    McCabe worked for a contracting company that received subcontracts
from U.S. government prime contracts to assist in reconstruction efforts in
Kandahar. In 2009, McCabe allegedly solicited and accepted cash payments
and a wire transfer of some $53,000 to his wife’s bank account from Afghan
subcontractors in exchange for awarding subcontracts connected to U.S.
reconstruction projects. The same year McCabe accepted cash payments
and arranged for a contractor’s consultant to wire $20,000 to McCabe’s
wife’s bank account in exchange for construction material that belonged to
McCabe’s company. McCabe then used the improperly gained funds, total-
ing more than $90,000, for his own personal expenses.
    This case is being prosecuted by a trial attorney on detail from SIGAR to
the Department of Justice’s Fraud Section. A trial date has not been set.

U.S. Army Staff Sergeant Pleads Guilty to Smuggling $1 Million
A U.S. Army staff sergeant pleaded guilty before a federal judge on
October 24, 2012, to attempting to smuggle about $1 million in cash from
Afghanistan to the United States. SIGAR initiated the investigation of Staff
Sergeant Tonya Long Keebaugh after receiving information that the U.S.
government was paying Afghan trucking companies for phantom deliv-
eries. Long Keebaugh had been deployed in January 2008 to Kandahar
Airfield as a transportation-management coordinator with the 189th Combat
Sustainment Battalion, XVIII Airborne Corps. Her job was to coordinate
transportation-convoy efforts and services for the U.S. military. Long
Keebaugh conspired to falsify transportation movement requests, caus-
ing additional payments to be made to two Afghan trucking companies. In
return, the two trucking companies provided kickbacks to Long Keebaugh
and others who worked with her. The staff sergeant, who also served as a
customs inspector, then hid approximately $1 million in VCRs that were
then sent to the United States in shipping containers.

U.S. Army Sergeant Pleads Guilty in Conspiracy to Steal
More Than $1 Million in U.S. Military Fuel
On October 11, 2012, U.S. Army Sergeant Christopher Weaver appeared
in U.S. District Court, Denver, Colorado, where he entered a guilty plea
to one count of bribery and one count of conspiracy resulting from his




  40                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




involvement in a scheme to steal more than $1 million in fuel designated
for U.S. military forces at FOB Fenty, Jalalabad, Afghanistan. SIGAR initi-
ated the investigation that led to Weaver’s arrest after receiving information
about the theft from two sources.
   Weaver and a U.S. military contractor, who was also charged and has
already pleaded guilty, worked on FOB Fenty, which serves as a distribu-
tion center hub for jet fuel. He and his co-conspirator facilitated the theft of
about 100 truckloads of jet fuel. In return for facilitating the thefts, Weaver
received cash payments of $5,000 for every 5,000-gallon truck containing
stolen fuel he allowed to leave FOB Fenty. Weaver received the cash pay-
ments from an Afghan national working with him at FOB Fenty. During
the investigation, Weaver admitted the loss to the U.S. government was
between $1 million and $2.5 million dollars. Weaver is scheduled to be sen-
tenced in U.S. District Court on January 22, 2013.

Former Army Contractor Pleads Guilty to Bribery
A Houston woman pleaded guilty in the District of Columbia on October 24,
2012, to bribery charges for her role in a plot to fraudulently bill the U.S.
Army for trucking services in Afghanistan. SIGAR conducted the investiga-
tion of Diyana Montes, who was employed by Kellogg, Brown and Root
from April to December 2008. The firm had been hired to assist the U.S.
Army’s Movement Control Branch in contracting with Afghan trucking
companies to transport U.S. military equipment, fuel, and other supplies
throughout Afghanistan. Under the established system, each time a trucking
company made a trip, it filed a TMR. Montes’ job was to collect the TMRs
from the contractors and reconcile any discrepancies between the amount
of service actually rendered and the amount billed by the contractor. After
she approved the TMRs, they would be passed on to U.S. contracting per-
sonnel for payment. Starting around May 2008, Montes passed on TMRs
from Afghan Trade Transportation (ATT) that she knew to be false. In
return, ATT paid her some $50,000 in cash and wire transfers.

U.S. Army Sergeant Charged with Smuggling $10,000
A U.S. Army sergeant was charged before the U.S. District Court for the
Eastern District of North Carolina on December 7, 2012, with illegally smug-
gling cash into the United States. As the result of a joint investigation by
SIGAR, the U.S. Army CID, and the Defense Criminal Investigative Service,
Sergeant First Class Rene Martinez was charged with smuggling more than
$10,000 in bulk cash. The money was concealed in a package shipped to
North Carolina from Afghanistan.

Government Contractor Pleads Guilty to Theft of U.S. Funds
A U.S. contractor pleaded guilty in federal court on November 14, 2012,
to a charge of theft from the U.S. government in Afghanistan. The charges




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2013               41
SIGAR OVERSIGHT ACTIVITIES




against contractor Lavette Domineck in the U.S. District Court for the
Eastern District of North Carolina resulted from an investigation by
SIGAR and the U.S. Army CID. According to court documents, Domineck
defrauded the U.S. government by having another person telephone the
Fayetteville, North Carolina, office of the American Red Cross to falsely
claim that her brother had died in Milwaukee, Wisconsin. After the
American Red Cross transmitted this false death notification to Afghanistan,
Domineck used it to claim and obtain advance paid leave and travel benefits
to attend the supposed funeral at a cost fraudulently billed to the U.S. gov-
ernment. A sentencing date has not yet been set.

SIGAR Aggressively Refers Corrupt Contractors for
Suspension and Debarment
This quarter, SIGAR’s suspension and debarment program referred 16 indi-
viduals and companies for suspension or debarment, bringing the total
number of such referrals made by SIGAR to 222, or 113 individuals and
109 companies, as seen in Figure 2.2. When individuals or companies are
suspended and debarred, they are excluded from receiving federal con-
tracts or assistance because of misconduct. By the end of December 2012,
the efforts of SIGAR to utilize suspension and debarment to address fraud,
corruption, and poor performance in Afghanistan had resulted in a total of
58 suspensions, 95 proposals for debarment, and 46 finalized debarments of
individuals and companies engaged in U.S.-funded reconstruction projects.
SIGAR bases its referrals on completed investigations in which the agency

FIGURE 2.2

SIGAR INVESTIGATIONS: CUMULATIVE REFERRALS FOR SUSPENSION AND DEBARMENT,
Q2 FY 2011–Q1 FY 2013

250

200

150


100

 50

   0
           Q2             Q3            Q4               Q1        Q2         Q3        Q4        Q1
        FY 2011        FY 2011       FY 2011          FY 2012   FY 2012    FY 2012   FY 2012   FY 2013

Source: SIGAR Investigations Directorate, 1/4/2013.




   42                            SPECIAL INSPECTOR GENERAL            I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




participates. These referrals provide a discussion of the basis for a suspen-
sion or debarment decision by an implementing agency as well as all of the
supporting documentation needed for an agency to take action.
   SIGAR’s program addresses three challenges posed by U.S. policy and the
contingency contracting environment in Afghanistan: the need to act quickly,
the limited U.S. jurisdiction over Afghan nationals and Afghan companies, and
the vetting challenges inherent in the use of multiple tiers of subcontractors.
SIGAR continues to look for ways to enhance the U.S. government’s ability to
deter corrupt contractors through the innovative use of information resources
and investigative assets both in Afghanistan and the United States.

Singling Out Predatory Contractors
Since June 2011, SIGAR has taken steps to single out what are known in
Afghanistan as “predatory contractors” for punishment. Predatory contrac-
tors obtain prime or sub-contracts for construction projects that they have
no intention of completing. Instead they receive as much of the contract
price as possible before walking off the job without paying their subcon-
tractors. Predatory contracting is particularly common in areas where
contracting oversight is minimal and the contractor has exclusive authority
over its subcontractors and suppliers. Predatory contractors not only cause
the U.S. government to lose money and time. They also harm the overall
U.S. mission in Afghanistan by failing to pay their Afghan suppliers and
subcontractors, causing the Afghan public to believe that the U.S. govern-
ment fails to pay Afghans who perform work for it. Since June 2011, SIGAR
has referred 50 companies and individuals for debarment based on such
practices, resulting in four suspensions, 20 proposed debarments, and 16
finalized debarments. In the second quarter of 2013, SIGAR will continue to
address the problem of predatory contracting by presenting a proposal to
the contracting community that contracting officers require a certification
of payments to subcontractors as a part of the final closeout of a contract.

Contractor Who Failed to Install Culvert Denial Systems
Proposed for Debarment
This quarter, a contractor who endangered coalition forces and Afghan civil-
ians by failing to install grates aimed at preventing insurgents from planting
improvised explosive devices (IEDs) in culverts was proposed for debar-
ment. The contractor, Abdul Anas Sultani, and his company, Afghan Mercury
Construction Company, improperly installed 122 culvert denial systems
along a portion of Highway 1 between Ghazni City and the border of Wardak
province, immediately to the north of Ghazni province. Instead of using con-
crete to anchor the grates, Sultani and Afghan Mercury used spot welding,
making it easier for insurgents to tamper with them. The firm’s workers also
left gaps around the edges of the rebar grills used to prevent the emplace-
ment of IEDs. Sultani and Mercury also fraudulently submitted misleading




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2013              43
                                             SIGAR OVERSIGHT ACTIVITIES




                                             photographs claiming that culverts had protection systems installed when,
                                             in fact, no work had been completed. U.S. military personnel reported that
                                             this failure to adhere to contract specifications led to the creation of an “IED
                                             engagement zone” along a critical stretch of road, placing soldiers and civil-
                                             ians in jeopardy of IED attacks and leading to traffic build-up. The risk was
                                             so severe that SIGAR issued an alert letter on October 10, 2012, warning
                                             USFOR-A and CENTCOM of the danger.

                                             SIGAR Attorney Invited to Discuss Suspension and Debarment
                                             The Council of Inspectors General on Integrity and Efficiency invited one
                                             of SIGAR’s attorneys to lead a panel discussion on best practices in fact-
                                             based suspension and debarment at its annual Suspension and Debarment
                                             Conference in Alexandria, Virginia. Topics discussed included the best prac-
                                             tices regarding the development of suspension and debarment referrals, the
                                             use of evidentiary materials, and the standards for providing notice and due
                                             process to contractors who have been accused of wrongdoing. By partici-
                                             pating in this conference, SIGAR continued its support for the suspension
                                             and debarment community of practice, including its membership in the
                                             Department of Defense Procurement Fraud Working Group.


                                             SPECIAL PROJECTS
                                             SIGAR’s Office of Special Projects is a rapid-response team set up by the
                                             Special Inspector General to examine emerging issues in prompt, actionable
                                             reports to federal agencies and the Congress. This quarter the office pro-
                                             duced reviews of the problems that persist in monitoring bulk cash flows at
                                             Kabul International Airport and the risk that fuel purchased with U.S. funds
                                             in Afghanistan could violate U.S. economic sanctions. The office’s responses
                                             to developments and new information, and the sensitivity of some topics,
                                             may lead it to produce products that were not previously announced.

                                             Special Project Reports Published
COMPLETED SPECIAL PROJECTS                   SP-13-1: Anti-Corruption Measures
•	 SP-13-1: Anti-Corruption Measures:        Persistent Problems Exist in Monitoring Bulk Cash Flows at Kabul International Airport
   Persistent Problems Exist in Monitoring   The U.S. government has long had serious concerns about the flow of cash
   Bulk Cash Flows at Kabul International    out of the Kabul International Airport. According to the Congressional
   Airport                                   Research Service, some $4.5 billion was taken out of Afghanistan in 2011.
	• SP-13-2: Afghan National Security         These bulk cash flows raise the risk of money laundering and bulk cash
   Forces: Limited Visibility over Fuel
                                             smuggling—tools often used to finance terrorist, narcotics, and other illicit
   Imports Increases the Risk That U.S.-
   Funded Fuel Purchases Could Violate       operations. In July 2011, SIGAR reported on U.S. government efforts to
   U.S. Economic Sanctions Against Iran      strengthen oversight over the flow of U.S. funds through the Afghan econ-
                                             omy, including a “bulk cash flow action plan” developed in 2010 to better
                                             regulate cash flowing out of the airport. In August 2012, SIGAR initiated the




                                               44                   SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
              SIGAR OVERSIGHT ACTIVITIES




review to follow up on concerns about an initiative to place bulk currency
counters at the airport to monitor the outflow of funds from Afghanistan.
   SIGAR found that more than a year after its last visit to the airport, the
cash counters were still not being used for their intended purpose and pas-
sengers designated by the Afghan government as Very Important Persons
(VIPs) were bypassing currency controls. The cash counters were located in
a small, closet-like area not easily accessible to Customs and other officials in
the international terminal. Neither machine was connected to the internet or a
computer server, which is essential if the counters are to be used to send back
information about serial numbers for financial tracking. In addition, no bulk
currency counter was available for the counting or data collection of currency
declared by VIPs, and Very Very Important Persons, both of whom are allowed
to transit without main customs screenings or use of a bulk currency counter.
DHS officials told SIGAR that Afghan customs officials were afraid that they
would experience negative repercussions from the Afghan government if they
made progress instituting controls at the airport. As of October 2012, accord-
ing to DHS officials, efforts to connect the bulk currency counters to the
internet or a computer server were “at a standstill.”
   SIGAR concluded that it was imperative that the Afghan government
use the bulk currency and the video security system as intended and imme-
diately end the practice of exempting VIPs and VVIPs from the customs
procedures required of other passengers.

SP-13-2: Afghan National Security Forces
Limited Visibility over Fuel Imports Increases the Risk That U.S.-Funded Fuel Purchases
Could Violate U.S. Economic Sanctions Against Iran
Over the last five years, Congress has appropriated $1.1 billion to pur-
chase fuel for the ANA. CSTC-A acquires the fuel through blanket
purchase agreements with largely Afghan vendors. In turn, these vendors
in some cases subcontract with different transport and delivery ven-
dors. Although Iran is a primary supplier of Afghanistan’s fuel, the U.S.
economic sanctions program prohibits virtually all trade and investment
activities with Iran by U.S. persons and U.S. funds. This limited-scope
review by SIGAR examined whether sufficient controls have been estab-
lished in the ANSF fuel-supply process to ensure the use of U.S. funding
complies with U.S. sanctions against Iran.
   In late 2012, CSTC-A took steps to establish contracting mechanisms
intended to prevent its vendors from purchasing fuel in violation of U.S.
economic sanctions. Despite these recently added controls, oversight weak-
nesses in the fuel acquisition process may continue to limit the ability of
U.S. officials to verify the sources of fuel purchased with U.S. funds for the
ANSF. Furthermore, given the Afghan government’s continued challenges in
overseeing and expending direct assistance funds, SIGAR found that it will
become even more difficult for DoD to account for the use of U.S. funds as it




REPORT TO THE UNITED STATES CONGRESS      I   JANUARY 30, 2013                  45
                                                          SIGAR OVERSIGHT ACTIVITIES




                                                          begins to transfer funds directly to the Afghan government in March 2013 to
                                                          purchase fuel for the ANSF. SIGAR concluded that the U.S. government may
                                                          need to place safeguards on its direct-assistance funding—over $1 billion for
                                                          ANSF fuel alone in 2013–2018—to ensure the Afghan government does not
                                                          use the funds in violation of U.S. economic sanctions and national policies.

                                                          New Special Projects
NEW SPECIAL PROJECTS                                      Evaluation of Culvert Denial Systems
•	 Evaluation of Culvert Denial System                    Serious concerns have been raised during an ongoing SIGAR investigation
                                                          that contractors may have been fraudulently billing the U.S. government
                                                          for culvert denial systems which were either never installed or incorrectly
                                                          installed. In addition to the potential for fraud, these improperly installed or
                                                          absent culvert denial systems endanger coalition and Afghan lives by allow-
                                                          ing insurgents to plant IEDs in culverts. In the next quarter, SIGAR will
                                                          conduct a targeted evaluation of the installation of culvert denial systems in
                                                          Afghanistan. This evaluation will follow up on the issues raised in the ongo-
                                                          ing investigation and an October 10, 2012, SIGAR safety alert letter citing
                                                          these concerns that was issued to the CENTCOM and USFOR-A command-
                                                          ers respectively. It will determine the universe of contracts awarded for
                                                          culvert denial systems and the extent to which management and oversight
                                                          of the contractors installing the culvert denial systems was conducted.


                                                          SIGAR BUDGET
                                                          Since establishing SIGAR in 2008, Congress has appropriated $137.7 million
                                                          to cover the organization’s operating expenses mid-way through FY 2013.
                                                          At present, SIGAR operates under the Continuing Resolution Authority

                        TABLE 2.1


                        SIGAR FUNDING SUMMARY ($ MILLIONS)
                         Appropriation                                                                                                               Public Law               Amount
                         H.R. 2642, Supplemental Appropriations Act, 2008                                                                            P.L. 110-252       	7
                         H.R. 2638, Consolidated Security, Disaster Assistance, and Continuing Appropriations Act, 2009                              P.L. 110-329       	9
                         H.R. 2346, Supplemental Appropriations Act, 2009                                                                            P.L. 111-32       	7.2
                         H.R. 2346, Supplemental Appropriations Act, 2009                                                                            P.L. 111-32             a
                                                                                                                                                                       	(7.2) 
                         H.R. 3288, Consolidated Appropriations Act, 2010                                                                            P.L. 111-117       	23
                         H.R. 4899, Supplemental Appropriations Act, 2010                                                                            P.L. 111-212      	7.2
                         H.R. 1473, Department of Defense and Full-Year Continuing Appropriations Act, 2011                                          P.L. 112-10       	25.5
                         H.R. 2055, Consolidated and Further Continuing Appropriations Act, 2012                                                     P.L. 112-74       	44.4
                         H.J. Res. 117, Continuing Appropriations Resolutions, 2013                                                                  P.L. 112-175      	21.6
                         Total                                                                                                                                         	137.7
                        a	   Congress rescinded $7.2 million of funds made available for SIGAR in 2009 (Title XI in P.L. 111-32) and then made them available again—through
                             September 30, 2011—in P.L. 111-212 in 2010.




                                                              46                            SPECIAL INSPECTOR GENERAL                 I   AFGHANISTAN RECONSTRUCTION
            SIGAR OVERSIGHT ACTIVITIES




provided through March 27, 2013. In the Continuing Appropriations
Resolution 2013 (P.L. 112-175), SIGAR was provided with approximately
$21.6 million to maintain mission operations. Currently, SIGAR is awaiting
more specific guidance on the status of appropriations and possible seques-
tration effects for FY 2013, as well as the President’s review and approval of
the FY 2014 Budget Request.


SIGAR STAFF
During this reporting period, Special Inspector General Sopko announced
the selection of veteran federal investigator Douglas J. Domin as Assistant
Inspector General for Investigations. Domin served most recently as an
executive at Science Applications International Corp. Previously, he was a
career FBI agent whose work ranged from a posting at the U.S. Embassy in
London to serving as Assistant Special Agent in Charge of the Dallas field
office and Special Agent in Charge of the bureau’s Minneapolis Division.
   In total, SIGAR increased its staff from 177 to 181 federal employees.
SIGAR extended offers of employment that will bring the number of full-
time staff to 188 by the end of February 2013. SIGAR is on target to reach its
goal of 200 full-time employees and will continue toward a workforce of 205
for FY 2014.
   This quarter, SIGAR had 36 authorized positions for personnel at
the U.S. Embassy Kabul and 16 authorized at locations outside the
U.S. Embassy, giving it the largest U.S. oversight presence in Afghanistan.
SIGAR has staff members stationed at seven locations across the country,
including Kandahar and Bagram airfields, Camp Marmal in Mazar-e-Sharif,
Camp Leatherneck, Forward Operating Base Salerno, USFOR-A headquar-
ters in Kabul, and the U.S. Consulate in Herat. SIGAR employs four local
Afghan citizens in its Kabul office to support audits and investigations in
Afghanistan. In addition, SIGAR supports its work with staff assigned to
short-term temporary duty in Afghanistan. This quarter, SIGAR had 22 per-
sonnel on temporary duty in Afghanistan for a total of 313 days.




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2013             47
    “Lasting peace and security will
 require governance and development
  that delivers for the Afghan people
and an end to safe havens for al Qaeda
   and its ilk. All this will continue to
               be our work.”
                   —U.S. President Barack Obama




           Source: White House, Joint Press Conference by President Obama and President Karzai, January 11, 2013
3   RECONSTRUCTION
    UPDATE




        49
                                             CONTENTS

                                             Overview	51
                                             Status of Funds	                   55
                                             Security	69
                                             Governance	95
                                             Economic and Social Development	   123




Photo on previous page
Afghan refugee in Iran. A young woman learns carpet
weaving at a workshop in Torbate-Jam settlement.
(UNHCR photo by M. H. Salehiara)
                  RECONSTRUCTION UPDATE




OVERVIEW
Section 3 presents updates on accomplishments, challenges, and initiatives
in Afghanistan reconstruction to provide context for oversight. Sidebars
identify SIGAR audits, completed and ongoing, relating to those efforts.
Cross-references to Section 1 point to more detail.
    SIGAR presents the data in this section in compliance with Public Law
110-181, which mandates that each of SIGAR’s quarterly reports to Congress
on reconstruction activities in Afghanistan include, among other things:
 •	 obligations and expenditures of appropriated funds
 •	 discussions of U.S. government entities’ contracts, grants, agreements,
    or other mechanisms
 •	 funds provided by foreign nations or international organizations to
    programs and projects funded by U.S. government entities


TOPICS
This section has four subsections: Status of Funds, Security, Governance,
and Economic and Social Development.
   The Status of Funds subsection describes monies appropriated, obli-
gated, and disbursed for Afghanistan reconstruction, including U.S. funds
and international contributions.
   The organization of the other three subsections mirrors the three pillars
in the Prioritization and Implementation Plan developed in an international
conference in July 2010 and announced by the Afghan government.
   The Security subsection describes U.S. efforts to bolster the Afghan
National Security Forces (the Army and Police), the transition away from
private security contracting, and the battle against the narcotics trade.
   The Governance subsection provides an overview of the Afghan govern-
ment’s progress toward good governance through capacity-building efforts,
rule of law initiatives, and human rights recognition. This subsection also
describes the status of reconciliation and reintegration, Afghan government
control in various provinces, and initiatives to combat corruption.
   The Economic and Social Development subsection looks at reconstruc-
tion activities by sectors like energy, mining, and health. It provides a snapshot




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2013                 51
                                                                                     51
RECONSTRUCTION UPDATE




of the state of the economy and updates on progress in regulating financial
networks, achieving fiscal sustainability, and delivering essential services.


METHODOLOGY
Section 3 was compiled from open-source and U.S. agency data.
Attributions appear in endnotes or notes to tables and figures. Multiple
organizations provide data, so numbers may conflict. SIGAR has not verified
data other than that in its own audits or investigations. Information from
other sources does not necessarily reflect SIGAR’s opinion. For details on
SIGAR audits and investigations this quarter, see Section 2.

Data Call
The data call is a series of questions directed to U.S. agencies about their
contributions and involvement in reconstruction programming, and the
state of affairs in Afghanistan. U.S. agencies responding to the latest
data call include the Departments of State, Defense, Transportation, and
Treasury, and the U.S. Agency for International Development. Responding
agencies received a preliminary draft of this section so they could verify
and comment on specific data they provided for this quarterly report.

Open-Source Research
Open-source research draws on the most current, publicly available data
from reputable sources. Sources used include the U.S. agencies represented
in the data call, the International Security Assistance Force, the United
Nations (and relevant branches), the International Monetary Fund, the
World Bank, and Afghan ministries and other government organizations.




  52                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                   GRAPHICS KEY




UNDERSTANDING THE GRAPHICS AND DATA TERMS
All figures and tables report data for this quarter, except where identified in titles or notes.
         ASFF      CERP DoD CN   ESF      INCLE



BAR CHARTS
        DoD                      USAID     DoS                        UNITS IN BILLIONS AND MILLIONS
This report discusses many funds and projects with                    Because this report details funding in both billions
dollar values ranging from millions to billions. To                   and millions of dollars, it uses a visual cue to distin-
provide an accurate graphical representation of these                 guish the two measurement units. Dollars reported in
numbers, some bar graphs appear with a break (a                       billions are represented in blue, and dollars reported
wavy line) to indicate a jump between zero and a                      in millions are depicted in green.
larger number.
          ASFF


     $500          DoD                 $200

     $450
                                       $150
     $400
                                       $100
     $350
                   CERP
                                         $50
                                                                             Pie chart in billions        Pie chart in millions

        $0         DoD                    $0

             Bar chart with a                  Bar chart without
                                                                      CALENDAR AND SOLAR YEARS
              break in scale                   a break in scale
                                                                      Afghanistan follows the solar Hejri calendar, which
                                                                      began in 622 A.D. in the Gregorian calendar. SIGAR
                                                                      converts Hejri solar years to Gregorian equivalents.
FUNDING MARKERS
             DoD CN
                                                                      The current Afghan solar year (SY) is 1391. It began
Funding markers identify individual funds dis-                        on March 21, 2012, and ends on March 20, 2013.
cussed in the text. The agency responsible for                        The Afghan government’s fiscal year has been the
managing the fund
                DoD is listed in the tan box below                    solar year, but the current fiscal year will run only
the fund name.                                                        from March 21, 2012, to December 20, 2012. This
                                                                      one-time, nine-month fiscal year accommodates the
                                                                      Afghan government’s upcoming change to a fiscal
                                                                      year that runs from December 21 to December 20.
                                 ESF

                                                                            2012                          2013
                                 USAID                                       • • • • • • • • •
                                                                                    1391                          1392



                                          INCLE



                                           DoS
REPORT TO THE UNITED STATES CONGRESS           I   JANUARY 30, 2013             53
CONTENTS

U.S. Reconstruction Funding
for Afghanistan	                       56
Afghanistan Security Forces Fund	      58
ASFF Budget Activities	                59
Commander’s Emergency
Response Program	                      60
Afghanistan Infrastructure Fund	       61
Task Force for Business and
Stability Operations	                  62
DoD Drug Interdiction and
Counter-Drug Activities	               63
Economic Support Fund	                 64
International Narcotics Control
and Law Enforcement 	                  65
International Reconstruction Funding
for Afghanistan	                       66




  54
                                                            STATUS OF FUNDS




STATUS OF FUNDS
To fulfill SIGAR’s legislative mandate, this section details the status of U.S.
funds appropriated, obligated, and disbursed for reconstruction activities in
Afghanistan. As of December 31, 2012, the United States had appropriated
approximately $88.76 billion for relief and reconstruction in Afghanistan
since fiscal year (FY) 2002. This total has been allocated as follows:
•	 $51.15 billion for security
•	 $22.39 billion for governance and development
•	 $6.15 billion for counter-narcotics efforts
•	 $2.44 billion for humanitarian aid
•	 $6.64 billion for operations and oversight
 Figure 3.1 shows the major U.S. funds that contribute to these efforts.


FIGURE 3.1

U.S. FUNDS SUPPORTING AFGHANISTAN RECONSTRUCTION EFFORTS ($ BILLIONS)


                                       FUNDING SOURCES (TOTAL: $88.76)
                                                                                                                   ASFF: Afghanistan Security Forces Fund
                                                                                                                   CERP: Commander’s Emergency
       ASFF        CERP          AIF        TFBSO       DoD CN               ESF        INCLE          Other
                                                                                                                   Response Program
                                                                                                                   AIF: Afghanistan Infrastructure Fund
     $49.63        $3.45       $0.70        $0.60        $2.44              $15.05      $3.58         $13.31
                                                                                                                   TFBSO: Task Force for Business and
                                                        AGENCIES                                                   Stability Operations
                                                                                                                   DoD CN: DoD Drug Interdiction and
                                                                                     Department of   Distributed   Counter-Drug Activities
                   Department of Defense (DoD)                              USAID                    to Multiple
                                                                                     State (State)
                            $56.81                                          $15.05      $3.58         Agenciesa    ESF: Economic Support Fund
                                                                                                       $13.31      INCLE: International Narcotics Control and
                                                                                                                   Law Enforcement
Note: Numbers have been rounded.                                                                                   Other: Other Funding
a   Multiple agencies include DoJ, State, DoD, USAID, Treasury, and USDA.
Sources: DoD, responses to SIGAR data call, 1/17/2013, 1/15/2013, 1/4/2013, 1/2/2013, 10/22/2012,
10/14/2009, and 10/1/2009; State, responses to SIGAR data call, 1/8/2013, 1/4/2012, 10/5/2012 and 6/27/2012;
Treasury, response to SIGAR data call, 1/4/2013; OMB, response to SIGAR data call, 1/3/2013; USAID, responses to
SIGAR data call, 1/3/2013, 10/15/2010, 1/15/2010, and 10/9/2009; DoJ, response to SIGAR data call, 7/7/2009;
USDA, response to SIGAR data call, 4/2009; P.L. 112-74, 12/23/2011; P.L. 112-10, 4/15/2011; P.L. 111-212,
10/29/2010; P.L. 111-118, 12/19/2009; FY 2010 Defense Explanatory Statement.




    REPORT TO THE UNITED STATES CONGRESS                      I   JANUARY 30, 2013                       55
                                                                   STATUS OF FUNDS




                                                                   U.S. RECONSTRUCTION FUNDING FOR AFGHANISTAN
  ASFF   CERP     AIF    TFBSO DoDCN    ESF    INCLE               As of December 31, 2012, cumulative appropriations for relief and recon-
                                                                   struction in Afghanistan totaled approximately $88.76 billion. This figure
                                                                   includes more than $266.56 million in FY 2013 obligations against the
                 DoD                   USAID State
                                                                   FY 2013 continuing resolution. For FY 2013 the President requested approx-
                                                                   imately $9.66 billion in additional funding. If Congress appropriates the full
The amount provided to the seven major U.S.
                                                                   budget request, cumulative appropriations will increase to approximately
funds represents more than 85.0% (nearly
$75.45 billion) of total reconstruction                            $98.15 billion, as shown in Figure 3.2. For complete information regarding
assistance in Afghanistan since FY 2002.                           U.S. appropriations, see Appendix B.
OfASFF
   this amount, more than 86.1% (nearly                               On September 28, 2012, President Obama signed the Continuing
$65.00 billion) has been obligated, and                            Appropriations Resolution, 2013, funding the U.S. government through
nearly 74.3% (more than $56.04 billion) has                        March 27, 2013. This quarter, few agencies reported obligations for
been disbursed.
            DoD The following pages provide                        Afghanistan reconstruction against the FY 2013 continuing resolution
additional details on these funds.                                 because most agencies had FY 2012 funds remaining. At the close of the
FIGURE 3.2

CUMULATIVE APPROPRIATIONS BY FUNDING CATEGORY, AS OF DECEMBER 31, 2012 ($ BILLIONS)

         CERP                                                                                                                                                            $98.15 with
$100                                                                                                                                                                    FY 13 Request
 $95
 $90             DoD                                                                                                                              $88.49                  $88.76
 $85
 $80
 $75                                                                                                                        $71.98
 $70
 $65                         DoD CN
 $60
                                                                                                            $56.24
 $55
                 DoD
 $50
 $45
 $40                                                                                  $39.59

 $35
 $30                                                           $29.20
                                       ESF
 $25                                    $23.01
 $20
 $15             $12.98                USAID
 $10
   $5
   $0
                2002–2006                2007                   2008                   2009                  2010            2011                  2012                    2013ª
                                            INCLE
                        Security         Governance/Development                Counter-Narcotics            Humanitarian     Oversight and Operations           Total


Note: Numbers have been rounded..               State
a Includes agency-reported obligations against the FY 2013 continuing resolution as of December 31, 2012.

Sources: DoD, responses to SIGAR data call, 1/17/2013, 1/15/2013, 1/4/2013, 1/2/2013, 10/22/2012, 10/14/2009, and 10/1/2009; State, responses to SIGAR data call, 1/8/2013,
1/4/2012, 10/5/2012 and 6/27/2012; Treasury, response to SIGAR data call, 1/4/2013; OMB, response to SIGAR data call, 1/3/2013; USAID, responses to SIGAR data call, 1/3/2013,
10/15/2010, 1/15/2010, and 10/9/2009; DoJ, response to SIGAR data call, 7/7/2009; USDA, response to SIGAR data call, 4/2009; P.L. 112-74, 12/23/2011; P.L. 112-10, 4/15/2011;
P.L. 111-212, 10/29/2010; P.L. 111-118, 12/19/2009; FY 2010 Defense Explanatory Statement.
                 AIF

                                                                        56                            SPECIAL INSPECTOR GENERAL         I   AFGHANISTAN RECONSTRUCTION
                 DoD
                                                             STATUS OF FUNDS




                                                                                                                           TABLE 3.1
first fiscal quarter of 2013, nearly $8.60 billion of the more than $13.76 bil-
                                                                                                                            FY 2012 APPROPRIATIONS AND
lion appropriated to four of the largest U.S. reconstruction funds for                                                      OBLIGATIONS, AS OF DECEMBER 31,
FY 2012 remained available for obligation, as shown in Table 3.1.30                                                         2012 ($ MILLIONS)
    Other Afghanistan relief and reconstruction funding highlights:31                                                                          Appropriated                Obligated
 •	 Security accounts for more than 57.6% ($51.15 billion of the total                                                      ASFF                    $11,200                  $4,901
    $88.76 billion) of total appropriations.                                                                                AIF                           $400                $217
 •	 The approximately $48.9 billion appropriated over the last three fiscal                                                 ESF                          $1,837                     $0
    years (2010–12) make up nearly 55.1% of total appropriations since the                                                  INCLE                         $324                     $43
    start of the reconstruction effort in 2002.                                                                             TOTAL                 $13,761                   $5,162
 •	 While a full-year appropriations bill has not been passed, the FY 2013
    funding level is expected to decrease compared to the approximately                                                           To Be Obligated                 $8,599
                                                                                                                           Note: Numbers have been rounded.
    $16 billion appropriated in each of the last three fiscal years, as shown
                                                                                                                           Sources: DoD, response to SIGAR data call, 1/17/2013;
    in Figure 3.3.                                                                                                         USAID, response to SIGAR data call, 1/3/2013; State,
                                                                                                                           response to SIGAR data call, 1/8/2013; P.L. 112-74,
                                                                                                                           12/23/2011.

FIGURE 3.3

APPROPRIATIONS BY FISCAL YEAR AND FUNDING CATEGORY ($ BILLIONS AND PERCENT)

$17                                                                                                   $16.65                                     $16.51
$16                                                                                                                         $15.74

$15

$14
               $12.98
$13

$12

$11
                                                                                     $10.38                                                                           FY 13 Request
                                      $10.03
$10                                                                                                                                                                       $9.66
  $9

  $8

  $7
                                                                 $6.19
  $6

  $5

  $4

  $3

  $2

  $1
                                                                                                                                                                           $0.27
  $0
            2002–2006                  2007                      2008                 2009            2010                  2011                  2012                     2013ª

                     Security            Governance/Development                Counter-Narcotics      Humanitarian            Oversight and Operations             Total


Note: Numbers have been rounded.
a Agency-reported obligations against the FY 2013 continuing resolution as of December 31, 2012.

Sources: DoD, responses to SIGAR data call, 10/22/2012, 10/19/2012, 10/18/2012, 10/17/2012, 10/3/2012, 7/18/2012, 10/14/2009, and 10/1/2009; State, responses to SIGAR data call,
10/19/2012, 10/11/2012, 10/5/2012 and 6/27/2012; Treasury, response to SIGAR data call, 10/10/2012; OMB, response to SIGAR data call, 7/27/2012; USAID, responses to SIGAR data call,
10/2/2012, 10/15/2010, 1/15/2010, and 10/9/2009; DoJ, response to SIGAR data call, 7/7/2009; USDA, response to SIGAR data call, 4/2009; P.L. 112-74, 12/23/2011; P.L. 112-10,
4/15/2011; P.L. 111-212, 10/29/2010; P.L. 111-118, 12/19/2009; FY 2010 Defense Explanatory Statement.




REPORT TO THE UNITED STATES CONGRESS                         I   JANUARY 30, 2013                              57
                                                       STATUS OF FUNDS
 ASFF    CERP   AIF    TFBSO DoDCN    ESF    INCLE




                DoD                  USAID DoS




                                                       AFGHANISTAN SECURITY FORCES FUND
  ASFF                                                 The Congress created the Afghanistan Security Forces Fund (ASFF) to
                                                       provide the ANSF with equipment, supplies, services, and training, as well
                                                       as facility and infrastructure repair, renovation, and construction.32  The pri-
                DoD                                    mary organization responsible for building the ANSF is the North Atlantic
                                                       Treaty Organization (NATO) Training Mission-Afghanistan/Combined
ASFF FUNDS TERMINOLOGY                                 Security Transition Command-Afghanistan.33 
DoD reported ASFF funds as appropriated,                  As of December 31, 2012, total cumulative appropriations through
obligated, or disbursed                                FY 2012 amounted to nearly $49.63 billion. DoD reported no obligations
Appropriations:
      CERP      Total monies available for             against the FY 2013 continuing resolution because only $4.9 billion of the
commitments                                            $11.2 billion appropriated for the ASFF for FY 2012 had been obligated.34
Obligations: Commitments to pay monies                 Figure 3.4 displays the amounts appropriated for the ASFF by fiscal year.
                DoD                                       This quarter, DoD obligated more than $1.05 billion and disbursed
Disbursements: Monies that have been
                                                       nearly $1.63 billion, bringing cumulative obligations to $43.09 billion and
expended
                                                       cumulative disbursements to nearly $38.14 billion.35 Figure 3.5 provides
Source: DoD, response to SIGAR data call, 4/13/2010.
                                                       a cumulative comparison of amounts made available, obligated, and dis-
                                                       bursed for the ASFF.
                          DoD CN

Throughout this section, the figures that              FIGURE 3.4                                                       FIGURE 3.5
show appropriations
           DoD       by fiscal year and
cumulative comparisons for the major funds             ASFF APPROPRIATED FUNDS BY FISCAL YEAR                           ASFF FUNDS, CUMULATIVE COMPARISON
                                                       ($ BILLIONS)                                                     ($ BILLIONS)
provide data on the President’s FY 2013
Request, indicated by red floating points
and red shading.                                       $12.0                                                            $60.0
                                     ESF
                                                                                                                                                                      $55.37 with
                                                       $10.0                                                            $55.0                                         FY 13 Request
                                     USAID

                                                        $8.0                                                            $50.0                Appropriated             Appropriated
                                                                                                                                             $49.63                   $49.63


                                                        $6.0                                                            $45.0
                                             INCLE                                                             FY 13                                                  Obligated
                                                                                                              Request                        Obligated                $43.09
                                                                                                                                             $42.04
                                                        $4.0                                                            $40.0
                                             DoS                                                                                                                      Disbursed
                                                                                                                                             Disbursed                $38.14
                                                                                                                        $35.0                $36.51
                                                        $2.0


                AIF
                                                        $0.0                                                               $0
                                                               05 06 07 08 09 10 11ª 12 13                                      As of Sept 30, 2012 As of Dec 31, 2012

                DoD                                    Notes: Numbers have been rounded.                                Notes: Numbers have been rounded.
                                                       a DoD reprogrammed $1 billion of FY 2011 ASFF to the             Sources: DoD, response to SIGAR data call, 1/17/2013; OMB,
                                                         Defense Working Capital Fund.                                  response to SIGAR data call, 1/4/2013; P.L. 112-239,
                                                                                                                        1/3/2013; P.L. 112-74, 12/23/2011; P.L. 112-10,
                                                       Sources: DoD, response to SIGAR data call, 1/17/2013; OMB,
                                                                                                                        4/15/2011.
                                                       response to SIGAR data call, 1/4/2013; P.L. 112-239,
                                                       1/3/2013; P.L. 112-74, 12/23/2011; P.L. 112-10,
                      TFBSO                            4/15/2011.




                DoD
                                                           58                           SPECIAL INSPECTOR GENERAL                 I    AFGHANISTAN RECONSTRUCTION
                                                       STATUS OF FUNDS




ASFF BUDGET ACTIVITIES
DoD allocates funds to three budget activity groups within the ASFF:
•	 Defense Forces (Afghan National Army, ANA)                                                                            Budget Activity Groups: categories
•	 Interior Forces (Afghan National Police, ANP)                                                                         within each appropriation or fund account
•	 Related Activities (primarily Detainee Operations)                                                                    that identify the purposes, projects, or
                                                                                                                         types of activities financed by the appro-
                                                                                                                         priation or fund
   Funds for each budget activity group are further allocated to four sub-
activity groups: Infrastructure, Equipment and Transportation, Training and
                                                                                                                         Sub-Activity Groups: accounting groups
Operations, and Sustainment.36 
                                                                                                                         that break down the command’s disburse-
   As of December 31, 2012, DoD had disbursed nearly $38.14 billion for                                                  ments into functional areas
ANSF initiatives. Of this amount, more than $24.92 billion was disbursed
for the ANA, and more than $12.94 billion was disbursed for the ANP; the
remaining more than $0.27 billion was directed to related activities.37                                                Sources: DoD, “Manual 7110.1-M Department of Defense
   As shown in Figure 3.6, the largest portion of the funds disbursed for the                                          Budget Guidance Manual,” accessed 9/28/2009; Department
                                                                                                                       of the Navy, “Medical Facility Manager Handbook,” p. 5,
ANA—nearly $9.77 billion—supported Equipment and Transportation. Of                                                    accessed 10/2/2009.

the funds disbursed for the ANP, the largest portion—more than $4.58 bil-
lion—supported Sustainment, as shown in Figure 3.7.38 


FIGURE 3.6                                                  FIGURE 3.7

ASFF DISBURSEMENTS FOR THE ANA                              ASFF DISBURSEMENTS FOR THE ANP
By Sub-Activity Group                                       By Sub-Activity Group
FY 2005–December 31, 2012 ($ BILLIONS)                      FY 2005–December 31, 2012 ($ BILLIONS)


                  Total: $24.92                                               Total: $12.94


Infrastructure                                              Infrastructure                              Training and
$3.69                Equipment and                          $2.12              Equipment and            Operations
                     Transportation                                            Transportation           $2.79
                     $9.77                                                     $3.44



                 Sustainment                                                 Sustainment
                 $9.01                                                       $4.58
                                            Training and
                                            Operations
                                            $2.45

Note: Numbers have been rounded.                            Note: Numbers have been rounded.
Source: DoD, response to SIGAR data call, 1/17/2013.        Source: DoD, response to SIGAR data call, 1/17/2013.




REPORT TO THE UNITED STATES CONGRESS                   I   JANUARY 30, 2013                              59
                                                        STATUS OF FUNDS
  ASFF



                DoD




                                                        COMMANDER’S EMERGENCY RESPONSE PROGRAM
         CERP                                           The Commander’s Emergency Response Program (CERP) enables U.S.
                                                        commanders in Afghanistan to respond to urgent humanitarian relief and
                                                        reconstruction requirements in their areas of responsibility by supporting
                DoD                                     programs that will immediately assist the local population. Funding under
                                                        this program is intended for small projects that are estimated to cost less
CERP FUNDS TERMINOLOGY                                  than $500,000 each.39 Projects with cost estimates exceeding $1 million are
DoD reported CERP funds as appropriated,                permitted, but they require approval from the Commander of U.S. Central
obligated, or disbursed                                 Command; projects over $5 million require approval from the Deputy
                         DoD CN
Appropriations: Total monies available for              Secretary of Defense. CERP-funded projects may not exceed $20 million.40 
commitments                                                As of December 31, 2012, total cumulative CERP appropriations amounted
                                                        to nearly $3.45 billion. DoD reported obligations of nearly $9.94 million against
Obligations:DoD
             Commitments to pay monies
                                                        the FY 2013 continuing resolution.41 Of the nearly $3.45 billion appropriated,
Disbursements: Monies that have been                    nearly $2.28 billion had been obligated, of which more than $2.17 billion had
expended                                                been disbursed.42 Figure 3.8 shows CERP appropriations by fiscal year, and
Sources: DoD, response to SIGAR data call, 4/14/2010.   Figure 3.9 provides a cumulative comparison of amounts appropriated, obli-
                                    ESF                 gated, and disbursed for CERP projects.


                                   USAID
                                                        FIGURE 3.8                                                       FIGURE 3.9

                                                        CERP APPROPRIATIONS BY FISCAL YEAR                               CERP FUNDS, CUMULATIVE COMPARISON
                                                        ($ MILLIONS)                                                     ($ BILLIONS)


                                           INCLE
                                                        $1000                                                            $4.0
                                                                                                                                                                     $3.64 with
                                                                                                                         $3.6                                        FY 13 Request
                                            DoS                                                                                            Appropriated
                                                                                                                                           $3.44
                                                          $800                                                           $3.2                                        Appropriated
                                                                                                                                                                     $3.45
                                                                                                                         $2.8
                AIF
                                                          $600                                                           $2.4                                        Obligated
                                                                                                                                           Obligated
                                                                                                                                           $2.28                     $2.28
                                                                                                                         $2.0
                                                                                                                                           Disbursed                 Disbursed
                DoD                                                                                                                                                  $2.17
                                                          $400                                                           $1.6              $2.13


                                                                                                                         $1.2

                                                          $200                                                           $0.8
                      TFBSO                                                                                     FY 13
                                                                                                               Request
                                                                                                                         $0.4

                DoD                                         $0                                                           $0.0
                                                                  04 05 06 07 08 09 10 11 12 13                                 As of Sept 30, 2012       As of Dec 31, 2012

                                                        Notes: Numbers have been rounded. Data may include               Notes: Numbers have been rounded. Data may include
                                                        inter-agency transfers.                                          inter-agency transfers.
                                                        Sources: DoD, response to SIGAR data call, 1/15/2013;            Sources: DoD, responses to SIGAR data call, 1/15/2013
                                                        OMB, response to SIGAR data call, 1/4/2013; P.L. 112-239,        and 10/19/2012; OMB, response to SIGAR data call,
                                                        1/3/2013; P.L. 112-74, 12/23/2011; P.L. 112-10,                  1/4/2013; P.L. 112-239, 1/3/2013; P.L. 112-74,
                                                        4/15/2011.                                                       12/23/2011; OMB, response to SIGAR data call,
                                                                                                                         5/30/2011; P.L. 112-10, 4/15/2011.




                                                            60                           SPECIAL INSPECTOR GENERAL                 I    AFGHANISTAN RECONSTRUCTION
                                                                                                                                                                   USAID

                                                            STATUS OF FUNDS
                                                                                                                                                                           INCLE



                                                                                                                                                                            DoS



AFGHANISTAN INFRASTRUCTURE FUND
The Ike Skelton National Defense Authorization Act for FY 2011 established                                                                     AIF
the Afghanistan Infrastructure Fund (AIF) to pay for high-priority, large-
scale infrastructure projects that support the U.S. civilian-military effort.
Congress intended for projects funded by the AIF to be jointly selected and                                                                   DoD

managed by DoD and State. Thirty days before obligating or expending
funds on an AIF project, the Secretary of Defense and Secretary of State                                                        AIF FUNDS TERMINOLOGY
are required to notify the Congress with details of the proposed project,                                                       DoD reported AIF funds as appropriated,
                                                                                                                                                 TFBSO
                                                                                                                                obligated, or disbursed
including a plan for its sustainment and a description of how it supports the
counter-insurgency strategy in Afghanistan.43                                                                                   Appropriations: Total monies available for
   As of December 31, 2012, total cumulative appropriations through                                                             commitmentsDoD
FY 2012 amounted to $699 million. This figure excludes $101 million trans-                                                      Obligations: Commitments to pay monies
ferred from the FY 2011 AIF to the FY 2011 Economic Support Fund for
                                                                                                                                Disbursements: Monies that have been
USAID to implement an infrastructure project. DoD reported no obligations
                                                                                                                                expended
against the FY 2013 continuing resolution. As of December 31, 2012, approx-
imately $512.76 million of total AIF funding had been obligated, of which                                                       Source: DoD, response to SIGAR data call, 4/13/2012.

approximately $68.29 million had been disbursed.44  Figure 3.10 shows AIF
appropriations by fiscal year, and  Figure 3.11 provides a cumulative com-
parison of amounts appropriated, obligated, and disbursed for AIF projects.

FIGURE 3.10                                                      FIGURE 3.11

AIF APPROPRIATIONS BY FISCAL YEAR                                 AIF FUNDS, CUMULATIVE COMPARISON
($ MILLIONS)                                                      ($ MILLIONS)




$800                                                             $1,200

                                                                                                                    $1,049 with
                                                                 $1,000                                             FY 13 Request

$600
                                                                   $800                  Appropriated
                                                                                         $800.00
                                                                                                                    Appropriatedª
                                                                                                                    $699.00
$400                                                               $600
                                                                                                                    Obligated
                                                 FY 13                                   Obligated                  $512.76
                                                Request
                                                                   $400                  $458.70

$200
                                                                   $200                                             Disbursed
                                                                                         Disbursed                  $68.29
                                                                                         $56.00

   $0                                                                 $0
           2011ª              2012              2013                       As of Sept 30, 2012          As of Dec 31, 2012


Notes: Numbers have been rounded.                                 Notes: Numbers have been rounded.
                                                                  a Figures exclude $101 million from FY 2011 that was
a FY 2011 figure excludes $101 million that was transferred
  to USAID to execute an AIF project.                               transferred to USAID to execute an AIF project.

Sources: DoD, response to SIGAR data call, 1/17/2013;             Sources: DoD, responses to SIGAR data call, 1/17/2013 and
OMB, response to SIGAR data call, 1/4/2013; P.L. 112-239,         10/22/2012; OMB, response to SIGAR data call, 1/4/2013;
1/3/2013; P.L. 112-74, 12/23/2011; P.L. 112-10,                   P.L. 112-239, 1/3/2013; P.L. 112-74, 12/23/2011; P.L.
4/15/2011.                                                        112-10, 4/15/2011.



REPORT TO THE UNITED STATES CONGRESS                        I   JANUARY 30, 2013                                   61
                                            DoS

                                                       STATUS OF FUNDS
               AIF



              DoD



                                                       TASK FORCE FOR BUSINESS AND STABILITY OPERATIONS
                     TFBSO                             The Task Force for Business and Stability Operations (TFBSO) was estab-
                                                       lished in June 2006 and operated for several years in Iraq. In 2010, TFBSO
                                                       began operations in Afghanistan aimed at stabilizing the country and coun-
              DoD                                      tering economically motivated violence by decreasing unemployment and
                                                       creating economic opportunities for Afghans. TFBSO projects include activ-
TFBSO FUNDS TERMINOLOGY                                ities that facilitate private investment, industrial development, banking and
DoD reported TFBSO funds as appropriated,              financial system development, agricultural diversification and revitalization,
obligated, or disbursed                                and energy development.45
Appropriations: Total monies available for                 As of December 31, 2012, DoD reported that TFBSO received fund-
commitments                                            ing under the FY 2013 continuing resolution of more than $45.82 million,
Obligations: Commitments to pay monies                 bringing the total cumulative funding for the task force to more than
                                                       $601.13 million.46 Of this amount, nearly $539.46 million had been obligated
Disbursements: Monies that have been
                                                       and more than $334.97 million had been disbursed.47 Figure 3.12 displays
expended
                                                       the amounts appropriated for TFBSO projects by fiscal year, and  Figure
Source: DoD, response to SIGAR data call, 4/13/2010.
                                                       3.13 provides a cumulative comparison of amounts made available, obli-
                                                       gated, and disbursed for TFBSO projects.


                                                       FIGURE 3.12                                                 FIGURE 3.13

                                                       TFBSO APPROPRIATIONS BY FISCAL YEAR                         TFBSO FUNDS, CUMULATIVE COMPARISON
                                                       ($ MILLIONS)                                                ($ MILLIONS)




                                                       $250                                                        $700
                                                                                                                                                                $648.31with
                                                                                                                                                                FY 13 Request
                                                                                                                   $600
                                                       $200                                                                            Appropriated              Appropriated
                                                                                                                                       $555.31                   $601.13
                                                                                                                   $500                                          Obligated
                                                                                                                                       Obligated
                                                                                                                                                                 $539.46
                                                                                                                                       $523.79
                                                       $150
                                                                                                                   $400
                                                                                                                                                                Disbursed
                                                                                                                   $300                                         $334.97
                                                       $100                                                                            Disbursed
                                                                                                          FY 13                        $264.13
                                                                                                         Request
                                                                                                                   $200

                                                        $50
                                                                                                                   $100


                                                         $0                                                          $0
                                                               2009       2010      2011       2012       2013             As of Sept 30, 2012        As of Dec 31, 2012

                                                       Notes: Numbers have been rounded. Data may include          Notes: Numbers have been rounded. Data may include
                                                       inter-agency transfers.                                     inter-agency transfers.
                                                       Sources: DoD, response to SIGAR data call, 1/4/2013;        Sources: DoD, responses to SIGAR data call, 1/4/2013 and
                                                       OMB, response to SIGAR data call, 1/4/2013; P.L. 112-239,   10/2/2012; OMB, response to SIGAR data call, 1/4/2013;
                                                       1/3/2013; P.L. 112-74, 12/23/2011; P.L. 112-10,             P.L. 112-239, 1/3/2013; P.L. 112-74, 12/23/2011; P.L.
                                                       4/15/2011.                                                  112-10, 4/15/2011.




                                                           62                           SPECIAL INSPECTOR GENERAL           I     AFGHANISTAN RECONSTRUCTION
                                                                                                                                           DoD




                                                        STATUS OF FUNDS
                                                                                                                                    CERP



                                                                                                                                           DoD




DOD DRUG INTERDICTION AND COUNTER-DRUG ACTIVITIES
DoD’s Drug Interdiction and Counter-Drug Activities Fund (DoD CN) sup-                                                                              DoD CN
ports efforts to stabilize Afghanistan by combating the drug trade and related
activities. DoD uses the DoD CN to provide assistance to the counter-narcotics
effort by supporting military operations against drug traffickers; expand-                                                                 DoD
ing Afghan interdiction operations; and building the capacity of Afghan law
enforcement bodies with specialized training, equipment, and facilities.48                                                  DOD CN FUNDS TERMINOLOGY
    DoD CN funds are appropriated by Congress to a single budget line for                                                   DoD reported DoD CN funds as appropriated,
all military services. DoD reprograms the funds from the Counter-narcotics                                                  obligated, or disbursed
                                                                                                                                                                ESF
Central Transfer Account to the military services and defense agencies,                                                     Appropriations: Total monies available for
which track obligations of the transferred funds. DoD reported DoD CN                                                       commitments
accounts for Afghanistan as a single figure for each fiscal year.49                                                         Obligations: Commitments toUSAID
                                                                                                                                                        pay monies
    As of December 31, 2012, DoD reported that DoD CN received nearly
                                                                                                                            Disbursements: Monies that have been
$132.35 million for Afghanistan under the FY 2013 continuing resolution.
                                                                                                                            expended
As of December 31, 2012, DoD CN had received total cumulative funding of
nearly $2.44 billion since FY 2004.50 Figure 3.14 shows DoD CN appropria-                                                   Source: DoD, response to SIGAR data call, 4/13/2010.
                                                                                                                                                                       INCLE
tions by fiscal year, and Figure 3.15 provides a cumulative comparison of
amounts appropriated and transferred to the military services and defense
agencies for DoD CN projects.                                                                                                                                           DoS


FIGURE 3.14                                                  FIGURE 3.15

DOD CN APPROPRIATIONS BY FISCAL YEAR                         DOD CN FUNDS, CUMULATIVE COMPARISON                                           AIF
($ MILLIONS)                                                 ($ BILLIONS)




$450                                                         $2.7                                           $2.69 with                     DoD
                                                                                                            FY 13 Request
$400                                                         $2.6
                                                   FY 13
                                                  Request
$350
                                                             $2.5                                                                                TFBSO
$300                                                                                                       Appropriated
                                                             $2.4                                          & Transferreda
                                                                                                           $2.44
$250                                                                                                                                       DoD
                                                             $2.3               Appropriated
                                                                                & Transferreda
$200                                                                            $2.31
                                                             $2.2
$150
                                                             $2.1
$100

 $50                                                         $2.0

  $0                                                           $0
       2004 05 06 07 08 09 10 11 12 13                              As of Sept 30, 2012          As of Dec 31, 2012

Notes: Numbers have been rounded.                            Note: Numbers have been rounded.
                                                             a DoD reprograms all funds to the military services and
Source: DoD, response to SIGAR data call, 1/2/2013; OMB,
response to SIGAR data call, 1/4/2013; P.L. 112-239,           defense agencies for obligation and disbursement.
1/3/2013.                                                    Source: DoD, responses to SIGAR data call, 10/17/2012
                                                             and 1/2/2013; OMB, response to SIGAR data call, 1/4/2013;
                                                             P.L. 112-239, 1/3/2013.




REPORT TO THE UNITED STATES CONGRESS                    I   JANUARY 30, 2013                                 63
               DoD



                                                          STATUS OF FUNDS
                          DoD CN



               DoD




                                                          ECONOMIC SUPPORT FUND
 ASFF   CERP    AIF    TFBSO DoDCN    ESF
                                       ESF   INCLE        Economic Support Fund (ESF) programs advance U.S. interests by helping
                                                          countries meet short- and long-term political, economic, and security needs.
                                                          ESF programs support counter-terrorism; bolster national economies; and
               DoD                   USAID State          assist in the development of effective, accessible, independent legal systems
                                                          for a more transparent and accountable government.51
ESF FUNDS TERMINOLOGY                                        As of December 31, 2012, USAID reported that the total cumulative
USAID reported ESF funds as appropriated,                 funding for the ESF amounted to more than $15.05 billion. Of this amount,
obligated, or disbursed         INCLE                     nearly $12.90 billion had been obligated, of which more than $10.38 billion
Appropriations:
   ASFF         Total monies available                    had been disbursed.52 Figure 3.16 shows ESF appropriations by fiscal year.
for commitments                                              USAID reported that cumulative obligations as of December 31, 2012,
                                             DoS          increased by nearly $91.57 million over cumulative obligations as of
Obligations: Commitments to pay monies
               DoD                                        September 30, 2012. Cumulative disbursements as of December 31, 2012,
Disbursements: Monies that have been
                                                          increased by nearly $218.50 million over cumulative disbursements as of
expended
                                                          September 30, 2012.53 Figure 3.17 provides a cumulative comparison of the
               AIF
Sources: USAID, response to SIGAR data call, 4/15/2010.
                                                          amounts appropriated, obligated, and disbursed for ESF programs.

        CERP DoD
                                                          FIGURE 3.16                                                  FIGURE 3.17


               DoD                                        ESF APPROPRIATIONS BY FISCAL YEAR                            ESF FUNDS, CUMULATIVE COMPARISON
                                                          ($ BILLIONS)                                                 ($ BILLIONS)
                      TFBSO

                                                          $3.5                                                         $18
               DoD                                                                                                                                                    $16.90 with
                                                          $3.0                                                                                                        FY 13 Request
                          DoD CN                                                                                       $16
                                                                                                                                           Appropriated                Appropriated
                                                          $2.5                                                                             $14.95                      $15.05
               DoD                                                                                                     $14

                                                          $2.0                                                                             Obligated                   Obligated
                                                                                                                                           $12.80                      $12.90
                                                                                                              FY 13    $12
                                                                                                             Request
                                                          $1.5
                                                                                                                                           Disbursed                   Disbursed
                                      ESF
                                                                                                                       $10                 $10.16                      $10.38
                                                          $1.0

                                     USAID                                                                              $8
                                                          $0.5


                                                          $0.0                                                          $0
                                                                 02 03 04 05 06 07 08 09 10 11 12 13                         As of Sept 30, 2012          As of Dec 31, 2012

                                             INCLE
                                                          Notes: Numbers have been rounded.                            Notes: Numbers have been rounded. Data may include
                                                                                                                       inter-agency transfers. Figures include $101 million from
                                                          Sources: USAID, response to SIGAR data call, 1/3/2013;
                                                                                                                       FY 2011 that was transferred to the ESF from the
                                                          OMB, response to SIGAR data call, 1/4/2013.
                                                                                                                       Afghanistan Infrastructure Fund.
                                             State                                                                     Sources: USAID, responses to SIGAR data call, 1/3/2013
                                                                                                                       and 10/2/2012; OMB, response to SIGAR data call,
                                                                                                                       1/4/2013.




               AIF

                                                              64                         SPECIAL INSPECTOR GENERAL               I    AFGHANISTAN RECONSTRUCTION
               DoD
                                                                                                                                            DoD



                                                          STATUS OF FUNDS
                                                                                                                                                                  ESF



                                                                                                                                                                 USAID




INTERNATIONAL NARCOTICS CONTROL
AND LAW ENFORCEMENT                                                                                                                                                      INCLE
The U.S. Bureau of International Narcotics and Law Enforcement Affairs
(INL) manages an account for advancing rule of law and combating narcot-
                                                                                                                                                                          State
ics production and trafficking—the International Narcotics Control and
Law Enforcement (INCLE) account. INCLE supports several INL program
groups, including police, counter-narcotics, and rule of law and justice.54                                                  INL FUNDS TERMINOLOGY
   As of December 31, 2012, State reported that the total cumulative fund-                                                   INL reported INCLE and other INL funds as
                                                                                                                                         AIF
ing for INCLE amounted to nearly $3.58 billion. Figure 3.18 displays INCLE                                                   appropriated, obligated, or disbursed.
appropriations by fiscal year. Of this amount, nearly $3.24 billion had been                                                 Appropriations: Total monies available
obligated, of which nearly $2.51 billion had been disbursed.55                                                               for commitments
                                                                                                                                        DoD
   State reported that cumulative obligations as of December 31, 2012,                                                       Obligations: Commitments to pay monies
increased by more than $29.35 million over cumulative obligations as of
                                                                                                                             Disbursements: Monies that have been
September 30, 2012. Cumulative liquidations as of December 31, 2012,
                                                                                                                             expended
increased by more than $112.86 million over cumulative disbursements as                                                                           TFBSO
of September 30, 2012.56 Figure 3.19 provides a cumulative comparison of                                                     Source: State, response to SIGAR data call, 4/9/2010.

amounts appropriated, obligated, and disbursed for INCLE.
                                                                                                                                           DoD

FIGURE 3.18                                                     FIGURE 3.19

INCLE APPROPRIATIONS BY FISCAL YEAR                             INCLE FUNDS, CUMULATIVE COMPARISON
($ MILLIONS)                                                    ($ BILLIONS)




$700                                                            $4.5

                                                                                                             $4.18 with
$600                                                                                                         FY 13 Request
                                                      FY 13     $4.0
                                                     Request

$500                                                                               Appropriated              Appropriated
                                                                $3.5               $3.58                     $3.58

$400                                                                               Obligated                  Obligated
                                                                                   $3.21                      $3.24
                                                                $3.0
$300

                                                                $2.5                                         Disbursed
                                                                                   Disbursed                 $2.51
$200                                                                               $2.40

                                                                $2.0
$100


  $0                                                              $0
       02 03 04 05 06 07 08 09 10 11 12 13                             As of Sept 30, 2012        As of Dec 31, 2012

Notes: Numbers have been rounded. Data may include              Notes: Numbers have been rounded. Data may include
inter-agency transfers.                                         inter-agency transfers.
Sources: State, response to SIGAR data call, 1/8/2013;          Sources: State, responses to SIGAR data call, 1/8/2013
OMB, response to SIGAR data call, 1/4/2013.                     and 10/11/2012; OMB, response to SIGAR data call,
                                                                1/4/2013.




REPORT TO THE UNITED STATES CONGRESS                      I    JANUARY 30, 2013                               65
STATUS OF FUNDS




INTERNATIONAL RECONSTRUCTION FUNDING
FOR AFGHANISTAN
In addition to assistance provided by the United States, the international
community provides a significant amount of funding to support Afghanistan
relief and reconstruction efforts. As noted in previous SIGAR quarterly
reports, most of the international funding provided is administered through
trust funds. Contributions provided through trust funds are pooled and then
distributed for reconstruction activities. The two main trust funds are the
Afghanistan Reconstruction Trust Fund (ARTF) and the Law and Order
Trust Fund for Afghanistan (LOTFA).57

The Afghanistan Reconstruction Trust Fund
The largest share of international contributions to the Afghan opera-
tional and development budgets comes through the ARTF. From 2002 to
December 20, 2012, the World Bank reported that 33 donors had pledged
nearly $6.18 billion, of which more than $6.11 billion had been paid in.58
According to the World Bank, donors have pledged nearly $1.01 billion
to the ARTF for the Afghan fiscal year—solar year 1391—which ran from
March 21, 2012 to December 20, 2012 (when the Afghan fiscal year shifted
to a December 21 start date).59 Figure 3.20 shows the 12 largest donors to
the ARTF for SY 1391.
FIGURE 3.20

ARTF CONTRIBUTIONS FOR SY 1391 BY DONOR, AS OF DECEMBER 20, 2012 ($ MILLIONS)

                                               Total Commitments: $1,005       Total Paid In: $942

   United States                                                                                        371 371

           Japan                                    138 138

United Kingdom                                      136 136

        Germany                        78 78

        Australia       6              61

          Norway                 55 55

           EC/EU            35 35

         Sweden             31   35

     Netherlands            32 32

         Canada         26 26

        Denmark     11 11

          Finland   11 11

           Others   10 15

                    0                       100                 200                  300                   400
                                                  Paid In                        Commitments

Notes: Numbers have been rounded. SY 1391 = 3/1/2012–12/20/2012, when the Afghan fiscal year shifted to run from
December 21–December 20.
Source: World Bank, "ARTF: Administrator's Report on Financial Status as of December 20, 2012," p. 1.




    66                                SPECIAL INSPECTOR GENERAL            I   AFGHANISTAN RECONSTRUCTION
                                       STATUS OF FUNDS




   As of December 20, 2012, the United States had paid in more than              FIGURE 3.21
$1.74 billion.60 The United States and the United Kingdom are the two
                                                                                 ARTF CONTRIBUTIONS PAID IN BY DONORS
biggest donors to the ARTF, together contributing nearly 47% of its total        SY 1381 (2002)–DECEMBER 20, 2012 (PERCENT)
funding, as shown in Figure 3.21.
   Contributions to the ARTF are divided into two funding channels—
                                                                                                Total Paid In: $6.1 billion
the Recurrent Cost (RC) Window and the Investment Window.61 As of
December 20, 2012, according to the World Bank, more than $2.67 billion
of ARTF funds had been disbursed to the Afghan government through the                                    United States
RC Window to assist with recurrent costs such as salaries of civil servants.62                           28.5%
The RC Window supports the operating costs of the Afghan government                                                  United
                                                                                                Other
because the government’s domestic revenues continue to be insufficient                          29.1%                Kingdom
to support its recurring costs. To ensure that the RC Window receives ade-                                           18.5%

quate funding, donors to the ARTF may not “preference” (earmark) more
than half of their annual contributions for desired projects.63                                                                Canada
                                                                                                                               9.5%
   The Investment Window supports the costs of development programs.                   Netherlands
                                                                                                                  Germany
As of December 20, 2012, according to the World Bank, nearly $2.61 billion             6.9%
                                                                                                                  7.5%
had been committed for projects funded through the Investment Window, of
which nearly $1.87 billion had been disbursed. The World Bank reported 21        Notes: Numbers have been rounded. Source: World Bank,
                                                                                 "ARTF: Administrator's Report on Financial Status as of
active projects with a combined commitment value of nearly $1.56 billion,        December 20, 2012," p. 5.
of which approximately $819.46 million had been disbursed.64

The Law and Order Trust Fund for Afghanistan                                     FIGURE 3.22
The United Nations Development Programme (UNDP) administers the
LOTFA to pay ANP salaries and build the capacity of the Ministry of              DONORS' CONTRIBUTIONS TO THE LOTFA
Interior.65 Since 2002, donors have pledged more than $2.65 billion to the       SINCE 2002, AS OF SEPTEMBER 30, 2012
                                                                                 (PERCENT)
LOTFA, of which nearly $2.57 billion had been paid in, according to the
most recent data available.66 The LOTFA’s sixth support phase started on
January 1, 2011, and runs through March 31, 2013. In the 21 months since
Phase VI began, the UNDP had transferred nearly $955.75 million from
the LOTFA to the Afghan government to cover ANP and Central Prisons                          United States         Japan
Directorate staff remunerations and an additional $17.90 million for capac-                  35%                   31%

ity development and other LOTFA initiatives.67 As of September 30, 2012,
                                                                                                   Others      EC/EU
donors had committed more than $1.12 billion to the LOTFA for Phase VI.                            13%         15%
Of that amount, the United States had committed nearly $425.92 million,
and Japan had committed nearly $476.62 million. Their combined commit-
                                                                                                                Germany
ments make up more than 80% of LOTFA Phase VI commitments.68 The                                                6%
United States had contributed nearly $897.74 million to the LOTFA since the
fund’s inception.69 Figure 3.22 shows the four largest donors to the LOTFA       Notes: Numbers have been rounded. EC/EU = European
                                                                                 Commission/European Union. "Others" includes 16 donors.
since 2002, based on the latest data available.                                  Sources: UNDP, "LOTFA Phase VI Quarterly Progress Report
                                                                                 Q3/2012," 12/4/2012; SIGAR analysis of UNDP's quarterly
                                                                                 and annual LOTFA reports, 1/15/2013.




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2013             67
CONTENTS
CONTENTS
Continuing Resolution	              69
Key Events This Quarter	            70
Security Environment	               70
Insider Attacks	                    71
Transition Progress	                71
ANSF Set To Achieve 352,000
End Strength by December 2014	      73
ANSF Numbers Not Validated	         74
ANSF Capability Assessments	        75
Ministry of Defense and
Ministry of Interior Assessments	   78
Afghan National Army	               79
Afghan National Police	             84
ANSF Medical/Health Care	           87
Afghan Local Police	                87
Afghan Public Protection Force	     87
U.S. Forces	                        88
Removing Unexploded Ordnance	       88
Counter-Narcotics	89

  68
                                                              SECURITY




SECURITY
As of December 31, 2012, the U.S. Congress had appropriated more than
$51.1 billion to support the Afghan National Security Forces (ANSF). Most
of these funds ($49.6 billion) were appropriated through the Afghanistan
Security Forces Fund (ASFF) and provided to the Combined Security
Transition Command-Afghanistan (CSTC-A). Funds provided by ASFF for
the Afghan National Army (ANA) and the Afghan National Police (ANP) are
divided into four categories:
•	 Sustainment (including salaries, ammunition, and logistical supplies)
•	 Equipment and Transportation
•	 Infrastructure
•	 Training and Operations

   Of the $49.6 billion appropriated for the ASFF, approximately $43.1 billion
had been obligated and $38.1 billion disbursed as of December 31, 2012.70
   This section discusses assessments of the ANSF and the Ministries of
Defense and Interior; gives an overview of U.S. funds used to build, equip,
train, and sustain the ANSF; and provides an update on efforts to combat
the cultivation of and commerce in illicit narcotics in Afghanistan. This sec-
tion also discusses the challenges to transitioning to Afghan-led security by
the end of 2014.


CONTINUING RESOLUTION
On January 2, 2013, President Obama signed into law the National Defense
Authorization Act (NDAA), which authorized $5.7 billion for ASFF in 2013,
the amount requested by the Administration.71 However, as this report went
to press, Congress had not passed an appropriations bill for fiscal year (FY)
2013. Therefore, ASFF funding will fall under the continuing resolution
passed by Congress on September 28, 2012. Under that law (Public Law 112-
175), projects or activities designated for Overseas Contingency Operations/
Global War on Terrorism, including those funded by ASFF, would be contin-
ued “at a rate for operations that would be permitted by…the amount in the
President’s fiscal year 2013 budget request.”72




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2013             69
                                                               SECURITY




                                                               KEY EVENTS THIS QUARTER
                                                               According to the Department of Defense (DoD), the ANSF is increasingly
                                                               taking the lead in operations throughout Afghanistan. DoD reported to
                                                               Congress that during the period October 1, 2011, through September 30,
                                                               2012, ANSF conducted 80% of all operations on its own. In another 5% they
                                                               led operations that also included International Security Assistance Force
                                                               (ISAF) personnel. In addition, DoD said the ANSF had taken 60% of total
                                                               ANSF/coalition casualties in 2012, with coalition forces taking 40%. This
                                                               was a reversal of the casualty ratio of 2010.73
                                                                  As the ANSF takes the lead in security, ISAF is assuming its new role as
                                                               the Security Force Assistance and Training (SFAT) mission. This transition
                                                               includes redeploying forces and closing and aligning ISAF bases.74 SFAT
                                                               will be supported by Security Force Assistance Brigades (SFABs) that will
                                                               oversee force protection and provide enabler support to the SFAT mission.75
                                                               SFABs will also provide security-force assistance and provide enabler sup-
                                                               port to the ANSF.76

                                                               President Obama and President Karzai Discuss Transition
                                                               President Obama and Afghan President Karzai met on January 11, to dis-
  Tranche: one of five groups of Afghan prov-                  cuss transition, security, and the way forward in Afghanistan. In a joint
  inces, districts, and cities to undergo the                  statement, the Presidents said that Afghan forces had exceeded expecta-
  security-transition process. The groupings                   tions and were now leading most operations in Afghanistan. As the fourth
  are based on operational, political, and                     tranche of the transition commences (see “Transition Progress” in this
  economic considerations, drawing on the                      section), the ANSF will be leading security in areas that contain 90% of the
  assessment and recommendations of the                        Afghan population.77
  Afghan government and NATO/ISAF through                         The Presidents also reiterated the commitment of leaders at the Chicago
  the Joint Afghan-NATO Inteqal Board.                         Summit to shift ISAF from combat to a support mission. This milestone—
                                                               currently slated for mid-2013—would coincide with the announcement of
                                                               the fifth (and final) tranche of transition, at which time most unilateral U.S.
Source: ISAF, “Transition to Afghan Lead: Inteqal,” 11/2011.   combat operations should end. They also recognized that, as the ANSF
                                                               assumes more responsibility, improving the Afghan forces’ quality and
                                                               accelerating the provision of equipment and enablers remains a priority.78


                                                               SECURITY ENVIRONMENT
                                                               The number of enemy-initiated attacks from April 1 to September 30, 2012,
  High-profile attacks: defined by ISAF as                     increased by 1% compared to the same period in 2011, according to DoD.
  explosive hazard events including person-                    In addition, high-profile attacks increased by 2%, and direct-fire attacks
  borne IED attacks, suicide vehicle-borne                     increased by 10%. However, incidents of improvised explosive devices
  IED attacks, and vehicle-borne IED attacks.                  (IEDs) and mine explosions were down 12%.79 Most enemy-initiated attacks
                                                               occurred in the eastern (41%), southern (21%), and southwestern regions
                                                               (30%) of the country during the reporting period.80 DoD noted that the capi-
Source: DoD, “Report on Progress Toward Security and
                                                               tal region (Kabul) remained the safest area in Afghanistan; Kabul saw a 25%
Stability in Afghanistan,” 12/2012, p. 20.                     reduction in enemy-initiated attacks in 2012 versus 2011.81




                                                                 70                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                              SECURITY




   In response to a vetting draft of this report, DoD noted that enemy-initi-
ated attacks were fewer and other security metrics had improved when all
of 2012 was considered. DoD said that while “violence in general was higher
in the summer” it was “much lower in fall and spring.”82


INSIDER ATTACKS
The number of insider attacks (people in ANSF uniform attacking their
coalition partners) has been on the rise, from two attacks in 2008 to 37
attacks in 2012 (through the end of September). Those 37 attacks resulted
in the deaths of 51 coalition personnel, 32 of them U.S. personnel.83 In addi-
tion, ANSF-on-ANSF insider attacks have risen from three in 2008 to 29 in
2012 (through the end of September).84
    Countering this threat has been a top priority for ISAF and the Afghan
government. As noted in SIGAR’s October 2012 quarterly report, ISAF had
implemented several measures to prevent future attacks. Among them was
a “guardian angel” program to protect U.S. and coalition personnel and help-
ing the Ministry of Defense (MoD) and Ministry of Interior (MoI) reexamine
their vetting program and identify insurgent infiltrators. According to DoD,
“insider attacks declined substantially in September 2012 as compared to
August, potentially providing an early indication that countermeasures are
working effectively in reducing the threat.”85 To mitigate infiltration of the
ANSF by insurgents, ANSF recruits are subject to an eight-step process:86
 •	 issuing an Afghan ID card
 •	 gathering background information from tribal elders
 •	 gathering personal information about family members
 •	 conducting criminal-background checks
 •	 completing a formal application process
 •	 drug screening
 •	 medical screening
 •	 collecting the individual’s biometric data


TRANSITION PROGRESS
With three of five tranches transitioning, the transition process is on track
to be completed by the end of 2014, according to DoD. As of the end of
September 2012, the ANSF had begun to assume the lead for security in 261
of the country’s 405 districts where approximately 76% of Afghans were liv-
ing. In all, 11 of Afghanistan’s 34 provinces were completely in transition and
areas in all 34 provinces were in some stage of transition, including impor-
tant population centers, economically significant districts, and the corridors
that connect them, as shown in Figure 3.23 on the following page.87
   During the quarter, no new tranches began transition, according to
DoD. However, Tranche 4 was announced in late December 2012. This new




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2013              71
                                                                  SECURITY




FIGURE 3.23

AREAS IN TRANSITION TO AFGHAN-LED SECURITY




                                                                                                                                         Tranche 1
                                                                                                                                         Tranche 2
                                                                                                                                         Tranche 3
                                                                                                                                         Areas not yet in transition




Note: Tranches include cities, districts, and provinces (or parts thereof). Tranche 1 began in July 2011, Tranche 2 in November 2011, Tranche 3 in July 2012.
Sources: NATO, "Transition to Afghan Lead: Inteqal," 5/16/2012; DoD, response to SIGAR data call, 10/4/2012.



                                                                  tranche is expected to begin transition in February 2013 at which point 23
                                                                  of the country’s 34 provinces will be completely in transition. Tranche 4 will
                                                                  comprise an additional 11% of the Afghan population.88
                                                                     As the ANSF demonstrates its capability, the level of ISAF support is
                                                                  being adjusted, allowing the ANSF to take more responsibility. According
                                                                  to DoD, the ANSF are progressively taking the lead in transition areas and
                                                                  helping to expand Afghan government influence, most notably in north-
                                                                  ern provinces where the coalition will begin withdrawing its forces. Kabul
                                                                  remains the most secure area in the country. DoD also noted that the
                                                                  ANSF demonstrated increased capabilities and sophistication in the east-
                                                                  ern and southern parts of Afghanistan, where they planned and conducted
                                                                  large-scale, multi-day operations and showed increased coordination and
                                                                  integration between military and police. However, DoD said governance
                                                                  and development will require continued assistance through the “Decade of
                                                                  Transformation” (2015-2024).89




                                                                      72                            SPECIAL INSPECTOR GENERAL                 I   AFGHANISTAN RECONSTRUCTION
                                                                                           SECURITY




ANSF SET TO ACHIEVE 352,000 END STRENGTH BY
DECEMBER 2014
Since June 2011, the target for ANSF end strength has been a force of
352,000 personnel by October 2012: 195,000 ANA and 157,000 ANP.90
According to DoD, the ANSF sustainment plan calls for the 352,000-strong
force to remain at that size for three years (through 2015).91 As noted in
prior quarterly reports, the ANSF is expected to be reduced to a more sus-
tainable 228,500 strength in 2017.
    In its April 2012 report to Congress, DoD noted that “the ANSF are ahead
of schedule to achieve the October 2012 end strength of 352,000, including
subordinate goals of 195,000 soldiers and 157,000 police.”92 In September
2012, a DoD official remarked that “the goal remains to train and field
352,000 ANSF by October, and we remain on track to reach that milestone.”93
However, the ANSF did not meet this end strength goal by October 2012—or
by the end of the year—but did reach a recruited strength of 352,000.
    In its December 2012 report to Congress, DoD noted that “the ANSF met
its goal of recruiting a force of approximately 352,000 Soldiers and Police
by October 1, 2012” and that “the Army and Police personnel not currently
in training or fielded units are recruited and awaiting induction at the train-
ing centers. The ANA is scheduled to achieve its surge-level end strength of
187,000 soldiers inducted by December 2012, and to have these personnel
trained, equipped, and fielded by December 2013.”94
    According to that report, “the current approved end strength for the
AN[SF]—the projected end strength required to support transition to
Afghan security lead—is 352,000 personnel by December 2014, comprising
187,000 for the Army by December 2012, 157,000 for the Police by February
2013, and 8,000 for the Afghan Air Force by December 2014.”95
    As of November 21, 2012, CSTC-A reported ANSF force strength as
331,597: 174,645 ANA, 151,080 ANP, and 5,872 Afghan Air Force, as shown
in Table 3.2. This total—which also includes personnel in training—is more
than 20,000 personnel fewer than the October 2012 end-strength goal for the
ANSF, but is on track to meet the approved end-strength goal of 352,000 by
TABLE 3.2


ANSF ASSIGNED PERSONNEL STRENGTH, NOVEMBER 21, 2012
                                                                 Status as of           Difference Between Current Strength and
    ANSF Component                     Current Target             11/2012               October 2012 Target End-Strength Goals
    Afghan National Army
                                       	195,000a                	180,517                                   -14,483
    (including Afghan Air Force)
    Afghan National Police             	157,000a                	151,080                                    -5,920
    ANSF Total                         	 352,000                	 331,597b                               -20,403
a   By October 2012
b   Includes 2,581 CNPA Personnel

Sources: DoD, “Report on Progress Toward Security and Stability in Afghanistan,” 10/2011, p. 4; CSTC-A, responses to SIGAR data calls,
1/2/2013, 1/4/2013, and 1/6/2013.




REPORT TO THE UNITED STATES CONGRESS                        I    JANUARY 30, 2013                                  73
SECURITY




December 2014. However, as noted in previous SIGAR quarterly reports, the
number of forces assigned does not necessarily equal the number of person-
nel present for duty (see “ANA Strength” in this section).


ANSF NUMBERS NOT VALIDATED
Determining ANSF strength is fraught with challenges. U.S. and coalition
forces rely on the Afghan forces to report their own personnel strength
numbers. Moreover, the Combined Security Transition Command-
Afghanistan (CSTC-A) noted that, in the case of the Afghan National Army,
there is “no viable method of validating [their] personnel numbers.”96 SIGAR
will continue to follow this issue to determine whether U.S. financial sup-
port to the ANSF is based on accurately reported personnel numbers.
   Several U.S. government agencies—including CSTC-A, SIGAR, and the
DoD Office of Inspector General (DoD OIG)—have noted challenges to accu-
rately accounting for ANSF personnel. The current method for accounting for
Afghan force strength involves several steps and relies on ANSF submitting
paper reports through their command structures. According to CSTC-A, the
ANA process starts with army personnel collecting sub-unit force strength
information, then passing that information through brigades to their respec-
tive corps. These reports are then consolidated by corps-level personnel
officers and sent by mail to the ANA’s general staff office for personnel.
Once there, general staff officials manually enter the corps-level data into
a spreadsheet before the final strength numbers are sent to NATO Training
Mission-Afghanistan (NTM-A) and CSTC-A. According to CSTC-A, “the scru-
tiny of weekly [ANA] status reports” is being examined and the planned use of
a human resources information-management system “is expected to provide a
more reliable method of capturing and validating personnel strength reports.”97
   For the ANP, the process was much the same. An April 2011 SIGAR audit of
ANP payroll and workforce strength found that the MoI could not determine
the actual number of personnel that work for ANP because it had been unable
to reconcile personnel records or verify data in its personnel systems and data-
bases. SIGAR also found that the MoI maintained hand-prepared personnel
records in “decentralized, unlinked, and inconsistent systems.” However, SIGAR
also noted that, at the time of the audit, the MoI was manually scanning thou-
sands of records into an automated Human Resources Information System.98
   Another challenge has been the inclusion of civilians in counts of ANSF
personnel. A February 2012 DoD OIG report on ANA payroll funding found
that ANA finance officers were including civilians in their count of ANA
personnel for the purposes of payroll reporting (despite an agreement
between CSTC-A and the MoD that only military personnel would be funded
using ASFF).99 CSTC-A also noted that civilians had been counted as part of
ANSF assigned force strength, but were later removed from those counts.100
However, civilians are still included in authorized strength numbers. In a




  74                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                              SECURITY




response to a vetting draft of this report, NTM-A/CSTC-A (the joint NATO/
U.S. mission responsible for training, equipping, and sustaining the ANSF)
stated that authorized numbers still include 11,384 civilians.101


ANSF CAPABILITY ASSESSMENTS
In assessing the capability of ANA and ANP units, ISAF uses the
Commander’s Unit Assessment Tool (CUAT), which has five rating levels:102
•	 Independent with Advisors: The unit is able to plan and execute
   its missions, maintain command and control of subordinates, call on
   and coordinate quick-reaction forces and medical evacuations, exploit
   intelligence, and operate within a wider intelligence system.
•	 Effective with Advisors: The unit conducts effective planning,
   synchronizing, directing, and reporting of operations and status. Leaders,        Enablers: specialized units that support
   staff, and unit adhere to a code of conduct and are loyal to the Afghan           combat units such as engineering, civil
   government. Coalition forces provide only limited, occasional guidance            affairs, military intelligence, helicopter,
   to unit personnel and may provide “enablers” as needed. Coalition forces          military police, and intelligence, surveil-
   augment support only on occasion.                                                 lance, and reconnaissance assets.
•	 Effective with Partners: The unit requires routine mentoring for
   planning, synchronizing, directing, and reporting of operations and status;
   coordinating and communicating with other units; and maintaining                Source: DoD, “Mullen Tours Forward Outposts in Afghanistan,”
   effective readiness reports. Leaders, staff, and most of the unit adhere to a   4/22/2009.

   code of conduct and are loyal to the Afghan government. ANSF enablers
   provide support to the unit; however, coalition forces may provide enablers
   to augment that support.
•	 Developing with Partners: The unit requires partnering and assistance
   for planning, synchronizing, directing, and reporting of operations and
   status; coordinating and communicating with other units; and maintaining
   effective readiness reports. Leaders and most of the staff usually adhere to
   a code of conduct and are loyal to the Afghan government. Some enablers
   are present and effective, providing some of the support. Coalition forces
   provide enablers and most of the support.
•	 Established: The unit is beginning to organize but is barely capable of
   planning, synchronizing, directing, or reporting operations and status, even
   with the presence and assistance of a partner unit. The unit is barely able
   to coordinate and communicate with other units. Leadership and staff
   may not adhere to a code of conduct or may not be loyal to the Afghan
   government. Most of the unit’s enablers are not present or are barely
   effective. Those enablers provide little or no support to the unit. Coalition
   forces provide most of the support.

  The assessments of the ANA and the ANP are indicators of the effective-
ness of U.S. efforts—and, by extension, of U.S. funding—to build, train,
equip, and sustain the ANSF. These assessments also provide both U.S. and




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2013               75
                                                                      SECURITY




                                                                      Afghan stakeholders with regular updates on the status of these forces as
                                                                      transition continues and Afghanistan assumes responsibility for its own
                                                                      security. SIGAR continues to closely monitor these assessments through its
                                                                      audit products and quarterly reports to Congress.
                                                                         In 2010, SIGAR audited the previous assessment tool—the Capability
                                                                      Milestone (CM) rating system which had been in use since 2005—and
                                                                      found that it did not provide reliable or consistent assessments of ANSF
                                                                      capabilities. During the course of that audit, DoD and NATO began using
                                                                      a new system, the CUAT, to rate the ANSF.103 In May 2010, the ISAF Joint
                                                                      Command (IJC) issued an order to implement the new system which would
                                                                      “provide users the specific rating criteria for each [ANSF] element to be
                                                                      reported by the CUAT including leader/commander considerations, opera-
                                                                      tions conducted, intelligence gathering capability, logistics and sustainment,
                                                                      equipping, partnering, personnel readiness, maintenance, communications,
                                                                      unit training and individual education, as well as the partner unit or advisor
                                                                      team’s overall assessment.”104
                                                                         Since the implementation of the CUAT, the titles of the various rating
                                                                      levels have changed, as shown in Table 3.3. In July 2012, the Government
                                                                      Accountability Office (GAO) raised concerns that the change of the title of
                                                                      the highest rating level from “independent” to “independent with advisors”
                                                                      was, in part, responsible for an increase in the number of ANSF units rated
                                                                      at the highest level. GAO also noted that “the change lowered the standard
                                                                      for unit personnel and equipment levels from ‘not less than 85’ to ‘not less
                                                                      than 75’ percent of authorized levels.”105 In a response to SIGAR last quarter,
                                                                      the IJC disagreed with GAO’s assessment, saying a change in title does not
                                                                      “equal a change in definition.”106 Since last quarter, the IJC has initiated a
                                                                      CUAT Refinement Working Group to standardize inputs and outputs in the
                                                                      areas covered by the assessments.107
                                                                         This quarter, IJC included all units that had been reported in previous
                                                                      assessments in the category “not assessed.” In prior quarters, only units that
                                                                      were required to be assessed (but were not assessed) were included in that
                                                                      category.108 This may, in part, have contributed to a rise in the total number
TABLE 3.3


HISTORY OF CHANGES TO CUAT RATING LEVEL TITLES, APRIL 2010–PRESENT
    April 2010                            July 2010                               September 2010a                         October 2010                           August 2011
    Effective with Advisors               Independent                             Independent                             Independent                            Independent with Advisors
    Effective with Assistance             Effective with Advisors                 Effective with Advisors                 Effective with Advisors                Effective with Advisors
    Dependent on CF for Success           Effective with Assistance               Effective with Assistance               Effective with Assistance              Effective with Partners
    Barely Effective                      Dependent on CF for Success             Dependent on CF for Success             Developing                             Developing with Partners
    Ineffective                           Ineffective                             Ineffective                             Established                            Established
    Not Assessed                          Not Assessed                            Not Assessed                            Not Assessed                           Not Assessed
a   The CUAT report includes color coding for each rating level; the difference between July and September 2010 was changes to the color coding for the ratings. “CF” = coalition forces.

Source: IJC, response to SIGAR data call, 12/20/2012.




                                                                           76                            SPECIAL INSPECTOR GENERAL                  I   AFGHANISTAN RECONSTRUCTION
                                                                                                  SECURITY




FIGURE 3.24

CUAT RATINGS OF THE ANSF
                                                  ANA                                                                                          ANP
                                                                                                                                                                                         301
300

270

240

210

180

150                     135
                              127                                                                                    130                                                           131
120
                                                                                                                           101
 90                                                                                         81
                                                                                                            71
                                                                                                                                     61
 60                                                                                    51             49                                    45
               41                       39 35
         30                                                                                                                                          31
 30                                                                                                                                                         15
                                                        11      7                                                                                                     6
                                                                          1     1                                                                                           3
  0
        Independent       Effective       Effective      Developing      Established     Not         Independent       Effective       Effective      Developing     Established     Not
        with Advisors   with Advisors   with Partners   with Partners                  Assessed      with Advisors   with Advisors   with Partners   with Partners                 Assessed

            September 2012 | ANA Total - 267                   December 2012 | ANA Total - 292           September 2012 | ANP Total - 408                   Decemebr 2012 | ANP Total - 536


Sources: IJC, responses to SIGAR data call, 9/26/2012 and 12/20/2012.


of ANA units from 267 to 292 and the number of units “not assessed” from
51 to 81, as shown in Figure 3.24. For the ANP, the total number of units
rose from 408 to 536 and the number “not assessed” from 131 to 301.
   Because not every unit is reported in every CUAT cycle, the IJC used
the most recent assessment (within the last 18 months) to “enable cycle
to cycle comparisons.” When compared this way, 19 more ANA units were
“independent with advisors” since last quarter; three more were “effective
with advisors.” For the ANP, 31 more units were “independent with advi-
sors” and 10 fewer units were “effective with advisors.”109
   Because this is the first time unit changes had been reported in this way,
Figure 3.24 only shows the changes for those units assessed last quarter and
this quarter but does not include units that had been assessed within the
past 18 months. Starting next quarter, SIGAR will compare the number of
changes to rating levels using the new method for comparing quarterly data.
   Out of the 292 reported ANA units, 168 (58%) were rated at the two high-
est levels: 14% were “independent with advisors” and 43% were “effective
with advisors.” Out of 536 reported ANP units, 172 (32%) were rated at
those levels: 13% were “independent with advisors” and 19% were “effective
with advisors.”110




REPORT TO THE UNITED STATES CONGRESS                                I   JANUARY 30, 2013                       77
                                                                        SECURITY




FIGURE 3.25

CAPABILITY MILESTONE RATINGS OF MOD AND MOI, QUARTERLY CHANGE
                                                                    MoD                                                                                Mol

CM-1A: capable of                          0                                                                                        1
autonomous operations          CM-1A                                                                              CM-1A
                                           0                                                                                  0
CM-1B: capable of                                                         6                                                         1
executing functions with       CM-1B                                                                              CM-1B
coalition oversight only                                                  6                                                             2
CM-2A: capable of                                                                                       13                                                         9
executing functions with       CM-2A                                                                              CM-2A
minimal coalition assistance                                                                      12                                                         7
CM-2B: can accomplish its                                                                               13                                                                   11
mission but requires some      CM-2B                                                                              CM-2B
coalition assistance                                                                                    13                                                                            13
CM-3: cannot accomplish its                                                               10                                                                            10
mission without significant    CM-3                                                                               CM-3
coalition assistance                                                                 9                                                                       7

CM-4: exists but cannot                                   3                                                                   0
accomplish its mission         CM-4                                                                               CM-4
                                                      2                                                                                 2
                                           0                                                                                  0
Not Assessed                    NA                                                                                 NA
                                                          3                                                                   0
                                       0                            5                    10                  15           0                            5               10                  15

                                               December 2012                       September 2012                                 December 2012                  September 2012
                                               MoD Staff Sections                  MoD Staff Sections                             MoD Staff Sections             MoD Staff Sections

Sources: CSTC-A, responses to SIGAR data call, 10/1/2012 and 1/2/2013.


                                                                        MINISTRY OF DEFENSE AND MINISTRY OF INTERIOR
                                                                        ASSESSMENTS
                                                                        Assessments of the MoD and the MoI continued to show progress this
                                                                        quarter. To rate the operational capability of these ministries, NTM-A uses
                                                                        the Capability Milestone (CM) rating system. This system assesses staff
                                                                        sections (such as the offices headed by assistant or deputy ministers) and
                                                                        cross-functional areas (such as general staff offices) using four primary
                                                                        and two secondary ratings:111
                                                                        •	 CM-1A: capable of autonomous operations
                                                                        •	 CM-1B: capable of executing functions with coalition oversight only
                                                                        •	 CM-2A: capable of executing functions with minimal coalition
                                                                           assistance
                                                                        •	 CM-2B: can accomplish its mission but requires some coalition
                                                                           assistance
                                                                        •	 CM-3: cannot accomplish its mission without significant coalition
                                                                           assistance
                                                                        •	 CM-4: exists but cannot accomplish its mission

                                                                           At the MoD, all 45 staff sections and cross-functional areas were assessed
                                                                        this quarter as shown in Figure 3.25. Of those, one progressed. Three offices




                                                                              78                        SPECIAL INSPECTOR GENERAL                I     AFGHANISTAN RECONSTRUCTION
                                                                                            SECURITY




that had not been assessed in prior quarters were rated CM-2B (Director of
General Staff), CM-3 (MoD Chief of Health Affairs), and CM-4 (Afghan Air
Force Command).112
   All 32 staff sections at the MoI were assessed; five progressed since last
quarter. Notably, the MoI Office of Public Affairs achieved a CM-1A rating—
the highest possible rating—making it the first ministerial office within either
the MoD or MoI to be deemed capable of autonomous operations. The other
offices that progressed were the offices for Gender Affairs (CM-3), Force
Readiness (CM-2A), Afghan Uniform Police (CM-2A), and the Afghan Public
Protection Force (CM-3). A new staff section was included this quarter—an
office that manages fire services—and received a CM-3 rating.113


AFGHAN NATIONAL ARMY
As of December 31, 2012, the United States had obligated $28.1 billion and
disbursed $24.9 billion of ASFF funds to build, train, and sustain the ANA.114

ANA Strength
As of November 21, 2012, the overall strength of the ANA was 180,517
personnel (174,645 Army and 5,872 Air Force), according to CSTC-A. This
is a decrease of 10,331 since last quarter, as shown in Table 3.4. Of the
174,645 Army personnel, 23,138 are officers, 54,372 are noncommissioned
officers (NCOs), 93,265 are enlisted personnel, and 3,870 are cadets. Of the
TABLE 3.4


 ANA STRENGTH, QUARTERLY CHANGE
                                                         Authorized                                               Assigned
 ANA Component                        Q3 2012          Q4 2012         Quarterly Change               Q3 2012   Q4 2012      Quarterly Change
 201st Corps                            18,421 	18,421                        None                     19,613    17,966           -1,647
 203rd Corps                            20,614 	20,614                        None                     21,330    20,625             -705
 205th Corps                            19,075 	19,075                        None                     20,144    19,856             -288
 207th Corps                            14,706 	14,706                        None                     13,824    13,261             -563
 209th Corps                            14,852 	14,852                        None                     15,194    14,170           -1,024
 215th Corps                            17,542 	17,542                        None                     16,942    17,135            +193
 111th Capital Division                   9,608 	9,608                        None                     10,238     9,152           -1,086
 Special Operations Force               12,525 	12,525                        None                     10,193    10,338            +145
 Echelons Above Corpsa                  44,712 	44,712                        None                     36,438    36,858            +420
 TTHSb                                                                        None                     20,760    15,284           -5,476
 ANA Total                           172,055 	 172,055                        None                184,676       174,645         -10,031
 Afghan Air Force (AAF)                   7,639 	7,639                        None                      6,172     5,872             -300
 ANA + AAF Total                     179,694 	 179,694c                       None                190,848       180,517         -10,331

Notes: Q4 data is as of 9/6/2012. Q1 data is as of 11/21/2012.
a Includes MoD, General Staff, and Intermediate Commands
b Trainee, Transient, Holdee, and Student; these are not included in counts of authorized personnel
c Includes civilians


Source: CSTC-A, responses to SIGAR data calls, 10/1/2012, 1/2/2013, 1/4/2013, 1/6/2013, and 1/14/2013.




REPORT TO THE UNITED STATES CONGRESS                         I   JANUARY 30, 2013                               79
                                            SECURITY




                                            5,872 Afghan Air Force personnel, 2,199 are officers, 2,100 are NCOs, and
                                            1,573 are enlisted personnel. However, the number of forces assigned does
                                            not necessarily equal the number of personnel present for duty. Within the
                                            main combat forces (the six Army corps, the 111th Capital Division, and the
                                            Special Operations Force) only 62.3–80.4% of personnel were present for
                                            duty; 84% of Afghan Air Force personnel were present for duty.115

                                            ANA Sustainment
SIGAR AUDIT                                 As of December 31, 2012, the United States had obligated $9.5 billion and
                                            disbursed $9 billion of ASFF funds for ANA sustainment.116
In its audit of U.S.-funded fuel for the       In a January 2013 audit report of U.S.-funded fuel for the ANA, SIGAR
ANA, SIGAR found that CSTC-A could          found that CSTC-A lacked sufficient accountability to order, accept deliver-
not account for $1.1 billion in petro-      ies of, and pay for various types of fuel. In addition, estimates of the ANA’s
leum, oil, and lubricants provided to the   future fuel needs (which would require approximately $3.1 billion in U.S.
ANA from 2007 to 2012. SIGAR called         appropriations over the next six fiscal years) were not supported by vali-
for tighter controls to improve account-    dated fuel requirements or actual consumption data and may be overstated.
ability for these products. For more        The audit called for tighter controls over petroleum, oil, and lubricants for
information, see Section 2, p. 20.          the ANA’s vehicles, generators, and power plants.
                                               As part of sustainment funding, the United States has provided the ANA
                                            with ammunition at a cost of approximately $1.03 billion, according to
                                            CSTC-A.117

                                            ANA Salaries, Food, and Incentives
                                            As of December 8, 2012, the U.S. government had provided more than
                                            $1.5 billion through the ASFF to pay for ANA salaries, food, and incentives,
                                            including $142.6 million disbursed to the Afghan government this quarter,
                                            according to CSTC-A.118 The MoD tracks ANA expenditures for salaries,
                                            food, and incentives in the Afghanistan Financial Management Information
                                            System.119 According to CSTC-A, it is assumed that the Afghan government
                                            expends its own funds ($133.3 million in solar year 1391 [March 20, 2012 to
                                            March 20, 2013]) before U.S. funds are expended. CSTC-A estimated that
                                            the ANA will require $686.1 million per year for base salaries, bonuses,
                                            food, and incentives once it reaches its authorized strength.120
                                               CSTC-A said that all ANA personnel (including those in the Afghan Air
                                            Force) receive some sort of incentive pay as of November 20, 2012. CSTC-A
                                            also noted that payroll numbers are lower than end-strength numbers due
                                            to time delays in reporting between the payroll system and the personnel
                                            accounting system. For example, personnel who are absent without leave
                                            will stop receiving pay, but will be counted as part of the ANA’s end strength
                                            until they are dropped from personnel rolls.121
                                               Both SIGAR and DoD OIG have performed audits of U.S. funding sup-
                                            port for the ANSF payroll. In February 2012, DoD OIG found that NTM-A/
                                            CSTC-A did not implement adequate controls to ensure that $410.4 million
                                            of ANA payroll funds were properly advanced and reported to the MoD.




                                              80                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                                 SECURITY




In addition, DoD OIG found that CSTC-A needed to improve its mentoring
of the MoD so that the ministry can sustain the ANA payroll process with-
out coalition support. As part of that audit, DoD OIG recommended that
CSTC-A implement procedures to ensure the accuracy of the reconciliation
and distribution process.122

ANA Equipment and Transportation
As of December 31, 2012, the United States had obligated $9.9 billion and
disbursed $9.8 billion of ASFF funds for ANA equipment and transporta-
tion.123 Most of these funds were used to purchase weapons and related
equipment, vehicles, communications equipment, and aircraft and aviation-
related equipment.124 More than half of U.S. funding in this category was for
vehicles and transportation-related equipment, as shown in Table 3.5.
TABLE 3.5


COST OF U.S.-FUNDED ANA EQUIPMENT
 Type of Equipment                                            Procured           Remaining to be Procured
 Weapons                                                  $726,724,135                   $858,920
 Vehicles                                                $5,547,186,248                $4,436,000
 Communications Equipment                                 $580,511,688                         $0
 Total                                                   $6,854,422,071              $5,294,920
Source: CSTC-A, response to SIGAR data call, 1/2/2013.


   This quarter, the Afghan Air Force inventory consisted of 109 aircraft,
according to CSTC-A:125
•	 48 Mi-17s (transport helicopters)
•	 11 Mi-35s (attack helicopters)
•	 16 C-27As (cargo planes)
•	 22 C-208s (light transport planes)
•	 6 C-182s (four-person trainers)
•	 6 MD-530Fs (light helicopters)

                                                                                                            An Afghan Air Force student pilot steps
   DoD’s FY 2013 budget requested only $241.5 million to be allocated
                                                                                                            out of a MD-530 helicopter after completing
through the ASFF for ANA equipment and transportation—an 83% decrease                                       his first solo flight. (U.S. Air Force photo)
from the amount authorized for this purpose in FY 2012. The decrease
mainly reflects reduced need for additional equipment as the ANA nears
full target strength. The request did not include amounts for weapons
or vehicles; the requested funds would support the Afghan Air Force
($169.8 million), provide communications and intelligence equipment
($1.7 million), and support airlift operations ($70 million).126

ANA Infrastructure
As of December 31, 2012, the United States had obligated $6.2 billion
and disbursed $3.7 billion of ASFF funds for ANA infrastructure.127 As




REPORT TO THE UNITED STATES CONGRESS                      I   JANUARY 30, 2013                      81
                                            SECURITY




                                            of December 31, 2012, the United States had completed 207 infrastruc-
                                            ture projects (valued at $2.57 billion), with another 107 projects ongoing
                                            ($2.57 billion) and 58 planned ($1.09 billion), according to CSTC-A.128
                                               This quarter, the largest ongoing ANA infrastructure projects were a
                                            brigade garrison for the 201st Corps in Kunar (at a cost of $115.8 million),
                                            phase one of the MoD’s headquarters in Kabul ($89.5 million), and a brigade
                                            garrison for the 205th Corps in Kandahar ($89.1 million).129
                                               As noted in SIGAR’s April 2012 quarterly report, DoD’s FY 2013 budget
                                            request for ANA infrastructure was 85% less than the amount authorized
ANA and ISAF officials attend a ground-     in FY 2012. The FY 2013 request is not for construction projects, but for
breaking ceremony for the Afghan National   upgrades and modernizations of garrisons and force-protection systems,
Army Officers Academy. (NTM-A Photo)        and to prepare coalition facilities for handover to the ANSF as U.S. forces
                                            are drawn down.130

                                            ANA and MoD Training and Operations
                                            As of December 31, 2012, the United States had obligated $2.5 billion
                                            and disbursed $2.5 billion in ASFF funds for ANA and MoD operations
                                            and training.131 This quarter, 69,776 ANA personnel were enrolled in
                                            some type of training—of which 54,881 were enrolled in literacy training,
                                            according to CSTC-A. In addition, 6,946 enlisted personnel were enrolled
                                            in basic warrior training courses, 2,360 were training to become officers,
                                            and 1,751 were training to become noncommissioned officers (NCOs).
                                            Other training programs include combat specialty courses such as infan-
                                            try training; combat support courses such as engineering, signals, and
                                            logistics; and courses to operate the high-mobility multipurpose wheeled
                                            vehicle (HMMWV).132
                                               According to CSTC-A, the United States funds a variety of contracts to
                                            train the ANA. CSTC-A estimates that these training activities cost approxi-
                                            mately $560 million per year (or $140 million per quarter) and include costs
                                            for personnel, food, fuel, ammunition, facilities, and medical support.133

                                            ANA Literacy
                                            The ANA’s literacy program is based on a 312-hour curriculum. According
                                            to CSTC-A, in order to progress from illiteracy to functional literacy,
                                            a student may take as many as seven tests. The student’s performance
                                            determines if he or she progresses to the next training level. As of
                                            December 1, 2012, the ANA success rates for the passing these tests
                                            were: 95% for Level 1 literacy, 97% for Level 2, and 97% for Level 3.134 As
                                            noted in prior SIGAR quarterly reports, Level 1 literacy provides an indi-
                                            vidual with the ability to read and write single words, count up to 1,000,
                                            and add and subtract whole numbers. At Level 2, an individual can read
                                            and write sentences, carry out basic multiplication and division, and
                                            identify units of measurement. At Level 3, an individual has achieved
                                            functional literacy and can “identify, understand, interpret, create,




                                              82                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                              SECURITY




communicate, compute and use printed and written materials.” NTM-A/
CSTC-A noted that at Level 3 the student is transitioning from learning to
read to reading to learn.135 Since the start of the ANA literacy program in
October 2009, the number of ANA graduates at Level 3 was 22,794 as of
November 2012.136
   Since 2010, the United States has funded three literacy contracts for the
ANSF. Each has a base year and a five-year limit—one-year options may
be exercised in August of each year—and a maximum cost of $200 million.
According to CSTC-A, these contractors were providing 1,391 literacy train-
ers to the ANA:137
•	 OT Training Solutions, a U.S. company, was providing 517 trainers.
•	 Insight Group, an Afghan company, was providing 318 trainers.
•	 The Higher Education Institute of Karwan, an Afghan company, was
   providing 556 trainers.

    CSTC-A said responsibility for literacy training for ANA personnel in the
field will transition to the ANA between July 1, 2013, and January 31, 2014.
Literacy training at ANA training centers will transition by December 2014.
In the meantime, a new contract is being coordinated to provide training for
Afghan literacy trainers ahead of the transition.138

Women in the ANA
As of November 20, 2012, ANA personnel included 380 women—268 offi-
cers, 105 NCOs, and seven enlisted personnel—according to CSTC-A.
This is about the same number as last quarter. CSTC-A noted that these
numbers include 34 Afghan Air Force personnel. The current target is for
women to make up 10% of the 195,000-strong combined ANA and Afghan
Air Force.139
   Recruitment of women remains a low priority for the ANA, according to
CSTC-A. The ANA lacks a centralized and structured process to screen, test,
and process women applicants. However, the ANA has recognized the need
for women in fields such as intelligence and law, and has been supportive of
hiring women to fill such positions.140
   NTM-A has two priorities for supporting recruitment and integration
of women into the ANA: establishing a Human Rights, Ethnic Balancing,
and Gender Integration Office within the MoD, and a program to support
recruiting women into the Intelligence Branch.141
   In response to a vetting draft of this report, DoD noted that recruit-
ment and employment of women continues to be problematic for a range
of factors. However, DoD said, “training capacity continues to be set
aside for female recruits.” For example, two officer-candidate school
classes with a capacity of 60 female students were scheduled for 2012;
however, only one class had graduated students—11 of them—as of
September 2012.142




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2013            83
                                                                    SECURITY




                                                                    AFGHAN NATIONAL POLICE
                                                                    As of December 31, 2012, the United States had obligated $14.6 billion and
                                                                    disbursed $12.9 billion of ASFF funds to build, train, and sustain the ANP.143

                                                                    ANP Strength
                                                                    As of November 20, 2012, the overall strength of the ANP was 151,080
                                                                    personnel—106,235 Afghan Uniform Police (AUP), 21,928 Afghan Border
                                                                    Police (ABP), 14,383 Afghan National Civil Order Police (ANCOP), 2,581 in
                                                                    the Counter Narcotics Police of Afghanistan (CNPA), and 5,953 students in
                                                                    training—according to CSTC-A. This is an increase of 2,160 personnel since
                                                                    last quarter, as shown in Table 3.6. Of these personnel, 24,567 are officers,
                                                                    43,660 are NCOs, 74,319 are patrolmen, and 5,953 are students in training.
                                                                    CSTC-A noted that the CNPA are included in overall ANP numbers.144
TABLE 3.6


ANP STRENGTH, QUARTERLY CHANGE
                                                                             Authorized                                                                  Assigned
 ANP Component                                      Q3 2012                  Q4 2012             Quarterly Change               Q3 2012                  Q4 2012    Quarterly Change
 AUP                                           	110,279                	110,279                          None                    106,538                 106,235           -303
 ABP                                           	23,090                 	23,090                           None                      22,243                 21,928           -315
 ANCOP                                         	14,541                 	14,541                           None                      14,585                 14,383           -202
 NISTAa                                                                                                  None                       2,437                  5,953        +3,516
 Other b                                                                                                 None                          536
 ANP Total                                     	   156,910 c           	    157,000 c                    +90                   146,339                  148,499        +2,160
 CNPA                                          	2,986                            NR                                                 2,622                  2,581            -41
 ANP + CNPA Total                                                                                                              148,961                  151,080        +2,119

Notes: Q3 data is as of 8/21/2012. Q4 data is as of 11/20/2012; NR = Not reported
a Personnel in training
b Officer graduates awaiting assignment
c Total ANP authorized figures are higher than the sum of the AUP, ABP, and ANCOP. It was unclear if other components were included in the ANP total.


Source: CSTC-A, responses to SIGAR data calls, 10/1/2012, 1/2/2012, and 1/4/2013.



                                                                    ANP Sustainment
    SIGAR AUDIT                                                     As of December 31, 2012, the United States had obligated $4.8 billion, and
                                                                    disbursed $4.6 billion of ASFF funds for ANP sustainment.145
    SIGAR’s audit of ANP vehicle mainte-                               This quarter, a SIGAR audit of ANP vehicle maintenance found that the
    nance found that the United States                              United States could save millions of dollars if the manner of determining
    spent $6.8 million over 17 months                               the number of vehicles to be serviced was changed.
    to maintain vehicles that had already
                                                                       As part of sustainment funding, the United States has provided the ANP
    been destroyed. For more information,
                                                                    with ammunition at a cost of approximately $288 million.146
    see Section 2, p. 18.
                                                                    ANP Salaries
                                                                    From 2008 through December 31, 2012, the U.S. government had provided
                                                                    $818 million through the ASFF to pay ANP salaries and incentives (extra pay
                                                                    for personnel engaged in combat or employed in specialty fields), CSTC-A




                                                                           84                          SPECIAL INSPECTOR GENERAL                   I    AFGHANISTAN RECONSTRUCTION
                                                                                  SECURITY




reported. However, that number does not include non-ASFF funds. Since
2002, the United States has provided approximately $1.01 billion through the
Law and Order Trust Fund for Afghanistan (LOTFA) to support the ANP. The
LOTFA is a multi-national trust fund, administered by the United Nations
Development Programme (UNDP), that provides funds to the Afghan gov-
ernment to support the police. The United States also provided $51.5 million
outside of LOTFA for Afghan Local Police (ALP) salaries and incentives.147
   According to CSTC-A, when the ANP reaches its final strength of 157,000
personnel, it will require an estimated $628.1 million per year to fund
salaries ($265.7 million), incentives ($224.2 million), and food ($138.2 mil-
lion).148 This estimated cost is less than the $726.9 million reported last
quarter. CSTC-A noted that this was due to temporary pay increases moved
from salaries to incentives, the exclusion of ALP expenses now reported
separately, and a change in exchange rates.149

ANP Equipment and Transportation
As of December 31, 2012, the United States had obligated $3.5 billion, and
disbursed $3.4 billion of ASFF funds for ANP equipment and transporta-
tion.150 Most of these funds were used to purchase weapons and related
equipment, vehicles, and communications equipment.151 Most U.S. funding
in this category was for vehicles and transportation-related equipment, as
shown in Table 3.7.

TABLE 3.7


COST OF U.S.-FUNDED ANP EQUIPMENT
 Type of Equipment                                                 Procured       Remaining to be Procured
 Weapons                                                       $366,079,788                   $14,288,272
 Vehicles                                                  $2,687,549,123                     $19,386,607
 Communications Equipment                                      $201,958,600                       $42,500
 Total                                                   $3,255,587,511                    $33,717,379
Source: CSTC-A, response to SIGAR data call, 1/2/2013.




ANP Infrastructure
As of December 31, 2012, the United States had obligated $3.5 billion
and disbursed $2.1 billion of ASFF funds for ANP infrastructure.152 As
of December 31, 2012, the United States had completed 478 infrastruc-
ture projects (valued at $1.45 billion), with another 247 projects ongoing
($1.38 billion) and 38 planned ($403 million), according to CSTC-A.153
   This quarter, the largest ongoing ANP infrastructure projects were
regional police-training centers in Kandahar (at a cost of $62.3 million) and
Herat ($62.2 million), and administrative facilities at the MoI Headquarters
($59.5 million).154 During this reporting period, SIGAR issued an inspection
report which highlighted a number of concerns with a U.S.-funded Afghan




REPORT TO THE UNITED STATES CONGRESS                       I   JANUARY 30, 2013                      85
                                          SECURITY




                                          Border Police Company headquarters in Kunduz. SIGAR found that the
                                          $7.3 million project was sitting largely unused. Another SIGAR inspection
SIGAR INSPECTIONS                         report of a $17.7 million ANP provincial headquarters in Kunduz raised con-
SIGAR’s inspections of two ANP facili-    cerns about the facility’s long-term usability and sustainability.
ties in Kunduz found that a U.S.-funded      DoD’s FY 2013 budget request for ANP infrastructure was 85% less than
Afghan Border Police Company head-        the amount authorized in FY 2012. The FY 2013 request is not for con-
quarters was sitting largely unused and   struction projects, but for upgrades and modernizations of garrisons and
raised concerns about the long-term       force-protection systems, and to prepare coalition facilities for handover to
usability and sustainability of an ANP    the ANSF as the U.S. forces are drawn down.155
provincial headquarters. For more
information, see Section 2, pp. 28–29.    ANP Training and Operations
                                          As of December 31, 2012, the United States had obligated $2.8 billion, and dis-
                                          bursed $2.8 billion of ASFF funds for ANP and MoI training and operations.156

                                          ANP Literacy
                                          The ANP’s literacy program, like the ANA’s, is based on a 312-hour cur-
                                          riculum. According to CSTC-A, in order to progress from illiteracy to
                                          functional literacy, a student may take as many as seven tests. The stu-
                                          dent’s performance determines if he or she progresses to the next training
                                          level. As of December 1, 2012, the ANP success rates for the passing these
                                          tests were: 90% for Level 1 literacy, 90% for Level 2, and 86% for Level 3. As
                                          noted in prior SIGAR quarterly reports, Level 1 literacy provides an indi-
                                          vidual with the ability to read and write single words, count up to 1,000,
                                          and add and subtract whole numbers. At Level 2 an individual can read and
                                          write sentences, carry out basic multiplication and division, and identify
                                          units of measurement. At Level 3 an individual has achieved functional
                                          literacy and can “identify, understand, interpret, create, communicate,
                                          compute and use printed and written materials.” Since the start of the ANP
                                          literacy program in October 2009, the number of ANP graduates at Level 3
                                          is 23,743.157
                                              Since 2010, the United States has funded three literacy contracts for the
                                          ANSF. Each has a base year and a five-year limit—one-year options may
                                          be exercised in August of each year—and a maximum cost of $200 million.
                                          According to CSTC-A, these contractors were providing 1,776 literacy train-
                                          ers to the ANP:158
                                           •	 OT Training Solutions, a U.S. company, was providing 468 trainers.
                                           •	 Insight Group, an Afghan company, was providing 401 trainers.
                                           •	 The Higher Education Institute of Karwan, an Afghan company, was
                                              providing 907 trainers.

                                              CSTC-A said responsibility for literacy training for ANP personnel in the
                                          field will transition to the ANP between July 1, 2013, and January 31, 2014.
                                          Literacy training at ANP training centers will transition by December 2014.159




                                            86                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                              SECURITY




Women in the ANP
As of November 20, 2012, ANP personnel included 1,457 women—221 offi-
cers, 590 NCOs, and 646 enlisted personnel—according to CSTC-A. The goal
is for the ANP to recruit 5,000 women by March 2014. According to CSTC-A,
Minister of Interior Patang has made gender issues one of his top 10 priori-
ties. His deputy minister announced that he will host a gender conference
and invite professional police women from other Islamic countries to dis-
cuss strategies for recruiting women in the ANP. A U.S. advisor from NTM-A/
CSTC-A continues to work with and mentor the MoI on gender issues.160


ANSF MEDICAL/HEALTH CARE
As of the end of this quarter, the ANSF health care system had 746 physi-
cians—a decrease of 139 since last quarter—out of 1,032 needed. Of these,
544 were assigned to the ANA and 202 were assigned to the ANP. In addi-
tion, it had 7,552 medical personnel (including nurses and medics)—a
decrease of 975 since last quarter—out of 10,825 needed.161


AFGHAN LOCAL POLICE
This quarter, the number of trained and equipped Afghan Local Police
(ALP) personnel—called “guardians”—was 18,435.162 On December 9,
2012, the MoI increased the target number for ALP strength from 30,000 to
45,000, according to the Special Operations Joint Task Force-Afghanistan
(SOJTF-A). SOJTF-A said that coalition forces support the increase as part
of their overall security plan.163 According to the U.S. Central Command,
the ALP are operational at 92 sites. The United States has obligated
$108.6 million to support the ALP. Of that amount, $40.6 million are direct
contributions to the Afghan Ministry of Finance and $68 million are “in-
kind” funds that are used by U.S. forces to support the ALP.164


AFGHAN PUBLIC PROTECTION FORCE
SIGAR has closely followed the development of the Afghan Public
Protection Force (APPF) from its creation to its current role as
Afghanistan’s state-owned security force. Following President Karzai’s 2010
decree to disband all national and international private security compa-
nies (PSCs), the Afghan government implemented a bridging strategy for a
phased transition process.
   As of the end of the quarter, 36 PSCs continue to operate in Afghanistan,
most of which will be disbanded; 12 PSCs will continue to provide diplo-
matic security after the transition. The APPF has signed 198 contracts for
their services.165




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2013           87
SECURITY




    As part of the transition, the APPF, a state-owned enterprise under the
authority of the MoI, was expected to assume responsibility for security of
development and humanitarian projects in March 2012. However, as noted
in SIGAR’s October 2012 quarterly report, it was unclear if the APPF had
achieved that goal. IJC noted that the APPF had yet to provide security for
all sites and was not providing convoy security. The APPF is scheduled to
assume responsibility for security at military installations in March 2013.
    The APPF has been growing rapidly and continues to integrate former
PSC guards into its ranks. Last quarter, the number of personnel in the
APPF nearly doubled over the preceding quarter. As of December 26, 2012,
the number of personnel assigned to the APPF was 14,141—a 25% increase
since last quarter—according to CSTC-A. Of these, 826 were officers, 1,539
were NCOs, and 11,776 were guards.166 As of June 4, 2012, the target goal for
the APPF was approximately 30,000 guards by March 2013.167


U.S. FORCES
According to the U.S. Central Command, 70,900 U.S. forces were serving in
Afghanistan as of December 31, 2012. Of those, approximately 52,000 were
assigned to ISAF and 2,000 to NTM-A/CSTC-A. Of the remaining U.S. per-
sonnel, 7,400 were assigned to the U.S. Forces-Afghanistan and 9,500 were
designated “other military personnel.”168


REMOVING UNEXPLODED ORDNANCE
From 2002 through 2012, the U.S. Department of State has provided
$253.2 million in funding for weapons destruction and de-mining assistance
to Afghanistan, according to its Political-Military Affairs’ Office of Weapons
Removal and Abatement (PM/WRA). Through its Conventional Weapons
Destruction program, the Department of State funds five Afghan nongovern-
mental organizations (NGOs), five international NGOs, the United Nations
Mine Action Service, and a U.S. government contractor. These funds enable
the clearance of areas contaminated by explosive remnants of war, support
the removal and destruction of abandoned weapons used by insurgents
to construct improvised explosive devices, and provide mentoring to the
Afghan government’s Department of Mine Clearance.169
    PM/WRA uses data from the Mine Action Coordination Center of
Afghanistan (MACCA) to gauge program effectiveness and highlight the
challenges that remain. In prior quarters, MACCA had only included mine-
fields in estimating contaminated areas remaining in Afghanistan. This
quarter, MACCA revised its reporting format to also include—in addition
to minefields—areas contaminated by other weapons and ordnance. For
this reason, the estimated contaminated areas increased by 24,700,000
square meters from the last reporting period.170 Despite this change, over




  88                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                                        SECURITY




TABLE 3.8


CONVENTIONAL WEAPONS DESTRUCTION PROGRAM METRICS, OCTOBER 1, 2011–SEPTEMBER 30, 2012
                                                                                                                                                             Estimated Contaminated
 Date Range                  AT/AP Destroyed         UXO Destroyed         SAA Destroyed          Fragments Cleared          Minefields Cleared (m2)            Area Remaining (m2)
 10/1–12/31/2011                         2,616                 88,998             449,589                 13,376,738                        13,097,574               	588,000,000
 1/1–3/31/2012                           2,113                 62,043             467,071                   3,364,885                       14,604,361               	585,000,000
 4/1–6/30/2012                           1,559                 28,222              20,580                   3,601,378                        7,251,257               	563,000,000
 7/1–9/30/2012                           5,542                165,100             121,520                   2,569,701                       11,830,335               	587,700,0001
 Total                                11,830              344,363            1,058,760                  22,912,702                       46,783,527                  587,700,000
Notes: AT/AP = anti-tank/anti-personnel ordnance. UXO = unexploded ordnance. SAA = small-arms ammunition. Fragments are reported because their clearance requires the same care as for
other objects until their nature is determined.
1 Increase due to a change in MACCA’s reporting format that now includes areas contaminated by weapons and ordnance in addition to minefields


Source: DoS, PM/WRA, response to SIGAR data call, 12/31/2012 and 1/2/2013.




a year-long reporting period, the total estimated contaminated areas still
decreased, as shown in Table 3.8.


COUNTER-NARCOTICS
As of December 31, 2012, the United States had appropriated $6.1 bil-
lion for counter-narcotics initiatives in Afghanistan since efforts began in
2002. Most of these funds were appropriated through two sources: State’s
International Narcotics Control and Law Enforcement (INCLE) account
($3.6 billion), and the DoD Drug Interdiction and Counter-Drug Activities
(DoD CN) fund ($2.4 billion).171
   DoD and State’s Bureau of International Narcotics and Law Enforcement
Affairs (INL) coordinate to support the counter-narcotics efforts of the MoI
and the Counter-Narcotics Police of Afghanistan (CNPA), INL stated. For
example, in some provinces, DoD funded the construction of forward oper-
ating bases used by the CNPA’s National Interdiction Unit; INL funded the
maintenance of those bases.172

Poppy Eradication
INL provides financial support to the Afghan government’s Governor-Led
Eradication (GLE) program. INL said 9,672 hectares of poppy were eradi-
cated in 2012 through the GLE program. The United States has provided
$6.4 million to Afghan government institutions as part of this program.173
   In response to a vetting draft of this report, DoD questioned whether
“GLE by itself or coupled with an [Alternative Livelihood] campaign has
a positive or negative effect on the Coalition’s goal of reducing insurgent
funding.” DoD said that GLE may push some opium farmers away from
Afghan government-controlled areas and into insurgent-influenced areas.
DoD also said that the Afghan Ministry of Counter Narcotics (MCN)
“believes GLE is most effective when paired with an Alternative




REPORT TO THE UNITED STATES CONGRESS                      I    JANUARY 30, 2013                                 89
SECURITY




CNPA destroy 25 tons of narcotics and narcotic-related chemicals, including opium and
hashish, seized in Kabul over a nine-months period. (State Department photo)


Livelihood (AL) campaign designed to give subsistence farmers a viable
alternative to growing poppy.”174
   INL also works with the MCN to achieve and sustain poppy-free prov-
inces. For example, INL funds the MCN’s Good Performer’s Initiative (GPI)
which helps governors see the benefit of reducing poppy cultivation in their
provinces through incentives. According to INL, a province becomes eligi-
ble for $1 million in GPI development projects if it is deemed poppy-free or
has fewer than 100 hectares under cultivation during the year. The United
States has provided $128.9 million to provincial governments through this
program. In 2012, the number of provinces that qualified for GPI awards
was 17, the same number as in 2011. INL noted that since the start of the
GPI in 2007, more than 100 development projects—including the construc-
tion of schools, roads, bridges, agricultural, and medical facilities—are
either complete or in progress in 33 provinces.175
   In 2012, INL funded the Counter-Narcotics Public Information program in
18 provinces to prevent and combat illicit drug cultivation, production, and
consumption in both poppy-free and high-cultivating areas. In addition, INL
funds a grant to the Aga Khan Foundation which focuses on helping six key
provinces hold on to success in eliminating poppy cultivation by working
with communities and local NGOs to increase opportunities for residents to
find non-narcotics-related jobs.176

INL-funded Counter Narcotics Reports
INL funded several reports and surveys on narcotics in Afghanistan, four of
which were released this quarter.




  90                   SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
                                                              SECURITY




UNODC Opium Survey 2012
INL funded the United Nations Office on Drugs and Crime’s (UNODC’s)
Afghanistan Opium Survey for 2012. In that report, the UNODC found
that the number of hectares being used to cultivate poppy increased
from 131,000 in 2011 to 154,000 in 2012. However, the amount of opium
yielded per hectare dropped from 44.5 kg in 2011 to 23.7 kg in 2012—a 47%
decrease. UNODC noted reports from the eastern, western, and southern
regions of Afghanistan that a significant area had been affected by disease
and/or weather conditions that reduced the opium yield. In addition, the
numbers of hectares eradicated by the GLE program nearly tripled from            Farm Gate Price: the price of the product
3,810 in 2011 to 9,672 in 2012.177                                               available at the farm, excluding any sepa-
   UNODC estimated that the potential production of opium will drop              rately billed transport or delivery charge.
from 5,800 tons to 3,700 tons. The value (based on farm gate price) of that
opium also fell by nearly half—$1.4 billion in 2011 to $700 million in 2012.
Moreover, the gross income from opium per hectare fell from $10,700 in
                                                                               Source: IMF, “Producer Price Index Manual: Theory and
2011 to $4,600 in 2012.178                                                     Practice,” 2004, p. 598.



Urban Drug Use in Afghanistan
In December 2012, INL released the Afghanistan National Urban Drug Use
Survey 2012. The survey was conducted to “provide an objective assess-
ment of drug use in the country of Afghanistan that helps its government,
the United States Department of State and the international community
develop strategies for illicit drug demand reduction.” The report com-
bined surveys of urban households with scientific testing of hair, saliva,
and urine to determine the extent of drug use in the capitals of 11 prov-
inces. In the urban areas studied, the report estimated the following rates
of drug use prevalence:179
 •	 11.4% of households
 •	 5.3% of the total urban population
 •	 7.5% of adults (10.6% of males; 4.3% of females)
 •	 2.3% of children

Evaluation of Drug Treatment
In 2005, INL began funding the operations of several drug treatment centers
in Afghanistan. In 2009, INL asked an independent research firm to evaluate
drug abuse treatment in Afghanistan. One of the aims of the evaluation was
to assess the change in illegal drug use, alcohol use, and criminal behavior
following treatment. Seven drug abuse treatment centers participated in the
evaluation—four centers for men and three for women and children—in
cities in five provinces.180
   In October 2012, the evaluation found that patients participating
in treatment were positively impacted. For example, it showed a 12%
decrease in the number of patients that had used drugs following treat-
ment. There was also a 31% decrease in the number of opiate users




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2013            91
                                                            SECURITY




                                                            reverting to drug use and a 76% decrease in the number of alcohol users
                                                            using alcohol after treatment.181

                                                            Opiate Trafficking and Trade in Western and Central Asia
                                                            INL also funded a UNODC report that analyzed the role of dry ports in
  Dry port: an inland intermodal terminal                   regional trade networks of Western and Central Asia and highlighted the
  directly connected by road or rail to a sea-              risk of their abuse by drug traffickers. A number of the report’s findings
  port. Dry ports include facilities for storage            were directly related to Afghan narcotics trafficking. For example, UNODC
  and consolidation of goods in transit and                 found that the volume of Afghan imports and exports had more than tripled
  customs clearance services.                               between 2004 and 2010; however, law enforcement capacity had not been
                                                            enhanced to combat narcotics trade. Of the 48 dry ports in the region, the
                                                            largest number (17) were in Afghanistan. Most drug seizures were at main
Source: U.S. International Trade Commission, “Sub-Saharan
                                                            hubs along the trade routes in Central Asia and in Afghanistan, Iran, and
Africa: Effects of Infrastructure Conditions on Export
Competitiveness, Third Annual Report,” 4/2009, pp. 6-41,
                                                            Pakistan. In addition, since the Central Asian rail network was extended to
accessed 1/12/2013.                                         Afghanistan, several heroin seizures had been reported along it. Due to the
                                                            large amount of trade in the region, only a limited number of containers can
                                                            be inspected by customs officials at ports and border control points.182

                                                            Counter-Narcotics Police of Afghanistan
                                                            This quarter, the number of personnel assigned to the Counter-Narcotics
                                                            Police of Afghanistan (CNPA) was 2,581—a decrease of 41 since last quar-
                                                            ter. The drop was directly related to attrition, according to CSTC-A.183
                                                               NTM-A and the Drug Enforcement Administration (DEA) provide men-
                                                            tors and advisors to the CNPA. According to CSTC-A, NTM-A provides 16
                                                            advisors and U.S. Central Command funds 33 counter-narcotics trainers (of
                                                            which 20 are in country at a time). According to CSTC-A, a U.S. company
                                                            (CACI) provides 37 staff to assist the CNPA.184

                                                            Interdiction Operations
                                                            From October 1 through December 31, 2012, the ANSF partnered with U.S.
                                                            and ISAF to conduct 51 interdiction operations—partnered patrols, cordon
                                                            and search operations, and deliberate detention operations—according to
                                                            DoD. These operations resulted in 81 detentions and led to the seizure of
                                                            the following narcotics contraband:185
                                                            •	 24,180 kg of hashish
                                                            •	 13,528 kg of opium
                                                            •	 224 kg of morphine
                                                            •	 692 kg of heroin
                                                            •	 3,490 kg of narcotics-related chemicals

                                                               The U.S. military provided general logistics and intelligence support in
                                                            addition to on-ground quick-reaction assistance, according to DoD. DEA
                                                            mentored specialized units throughout the country to establish investi-
                                                            gative and law enforcement capability. In addition, the U.S. Intelligence




                                                              92                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                              SECURITY




Community continued to provide targeting and analytical support to the
Afghan military and law enforcement agencies at the strategic, operational,
and tactical levels.186
   As in past quarters, most interdiction activities continued to occur in the
south and southwest, where the majority of opiates are grown, processed,
and smuggled out of Afghanistan. According to DoD, Afghan forces in these
areas increasingly led patrols and military operations as ISAF units with-
drew in line with transition plans. DoD noted that Afghan specialized units
continued to demonstrate an ability to operate independently, aided in part
by logistical and intelligence support from ISAF. Afghan counter-narcotics
investigators continued to refine their intelligence-collection priorities in
combating known drug-trafficking networks and identifying drug-process-
ing labs, storage sites, and trafficking routes.187
   Conventional and specialized Afghan units executed a number of opera-
tions with support from interagency elements, including the Combined
Joint Interagency Task Force-Nexus (CJIATF-N) and the Interagency
Operations Coordination Center (IOCC). CJIATF-N and IOCC integrate
information from various military and law enforcement sources to enable
operations against corrupt narco-insurgent elements. According to DoD, all
operations were coordinated with and received support from U.S. and coali-
tion military commanders.188




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2013             93
CONTENTS
CONTENTS
Reconciliation and Reintegration	       95
National and Sub-National Governance	   99
Judicial Reform and Rule of Law	        111
Anti-Corruption	116
Human Rights	                           120




  94
                                                                      GOVERNANCE




GOVERNANCE
As of December 31, 2012, the United States had appropriated $22.4 billion to
support governance and economic development in Afghanistan.189 Most of
this funding, $15.1 billion, was appropriated to the Economic Support Fund
(ESF), which is administered by the United States Agency for International
Development (USAID). The country’s endemic corruption, underperform-
ing judicial sector, difficulties in establishing and maintaining governmental
authority, and persistent human-rights violations continued to complicate
U.S. efforts to establish a stable and mature Afghan government.


RECONCILIATION AND REINTEGRATION
Afghanistan’s political and economic strategy—as articulated in the National
Priority Programs (NPP) it has been developing since 2010—makes peace
and reconciliation a primary objective. Afghans have generally supported
reconciliation efforts, as shown in Figure 3.26. This quarter, the Afghan
and Pakistani governments met on reconciliation. In addition, the Afghan


FIGURE 3.26

AFGHAN PUBLIC'S VIEWS ON AFGHAN GOVERNMENT'S RECONCILIATION EFFORTS AND
NEGOTIATIONS WITH ARMED OPPOSITION

100%
 90%
 80%
 70%
 60%
 50%
 40%
 30%
 20%
 10%
 0%
                 2009                         2010                        2011                2012
                                               Agree                    Disagree

Notes: Survey margin of error is plus or minus 5.1%. Numbers have been rounded.
Source: The Asia Foundation, "Afghanistan in 2012, A Survey of the Afghan People," 11/2012.




REPORT TO THE UNITED STATES CONGRESS                     I   JANUARY 30, 2013                    95
                                                            GOVERNANCE




                                                            government and its High Peace Council, members of the Taliban, and Hizb-
                                                            e-Islami met in France. The Afghan government also produced a “Peace and
                                                            Reconciliation Roadmap” to guide negotiations. President Barack Obama
                                                            and Afghan President Hamid Karzai discussed the proposed roadmap in
                                                            Washington and agreed to support opening an office in Doha, Qatar, for the
                                                            Taliban to facilitate the process and involve other regional players, includ-
                                                            ing Pakistan. However, enormous challenges remain, including the Taliban’s
                                                            continued reluctance to negotiate with the Afghan government, which it
                                                            characterizes as a “puppet of the foreign invaders.”190

                                                            High Peace Council
                                                            The chairman of Afghanistan’s High Peace Council, Salahuddin Rabbani, led
                                                            a delegation to Islamabad to meet with Pakistan’s president, prime minister,
                                                            and army chief of staff on November 12–14. Pakistan will play a crucial role
                                                            in any peace negotiations because the Taliban’s senior leadership oper-
                                                            ates from sanctuaries in northwest Pakistan. Rabbani hoped to convince
                                                            Pakistan to encourage reconciliation between the Afghan government and
                                                            insurgents, some of whom have been supported by Pakistan. Following the
                                                            meeting, Pakistan in November and December released a number of Taliban
                                                            members it had detained. The Taliban’s former justice minister was report-
                                                            edly included in the December release.191
                                                                Rabbani also sought ways for the international community to aid recon-
                                                            ciliation. He visited the United Nations (UN) in November to consult with
                                                            the UN Security Council on its role in supporting an Afghan peace process.
                                                            His efforts helped lead to the adoption of UN Security Council Resolution
                                                            2082, which temporarily lifts travel restrictions on senior Taliban leaders
                                                            engaging in peace efforts, increasing the Taliban’s ability to negotiate.192
  Afghanistan Peace and Reintegration
  Program: the Afghan government’s main
                                                            Afghanistan Peace and Reintegration Program
  program for promoting and managing                        In the first two months of the quarter, the Afghanistan Peace and
  insurgent reintegration. It provides a way                Reintegration Program (APRP) grew modestly with 531 insurgents enroll-
  for Taliban members and other anti-govern-                ing in the program, bringing the total number of reintegrees enrolled in the
  ment elements to renounce violence and                    program since its inception to 5,577. The vast majority (79%) of reintegrees
  become productive members of Afghan                       throughout the program’s history have come from the less volatile north
  society. The program attempts to give                     and west regions of the country, as shown in Figure 3.27.193
  development opportunities to individuals                     The APRP finalized a grievance-resolution strategy in June 2012 that
  who peacefully re-enter society. A Joint                  would promote reintegration by identifying and prioritizing disputes that
  Secretariat, an inter-agency body with rep-               drive violence and by conducting outreach to alleviate them, but the strategy
  resentation from the International Security               had not been put into practice at year’s end. The U.S. Embassy Kabul and the
  Assistance Force, administers the program.
                                                            International Security Assistance Force’s (ISAF’s) Force Reintegration Cell
                                                            have repeatedly discussed this issue with the APRP’s Joint Secretariat, but
                                                            the Secretariat claims that political sensitivities have prevented the strategy’s
Sources: United Nations Development Programme (UNDP),       implementation. The Joint Secretariat did initiate a reintegration program
“UNDP Support to Afghan Peace and Reintegration Program,”
5/2011; ISAF, “APRP,” accessed online 7/17/2012.            specifically tied to insurgent commanders in December 2012. The State




                                                              96                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                           GOVERNANCE




FIGURE 3.27

REINTEGREES BY REGIONAL COMMAND, DECEMBER 2011-DECEMBER 2012

6,000


5,000
                                                                                                                                                RC-NORTH


4,000
                                                                                                                                                         RC-CAPITAL
                                                                                                                 RC-WEST

3,000                                                                                                                                                RC-EAST



                                                                                                                                    RC-SOUTH
2,000
                                                                                                              RC-SOUTHWEST


1,000


      0
             Dec 2011         Mar 2012           Jun 2012        Sep 2012         Dec 2012


Notes: Data for this quarter did not include all of December 2012. Data for RC-Capital was not given until June 2012. The decrease in RC-North in March 2012 was due to the Joint Secretariat
disqualifying approximately 250 previous enrollees from Sar-e Pul.
Source: DoS, responses to SIGAR data call, 1/2/2013, 10/2/2012, 7/5/2012, 3/30/2012, and 12/30/2011.


Department was optimistic this quarter that this program could jump-start                                                           FIGURE 3.28
reintegration in the south and east.194 The Afghan public views the presence
                                                                                                                                    AFGHAN PUBLIC'S VIEWS ON WHY ARMED
of foreign troops, the desire to gain power, corruption in the government,
                                                                                                                                    OPPOSITION GROUPS FIGHT THE AFGHAN
and Pakistani support as the four most important reasons for individuals to
                                                                                                                                    GOVERNMENT (PERCENT)
join the insurgency, as shown in Figure 3.28.
   The development of the APRP has not precluded informal reintegration,
in which insurgents lay down their weapons but do not officially join the
APRP out of fear for their safety if they enter an open program.195                                                                                     Presence        To Gain
                                                                                                                                                        of Foreign      Power
                                                                                                                                                        Troops          16
Capacity Development for Reintegration                                                                                                                  21
The capacity, competency, and activity levels of Provincial Joint Secretariat                                                                                              Illiteracy
                                                                                                                                                                           9
Teams (PJSTs) continue to vary throughout the country. The PJSTs were
created along with the APRP to help manage the implementation of the
APRP and its recovery programs at the provincial level. In provinces                                                                   Too Much
                                                                                                                                       Corruption in the
where the governor supports the APRP and there is cohesiveness among                                                                   Government
                                                                                                                                                                                  They Are
                                                                                                                                                                                  Supported by
Provincial Peace Councils, PJSTs, and provincial security personnel, the                                                               15
                                                                                                                                                                                  Pakistan
                                                                                                                                              Don’t
APRP functions fairly well and reintegration levels are reasonably high—                                                                      Know                                15
conditions that prevail mostly in the north and west.196                                                                                      15
   The APRP’s Joint Secretariat recognizes the need to provide provincial
                                                                                                                                    Notes: Numbers have been rounded. Margin of error is plus
teams with more training. This quarter, the Secretariat, with financial assis-                                                      or minus 5.1%.
tance from the Department of Defense’s (DoD’s) Afghanistan Reintegration                                                            Source: The Asia Foundation, "Afghanistan in 2012, A Survey
                                                                                                                                    of the Afghan People," 11/2012.




REPORT TO THE UNITED STATES CONGRESS                         I   JANUARY 30, 2013                                    97
GOVERNANCE




Program (ARP), conducted several training programs in Kabul for the
PJSTs. These training sessions should raise skills among PJSTs until a new
ARP-funded PJST-capacity-building program begins in the spring. At the end
of the quarter, this program awaited U.S. Central Command’s approval. This
quarter, the United Nations Assistance Mission in Afghanistan (UNAMA)
also held three regional training programs on grievance resolution for the
Provincial Peace Councils.197

Financial Management of Reintegration Programs
The Joint Secretariat executes the APRP’s budget with UNDP oversight.
According to State, the APRP spent about $60 million of its $123.65 million
budget (a utilization rate of about 48.5%) in Afghan fiscal year (FY) 1391—
more than three times the execution rate of recent years. State noted that
the Joint Secretariat has implemented standard operating procedures for
disbursing reintegration funds at the local level.198
    U.S. funding has not flowed into reintegration programs smoothly. As
of September 30, 2012, the United States had provided $50 million to the
World Bank’s Afghanistan Reconstruction Trust Fund to support the Ministry
of Rural Rehabilitation and Development’s (MRRD’s) National Solidarity
Program, which seeks to help communities identify, plan, manage, and moni-
tor their own development plans. However, the MRRD has done little to link
APRP funds to its National Solidarity Program and appears to be retroactively
assigning APRP funds to projects located in non-priority areas. State saw this
as an attempt to satisfy donors’ disbursement expectations. The MRRD’s lack
of transparency, contradictory reporting, and project-allocation procedures
all contribute to challenges in tracking and confirming the use of international
donor funds for APRP to benefit reintegration and the peace process.199

Community Recovery Programs
The APRP has encouraged individuals who might not otherwise lay down
their arms to rejoin their communities by providing essential economic
and social support, according to State. The number of APRP community-
recovery projects like demining, agriculture, small grants, and vocational
and literacy projects created to entice potential reintegrees continued to
grow this quarter. APRP small-grants projects increased from 80 to 140, of
which 17 were completed. State reported that four line ministries (Rural
Reconstruction and Development; Public Works; Agriculture, Irrigation
and Livestock; and Labor, Social Affairs, Martyrs, and Disabled) were
implementing more than 1,500 APRP community-recovery programs. These
programs provide support to deliver basic services and create employment
opportunities. More than 178,000 individuals, both reintegrees and members
of their communities, have benefited from these projects since the pro-
gram’s inception. However, not all communities with reintegration taking
place have benefited from these programs.200




  98                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                          GOVERNANCE




Reintegration Support from the Afghan National Security Forces
The ANSF’s cooperation with the APRP continued to improve this quarter,
according to State. The Ministry of Defense (MoD) trained the remaining
Afghan National Army (ANA) corps (the 205th, based in Kandahar) on the
APRP and their support role. The MoD plans to provide follow-up train-
ing on all ANA corps over the next quarter. The MoI issued a directive in
November that outlines the Afghan National Police’s (ANP’s) roles and
responsibilities in its support for the program.201


NATIONAL AND SUB-NATIONAL GOVERNANCE
The United States funds a number of efforts to improve Afghanistan’s
national and sub-national governance in such areas as capacity building,
local governance, and civil service training. In its semi-annual “Report on
Progress Toward Security and Stability in Afghanistan,” DoD this quarter
questioned the long-term sustainability of the Afghan government. It said
that corruption, ineffective program monitoring, budget shortfalls for
sub-national governance, an inability to generate sufficient revenues, and
limited public financial management all continue to impair the develop-
ment of a stable Afghan government. Weak connections and coordination
persist between national and local governments. A lack of formal training
and education within the civil service means the government has limited
human capacity to carry out complex tasks.202 Recent surveys show the
Afghan public views administrative corruption, insecurity, and a lack of
sufficient job opportunities as the three most important failings of the cen-
tral government, as shown in Figure 3.29.

FIGURE 3.29

AFGHAN PUBLIC'S VIEWS ON THE CENTRAL GOVERNMENT'S MOST IMPORTANT FAILINGS


    Administrative Corruption                                                                             32
                    Insecurity                                                                23
    Lack of Job Opportunities                                                   18
              Suicide Attacks                                        11
           Weak Government                                     9
       Removing the Taliban                                8
              Weak Economy                                 8
             Removing Drugs                            7
                     Injustice                     5
      Bad Education System                         5
                                      0%         5%            10%        15%     20%         25%   30%        35%

Notes: Numbers have been rounded. Margin of error is plus or minus 5.1%.
Source: The Asia Foundation, "Afghanistan in 2012, A Survey of the Afghan People," 11/2012.




REPORT TO THE UNITED STATES CONGRESS                       I   JANUARY 30, 2013                           99
GOVERNANCE




USAID Governance Programming Future Strategies
USAID’s Office of Democracy and Governance (ODG) has aligned its strat-
egy for the transformation decade of 2015–2024 with the strategy outlined
by the Afghan government in its Tokyo Conference commitments and in
its National Priority Programs (NPPs). The USAID strategy encompasses
governance, rule of law, elections and political processes, and civil society.
Improved governance in Afghanistan will be key to maintaining stability dur-
ing the transition 2012–2014, as well as to enabling the country to achieve its
vision and goals during the transformational decade, according to USAID.203
    USAID’s governance portfolio will focus on increasing the professional
skills and technical capacity of members and staff of Provincial Councils
(PCs), the local governing bodies in Afghanistan’s 34 provinces. The PCs
seek to advise local governments on development priorities and planning,
and conduct oversight of provincial administration. USAID also seeks to
improve coordination among PCs, the national Parliament, district-level
bodies, and relevant executive officials at the national and sub-national lev-
els. USAID’s governance programs try to complement other donor efforts
to strengthen the functional capabilities and reach of the central and local
institutions by building capacity in financial management, budget formu-
lation and execution, human resource management, policy and strategic
planning, community outreach and representation, service delivery, public
works, and revenue generation.204
    At the municipal level, USAID will continue to train municipal officials
and support groups of concerned citizens to lay the foundation for effec-
tive, responsive, democratic, transparent, and accountable Afghan city
governments. However, USAID is shifting its contributions from investing
in urban infrastructure and service-delivery equipment to investing in the
human capacity needed to operate and maintain existing initiatives. The
geographic-area focus of USAID-supported sub-national programs will be
determined in accordance with Afghan priorities and U.S.-identified priority
economic zones.205

Elections
This quarter, Afghan and international stakeholders intensified their efforts
to prepare for the 2014 presidential and Provincial Council elections. These
elections will both determine President Karzai’s successor—he is not eli-
gible for a third term—and set the stage for the transformation decade.
Widespread fraud has marred previous elections and there are significant
concerns about the readiness of the Afghan government to hold credible
elections in 2014. The United States is supporting the Independent Elections
Commission’s (IEC) efforts to implement fraud mitigation measures. If the
elections are widely contested, it could weaken the political stability of the
country just as the United States and its international partners complete
their drawdown.206




 100                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                  GOVERNANCE




     Concerns about the elections center on the following issues:207
•	   the ability of the Afghan government to administer elections
•	   the ability of the Afghan led-security forces to provide security for the
     elections
•	   the capacity of the government and civil society, especially domestic
     monitoring groups, to conduct the oversight necessary to prevent fraud
•	   the ability of the government to properly register voters

   This quarter, the IEC scheduled the elections for April 5, 2014. The United
States welcomed the announcement and said it demonstrated Afghanistan’s
commitment to holding credible, inclusive, and transparent elections within
the timeline enshrined in Afghanistan’s constitution.208 Some have criticized
the date as being too early in the spring, when cold-weather storms could
hamper logistical preparations and voter turnout, particularly in the northern
and central areas. In addition, State noted that a new multi-purpose national
identification card system called the “e-tazkera” will not be ready to for use
throughout large areas of the country by 2014. State observed that the sys-
tem’s rollout would be particularly low if the responsible government bodies
manage the process poorly. The IEC also developed a draft concept of opera-
tions which was being reviewed by the Office of the President. The draft
includes a proposed budget and strategy to improve poll performance.209
   Also this quarter, the Parliament, the President’s Office, civil society elec-
toral organizations, and the IEC deliberated over a new electoral law. These
deliberations included the Electoral Complaints Commission’s (ECC’s) role
as the final dispute resolution body; duties, structures, and appointment
process of the IEC and ECC; characteristics of the electoral system (single,
non-transferable vote versus proportional representation, and multiple-
member versus single-member districts); allocation of seats to women;
polling security; and candidate eligibility. At the end of 2012, these issues
remained unresolved with less than 16 months until the elections.210
   State noted that President Karzai’s draft included two significant changes
to the current electoral law: one would establish single-member districts for
Wolesi Jirga seats; the other would give the Supreme Court power to estab-
lish a special court to resolve electoral complaints after the elections.211
   Creating single-member districts would require redrawing up to 249 vot-
ing districts—a process likely be highly politicized. Redistricting could also
affect apportionment of the constitutionally required 68-member women’s
quota for the Parliament, although that effect is still unclear. State noted
that tying parliamentary membership to specific, small constituencies is a
reasonable goal.212
   Karzai had earlier proposed to allow the Supreme Court to establish a
final arbitrator for disputes in the 2010 elections. At that time, results of
the Wolesi Jirga elections and the locus of authority to certify results were
heavily disputed. Karzai attempted to circumvent the IEC and ECC’s roles




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2013               101
GOVERNANCE




in the election by creating a new Special Tribunal with broad electoral deci-
sion-making powers. This drew widespread condemnation from winning
candidates and the international community, as noted in previous SIGAR
quarterly reports.213

USAID Election Support
USAID leads U.S. assistance and programs to build Afghan capacity for
elections.214 USAID plans to support the 2014 elections with $80–120 million
of assistance. This funding will support election administration, political
party development, civil society strengthening, training domestic and parti-
san monitoring organizations, and civic education initiatives.215
   With 21 elections scheduled between 2014 and 2025, USAID said it
intends to concentrate its efforts on supporting electoral authorities so
that they can run credible, inclusive, and transparent elections with their
own budgets. USAID will use the periods between elections to work to
strengthen political participation among political parties, coalitions, move-
ments, civil-society organizations, and domestic monitoring groups. Most
projects will be nationwide, but there may be some support for increased
political participation in priority regions.216

USAID’s Support for Increased Electoral Participation in Afghanistan
USAID’s Support for Increased Electoral Participation program in
Afghanistan has had some success in improving the political process in
Afghanistan, but many challenges remain. As of December 30, 2012, USAID
had obligated $87.5 million for the program. The program has helped par-
ties, coalitions, and independent candidates organize and compete in
elections. Increased public awareness about elections shows signs that
historically marginalized groups, including women, youth, and minorities,
are engaging with the political process. However, political groups still have
difficulties articulating issue-based platforms that appeal to a wide variety
of people. They do not yet have the ability to provide oversight and hold
government officials accountable.217

National Assembly
The National Assembly continues to be a fairly weak institution with no
solid role in the Afghan government, according to an evaluation conducted
for USAID by Democracy International. The evaluation noted institutional
progress over the Parliament’s eight years in an environment fraught with
political violence and national and personal insecurity. However, the evalua-
tion also found a number of problems with the Assembly and its place in the
overall government:218
•	 The Assembly has little to no financial or administrative independence.
•	 Its rules of procedures are a mix of practices borrowed from multiple
   sources which have not yet been vetted through trial and error.




 102                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                  GOVERNANCE




•	 The body is extremely understaffed, and its staff is significantly
   underpaid.
•	 There are numerous internal divisions within the Parliament that track
   along religious, ethnic, and geographic lines.
•	 Charges of fraud and corruption are constantly leveled at members.

   The National Assembly established an internal ad hoc commission to
explore corruption within the body, according to State. The Assembly also
established a commission on nationwide corruption, with a particular
emphasis on illegal land grabs.219

USAID’s Afghanistan Parliamentary Assistance Program                           USAID’s APAP is designed to improve the
USAID’s Afghanistan Parliamentary Assistance Program (APAP) had                Afghan Parliament’s institutional, tech-
expended more than $4.1 million as of December 30, 2012. The program was       nical, and political development. The
recently extended until March 31, 2013, at which time it will be replaced      program helped establish the first Afghan
with a follow-on program. USAID said the program had helped develop the        Parliament in four decades. The program
National Assembly and cited a number of accomplishments, including:220         currently works with the members in both
                                                                               the upper and lower houses, Parliament
•	 managing the parliamentary labor force’s extreme growth during its first
                                                                               staff, leadership offices, and committees
   18 months of existence
                                                                               (this year placing at least one professional
•	 facilitating establishment of procedural and operational protocols for      staff member to assist each committee). In
   parliamentary operations                                                    additional to the legislative support, APAP
•	 raising the level of administrative, oversight, and legislative             activities improve Parliament’s constituency
   performance with regard to committee hearings, meetings, reports, and       outreach efforts, communications, informa-
   legislation actions                                                         tion technology, and national budget review.
•	 increasing Parliament’s ability to hold the executive branch more           Source: USAID, “Afghanistan Parliamentary Assistance
   accountable and increasing overall budget transparency through its          Program,” accessed online, 1/3/2013.

   work with the Budget Committee
•	 raising the profile of Parliament in the national media and among civil
   society organizations
•	 improving the Parliament’s institutional capacity
•	 creating the Afghan Parliamentary Institute to train parliamentarians
   and staff

   In the transformational decade, USAID intends to fund efforts to build
a Parliament that is better able to check executive power and fulfill its
constitutionally mandated duties, such as legislative drafting and review as
well as budget formulation. USAID will continue its support for the Afghan
National Assembly by focusing on four components: oversight of the execu-
tive; legislative drafting, research, and analysis; budget formulation and
review; and constituency outreach.221

National Budgeting
The Afghan budget-approval process was completed in January 2013. In
November 2012, the Ministry of Finance (MoF) had submitted the FY 1392




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2013          103
GOVERNANCE




budget to the National Assembly. The budget reflects the new fiscal-year
start date, December 21. In its submission, the MoF emphasized the urgency
of ensuring greater self-sufficiency through revenue generation. After a
series of budget rejections by the Parliament, and modification of the MoF,
the budget was finally approved in late January. The budget totals about
$6.81 billion ($3.77 billion in the operational budget and $3.03 billion in the
development budget).222 For the first three quarters of 1391, the Afghan gov-
ernment collected only about $1.56 billion.223

Public Financial Management
The Afghan government’s capacity to effectively manage its public finances
remains strained. According to DoD, the lack of sufficient capacity to
plan, budget, and execute programs continues to be one of the greatest
hindrances to effective public-sector program implementation and service
delivery. These financial management issues included the following:224
•	 capacity constraints at the national and sub-national levels
•	 weak planning and budget formulation
•	 donor earmarking of funds and funding delays
•	 communication challenges across ministries, donors, and
   sub-national entities

   The Treasury Department said it had worked with the Provincial Budget
Unit to alleviate some of these issues, including developing a draft pro-
vincial budgeting policy for the MoF. If the policy were implemented, it
would clarify some of the processes in provincial budgeting. To improve
communication with the central and provincial governments, the Treasury
Department worked with the Unit to develop a communications plan for
the provinces to improve their communications with central and provincial
line ministries.225
   The Treasury Department assisted in training the finance director of each
of the Afghan government’s ministries. This standardized training, delivered
in Dari, one of the Afghan government’s two official languages, covers the
use of a new accounting manual and chart of accounts. Afghans led the
training sessions this quarter.226
   DoD noted a longer-term concern is that international donors have
created what is basically a parallel civil service, comprising skilled civil
servants paid by international donors at higher rates than the regular ser-
vice. This externally funded civil service makes up only 3.9% of the total
workforce, but accounts for an estimated 31.9% of total payroll costs,
according to a 2011 World Bank survey of eight key ministries and one
agency. According to DoD, the Afghan government cannot fully absorb the
cost of these higher salaries, and this fiscal reality may jeopardize transfer
of valuable program-management and service-delivery competencies into
the regular service.227




 104                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                  GOVERNANCE




   Although international partners have long worked toward making the
Afghan government less centralized, the government structure continues
to concentrate power in Kabul, according to DoD. Budgeting and spending
authority is still primarily held by the MoF and other central ministries, and
service delivery is still mostly implemented by central ministries. There are
limited coordination, planning, and service-monitoring roles through the
sub-national administrations.228

Internal Auditing
With Treasury Department assistance, the MoF’s Internal Audit Office
has made substantial progress in meeting its auditing goals. According to
Treasury, the Office has met all of the benchmarks established for Article 61
audits under the Public Expenditure and Financial Management Law that
allows the MoF to audit other line ministries. These revenue audits identify
streamlined collection processes within the ministries that could eliminate
unnecessary process steps. These audits also discovered overlaps in autho-
rization and approval processes which slowed down collection times. Since
Article 61 audits were initiated at the end of 2010, the Office has completed
revenue process audits in 23 ministries and conducted an additional four
follow-up audits.229

Afghan Financial Management Information System
The Afghan Financial Management Information System (AFMIS) was put
into place with Treasury Department assistance and is used to manage
the core budget. The AFMIS has led to many improvements in accounting,
record keeping, and transparency, including:230
 •	 implementing a standard chart of accounts, allowing rapid
    consolidation of revenue and expenditure information, and publishing
    monthly financial statements for the operating and development budget
    within 25 days after the end of the month
 •	 implementing automated budgetary controls that prevent overspending
    of appropriations and allotments
 •	 creating immediate information exchanges from Kabul to the provinces
    concerning budgetary allocations, in contrast to a system that meant
    three-to-four-month delays in expenditures for some provinces

Provincial Governance
Provincial line departments of central line ministries continue to have
primary responsibility in deciding how resources are allocated at the pro-
vincial level, with little regard for local priorities. Poor coordination and
communication between the provinces and Kabul compound this problem.
The Provincial Budget Pilot Program, created in 2011 by the MoF, was sup-
posed to improve budgetary planning and communication between the
levels of government, but has stalled due to funding difficulties.231




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2013             105
GOVERNANCE




District Governance
District governors continue to have difficulty coordinating and communi-
cating with provincial authorities, limiting their involvement in strategic
planning and budgeting for their districts. District governors depend on the
international community for their programmatic funding and are hampered
by the same problems with centralized line-ministry control of the budget
that affect provincial governments.232
   The Afghan government’s recently endorsed district-representation
roadmap was a precondition for international approval of the local gover-
nance NPP, according to DoD. Under the plan, interim District Coordination
Councils (DCC) are to be created to replace the multiple forms of currently
active and donor-created district-representation bodies. These interim
DCCs will be voluntary unpaid bodies, led by the Independent Directorate
of Local Governance (IDLG), and with Ministry of Rural Rehabilitation and
Development support for development issues. The Councils are intended to
reform the existing, and often conflicting, sub-national structures. DCCs will
serve mainly as conflict-resolution structures that prepare development plans
without implementing them. Precise roles and responsibilities of the Councils
were expected to be clearly defined and endorsed by the Afghan government
by the end of 2012; operations are to begin by the end of 2013. Thereafter, a
District Council roadmap in line with the Afghan Constitution will be final-
ized, paving the way for formal and constitutional district council elections,
which should be held in 2015, according to the Afghan constitution.233

Southern Afghanistan Governmental Control
Improved security in the south has helped the Afghan government hold
most urban centers, but the government continues to compete with insur-
gent groups for control of the population in more rural areas.

Helmand Province
The Afghan government’s authority in Helmand remained relatively stable
this quarter, according to State. With solid connections established between
the provincial capital and district centers in central and southern Helmand,
local officials are able to operate effectively. In these areas, Afghan gov-
ernment officials are able to provide government services with little or
no support from the Provincial Reconstruction Team (PRT) and District
Support Teams (DSTs). Moreover, local administrators are becoming more
technically capable. Overall, the government’s influence in the province is
expanding, but Kabul’s ministries need to improve their performance to sus-
tain and expand influence. For example, State said an increasingly unreliable
IDLG and irregular funding levels have undermined local governance.234
   State also reported this quarter that Helmand’s new provincial governor
and local civil servants can travel regularly to the southern and central
districts. Kajaki and Now Zad still present security challenges, but local




 106                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                  GOVERNANCE




officials are increasingly able to travel to these areas by road. The district
centers in northern Helmand are under Afghan control, but efforts to
expand control outside of those areas have largely been unsuccessful. The
Taliban shadow government controls no areas in Helmand, although they
do still have a presence and conduct operations to maintain and build
their influence.235

Kandahar Province
The Afghan government has continued to improve its capacity to govern
Kandahar, particularly because of the security gains in key terrain districts,
according to State. However, most of this government functionality contin-
ues to be concentrated in the provincial capital and larger municipalities;
governing the outlying districts remains more difficult to maintain. There
are still many under-governed areas in Kandahar, particularly in the Zharay,
Panjwai, and Maiwand districts, which basically remain under Taliban
shadow government. State did note that, overall, the Afghan government’s
influence in the province appears to be increasing.236
   State said the improving security situation in Kandahar has allowed
Afghan government officials to travel more widely and frequently in the
region. Provincial Governor Wesa travels freely in most districts. Despite a
high-profile, vehicle-borne, improvised explosive attack on Provincial Chief
of Police Razziq in August, high-level Afghan officials are still able to travel
without ISAF support. However, a significant number of district officials
reside in Kandahar City, instead of their assigned districts, due to perceived
security risks.237

PRT Transition Planning
This quarter, President Karzai tasked the IDLG to lead a working group
on developing mechanisms to transfer authority from PRTs to the Afghan
government. The IDLG has requested coalition countries to provide data on
their activities to the Council of Ministers in January 2013.238

U.S. Stability Programs
The Department of Defense and USAID conduct stability programs to
extend the reach of the Afghan government into less secure areas, help
mitigate security backsliding, and enable the conditions for transition and
longer-term development.239
   USAID has a number of stability programs, the three largest being
the Community Cohesion Initiative (CCI), the Community Development
Program (CDP), and the Stability in Key Areas (SIKA) Program.240

USAID’s Community Cohesion Initiative
USAID’s CCI seeks to increase resilience in areas vulnerable to insur-
gent exploitation by strengthening ties between local actors, customary




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2013              107
GOVERNANCE




governance structures, and the formal Afghan government. It also seeks
to improve cohesiveness between different communities. The CCI began
in March 2012, has a contract ceiling of $161.5 million, and operates in the
east, south, and southwest regions of Afghanistan. The initiative’s imple-
menting partner is Creative Associates International. As of December 12,
2012, 44 projects were under development, implementation, or closed in
12 districts in southern and eastern Afghanistan. These projects targeted
nearly 7,000 beneficiaries.241
    USAID pointed to a number of CCI program activities, including:242
 •	 sponsoring two one-day events in recognition of “International Day for
    the Elimination of Violence Against Women,” hosted by the Department
    of Women’s Affairs in Kandahar and Zabul
 •	 providing organizational assistance and civics training for youth
    organizations in Khost, Ghazni, and Kunar provinces
 •	 developing strategic-communication grants to support the Afghan
    government’s district outreach
 •	 implementing community-cohesion jirgas across the program’s
    provinces

   USAID noted that training and mentoring Afghan staff has been difficult
due to reduced staffing levels at USAID. The CCI also has a stringent grant
clearing process, where each individual grant is cleared by all levels of staff,
from the field level to the country representative.243
   As USAID moves further into the transition period, the CCI is also on
track to pilot an Independent Monitoring Unit. The transition will add to
USAID’s management challenges, but the new unit will act to ensure further
transparency, accountability, and verification of metrics to include outputs
and overall impacts.244

USAID’s Community Development Program
USAID’s CDP seeks to promote stability and support the Afghan govern-
ment through short-term employment of community laborers working on
critical local infrastructure projects. The projects include irrigation sys-
tems, rural farm-to-market and feeder roads, public buildings, and drainage
systems in Helmand, Kandahar, Zabul, Paktika, Paktia, Khowst, and Ghazni.
These activities are designed to link government officials to local popula-
tions, providing credibility to nascent Afghan government entities. As of
December 27, 2012, USAID had obligated $256.5 million for the program.245
   The CDP currently focuses on implementing community projects to
restore normalcy after military operations. With its emphasis on strength-
ening relations between the government and the populace, the program
closely involves local Afghan officials in development plans. The intensive
involvement of local officials in planning and executing community infra-
structure projects also helps ensure that these projects can be sustained.




 108                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                  GOVERNANCE




As of December 2012, CDP had implemented more than 321 commu-
nity-stabilization projects, reduced the gap between local government
institutions and their constituents, and generated more than 13.3 million
employment days through labor-intensive community infrastructure proj-
ects in highly unstable areas.246

USAID’s Stability in Key Areas Program
USAID’s SIKA program is intended to promote good governance and
service delivery in targeted districts to reduce the impact of the insur-
gency and pave the way for transition. The program has four regional
components: SIKA West, East, North, and South. The program became
operational in 2012, and USAID had obligated more than $57.6 million for
it as of December 2012. The total anticipated budget for SIKA is $203.2 mil-
lion. SIKA partners closely with the Ministry of Rural Rehabilitation
and Development (MRRD) and the Independent Directorate of Local
Governance (IDLG). Its work is designed to strengthen existing sub-
national development and governance structures like the Community
Development Councils and District Development Assemblies that work to
tie local needs with development projects.247

Village Stability Operations
The Department of Defense’s Village Stability Operations (VSO) program
and Afghan Local Police (ALP) program are counterinsurgency programs
intended to reestablish traditional governance mechanisms at the village
level while also linking this informal system to the formal Afghan district
governments. The VSO program builds local governance through improving
security so that follow-on development can take place. Ultimately, the suc-
cess of VSO and ALP is contingent on Afghans’ ability to assume control of
their own local security and to connect with their government. According
to DoD, in areas where VSO operates, governance activity is usually higher
and local citizens become more resistant to the Taliban than in areas with-
out the program.248

U.S. Capacity-Building Programs for Public Administration
Developing Afghanistan’s human resources is a key goal of the U.S. recon-
struction effort. The United States is implementing a number of programs to
build Afghan governing capacity at the national, provincial, and local levels.
This sub-section reviews some of those efforts.

USAID On-Budget Support for IARCSC
USAID provides on-budget support for the Afghan government’s Independent
Administrative Reform and Civil Service Commission (IARCSC). This assis-
tance has helped the Commission to produce structural reforms to the
Afghan civil service, according to USAID. As of December 30, 2012, USAID




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2013            109
GOVERNANCE




had disbursed $7.25 million out of the $10 million sub-obligated to the
IARCSC. According to USAID, this support has aided the IARCSC in meet-
ing 20 of its 23 benchmarks by the end of 2012. The Commission has made
significant progress in instituting reforms; developing policies and procedures
on financial management, procurement, and human resources; and provid-
ing staff training and orientation on the new policies and procedures. The
Commission also developed an inventory-management system to control,
manage, and dispose of fixed-asset properties.249
   These reforms have enabled ministries at the national and sub-national
level to effectively manage their civil servants through improved record-
keeping and data management, and a new system of performance-based
evaluations. They have also allowed the ministries to recruit civil servants
in insecure provinces. In response to Presidential Decree 45 (PD45), which
Karzai issued last quarter to improve governance and anti-corruption
efforts, the Commission has drafted laws outlining the scope and structure
of government ministries, agencies, and the civil service. The president has
approved a mechanism for recruiting entry-level civil servants through a
general entrance exam.250

USAID Sub-National Governance Program
In early July 2012, USAID increased funding and extended its Support to Sub-
National Governance Structures project from July 2012 until September 30,
2013. The project’s ceiling was also raised from almost $12 million to
$20.9 million. According to USAID, the project continues to develop the
capacity of the 34 provincial councils and provide technical assistance to
the IDLG. The program has strengthened the capacity of provincial councils
to represent constituent interests in development planning. It also provides
assistance to provincial councils in their oversight of implementation of pro-
vincial development processes. The project directly supports part of the NPP
for local governance. This quarter, the program conducted a number of public
hearings, site visits, NGO briefings, and cross-regional visits and training on
different topics in most of Afghanistan’s provinces.251

Civil Society’s Transformation Decade
USAID expects that by 2024, Afghan citizen groups will be able to better
organize and demand improved performance by the government. As the
Tokyo Declaration emphasized, productive civil society and inclusive dia-
logue are key to promoting human rights, good governance, and sustainable
social, economic, and democratic development. USAID said it intends to
support implementation of the Tokyo Framework goals by helping civil-
society organizations develop their watchdog and monitoring functions, and
by influencing policymaking and service delivery through cooperation and
advocacy. USAID plans to enable development of capable and accountable
civil-society organizations that establish effective partnerships between




 110                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                  GOVERNANCE




government and citizens. This work will seek to advance human rights, rule
of law, and free speech. The civil-society program will continue to promote
gender equality as a key goal of the transformation decade.252


JUDICIAL REFORM AND RULE OF LAW
According to DoD, international assistance to the judicial branch has
allowed for increased training and staffing at the sub-national level of the
judiciary in recent months. However, many serious issues remain to be
addressed if Afghanistan is to establish a competent and sustainable jus-
tice system.253
    Insecurity has continued to impede expansion of rule of law, especially at
the district level. Prolonged dispute resolutions in the formal justice system
have led many rural Afghans to view it as ineffective and inaccessible.254 In
addition, widespread corruption and inadequate transparency continue to
stifle development of a self-sustaining rule of law system.255 Furthermore,
DoD noted that the Afghan government’s lack of political will to operate
and maintain justice programs and facilities has hindered justice develop-
ment.256 USAID noted that the judiciary has also not had sufficient political
will to establish genuine independence from the executive branch.257 Rule
of law activities will need to be included in the overall transition effort and
will be most successful in the areas where capable governance has followed
stabilization, according to DoD.258
    Although the Afghan government and the international community
have identified “law and justice for all” as an NPP, they have not agreed
on program specifics that would lay out a clear and verifiable roadmap
to improve the Afghan justice system. This quarter, donor dissatisfaction
at the continued failure to finalize the justice program led the European
Union to indicate that it will put on hold its future funding for the sector
until the program has been endorsed.259 All of the NPPs were supposed to
be endorsed by July 2011.260 The UN Secretary-General noted that the pro-
gram’s complexity and wide scope presented challenges, although there
was hope for an endorsement of the NPP in early 2013.261

Taliban Justice
Weaknesses within both the formal and informal justice systems, along
with ineffective linkages between the two systems, continue to lead many
Afghans to go to the Taliban for dispute resolution. The Taliban process is
based on stern religious precepts, but is also rapid, enforced, and often con-
sidered by Afghans as less corrupt than the formal system.262

Criminal Procedure Code
This quarter, the Afghan government remained unable to approve an updated
Criminal Procedure Code. The Department of Justice is coordinating with the




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2013             111
GOVERNANCE




Parliament on a new draft. The government pledged at the Kabul Conference
in 2010 to enact a new Code by the beginning of 2011.263

U.S. Justice Sector Support Program
The State Department’s Bureau of International Narcotics and Law
Enforcement (INL) manages the Justice Sector Support Program (JSSP).
The JSSP trains prosecutors, defense attorneys, investigators, and judges,
and aims to improve the overall capacity of the criminal justice system.
As of December 30, 2012, State had obligated more than $212.7 million for
the JSSP, of which more than $186 million had been expended. The JSSP
employed 154 attorneys, including 113 Afghans and 41 American and third-
country-national legal advisors.264
   This quarter, the JSSP’s training and mentorship for Afghan legal profes-
sionals included:265
•	 an anti-corruption seminar for 35 students in Kunar that focused on the
   use of informants and recording devises, surveillance procedures, and
   obtaining search warrants
•	 JSSP and Ministry of Justice (MoJ) development of an internet-based
   database that compiles and details the trainings and workshops
   attended by MoJ legal-aid department attorneys throughout the country
   so the department can use the data to determine needs and schedule
   staff training
•	 training in Wardak to educate 41 justice professionals on the country’s
   Trafficking in Persons law (As mentioned in previous SIGAR Quarterly
   Reports, Afghanistan is on the Department of State’s Tier 2 Watch list for
   human trafficking, partially as a result of its poor enforcement of the law.)
•	 seminars in Kunduz for 17 participants on the Elimination of Violence
   Against Women Law, running away, and forced marriage

   State noted that the JSSP’s training is now completely led by the pro-
gram’s Afghan legal advisors. As a measure of the program’s effectiveness,
State reported that participants in training programs in October 2012 scored
20.5% higher on post-training exams than on the pre-training tests.266

Legal Education Program
State’s INL conducts programs to expand the skills of Afghan lawyers by
reforming traditional Afghan university legal education. Traditional legal
education in Afghanistan has normally relied on rote memorization and
offers limited opportunity for interactive and experiential learning, accord-
ing to State. INL’s legal-education program partners with Afghan public
and private universities, American law schools, and legal professionals to
develop a legal-education system that provides aspiring Afghan legal pro-
fessionals greater access to education both inside and outside the country.
State noted that the sustainability of the justice system is contingent on




 112                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                  GOVERNANCE




building a well-trained cadre of lawyers and legal educators. The major
legal-education programs include:267
 •	 The Legal Education Support Program-Afghanistan: This program, a
    partnership with the University of Washington’s School of Law, began in
    March 2012 and will continue through August 2017 at a projected cost
    of $13 million. Afghan alumni from the program serve on law and Sharia
    faculties at every public university in Afghanistan. The program also
    provides legal training in English for law students and faculty at public
    universities.
 •	 The Afghan Legal Education Project: This five-year program, which
    is being implemented in partnership with Stanford University, began
    in August 2012 and has a projected cost of almost $7.3 million. The
    program aims to build a high-quality bachelor of laws program at the
    American University of Afghanistan.
 •	 Public-Private Partnership for Legal Reform in Afghanistan: This
    partnership provides full academic scholarships to approximately 10
    Afghan scholars each year to study at U.S. law schools.

USAID’s Rule of Law Stabilization Programs
USAID’s Rule of Law Stabilization programs for the informal and formal
justice sectors continue to face challenges in building a formalized judicial
system that also recognizes and incorporates the informal system that
dominates most of the country’s rural areas. As of December 30, 2012,
more than $14 million had been obligated to support the formal and infor-
mal programs.268

USAID’s Formal Rule of Law Stabilization Program
USAID noted a number of positive accomplishments as a result of its formal
program, including completion of a two-year training program by 790 of the
country’s 1,800 judges. The program had also trained 600 judges on substan-
tive law, judicial ethics, and women’s rights. In addition, 130 program-trained
judges were assigned to insecure areas not previously staffed.269
   Despite these achievements, USAID’s formal-sector programming may
face sustainability problems if the government does not prioritize judicial
training as donor resources are reduced. The two-year training program is
supported mostly through USAID funding, as is most of the rest of the train-
ing for the judiciary. The Afghan government has showed little willingness
to take responsibility for financing judicial training. In addition, many judge
trainers refuse to travel to insecure areas of the country. Furthermore, ram-
pant corruption within the judiciary has caused many graduates of USAID
training programs either to leave the judiciary or to conform to the corrupt
system to avoid trouble.270
   USAID’s formal program also provides legal education, which has
had significant success in updating and standardizing law and Sharia




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2013             113
GOVERNANCE




curriculums, according to USAID. This programming has helped develop
moot-court teams in seven law schools, establish legal clinics, build the
capacity of law school libraries, and train law-school faculty to use interac-
tive modern teaching methodologies. USAID noted that while students have
a high demand for legal education and while political will for improving
legal education is strong, women’s inclusion in legal education has not been
robust. Many more women are enrolling in legal education, but cultural bar-
riers often exclude women from practical educational opportunities.271

USAID’s Informal Rule of Law Stabilization Program
USAID’s informal program works with legal officials at the local level and
informal justice sector actors, such as village elders and clerics, to improve
connections between the informal and formal systems. These connections
include registering traditional dispute resolutions with the formal system
and adopting mutually agreed procedures to refer some disputes from the
formal to the informal system and vice versa. USAID noted that its informal
system had established six community centers to increase citizens’ under-
standing of rights, trained over 20,000 people on key principles of Afghan
law, and aided women’s dispute-resolution groups in resolving or defusing
486 disputes that might otherwise have escalated to violence.272
   The national government’s widespread hostility to the traditional dis-
pute resolution system continues to hamper USAID’s work in that area.
The MoJ and Supreme Court believe the traditional sector routinely
violates the constitution; they dismiss it as illegitimate. This aggressive
posture limits the program’s ability to engage with national stakehold-
ers in project discussions. In addition, provincial authorities have been
inconsistent in their support for the informal program. For example, the
governor of Kandahar publicly opposed the program, agreeing to it only
after PRT and program representatives alleviated his concerns. Growing
insecurity in many of the districts where the program is located has also
challenged implementation.273

Afghan Prison System
Afghanistan’s prison population increased by an average of 17% annu-
ally from 2007 to 2012. As of January 2013, 25,735 inmates were housed in
Afghan prisons. According to State, the justice system’s capacity improve-
ments and a reluctance to utilize incarceration alternatives are the main
drivers of prison population growth. The State Department is working with
the Afghan government to increase the use of incarceration alternatives and
modify sentencing guidelines to lower the growth of the prison population.274
   Prisoner treatment by the Central Prison Directorate (CPD) staff is pro-
fessional and appropriate, according to reports from Correction System
Support Program (CSSP) advisors, INL program staff, and other observers.
Within CPD facilities, incarcerated women generally live in housing units




 114                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                      GOVERNANCE




Pol-i-Charki prison, Afghanistan’s largest, stands just outside of Kabul. (Department of
State photo)

with sight and sound separation from male inmates. But women frequently
suffer from the same infrastructure and overcrowding issues as male pris-
oners, and Afghan prisons offer few specialized programs to rehabilitate
female inmates. INL is attempting to encourage development of such pro-
grams through small grants in addition to providing advisory and material
support through CSSP.275
   Female juveniles are generally incarcerated apart from the male
population in Juvenile Rehabilitation Centers (JRCs) run by the Juvenile
Rehabilitation Directorate. Except for Kabul and Herat, provincial JRCs
occupy rented facilities and suffer from poor infrastructure and insuffi-
cient resources. In these facilities, space for educational and recreational
programming is often severely limited, and access to social services is typi-
cally infrequent.276

U.S. Corrections System Support Program
As of December 30, 2012, State INL’s CSSP had expended almost $202.6 mil-
lion to improve the capacity of the Afghan prison system. This assistance
funds rehabilitation and education opportunities for inmates, and prison
administration training and advisory support. An additional $33.5 million
was expended for the construction of prisons and detention centers.277
   The CSSP focuses on improving the overall function of the General
Directorate of Prisons and Detention Centers’ institutions and their sus-
tainable administration. INL plans to provide much of its future support to
Afghanistan’s prisons through grants and local implementers to increase
cost efficiency and support sustainability.278




REPORT TO THE UNITED STATES CONGRESS       I   JANUARY 30, 2013                   115
                                                               GOVERNANCE




                                                               ANTI-CORRUPTION
                                                               This quarter, Transparency International released its latest corruption-
                                                               perception report indicating that Afghanistan’s public-sector corruption
                                                               continues to be a major problem. Last year Afghanistan was ranked as the
                                                               third-most-corrupt country. This year Afghanistan was tied with Somalia
                                                               and North Korea to be perceived by corruption experts as the most corrupt
                                                               country in the world.279 In a separate survey conducted in Afghanistan by
                                                               the Asia Foundation, almost 80% of the Afghan public views corruption as a
                                                               major problem in their national government, as shown in Figure 3.30.
                                                                  According to the Afghan Coalition of Transparency and Accountability,
                                                               the budget submitted by the MoF this quarter contained no allocations for
                                                               combating corruption despite the international community’s demand that
                                                               the MoF make governmental integrity a priority. The Coalition said the
                                                               document indicated no clear intent to fight corruption and fulfill Afghan
                                                               government commitments made at the Tokyo Conference in July 2012.
                                                               Some Afghan lawmakers criticized the Coalition’s findings as inaccurate.280
FIGURE 3.30

PERCENTAGE OF AFGHANS WHO THINK CORRUPTION IS A MAJOR PROBLEM IN VARIOUS FACETS OF AFGHANISTAN


100%


90%


80%


70%

60%


50%


40%


30%


20%


10%


0%
            2006ª                      2007                      2008                         2009                2010              2011               2012

                                 Daily Life          Neighborhood            Local Authorities        Provincial Government   Afghanistan as a Whole


Notes: Numbers have been rounded. Survey margin of error is plus or minus 5.1%.
a In 2006, respondents were not asked about corruption by local authorities.

Source: The Asia Foundation, "Afghanistan in 2012, A Survey of the Afghan People," 11/2012.




                                                                  116                            SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
                                                  GOVERNANCE




Afghan Attorney General’s Office
Despite the importance the United States and the international community
place on progress in punishing high-level officials guilty of corruption, the
Afghan Attorney General Office (AGO) made no significant anti-corruption
indictments or prosecutions this quarter. Afghan prosecutors continued to
complain that they lack supervisors’ support for prosecutions.281
   A group of prosecutors in the AGO’s Anti-Corruption Unit (ACU) set up
the Unit’s Director General by supplying him with alcohol and encourag-
ing him to denigrate the Attorney General while videotaping the incident,
according to State. This led to his arrest and subsequent removal from his
post. State noted that although the replacement is a reputable prosecutor, it
will be difficult for the ACU to function effectively if it continues to be full
of internal rivalry and intrigue. Moreover, a lack of dedicated resources and
inadequate political will at the highest levels of the government severely
limit the ability of the Unit to investigate and prosecute cases. Despite
these issues, the State Department and the Department of Justice intend
to continue to engage with the ACU and provide education and training to
improve its investigatory and prosecutorial abilities.282
   The AGO has claimed progress in his compliance with President
Karzai’s anti-corruption and governance decree (PD45), but that claim
does not reflect State’s understanding of events and omits important
facts. For example, the Attorney General is responsible for issuing indict-
ments on corruption, but two of the major stakeholders in the Kabul
Bank scandal, President Karzai’s brother and Vice President Fahim’s
brother, were not on the list of those indicted for crimes related to the
bank’s collapse. The Attorney General also fired a reportedly reputable
government whistleblower in the AGO because of the whistleblower’s                 The Special Cases Committee (SCC) was
determination to build corruption cases against government officials,              formed in January 2012 as a joint Afghan
according to State. The Attorney General brought charges against the               and international mechanism for support-
whistleblower for libeling ministries by accusing them of corruption in            ing the efforts of the AGO in significant
front of the Parliament.283                                                        public corruption cases after the AGO failed
   This quarter, the Military Anti-Corruption Unit (MACU) did prosecute            to adequately prosecute many previous
                                                                                   cases. The role of the international advisors,
the former governor of Nuristan, a finance director, and a police chief for
                                                                                   including U.S. personnel, on the SCC is to
embezzling several months’ worth of salaries from their ANP subordinates.
                                                                                   help the AGO select cases for special atten-
While the police chief and finance director received significant sentences         tion and devote resources to investigating
(six and 10 years, respectively), the governor was released for two months’        and prosecuting if there is supporting
time served.284                                                                    evidence. In addition, the international advi-
                                                                                   sors help the AGO design its investigations
Special Cases Committee                                                            and prosecution strategies. The internation-
Nearly a year after its creation, the Special Cases Committee (SCC) has            al participation also helps the AGO acquire
made no significant progress in prosecuting major corruption cases. The            information and evidence in possession
SCC was able to prosecute some lower-level officers in the National Military       of the international community that can
Hospital case on minor charges of negligent abuse of authority involv-             advance cases of interest.
ing expired pharmaceuticals valued at $120. The men were convicted and             Source: DoS, response to SIGAR data call, 7/5/2012.




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2013              117
                                                   GOVERNANCE




In 2011, the media reported on the de-             sentenced to a three-month restriction (limitation on leaving the country)
plorable conditions for patients at the            and three years’ probation. However, the MoD and MACU have brought
Dawood National Military Hospital in Kabul.        no charges against any high-level officials in the case, according to State.
Widespread corruption led to the siphoning         MACU prosecutors claim that there were at least two charges ready to be
off of U.S. funds as well as theft of medi-        made against the Surgeon General. However, delays by the prosecutors’
cal supplies intended to support hospital
                                                   superiors and the international community’s inability to provide certain
operations. In addition, patients often did not
                                                   documentation regarding the value of items furnished by the military which
receive care because they or their families
could not bribe hospital staff. Officials in the
                                                   were allegedly stolen or diverted by individuals at the hospital have stifled
MoD and ANA, including the ANA’s Surgeon           the investigation. Apart from the work in the National Military Hospital,
General, Gen. Yaftali, were implicated in the      none of the original cases proposed for review by the SCC were being inves-
scandal. Some U.S. military officials were         tigated at the end of 2012. Recently, the ACU and MACU have expressed
also criticized for not doing more to investi-     support for revising and formalizing the SCC.285
gate and prevent the scandal.
                                                   Major Crimes Task Force
                                                   In February 2013, the FBI will end its support of the Major Crimes Task
                                                   Force (MCTF) having determined that it has met its capacity-building
                                                   objectives. State noted that with adequate financial and political support,
                                                   the MCTF has the potential to serve as an effective anti-corruption unit.
                                                   However, the Task Force’s future as a cohesive entity is uncertain because
                                                   of its legal and political vulnerabilities, according to State. The AGO has
                                                   yet to demonstrate the political will necessary to prosecute the MCTF’s
                                                   corruption cases.286

                                                   Monitoring and Evaluation Committee
                                                   The Monitoring and Evaluation Committee (MEC) was set to issue a report
                                                   next quarter on the Afghan government’s implementation of the 39 anti-cor-
                                                   ruption specific measures that were contained in PD45, President Karzai’s
                                                   governance and corruption decree released last quarter.287 The MEC also
                                                   released a report criticizing the Afghan government’s actions in the lead-up
                                                   and response to the fall of the Kabul Bank. For more information, see the
                                                   Economic and Social Development Section in this report.

                                                   High Office of Oversight and Anti-Corruption
                                                   The High Office of Oversight and Anti-Corruption (HOO) has the capacity
                                                   to fulfill its mandate, but admits to making little progress in fighting corrup-
                                                   tion, according to USAID. The Director General of the HOO has publicly
                                                   stated that the HOO’s ability to fight corruption is hampered by a lack of
                                                   cooperation from responsible ministries, especially the AGO. The HOO has
                                                   published a list of corruption cases it forwarded to the AGO, and on which
                                                   the HOO Director General has repeatedly alleged the AGO has taken no
                                                   action, according to USAID. However, even in areas where the HOO can
                                                   take the initiative and has more control over the process, such as with asset
A billboard in Kabul tells victims of bribery      registration, publication, and verification, the HOO has not evidenced much
to report it to the HOO. (SIGAR photo)             commitment, so results have been poor.288




                                                    118                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                  GOVERNANCE




USAID’s Assistance to Afghanistan’s Anti-Corruption Authority
As of December 30, 2012, USAID had obligated $7.9 million for its                   Assistance to Afghanistan’s Anti-
Assistance to Afghanistan’s Anti-Corruption Authority (4A), which is                Corruption Authority (4A): This USAID
designed to assist the HOO in its anti-corruption responsibilities. According       project supports strategic, technical,
to USAID, the 4A has fulfilled most of its four anti-corruption capacity build-     and administrative institutional capacity
ing objectives, including:289                                                       development at the Afghan government’s
 •	 The 4A had partially completed its objective in training HOO staff on           anticorruption agency, the High Office
    implementing the Office’s strategic plan, as well as bringing changes to        of Oversight and Anti-Corruption (HOO),
                                                                                    ministries delivering key services to the
    the HOO’s organizational structure and human resource profile to make
                                                                                    Afghan public, and outreach to civil-society
    it a more effective and sustainable institution.
                                                                                    organizations engaged in the fight against
 •	 The 4A had completed its assistance to enable the HOO to carry out its
                                                                                    public corruption.
    main responsibilities in asset declaration and verification; complaints
    management and case tracking; and anticorruption action planning
    support. The 4A assisted the HOO by completing asset registration
    workshops in all central ministries and government departments,               Source: USAID, “Assistance to Afghanistan Anti-Corruption
                                                                                  Authority.”
    testing pilot asset verification processes, and utilizing partnerships with
    FinTRACA on encrypted information exchanges. The 4A also provided
    the HOO with the required database equipment to register and manage
    complaints. In addition, the 4A has drafted 13 MOUs with ministries and
    government agencies to assist the HOO in its verification work.
 •	 The 4A completed its improvements to the HOO’s security and office
    infrastructure, upgrading internal and external physical security, and
    providing office furniture and equipment.
 •	 The 4A completed its objective in collaborating with assisting civil
    society groups to promote public awareness, education and action on
    corruption issues. Seven Afghan civil society organizations and non-
    governmental organizations have promoted anti-corruption efforts with
    4A grants.

Civil Society’s Role in Countering Corruption
Individual civil-society organizations and coalitions are mobilizing to
address corruption issues broadly, and specifically within the executive
branch, according to State. Integrity Watch Afghanistan, a leading anti-cor-
ruption organization, is focusing on transparency in Afghanistan’s budding
extractive industries sector. In 2012, civil society organizations formed the
Coalition Against Corruption with the support of the USAID-funded 4A
project. It is developing a plan for constructive engagement with the Afghan
government on corruption issues. It also is already working with commis-
sions of the National Assembly.290

Corruption in Afghan Security Forces
Corruption and organized crime are major threats to the coalition’s cam-
paign objectives, according to DoD. The threat of “criminal capture,”
or infiltration of the leadership of government institutions by criminal




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2013             119
                                              GOVERNANCE




                                              elements, is particularly evident within some sections of the Afghan Air
                                              Force, some provincial police forces, and border police units. However,
                                              progress was made this quarter in preventing criminal interference and sub-
                                              version of institutions in the Afghan security sector.291
LOTFA: a multi-national trust fund adminis-      This quarter, in response to allegations of corruption within the LOTFA,
tered by the UN Development Programme         the UNDP announced major changes in procurement policies and practices,
that pays for ANP salaries and builds         increased the number of internationally-recruited professional staff, and
the capacity of the MoI. LOTFA funds          conducted a management review of the trust fund. The UN also has sug-
are provided to the Afghan government.        gested some changes to the LOTFA’s governance structure.292
Since 2002, donors have pledged nearly
$2.7 billion for the LOTFA, according to
the most recent data. The United States
                                              Corruption in Customs Collections
has contributed nearly $897.7 million to      Corruption in customs-duty collection at Afghan points of entry has long
the LOTFA since the fund’s inception. The     been a problem, and little progress has been made. According to State, the
LOTFA has been the subject of criticism for   main issue in fighting corruption and fraud in customs is resolving the ques-
its oversight and its payment system, which   tion of which Afghan government agencies should be present at the border
some see as rife for waste and fraud.         and what specific authority they should have to impose duties and/or other
                                              fees.293 For the first three quarters of SY 1391, customs accounted for 43%
                                              of total Afghan revenues. However, some inland customs depots reportedly
                                              lose an estimated 70% of potential border revenue due to corruption.
                                                  The Presidential Executive Commission (PEC) is designed to resolve
                                              administrative issues in customs collections to tamp down fraud but was
                                              still in an indeterminate state at the end of 2012. From August to December,
                                              ISAF and the U.S. Embassy Kabul made several engagements on the mat-
                                              ter with President Karzai. The Afghan government has advised that the
                                              Commission, still not formally established by governmental decree, should
                                              be activated under the chairmanship of Minister of Finance Omar Zakhiwal.
                                              The MoF informed the U.S. Embassy Kabul that they are redrafting the
                                              Commission’s mandate to broaden its leadership to include the Office of
                                              National Security Council, thus giving the PEC more latitude in tasking.294


                                              HUMAN RIGHTS
                                              Afghanistan’s record in protecting human rights remains inconsistent. This
                                              quarter, SIGAR reviews issues related to women’s rights and refugees.

                                              Gender Equity
                                              This quarter, UNAMA released a report on the Afghan government’s
                                              enforcement of the Elimination of Violence Against Women (EVAW)
                                              Law. According to the report, while Afghan prosecutors and courts were
                                              increasingly applying the law for cases of violence against women, the
                                              overall use of the law was still low. Incidents of violence against women
                                              remain largely underreported because of cultural and social norms, reli-
                                              gious beliefs, widespread discrimination against women, and other issues.
                                              In 2012 there was an increase in the number of reported violent incidents




                                               120                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                  GOVERNANCE




that were sent to the responsible government entities. The report noted
that this increase might be due more to better public awareness and sen-
sitivity to the issue of violence against women than to an increase in the
actual number of incidents.295
    Prosecutors and primary courts were better at applying the EVAW law in
2012 as city courts issued more convictions under the law. However, of the
more than 4,000 reported incidents of violence that the Afghan Independent
Human Rights Commission recorded from March to October 2012, very few
were resolved through the judicial conviction process.296
    Battery and laceration were the most prevalent crimes recorded under
the EVAW law. There was also was an increase in “honor” killings. The long-
running practice of prosecuting women and girls for “running away” from
home to escape domestic violence and unwanted marriages continued.297
    The ANP and prosecutor’s office were found to frequently refer cases
concerning women, including serious crimes, to jirgas and shuras for advice
or resolution. Given the traditional attitudes prevalent at these venues, the
referrals often undermined implementation of the EVAW law and reinforced
harmful practices.298

Refugees
On December 12, 2012, the Pakistani government extended the tripar-
tite agreement and proof of registration cards until June 2013 for the
approximately 1.7 million Afghan refugees living in Pakistan. The tripar-
tite agreement between the United Nations Refugee Agency (UNHCR),
Pakistan, and Afghanistan grants Afghan refugees official refugee status
in Pakistan and was to come to an end on December 31, 2012. For much
of 2012, the extensions of the agreement and cards were in doubt, causing
concern that the refugees could face a humanitarian crisis and forced return
when the cards and agreement were set to expire. Pakistani Prime Minister
Ashraf has tasked a cabinet committee to formulate a strategy regarding
refugees for after the June 2013 expiration of the extension.299
    The approximately 800,000–1 million registered Afghan refugees in
Iran continue to have access to education, free primary health care, and
eligibility for work permits through Iranian and UNHCR protection and
assistance efforts. Access to health care was provided through a joint
Iranian Government-UNHCR insurance program. The Iranian government
has previously threatened to invoke mass deportations, although these have
not occurred and there were no signs at year-end 2012 that they were immi-
nent. Returns from Iran to Afghanistan remain relatively high, mostly due
to the recessionary Iranian economy, Western economic sanctions, and a
sharp decline in the value of the Iranian rial. While some press reporting in
the past year indicated that Iran stepped up deportation of Afghan refugees,
UNHCR exit interviews found that the individuals deported were illegal
migrants rather than registered refugees.300




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2013           121
ECONOMIC AND SOCIAL DEVELOPMENT




CONTENTS

Key Events 	                         123
Economic Indicators	                 124
Budget	124
Fiscal Sustainability 	              125
Revenue Collection 	                 126
U.S. Economic Support Strategy	      127
Banking and Finance	                 128
Development of Natural Resources 	   131
Agriculture	134
Essential Services/Development	      136
Transportation	142
Education	146
Health	148
Private Sector Development	          150
Communications	152
Trade 	                              152




 122
ECONOMIC AND SOCIAL DEVELOPMENT




 ECONOMIC AND SOCIAL DEVELOPMENT
 As of December 31, 2012, the U.S. government had appropriated nearly
 $22.4 billion to support governance and economic development in
 Afghanistan. Most of the funds flowed through four major programs
 and accounts: the United States Agency for International Development’s
 (USAID’s) Economic Support Fund (ESF), the Department of Defense’s
 (DoD’s) Commander’s Emergency Response Program (CERP), the Task
 Force for Business Stability Operations (TFBSO), and the DoD-State
 Department jointly administered Afghanistan Infrastructure Program (AIP)
 supported by DoD’s Afghanistan Infrastructure Fund (AIF).301
     Despite tangible progress made across development sectors since 2002,
 Afghanistan remains one of the poorest countries in the world and ranks
 among the lowest in almost every development indicator.302 The services
 sector, led by telecommunications, transport, and public services, contrib-
 uted approximately 50% to Gross Domestic Product (GDP) in 2011, a rise of
 12% over 2010.303 This sector, particularly telecommunications, is expected
 to continue driving economic growth and development next year.304
     Afghanistan depends on international donor assistance.305 This dependence
 on external funds fuels concerns about its ability to sustain economic growth
 in light of the planned drawdown of U.S. troops in 2014, as well as the accom-
 panying reduction in international donor assistance. This quarter, the United
 States and the international community sought to further prepare Afghanistan
 to transition successfully to full control of its national security and to minimize
 economic contraction in the coming transformation decade.


 KEY EVENTS
 During this reporting period, President Karzai met with President Obama
 in Washington, DC, where they discussed ways to support Afghanistan’s
 continued progress toward sustainable economic growth and fiscal
 self-reliance. President Obama reaffirmed America’s commitment to
 Afghanistan’s long-term economic and security assistance in line with the
 Tokyo Mutual Accountability Framework.306
    This quarter, the World Bank predicted that Afghanistan’s 2012–2013
 GDP growth would rise due to bountiful wheat and other cereal harvests
 in the agricultural sector. Overall, 2012 government revenues increased




  REPORT TO THE UNITED STATES CONGRESS    I   JANUARY 30, 2013               123
ECONOMIC AND SOCIAL DEVELOPMENT




over 2011 figures, although they fell short of government targets, and were
eclipsed by expenditures.307 With revenue-generating sectors such as mining
in their infancy, agricultural output dependent on the weather, and demand
for services correlated with the international presence, it remains uncertain
whether Afghanistan can sustain economic development as U.S. and coali-
tion forces withdraw by year-end 2014.
   In line with International Monetary Fund (IMF) requirements, Afghanistan
made modest headway in its fight against corruption. It made progress
in restoring some confidence in its fledging banking sector by starting
high-level prosecutions of those responsible for theft against Kabul Bank,
including the main architects of the fraud.308 In other developments, oil
extraction began from Afghanistan’s first major commercial production
site;309 the Ministry of Mines (MoM) received one bid for another major oil
and gas production project, and announced the winners of four copper and
gold tenders.310 Furthermore, in a move that could affect reconstruction
efforts, the Wolesi Jirga, Afghanistan’s lower house of parliament, voted to
begin impeachment proceedings against 11 cabinet ministers, including the
ministers of economy, mines, education, and energy and water, for failing to
execute at least 50% of their budgets.311


ECONOMIC INDICATORS
Afghanistan’s economy has improved significantly since 2002. Its GDP
growth rate is on par with or exceeds that of many neighboring countries.312
The World Bank estimated Afghanistan’s calendar-year 2012 real GDP
growth at 10%, driven by a near-record breaking wheat and cereal harvest.313
This is up from 7.3% in 2011 and exceeded the Asian Development Bank’s
(ADB’s) estimate of 6.9%, reported by SIGAR last quarter.314
   Until December 21, 2012, Afghanistan calculated its fiscal years accord-
ing to solar years. The country’s per capita income increased fivefold
from $130 in Afghan fiscal year (FY) 1386 (March 2007–March 2008) to
$650 in FY 1391 (March 2012–December 2012). And as of November 2012,
Afghanistan’s foreign-exchange reserve stood at close to $7 billion.315


BUDGET
Afghanistan’s Parliament approved the FY 1392 national budget on
January 20, 2013. The budget totals about $6.81 billion, as compared to
$5.91 billion in FY 1391 (12-month comparison).316 The budget consists of the
operating budget ($3.78 billion), which covers current government expendi-
tures—security, salaries, operations and maintenance, capital, etc.—and the
development budget ($3.03 billion), which covers reconstruction costs.317
   Details of the approved budget were not available at press time.
Descriptions that follow refer to the initial proposed budget. About 72% of the




 124                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 proposed operating budget is for salaries, 14% to acquire goods and services,       The Afghan government’s fiscal year had
 and 13% for road operations and maintenance and various kinds of pensions,          been the same as the solar year, but the
 including those for government staff, the armed forces, the disabled, and the       most recent fiscal year (1391) ran only from
 families of those killed in Afghanistan’s wars. The Minister of Finance said he     March 21, 2012, to December 20, 2012,
 expects internally generated revenues to fund 56% of the $3.78 billion operat-      to better align with donors’ fiscal calen-
                                                                                     dars. This one-time, nine-month fiscal year
 ing budget, with the international community covering the 44% shortfall.318
                                                                                     bridged the change to a new Afghan fiscal
     The FY 1392 proposed development budget is 37% higher than in FY 1391
                                                                                     year that now runs from December 21–
 (12-month comparison).319 It focuses on strengthening Afghanistan’s eco-
                                                                                     December 20. The “12-month comparison”
 nomic infrastructure and encouraging job creation so the country can wean           references in the text offer a normalized
 itself from international assistance. It prioritizes renovating infrastructure,     basis for comparison.
 investing in human capital, promoting the private-sector, and providing
 oversight of the agriculture and rural development sectors. It also calls for
 effective and efficient exploitation of Afghanistan’s natural resources, and
 envisions using investments in Afghanistan’s extractive industry as a lever
 for broader economic development.320
     This large increase in the FY 1392 development budget may be a cause
 for concern. Given the government’s historically poor execution rate of the
 development budget—just 52% in FY 1390—it is unclear whether it will be
 able to execute the increased FY 1392 development budget. DoD cautioned
 that the imminent increase of substantial on-budget donor funding, as
 called for under the Tokyo Mutual Accountability Framework, will require
 the Afghan government to quickly, “and potentially unsustainably,” improve
 its budget spend rate.321


 FISCAL SUSTAINABILITY
 The Ministry of Finance (MoF) projects domestic revenue for FY 1392
 at $2.4 billion, an increase of 33% over FY 1391. The ministry cautions,
 however, that the rate of revenue growth will decline going forward. The
 government will have to pass new tax measures and amend the country’s
 laws to raise the revenue necessary to fund its portion of the budget.322
    Afghanistan’s fiscal sustainability ratio—domestic revenues versus operat-
 ing expenses—is one of the lowest in the world, according to DoD. Domestic
 revenue in 2012 is estimated to cover only two-thirds of the government’s
 operating expenditures, and will comprise less than 20% of the public expendi-
 tures budget. The fiscal sustainability ratio will be further strained throughout
 the transition as Afghanistan takes on more reconstruction and infrastructure
 projects, and their associated fixed operations and maintenance costs.323
    In its semi-annual “Report on Progress Toward Security and Stability
 in Afghanistan,” DoD said some of this pressure can be alleviated through
 savings from civil service reforms, ongoing government capacity-building
 programs, cost-savings efficiencies in budgeting, planning, spending,
 and contracting, further economic and infrastructure development, an
 improved business environment, and a dedicated tax base.324 DoD points
 out that implementing these reforms can also help ameliorate private-sector



 REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2013               125
                                                             ECONOMIC AND SOCIAL DEVELOPMENT




                                                             concerns about investing in Afghanistan during the political and security
                                                             uncertainty of the transition.325


                                                             REVENUE COLLECTION
                                                             Afghanistan’s two main sources of revenue are customs and domestic
     “Our first priority is                                  taxes. Taxes make up an estimated 68% of total collections.326 Afghanistan
   increasing revenue and                                    increased its domestic revenue collection in FY 2012 by 24% over the pre-
                                                             vious year, netting approximately $950 million for the first two quarters,
  it requires us to create a                                 according to the World Bank.327 Tax collection improved 16% over the
system to counter corrup-                                    previous year due to better compliance, administration, and oversight.328
 tion, prevent tax evasion                                   Customs revenues also improved by 10% over FY 2011 levels, but further
  and we need to seek out                                    growth was hampered by trade disruptions at the Pakistani border, accord-
                                                             ing to the World Bank.329 However, the increases in revenue did not keep
new tax measures in order
                                                             pace with expenditures, which increased by 26% in FY 2012 due to higher
 to create an environment                                    security spending and a higher government wage bill. The international
feasible for private sector.”                                community filled the fiscal gap between revenues and expenditures.330
                    Minister of Finance                         Afghanistan has implemented new taxes, including property, business,
             Dr. Hazrat Omar Zakhilwal                       and agricultural-surplus taxes, as well as new customs tariffs. While the
                                                             Afghan government and DoD see agriculture, communications, and the
                                                             extractive industries as having the most potential to bring in additional rev-
Source: “H.E. Finance Minister’s Speech for Mishrano Jirga   enues from these new taxes, DoD expects business taxes to contribute only
Regarding Submission of 1392 National Budget,” 11/6/2012.
                                                             marginally due to corruption, the largely informal economy, and geographi-
                                                             cal remoteness of significant segments of the population.331
                                                                This quarter, Treasury’s Office of Technical Assistance (OTA), Revenue
                                                             Policy and Administration team completed a three-year non-tax revenue
                                                             project, which assisted the Afghan government in generating non-tax rev-
                                                             enue and advised them on proper control of the funds after receipt. OTA
                                                             evaluated fees and policies for assessment, collection, and sanctions in land
                                                             transportation, including the toll road system and railroads. It developed
                                                             and presented a plan to the Ministry of Public Works to revise fees for com-
                                                             mercial vehicles so the ministry has more control over revenue, improving
                                                             transparency, and reducing corruption.332
                                                                OTA also helped Kabul International Airport transition to a new auto-
                                                             mated air traffic-control system that replaced paper-based record keeping
                                                             of commercial flight activity. Additionally, it implemented an automated
                                                             revenue-management system overseen by the International Air Transport
                                                             Association (IATA) at Afghanistan’s four international airports to replace
                                                             cash payments for airport fees and reduce the potential for corruption.
                                                             Revenues are now deposited directly to the central bank. According to
                                                             Treasury, this revenue-management system brings accountability and trans-
                                                             parency to the revenue generation process in civil aviation, and allows more
                                                             simplified auditing.333




                                                              126                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




    Treasury noted that fee collections at the airports have improved by 25%
 since the automated system was initiated. Automated collection of the air-           Extended Credit Facility (ECF): provides
 port security fee is expected to net $13–15 million in 2013. Additional revenue      financial assistance to countries with pro-
 should be generated by shifting the responsibility for collecting passenger-         tracted balance-of-payments problems. It
 facility use fees from airlines (who currently owe the government $10 million in     makes the IMF’s financial support more
 non-transferred remittances) to the IATA.334 FY 2013 funding for OTA’s Revenue       flexible and better tailored to the needs of
 Policy and Administration team is $60,768, down from $537,000 in FY 2012.335         low-income countries, with higher levels
                                                                                      of access, more concessional financing
    Despite improvements in revenue collection, the United States and its
                                                                                      terms, more flexible program design fea-
 coalition partners recognize that under current and medium-term economic
                                                                                      tures, as well as streamlined and more
 conditions, the Afghan government cannot generate enough revenue to                  focused conditionality.
 cover its operating expenditures. The World Bank projects this fiscal gap to
 reach the equivalent of 25% of GDP by 2021/2022 and has said the interna-
 tional community will have to bridge that gap.336
                                                                                    Source: IMF, “ECF Factsheet,” 4/2012, accessed 1/14/2013.
    Continued donor support for Afghanistan’s reconstruction will depend
 in part on Afghanistan fulfilling the commitments it made at the Tokyo
 Conference in July 2012. Afghanistan and the international donor community
 agreed to the Tokyo Mutual Accountability Framework, which requires the
 Afghan government to meet 16 specific reform benchmarks, including a call
 to fulfill its responsibilities under the IMF’s Extended Credit Facility (ECF)
 Arrangement to improve accountability and reduce corruption.337 According
 to the Afghan Coalition for Transparency and Accountability, the FY 1392            “So, even as we move for-
 (2013) budget did not include any statement about combating corruption in
 terms of budget targets or budget execution.338
                                                                                    ward with the security tran-
    The United States is focused on ensuring consistent and visible progress        sition under NATO ISAF in
 on all of the Framework’s indicators to strengthen Afghanistan’s develop-            2014, and the end of our
 ment, and to justify continued donor assistance.339 Without progress, aid           coalition combat mission,
 could be threatened. Several media outlets this quarter reported on the
                                                                                     we are focused on shoring
 European Union decision to defer $25 million from Afghanistan’s justice
 sector until more efficient reform is demonstrated.340 The United States has       up Afghanistan’s economic
 made clear to the Afghan government that future funding levels are contin-          future, because we know
 gent on progress in implementing the Framework’s benchmarks, according             that, without that, stability
 to State.341 If international donors do not provide the funding to bridge           and security will certainly
 this gap, Afghanistan will have to decrease spending and develop its own
 resources for sustainable economic growth and revenue.342
                                                                                    be elusive….The long, hard
                                                                                    work of economic develop-
                                                                                     ment may not be glamor-
 U.S. ECONOMIC SUPPORT STRATEGY                                                     ous, but it is essential, even
 The Coalition’s economic transition strategy in Afghanistan seeks to mitigate
 negative economic impacts from the withdrawal of international security
                                                                                           in war zones.”
 forces by 2014 and the expected reduction in donor assistance, and to help                                   Secretary of State
 Afghanistan develop its resources for sustainable growth.343 U.S. economic                            Hillary Rodham Clinton
 assistance is focused on promoting private-sector development, increas-
 ing revenue collection, creating jobs, improving food security, and building
                                                                                    Source: DoS, “Delivering on the Promise of Economic
 capacity to sustain economic growth through the transition and beyond.344          Statecraft,” 11/17/2012.




 REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2013              127
                                         ECONOMIC AND SOCIAL DEVELOPMENT




                                            An important U.S. goal is to support “sustainable, inclusive economic
                                         growth that will help Afghanistan to be increasingly integrated economi-
                                         cally within the region.”345 This is sometimes referred to as the New Silk
                                         Road initiative, in reference to the ancient trade route across south Asia.
                                         SIGAR has previously noted that regional economic integration as called
                                         for in the New Silk Road initiative includes the free movement of goods,
                                         services, capital, and people between Afghanistan and its neighbors. The
                                         initiative also calls for developing roads, rail lines, electric-transmission net-
                                         works, pipelines, and other infrastructure as a means to encourage regional
                                         integration and private sector development.346
                                            This following section describes developments and U.S.-funded efforts
                                         in the major economic sectors: banking and finance, natural resources,
                                         agriculture, and essential services, including the provision of electricity,
                                         transportation, health, and education.


                                         BANKING AND FINANCE
SIGAR SPECIAL PROJECT                    Private-sector development depends on establishing solid financial institu-
                                         tions to provide capital and facilitate the exchange of money for goods and
In a follow-up to a 2011 audit on cash   services. However, Afghanistan’s financial sector remains largely underde-
flows from Kabul airport, SIGAR found    veloped, makes limited capital investments in businesses, and contributes
that bulk currency counters were still   little to Afghanistan’s private-sector activity.347 The banking sector still
not being used for their intended pur-   has not recovered from the 2010 near-collapse of Kabul Bank, and further
pose, not readily accessible, and not    reforms are needed, including stronger financial supervision, anti-corruption
connected to the internet or computer    measures, and reduced exposure to risk.348 DoD cautions that while a new
servers. They also were being bypassed   banking law is planned to address these issues, a lack of leadership and pro-
by passengers designated by the          fessional capacity in the banking sector could hinder meaningful reform.349
Afghan government as Very Important
Persons. For more information see        The Kabul Bank
“Anti-Corruption Measures: Persistant    This quarter, the Independent Joint Anti-Corruption Monitoring and
Problems Exist in Monitoring Bulk Cash   Evaluation Committee (MEC) issued the results of its public inquiry into
Flows at Kabul International Airport”    the Kabul Bank crisis. The report provided a full accounting of the finan-
(SIGAR SP-13-1) in Section 2, p. 44.     cial crisis, including naming companies and referencing some individuals
                                         responsible for the massive fraud. The MEC also made recommendations
                                         to address weaknesses in Afghanistan’s financial system.350 The government
                                         announced that it is reviewing these recommendations for implementation
                                         with assistance from technical advisors.351
                                            The 2010 near-collapse of Kabul Bank brought to light the loss of nearly
                                         $1 billion in stolen funds, more than 92% of which went to 19 individuals and
                                         companies. Afghanistan’s central bank—Da Afghanistan Bank—covered
                                         these losses, representing approximately 5–6% of Afghanistan’s total GDP.352
                                         Under the IMF’s ECF Arrangement, the government is required to recapitalize
                                         the central bank; recover assets and hold accountable those responsible for
                                         the Kabul Bank crisis; strengthen banking reforms and supervision through




                                          128                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 Afghanistan’s central bank; improve the management and transparency of
 public funds; and combat money laundering and terrorist financing.353
    This quarter, the Afghan government updated the total money owed
 to the Kabul Bank from $935 million to $982 million after adding “signifi-
 cant non-loan claims” like unauthorized cash disbursements and expense
 claims. The government also reported recovering $8.8 million in cash dur-
 ing this reporting period, bringing total recoveries to $138 million.354 The
 State Department reported cash recoveries of about $4 million this quarter,
 largely the result of the sale of two residential properties in Dubai, com-
 pared to $100,000 last quarter.355
    Afghanistan’s Supreme Court set up a special tribunal in April 2012 to inves-
 tigate and prosecute economic crimes at Kabul Bank.356 Initial hearings began
 on November 14 and 17, 2012, covering 22 indictments, including those of
 Kabul Bank’s former chairman Sherkhan Farnood and former CEO Khalilullah
 Ferozi, considered the main architects of the fraud. No verdicts have been
 announced, nor have timelines been given for further judicial proceedings.357
    The Financial Dispute Resolution Commission (FDRC), which was set up
 to resolve civil cases against the bank, has yet to finalize any repayment agree-
 ments. According to State, of the nine civil cases received from the Kabul
 Bank receiver, the FDRC has completed four. Of these, two borrowers agreed
 in principle to FDRC rulings and two cases have been submitted to the Special
 Tribunal and Attorney General’s Office (AGO).358 The FDRC’s cases can be
 referred to the Special Tribunal and AGO if criminal components to the cases
 are found, or to appeal the FDRC’s rulings, or if the FDRC cannot resolve the
 case on its own.359 There is currently no timeline to complete these cases.360

 Sale of New Kabul Bank to Private Investors
 The privatization of New Kabul Bank (NKB) remains an ECF benchmark.
 NKB is a temporary “bridge bank” containing the good assets, loans, and
 deposits from Kabul Bank. The MoF has said it intends to sell NKB to pri-
 vate investors or liquidate it by the end of 2013.361 Investor conferences
 were held in Kabul on October 4, 2012, and in Dubai on November 14, 2012.
 Request for expressions of interest were due November 27, 2012.362 The
 five submissions received reportedly included one from a North American
 bank and four from Afghan banks.363 The submissions are currently being
                                                                                     SIGAR AUDIT
 reviewed by the Privatization Steering Committee.364 If the privatization pro-      SIGAR is conducting an audit on U.S.
 cess fails and NKB is liquidated, payments of civil service salaries currently      government agency compliance with
 routed through the bank could be delayed.365                                        the congressionally mandated prohibi-
                                                                                     tion on contracting with the enemy. For
 Terrorist Financing/Sanctions                                                       more information, see “DoD Compli-
 On November 5, the United Nations Security Council (UNSC) added the                 ance with the Prohibition on Contract-
 Pakistan-based Haqqani Network to its list of sanctioned entities and groups        ing with the Enemy” in Section 2,
 under UNSC Resolution 1988 for its links to the Taliban and al-Qaeda, as            p. 26.
 well as its responsibility for suicide attacks, targeted assassinations, and




 REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2013               129
                                                   ECONOMIC AND SOCIAL DEVELOPMENT




Executive Order 13224, issued September 23,        kidnappings across Afghanistan. Sanctions include asset freezes, travel
2001, authorizes the United States govern-         bans, and an arms embargo. This supplements the Network’s formal U.S.
ment to designate and block the assets of          designations under Executive Order (E.O.) 13224 as a Foreign Terrorist
foreign individuals and entities that commit,      Organization, and as a Specially Designated Global Terrorist by the State
or pose a significant risk of committing, acts     Department last quarter.366
of terrorism. It also authorizes the blocking of      The Haqqani Network is a family-run insurgent group that the
assets of those who provide support, services,
                                                   Congressional Research Service describes as “one of the Taliban’s most
assistance to, or otherwise associate with, ter-
                                                   capable militant factions as well as an enterprising transnational criminal
rorists and terrorist organizations designated
under the Order.                                   organization.”367 The Network is financially diversified and benefits from
                                                   both licit and illicit activities. It profits extensively from extortion and
Source: DoS, “Executive Order 13224,” 9/23/2001.
                                                   protection rackets, robbery, smuggling, and kidnapping for ransom. The net-
                                                   work can also launder its proceeds through its legitimate business interests,
                                                   including transportation, real estate, and construction firms, some of which
                                                   allegedly have contracts with the United States and its coalition partners.368
                                                      According to Treasury, the Haqqani Network’s listing under E.O. 13224
                                                   will make it easier for the U.S. government to pursue “derivative designa-
                                                   tions” of Network members and their facilitators because they will no
                                                   longer need to be linked to the Taliban. Since 2008, 11 individuals associ-
                                                   ated with the Haqqani Network have been designated under E.O. 13224—six
                                                   by Treasury and five by the State Department. Ten of the 11 individuals are
                                                   also sanctioned under UNSC Resolution 1988. Previously, the United States
                                                   could only request UN member states to take action against the Haqqani
                                                   Network in response to U.S. domestic designation; the UNSC designation
                                                   now obligates member states to take concrete steps.369

                                                   Iran Sanctions
    SIGAR SPECIAL PROJECT                          U.S. sanctions against Iran, detailed in SIGAR’s October 2012 quarterly report,
                                                   could expose Afghanistan to sanctions in several ways, according to Treasury.
    SIGAR examined the risk that U.S.-fund-        These include Afghan purchases of Iranian petroleum products and provi-
    ed fuel purchases for the ANSFcould            sion of U.S. bank notes to facilitate trade with Iran. Aside from designating
    violate U.S. economic sanctions against        Kabul-based Arian Bank as Iranian-owned, the United States has so far not
    Iran. For more information, see “Afghan        levied penalties on any Afghan entity for violating sanctions against Iran.
    National Security Forces: Limited Vis-         However, given the extent and complex nature of U.S. sanctions law, as well
    ibility over Fuel Imports Increases the        as Afghanistan and Iran’s common border and long-standing trade relation-
    Risk that U.S. Funded Fuel Purchases           ship, there is a risk that Afghan entities could be affected by the sanctions.370
    Could Violate U.S. Economic Sanctions          Additional sanctions were added in December as part of the FY 2013 National
    against Iran” (SIGAR SP-13-2) in Sec-          Defense Authorization Act. A SIGAR report this quarter found that, as the
    tion 2, p. 45.                                 United States shifts to providing direct assistance funding to buy fuel for the
                                                   ANSF, it may need to take safeguards to ensure that the Afghan government
                                                   does not buy the fuel from Iran in violation of U.S. economic sanctions.
                                                      U.S. and international sanctions have weakened Iran’s currency, the
                                                   rial. As previously reported, there are no reliable public data on the impact
                                                   of Iran sanctions on Afghanistan’s economy, its pattern of trade, or com-
                                                   merce. However, cheap Iranian imports are reportedly benefiting Afghan




                                                    130                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 consumers in the western part of the country, although some Afghan fac-
 tories are said to be closing as a result of product prices being undercut by
 cheaper Iranian goods. It is also thought that the falling value of the rial has,
 in turn, caused the value of remittances from Afghan expatriate workers in
 Iran to decrease significantly. Many Afghan migrant workers have returned
 from Iran, affecting the spending power of their families, and possibly con-
 tributing to higher unemployment.371


 DEVELOPMENT OF NATURAL RESOURCES
 The Afghan government and the international donor community count on
 developing Afghanistan’s natural resources, particularly in mining, to under-
 pin economic development. Geological surveys indicate that Afghanistan
 may have as much as $1 trillion dollars in mineral assets as well as coal,
 petroleum, and gas reserves. However, it is unclear how much of that could
 translate into revenue and when it could be realized.
    The United States, through the Task Force for Business Stability
 Operations (TFBSO) has supported the Afghan government’s efforts to
 attract investment in the mining sector. As of December 31, 2012, TFBSO
 obligated $3.8 million for mining-sector development.372 This quarter, the
 Afghan government awarded four tenders to explore for copper and gold.
 TFBSO also continued to support Afghan government efforts to issue and
 award tenders for the development of oil and gas reserves in the Afghan-
 Tajik Basin. In another development, modest oil production began in the
 Amu Darya block in Sar-e Pul and Faryab provinces.
    Although mining has contributed less than 1% to the country’s GDP
 to date, the Afghan government expects to receive significant revenues
 from large-scale investments in the Aynak (copper) and Hajigak (iron-ore)
 mines.373 However, lack of security has continued to prevent development
 of these mines.374
    Realizing Afghanistan’s mineral wealth will not be easy. Extracting
 minerals and getting them to market assumes a basic level of security
 and requires a reliable transportation network, electricity, and a skilled
 labor force. The World Bank has cautioned that while progress to date is
 encouraging, without a new mining law to shore up legal and regulatory
 authorities, critical private-sector investment could be delayed.375 Current
 law separates exploration and extraction rights, providing no guarantee that
 a company exercising exploration rights will be able to recoup their invest-
 ment through the extraction phase.376

 Minerals
 On December 6, 2011, the Ministry of Mines (MoM), using TFBSO’s legal,
 geological, and transactional assistance, tendered four mineral-exploration
 packages.377 On November 26, 2012, the MoM announced preferred bidders




 REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2013               131
ECONOMIC AND SOCIAL DEVELOPMENT




for three, and on December 10, 2012, it announced the fourth. Contract
negotiations are expected to commence in January 2013, with financial
details available upon contract awards.378 The packages and bidders are:
•	 Balkhab (Sar-e Pul): copper – Afghan Gold and Minerals Company
•	 Shaida (Herat): copper – Afghan Minerals Group
•	 Badakshan (Badakshan): gold – Turkish-Afghan Mining Company
•	 Zarkashan (Ghazni): copper and gold – Sterling Mining/Belhasa
   International Co. LLC

   Afghanistan’s two largest mining projects—the Mes Aynak copper mine
in Logar province and the Hajigak iron-ore deposit in Bamyan—continue
to experience delays. No extraction has begun at the Aynak copper mine,
which was awarded to China Metallurgical Group (MCC) in 2007, for rea-
sons including the discovery of cultural relics in the area, difficulties in
land acquisition, a lack of development of necessary infrastructure, and
security concerns.379 SIGAR previously reported 10 rocket-propelled gre-
nade attacks against the MCC personnel compound in 2011; these attacks
continued through June 2012.380 According to State, the Ministry of Interior
and the MoM have failed to adequately address these concerns, and MCC
may be deferring further investment until it evaluates the post-transition
security environment.381
   The Afghan government is relying on this revenue stream. According to
published summaries of the Aynak contract, the government is slated to
receive royalty rates of up to 19.5%, $808 million in pre-royalty payments, a
400 MW coal-fired power plant, and an associated coal mine.382
   Contract negotiations for Hajigak, awarded to state-owned Steel
Authority India Ltd. in November 2011, are still ongoing. DoD attributes the
delay to the absence of a new or amended mining law. It estimates produc-
tion will start in 2017, and the Afghan government will receive $200 million
annually in revenue.383
   On December 31, the MoM announced two signed coal contracts: one
with the Hashimi Group for the Nahreen coal mine in Baghlan province, and
one with Khalid Aziz Company for the Gazistan mine in Takhar province.
The Nahreen coal mine contract requires a $4 million investment and 1,150
Afghani (approximately $22.50) in royalties per metric ton extracted. The
Gazistan coal-mine contract requires a $4.5 million investment and 1,220
Afghani (approximately $24.00) in royalties per metric ton extracted.384

Hydrocarbons
Afghanistan’s efforts to develop its oil and gas reserves currently focus on
two areas: the Afghan-Tajik Basin and Amu Darya Basin, both in north-
ern Afghanistan. This quarter, TFBSO, with the help of the United States
Geological Survey (USGS) began evaluating an area in Logar province that
could be a candidate for further exploration.




 132                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




     With TFBSO assistance to the MoM, the tender for the exploration,
 development, and production of hydrocarbons in six blocks in the western
 portion of the Afghan-Tajik Basin of northern Afghanistan (Phase I) moved
 forward this quarter. The TFBSO provides technical, legal, and commercial
 support to the MoM.385 That support included subject-matter experts and
 transparency consultants to ensure the bidding and evaluation process
 was fair, transparent, competitive, and conformed to international stan-
 dards. TFBSO also provided funding for the MoM’s August 2012 Bidder
 Information Conference in Istanbul, and for the travel of Afghan officials.386
     On November 12, 2012, the MoM announced that of the six blocks
 offered in the Afghan-Tajik Phase I tender, it received one bid for two
 blocks—Sanduqli and Mazar-e-Sharif—from a consortium consisting of
 Dragon Oil, a publicly listed company 54%-owned by the Emirate National
 Oil Company; Kuwait Energy, a privately held firm; state-owned Turkish
 Petroleum Corporation; and the Ghazanfar Group, an Afghan conglomer-
 ate. The MoM’s contract-evaluation team will begin contract negotiations
 and will make financial details available upon the contract award.387 TFBSO
 believes that the Sanduqli and Mazar-e-Sharif blocks were targeted because
 they had higher potential for oil development and lower capital and invest-
 ment risk than the remaining four.388
     Meanwhile, production began in the three blocks in the Amu Darya Basin
 in October 2012. DoD reported that a total of approximately 5,000 bar-
 rels of crude oil was extracted from three blocks in Amu Darya in 2012.389
 TFBSO estimates that the China National Petroleum Corporation Watan
 Energy Afghanistan, Ltd. (CNPCI-W) is capable of producing 2,700 barrels
 per day.390 The State Department estimates a lower barrel-per-day produc-
 tion rate of 1,950.391 The company has invested $82 million so far in the Amu
 Darya Basin, and finished several production facilities, camps, and roads.392
     The World Bank estimated that production will ramp up over the next
 two years to 15,000–30,000 barrels per day. If Afghanistan’s oil production
 were to reach this rate, annual revenue estimates range from $80 million to
 $200 million.393 The World Bank estimates annual revenues of $150 million
 to $200 million, but State projects lower revenues of $80 million based on
 an average crude oil price of $112/barrel. The government will receive 15%
 of production value in royalties, 20% in income tax revenues, and a 50–70%
 share of profits accrued after the royalty is deducted and CNPCI-W recovers
 its operating costs.394
     However, when calculating production and associated revenues, DoD noted
 that Afghan crude oil has extremely high sulfur content, which can corrode
 steel pipes and storage vessels if the oil is not refined. Afghanistan currently
 lacks such refining capacity, prompting CNPCI-W to seek off-take agreements
 with regional refineries to purchase its Amu Darya oil, according to DoD.395
     This quarter, TFBSO, with USGS assistance, began drilling in the north
 Aynak area of Logar province in order to determine if it could be tendered.




 REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2013              133
ECONOMIC AND SOCIAL DEVELOPMENT




This project will allow TFBSO to gather detailed geological data, and pre-
pare the area for rapid tender, exploration, and extraction. At the same
time, it will provide on-site training and experience for Afghan Geological
Survey staff. TFBSO funding allocations are $11.4 million for drilling and
$5 million for USGS.396 TFBSO is also supporting the Combined Forces
Special Operations Component Command’s Village Stability Operations pro-
gram by focusing on small artisanal mining projects in strategic areas, and
working with the MoM to develop a licensing program to encourage legal
mining, processing, and exporting activities.397

Other U.S. Assistance for Mining and Hydrocarbon
Development
In addition to assisting Afghan government efforts to issue tenders for min-
ing and hydrocarbon development, the United States has provided support
in the following areas:398
 •	 USAID is funding technical advisors at the MoM, through the Civilian
    Technical Assistance Program.
 •	 The Commerce Department is funding a human capital development
    project in the marble sector.
 •	 The Commerce Department is helping Afghanistan develop its
    commercial laws.
 •	 TFBSO is continuing to support USGS efforts to house, analyze, and
    interpret geological data.
 •	 TFBSO is supporting the Afghan Geological Survey to identify mineral
    prospects for future tenders.


AGRICULTURE
Agriculture plays a dominant role in the Afghan economy. Only 12% of the
land is arable and less than 6% is cultivated, yet 80% of Afghans directly and
indirectly earn a living from agriculture.399 Given its importance to the labor
force, agriculture could be a catalyst for GDP growth, improved food secu-
rity, and more stable employment opportunities.400 Since 2002 USAID has
provided about $1.9 billion to build capacity at the Ministry of Agriculture,
Irrigation, and Livestock (MAIL), increase access to markets, and provide
alternatives to poppy cultivation.401
    USAID is providing assistance to the agriculture sector through several ongo-
ing programs. The three largest programs, worth more than $300 million, are:
 •	 Agricultural Development Fund (ADF) and Agricultural Credit
    Enhancement (ACE)
 •	 Incentives Driving Economic Alternatives—North, East, and West
    (IDEA-NEW)
 •	 Commercial Horticulture and Agricultural Marketing Program
    (CHAMP)




 134                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 Agricultural Development Fund and Agricultural
 Credit Enhancement
 Agricultural Development Fund (ADF) and Agricultural Credit
 Enhancement (ACE), a $150 million agricultural-credit project, has two
 complementary activities that support MAIL’s efforts to provide loans and at
 the same time build MAIL’s capacity to manage the loans.
    ADF was established through a $100 million on-budget grant from USAID
 to MAIL to provide rapid disbursement of loans across the agricultural
 value chain through banks, farm stores, leasing companies, and food pro-
 cessors, which in turn provide agricultural credits to farmers. The program
 seeks to make credit available to small- and medium-scale commercial
 farmers (1–30 hectares).
    ACE, a $50 million technical assistance project, manages all ADF lending
 activities and helps build MAIL capacity. As of December 31, 2012, 15,000
 farmers have benefitted from $38 million in loans. ACE also organized more
 than 30 agricultural-credit shuras, or councils of elders, to raise awareness.
    USAID is tracking outputs and program effectiveness, and measuring them
 against fiscal year targets.402 For example, in FY 2012, 15,879 people directly
 benefitted from ADF-ACE financial agreements (reaching 66% of USAID’s
 FY 2012 goal), while 101,711 people benefitted indirectly (exceeding USAID’s      An Afghan farmer enjoys a 20% larger
 goal by 212%). Additionally, household income of the program’s direct benefi-     peanut crop after an Agricultural Credit
 ciaries increased on average 56%, exceeding USAID’s target by 560%.403            Enhancement loan enabled him to buy
                                                                                   fertilizer and pesticide for the first time.
                                                                                   (USAID Afghanistan photo)
 Incentives Driving Economic Alternatives—North, East, and West
 Incentives Driving Economic Alternatives—North, East, and West (IDEA-
 NEW) provides agricultural assistance and economic alternatives to growing
 poppies in select provinces in eastern Afghanistan and in poppy regions in the
 northern and western parts of the country. As of December 31, 2012, USAID
 has obligated $124 million to the IDEA-NEW program and $108 million has
 been disbursed through nine contracts. IDEA-NEW helps farmers shift to
 legal agricultural production, assists with rural enterprise and infrastructure
 development, extends access to financial services, and promotes value-chain
 development for key regional industries and trade corridors. It provides
 increased commercial agricultural opportunities for Afghan farmers in poppy-
 prone areas, and facilitates connections between producers, traders, and
 buyers through market information activities and sales promotion.404

 Commercial Horticulture and Agricultural Marketing Program
 Commercial Horticulture and Agricultural Marketing Program (CHAMP),
 a $40.3 million program that began in 2010, aims to help farmers shift from
 growing low-value crops such as wheat and corn to planting more profitable
 orchards and vineyards. CHAMP promotes export and trade corridors and
 works with farmers to improve crop quality. The program also works with
 traders to improve harvesting, packing, cold storage, and shipping methods.




 REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2013              135
                                          ECONOMIC AND SOCIAL DEVELOPMENT




                                          In the south—Kandahar, Uruzgan, Helmand, and Zabul provinces—CHAMP
                                          focuses on trellising existing vineyards, which is estimated to double the
                                          farmers’ income within two years.405
                                             The CHAMP program has faced several challenges. One is competition
                                          from other programs that have provided free assistance, while CHAMP
                                          requires fees for participation. Through the life of this project, farmers
                                          will contribute $4.5 million of their own funds to pay the costs of the new
                                          orchards and vineyards. Another is a lack of security in areas of implemen-
                                          tation. Some of USAID’s staff have been threatened in the course of their
                                          work. Despite these issues, CHAMP has trained more than 20,000 farmers
                                          in horticulture techniques, helped Afghans export more than 3,000 tons of
                                          dry and fresh fruit internationally, and constructed seven cold-storage and
                                          seven raisin-drying facilities. As of December 31, 2012, USAID has obligated
                                          and disbursed almost $20.8 million for CHAMP through five contracts.406


                                          ESSENTIAL SERVICES/DEVELOPMENT
                                          Since 2002, the United States has provided reconstruction funds to
                                          increase electricity, build roads and bridges, improve health and edu-
                                          cation, and grow Afghan capacity across service sectors. This section
                                          addresses key developments in U.S. efforts to improve the government’s
                                          ability to deliver essential services such as electricity, transportation,
                                          health, and education.

SIGAR AUDITS                              Energy
                                          Because electricity is so critical to Afghanistan’s development, the United
SIGAR conducted several audits of
                                          States has made developing an integrated energy sector one of its top
U.S. efforts to develop Afghanistan’s
                                          reconstruction priorities since 2002. USAID alone has provided more than
power sector:
                                          $1.7 billion from the ESF to build generators, substations, and transmis-
•	 Afghanistan Energy Supply has 	        sion lines as well as build the capacity of the Da Afghanistan Breshna
   Increased but an Updated Master        Sherkat (DABS). It is planning to spend at least $700 million more over the
   Plan is Needed and Delays and          next few years.407 In addition, DoD has provided more than $292 million for
   Sustainability Concerns Remain         electricity projects through CERP and $525 million through AIF, which is
   (SIGAR-Audit 10-04)                    jointly managed by DoD and State.
•	 Contract Delays Led to Cost Overruns      Afghanistan currently has two separate power systems: the Northeast
   for the Kabul Power Plant and Sus-     Power System (NEPS) and the Southeast Power System (SEPS).408 This
   tainability Remains a Key Challenge    quarter, the ADB presented a draft of a new energy master plan to augment
   (SIGAR-Audit 10-06)                    and connect these two systems over the next 20 years with the goal of
                                          increasing power generation and connecting 100% of the urban populations
•	 Fiscal Year 2011 Afghanistan Infra-
                                          and 65% of rural households to the networks. Currently only 28% of Afghan
   structure Fund Projects Are Behind
                                          households are connected to power-supply systems. The Power Sector
   Schedule and Lack Adequate Sus-
                                          Master Plan, as seen in Figure 3.31, calls for an investment of more than
   tainment Plans (SIGAR-Audit 12-12)
                                          $10 billion for generation, transmission, and network development proj-
                                          ects in four stages through 2032.409 Since 2009, SIGAR has conducted three




                                           136                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 FIGURE 3.31

 CURRENT MODEL OF ENERGY‐GRID SEGMENT POINTS AND CONNECTIONS


                                         UZBEKISTAN                              TAJIKISTAN



                                                                             NEPS
  TURKMENISTAN                                    NEPS

                                 NEPS


               HERAT
                                                                  NEPS



 IRAN                                                                                PAKISTAN

                                        SEPS

                 NIMRUZ
                                                                            Energy Import Routes
                                                                            Grid Segment Points
                                                                            Planned Grid Connections
                                                                            Existing Connections

 Source: Asian Development Bank, “TA7637 (AFG) Power Sector Master Plan,” 11/2012.


 audits related to Afghanistan’s energy sector. In each of them, the agency
 has called for the development of an integrated master plan to guide donors
 in the development of Afghanistan’s energy sector.
    Afghanistan imports about 73% of its electricity: 57% of the imports is
 from Uzbekistan, 22% from Iran, 16% from Turkmenistan, and 4% from
 Tajikistan. Five transmission lines from Uzbekistan, Turkmenistan, and
 Tajikistan feed into the NEPS. Afghanistan imports electricity from Iran
 on three lines. These import lines are not interconnected. The rest of
 Afghanistan’s power comes from hydroelectric plants, thermal plants fired
 by imported diesel fuel, and small diesel plants. The SEPS consists of four
 substations, including Kandahar and Helmand, that relay electricity from
 the Kajaki hydropower plant and diesel-fueled plants in Kandahar.410
    USAID has two projects to increase the electricity supply in the north
 and south. It is also in the process of signing implementation letters with
 Afghanistan’s MoF and the DABS, the country’s electric utility, for a major
 expansion of transmission capacity in both the northern and southern
 regions of the country. DoD’s AIF and TFBSO are funding a number of
 other projects. In some cases, USAID and DoD are both funding elements
 of major electricity projects. The combined value of these ongoing and
 planned projects is nearly $1.2 billion.411




 REPORT TO THE UNITED STATES CONGRESS                    I   JANUARY 30, 2013                          137
                                                  ECONOMIC AND SOCIAL DEVELOPMENT




                                                  Sheberghan Program
                                                  USAID, in partnership with the U.S. government’s Overseas Private
                                                  Investment Corporation, the ADB, and the Afghan government, is helping
                                                  fund a $580 million joint project to design a roadmap for the develop-
                                                  ment of the Sheberghan gas fields in the northern province of Jowzjan
                                                  and attract a private investor to construct and operate a 200 MW gas-fired
                                                  power plant with associated transmission lines by 2016.412 USAID is imple-
                                                  menting its part of the Sheberghan Program through two mechanisms, the
                                                  on-budget Sheberghan Gas Development Project (SGDP) and the off-budget
                                                  Sheberghan Gas Generation Activity (SGGA).413
                                                     Under the terms of an implementation letter signed by USAID,
                                                  the MoF, and the MoM, the SGDP will create a plan to develop the
                                                  Sheberghan gas fields by drilling or reworking four gas wells, designing
                                                  and installing a gas processing plant, and attracting private investment
                                                  for an independent power producer. The SGDP will cost an estimated
                                                  $97 million, of which $90 million will come from the United States and
                                                  $7 million from the Afghan government. USAID has obligated an initial
                                                  $30 million for this project.414
                                                     The SGGA, the off-budget part of the program, is building the capacity of
                                                  the MoM and departments involved to design, manage, and oversee devel-
                                                  opment of the gas fields and processing plant. This capacity-building aspect
FIGURE 3.32
                                                  of the program will help the Afghan authorities identify the infrastructure
SHEBERGHAN DONOR PORTFOLIO ($ MILLIONS)           needed to support development of the gas field and power plant, prepare
                                                  tender documents, and identify funding gaps. USAID has obligated $12 mil-
                                                  lion from the ESF on the $20.5 million SGGA contract.415
                                                     USAID’s contribution accounts for about 21% of the total program costs.
                               ADB                The MoM is funding 5% and the ADB will provide an additional 22%. Project
                               22%
               Private                            plans call for private investors to provide the remaining 52% as seen in
               Investors
               52%                USAID           Figure 3.32.416 The United States sees this as a priority project to reduce
                                  On-Budget       Afghanistan’s dependence on imported electricity.
                                  15%
                                                     This quarter, USAID received permission to start procuring services to
                                                  rehabilitate two wells and drill two new ones in the adjoining Bashikurd
               MoM
               5%
                                     USAID        and Juma gas fields to confirm that there are enough reserves to sustain
                                     Off-Budget
                                     6%           the project.417 On December 3, 2012, the Afghan government’s procure-
                                                  ment organization, Afghanistan Reconstruction & Development Services,
Source: USAID Sheberghan Dashboard 12/6/2012.     approved a tender to move that process forward.418

                                                  Kandahar-Helmand Power Project
                                                  The Kandahar-Helmand Power Project (KHPP), shown in Figure 3.33, aims
                                                  to simultaneously increase the power supply in Kandahar and make it
                                                  more accessible to the population. USAID awarded a $266 million contract
                                                  to Black and Veatch to design and build new diesel-powered generators,
                                                  rehabilitate power substations, upgrade the electrical distribution system,
                                                  and install a third turbine at the Kajaki Dam. This project, considered




                                                   138                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 FIGURE 3.33




     KANDAHAR-HELMAND POWER PROGRAM

                                                                     Musa Qala
                                                                                   Kajaki         KANDAHAR
                                                                                 Substation
                                                                                                   PROVINCE
                                                                   Tangi
                                                               Substation &
                                                                Distribution
                                                                           Rt. 611
                                                               Sangin
                                                                                       Ghorak

                                                                                                             Kandahar City
                                                                           Durai                              Distribution
                                                   Grishk                Junction                 Kandahar Upgrades
                                                                        Substation               Breshna Kot
                                                                                                 Substation
                                                                          HW1        Maiwand          Arghandat
                                                                                                         Kandahar
                                                   Lashkar                            Pushmool
                                                     Gah                                           Sherendam
                   Existing Substation                                                           Industrial Park

                   Proposed Substation
                   Existing Hydropower




     Source: USAID, response to SIGAR data call, “KHPP Dashboard,” 11/6/2012.




 an important element of the counterinsurgency strategy in southern
 Afghanistan, is intended to improve the quality of life for the people of
 Kandahar. As of December 31, 2012, USAID had obligated $139.5 million of
 ESF funds for the KHPP.419
    U.S. Forces–Afghanistan, U.S. Army Corps of Engineers (USACE), and
 USAID are working closely on related components of the project. However,
 the project has encountered a number of challenges. Security issues have
 caused the timeline for completion of the project to extend to mid-2015.
 During this reporting period, USACE scrapped plans to establish a project
 integration office at Kajaki and terminated its security contract for the
 Kajaki site. Afghan Public Protection Force guards forced an eight-day
 work stoppage, adding $200,000 in costs. In a separate issue, the lack of
 U.S.-flag carriers, whose use is legally required for transporting a percent-
 age of USAID-financed commodities, has delayed the ocean shipment of
 transformers and circuit breakers from Mumbai to Karachi.420

 Power Transmission Expansion and Connectivity Program
 Power Transmission Expansion and Connectivity (PTEC), a U.S.-funded
 program designed to modernize Afghanistan’s power generation, transmis-
 sion, and distribution systems, directly supports the National Energy Supply
 Program of the Afghanistan National Development Strategy. The strategy




 REPORT TO THE UNITED STATES CONGRESS                  I    JANUARY 30, 2013                                          139
ECONOMIC AND SOCIAL DEVELOPMENT




calls for improving the collection rate and increasing the supply of power.421
A component of PTEC is connecting the NEPS and the SEPS.
   During this reporting period, USAID signed the first implementation let-
ter laying out the project’s scope and disbursement procedures and now
awaits counter-signatures by the MoF and DABS. Three other implementa-
tion letters have been drafted and are in the clearance process. Also this
quarter, bids were released for rehabilitating the Darunta Hydroelectric
Power Plant, which was incorporated under PTEC on November 4, 2012.422
   PTEC, as seen in Figure 3.34, will be implemented in stages, will cost an
estimated $814 million, and be the largest U.S.-funded effort in the energy
sector. Of this, $713 million will come from ESF funds and $101 million
from AIF funds. The United States is providing the bulk of this fund-
ing—$698.9 million—on budget to build 490 kilometers of transmission
line, construct seven substations, improve and expand the NEPS, and build
capacity for DABS. Off-budget funds amounting to $115.1 million will go for

FIGURE 3.34



    USAID CURRENT & COMPLETED ENERGY‐SECTOR PROJECTS


                                                     UZBEKISTAN                                                     TAJIKISTAN
                                                          Future Sheberghan Gas Power Plant


              TURKMENISTAN                             JOWZJAN
                                                                       BALKH
                                                                                    KUNDUZ
                                                                                                 TAKHAR
                                                                                                          BADAKHSHAN



                                                                       SAMANGAN           BAGHLAN
                                            FARYAB     SAR-E PUL                                 PANJSHIR
                                                                                                         NURISTAN
                                 BADGHIS
                                                                                   PARWAN KAPISA        KUNAR
                                                                     BAMYAN
                                                                                                LAGHMAN
                                                                                             KABUL
                                                                               WARDAK
                                                                                                  NANGARHAR
                       HERAT
                                           GHOR                                        LOGAR
                                                       DAYKUNDI                                 PAKTIYA
                                                                           GHAZNI                   KHOWST


    IRAN               FARAH
                                                     URUZGAN
                                                                   ZABUL
                                                                                                                       PAKISTAN
                                                                                      PAKTIKA


                                 HELMAND
                      NIMROZ


                                                  KANDAHAR




                                                                                                             Energy Import Routes
                                            Kajaki Hydro Power Plant
                                                                                                             Existing Substation
                                                                                                             Existing Transmission Lines
                                                                                                             Projects in Progress


    Sources: Asian Development Bank, “TA7637 (AFG) Power Sector Master Plan,” 11/2012; USAID, response to
    SIGAR data call, “PTEC Dashboard,” 7/13/2012.




  140                          SPECIAL INSPECTOR GENERAL                                  I     AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 design services, quality assurance of construction activities, capacity build-
 ing for the Ministry of Energy and Water, and rehabilitating the Darunta
 Hydroelectric Power Plant.423
    Implementation of the PTEC faces a number of challenges, including
 security and DABS capacity. Security has been deteriorating in Regional
 Command-East, particularly along the stretch of road (Afghan Route 1) that
 the PTEC will follow. Although DABS has expanded its capabilities and
 shown itself to be a willing partner, USAID noted that DABS has never been
 involved in anything on this scale. Finally, USACE had to cancel a solicita-
 tion for an AIF-funded transmission line because of legal issues.424

 DoD-Funded Programs
 This quarter, DoD continued implementing several priority energy-sector
 projects using FY 2012 Afghanistan Infrastructure Funds. These included:
 •	 the Kandahar Power Bridging Solution
 •	 Kandahar-to-Durai Junction transmission lines
 •	 Charikar-to-Bazirak and Mahmood Raqi transmission lines and power
    substations

 Kandahar Power Bridging Solution
 This project, which cost $79.8 million in FY 2012, provides fuel for the die-
 sel power generators in Kandahar City until the KHPP has been completed.
 DoD sees this electricity as critical to the counterinsurgency strategy to
 help stabilize Kandahar by supporting economic development and improv-
 ing the citizens’ quality of life. The goal is to instill confidence in the
 government’s ability to provide public services, while diminishing support
 for the insurgency. DoD stated that the Kandahar Bridging Solution is a cen-
 tral piece of the government’s Afghanistan Electrification Plan and key to
 the State Department’s development plan for Afghanistan.425
    A July 2012 SIGAR audit of FY 2011 AIF projects found that the Kandahar
 Power Bridging Solution relies on completing additional projects such as
 the SEPS and its connection to the NEPS, as well as the KHPP, which have
 completion dates beyond 2014. The audit also found that until alternative
 fuel sources can be found to replace the diesel generators or increase the
 amount of fuel going to Kandahar City, there is no indication that the costs
 of the bridging solution will decrease.426
    DoD plans to continue purchasing fuel and providing operations and
 maintenance support through FY 2015.427 However, USAID stated that
 Regional Command-South’s base closure plan might force the shutdown of
 the diesel plants in 2013.428

 Kandahar to Durai Junction Transmission Lines
 Part of the effort to expand the SEPS, this project continues earlier efforts
 to install or repair transmission lines from Kandahar City to Durai Junction




 REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2013            141
                                        ECONOMIC AND SOCIAL DEVELOPMENT




                                        and to construct or repair substations at Maiwand and Pashmul. The project
                                        cost $40 million in FY 2012 and will help address the need for reliable elec-
SIGAR AUDIT                             tricity in Afghanistan’s south and southeast. As with the Kandahar Power
For more information on Afghanistan’s   Bridging Solution, DoD’s goal is to promote economic growth, security,
National Power Utility Interim Report   stability, and confidence in the government. Completion of this project is
(SIGAR Audit 13-2) see Section 2,       essential to distribute power generated by the third turbine at Kajaki Dam,
p. 16.                                  according to DoD. The transmission line also constitutes a key element for
                                        the larger PTEC project linking the SEPS and the NEPS.
                                           DoD also sees capacity-building efforts within DABS to improve com-
                                        mercialization of power as essential to generating sufficient revenues to
                                        fund capital improvements to the grid.429 However, a December 2012 SIGAR
                                        interim audit of U.S.-funded projects to help the commercialization of DABS
                                        found that DABS-Kandahar, which is to assume responsibility for this por-
                                        tion of the grid, has little capacity to acquire, operate, install, or manage
                                        systems equipment independently.430

                                        Charikar to Bazikar and Mahmood Raqi Transmission Lines
                                        and Power Substations
                                        This $48.8 million project will install 52 kilometers of transmission lines
                                        from Charikar to Bazikar and from Charikar to Mahmood Raqi, and will
                                        build three substations to expand the NEPS. According to DoD, completion
                                        of the project will bring reliable electricity to 1.15 million Afghans across
                                        three provinces and help fuel private-sector growth, especially in the agri-
                                        culture, processing, manufacturing, and mining sectors. DoD assumes that
                                        DABS will take over responsibility for the operations and maintenance
                                        portion of the national grid, as well as for the completed infrastructure
                                        improvements, and will be able to sustain them with improved revenue
                                        sources and capacity.431 However, as noted above, SIGAR’s recent audit
                                        raised questions about DABS capacity and other audits have noted that
                                        Afghanistan lacks the resources necessary to fulfill operations and manage-
                                        ment commitments.432

                                        CERP Projects in the Electricity Sector
                                        DoD also uses CERP funds to pay for small-scale electricity projects across
                                        the country, such as installing small hydroelectric plants, backup genera-
                                        tors, and utility poles.433


                                        TRANSPORTATION
                                        Road Construction
                                        The United States has funded road construction through the ESF and CERP.
                                        Since 2002, USAID has provided nearly $1.5 billion of the $2.1 billion total
                                        the U.S. government obligated to build roads and bridges.434 According




                                         142                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 USAID funds have raised Afghanistan’s total kilometers of paved roads from 50 in
 2002 to nearly 2,000, including this stretch of road in Jawzjan Province.
 (USAID Afghanistan photo)

 to USAID, these projects have completed more than 2,000 kilometers of
 regional, national, provincial, and rural roads.435
    CERP funds amounting to $484.2 million have been spent on com-
 pleted road projects in Afghanistan since the first recorded project in
 September 2005. As of December 20, 2012, DoD reports there are 75 CERP
 road projects in progress valued at an estimated $68.1 million. DoD’s goal is
 to complete all existing projects before the end of 2014.436
    According to DoD, Afghanistan has 5,430 kilometers of completed roads,
 with an additional 2,266 kilometers under construction.437 The primary net-
 work connecting major Afghan cities is the Ring Road. Since 2004, the United
 States and the international community has built or refurbished almost the
 entire length of the 2,700 kilometers road, as shown in Figure 3.35 on the fol-
 lowing page.438 Donors hope that the Ring Road will stimulate regional trade
 and cooperation, create jobs, and provide security.439 Its completion remains a
 top U.S. priority in the road sector, along with the development of an Afghan
 road authority, according to the State Department.440
    The ADB, to which the United States is the largest contributor along with
 Japan, committed $340 million in January 2011 to fund the final 233 kilome-
 ters of the Ring Road to connect the towns of Qaisar, Bala Murghab, and
 Laman in northwest Afghanistan.441 This long-delayed project remains dor-
 mant, largely due to security concerns. Construction was expected to begin
 in 2012 and is a year behind schedule, according to State.442 However, DoD
 reported that construction has already begun in Badghis Province.443 The
 Afghan Public Protection Force is now responsible for site security because




 REPORT TO THE UNITED STATES CONGRESS     I   JANUARY 30, 2013                  143
                                                                  ECONOMIC AND SOCIAL DEVELOPMENT




                                                                  the Afghan government restricts the use of private security contractors for
                                                                  development projects.444
                                                                     Despite Afghan and donor commitments, Afghanistan’s road infra-
                                                                  structure is deteriorating, mainly because of the poor quality of initial
                                                                  construction, poor maintenance, and overloading, according to the U.S.
                                                                  Department of Transportation (DoT). DoT is helping address these issues
                                                                  by building the Ministry of Public Works’ technical capacity to ensure con-
                                                                  struction quality, and is providing ongoing assistance in developing plans,

FIGURE 3.35


RING ROAD PROGRESS: SECTIONS COMPLETED


                                       2010
                                       Asian Development Bank
                                                                            UZBEKISTAN
                                                         2008                         2009                                                  TAJIKISTAN                CHINA
                                                         Asian Development Bank       Asian Development Bank



                                                                  JOWZJAN
                    TURKMENISTAN                                                                   KUNDUZ               BADAKHSHAN
   2010                                                                                                        TAKHAR
   Islamic Development Bank                                                       BALKH


   2004                                                                               SAMANGAN            BAGHLAN                          2010
   Iran                                                FARYAB                                                                              Islamic Development Bank
                                                                   SAR-E PUL                                   PANJSHIR NURISTAN
                                             BADGHIS
                                                                                                                                           2005
                                                                                                  PARWAN         KAPISA      KUNAR         World Bank
                                                                                  BAMYAN                             LAGHMAN
                                                                                                              KABUL
                                                                                             WARDAK
              HERAT                                                                                                    NANGARHAR
                                                   GHOR                                                   LOGAR
                                                                    DAYKUNDI                                 PAKTIYA
                                                                                       GHAZNI
                                                                                                                  KHOWST

                                                                                                                                           2004
                                                                URUZGAN                                                                    United States
                    FARAH
                                                                              ZABUL
                                                                                                    PAKTIKA


                                                                                                                           PAKISTAN
   IRAN                NIMROZ
                                        HELMAND
                                                                                          2009
                                                          KANDAHAR                        United States
                                                                                          Saudi Arabia
                                                                                          Japan




Note: Donors indicated below dates.
Source: The International Institute for Strategic Studies, 1/10/2012.




                                                                        144                          SPECIAL INSPECTOR GENERAL        I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 specifications, and standards for construction and maintenance, as well as
 oversight and regulation standards of vehicles and vehicle operations. This
 includes a maintenance-management system, a commercial-vehicle size and
 weight enforcement program, and efforts to establish a road authority, road
 fund, and a transportation institute for sustainability.445

 Rail
 The United States and its international partners have been helping
 Afghanistan develop its rail sector, with the goal of building a profitable
 and sustainable system. Afghanistan has no meaningful railroad develop-
 ment, operational experience, or capacity of its own at this time.446 Only one
 completed rail line exists—a 75 kilometers line from Hairatan, on the bor-
 der with Uzbekistan, to Mazar-e-Sharif. Donor stakeholders hope that will
 change with the establishment of the Afghan Rail Authority, which received
 cabinet approval in September 2012. The Authority will be responsible for
 developing and maintaining Afghanistan’s rail infrastructure, and for provid-
 ing regulatory structure in the transportation sector.447
    This quarter, the United States worked with the Ministry of Public Works
 to help stand up the Authority. U.S. Central Command is helping develop
 a National Rail Plan, which will provide recommendations to develop-
 ing rail infrastructure.448 U.S. Embassy Kabul and DoT’s Federal Railroad
 Administration official in Kabul continue working with other U.S. entities and
 Coalition partners to support development of the Authority’s requirements for
 sustainable regulatory oversight and enforcement, including strategic plan-
 ning, core competencies, and staffing. There is no direct U.S. project funding
 dedicated to building rail infrastructure, although indirect U.S. funding contin-
 ues through contributions to the ADB and other entities.449

 Aviation
 The United States is helping Afghanistan implement the civil-aviation law
 passed by Parliament in September 2012. The law included the creation of
 a Civil Aviation Authority. This quarter, Federal Aviation Administration
 officials inspected Kabul International Airport, to provide a baseline
 assessment for International Civil Aviation Organization compliance and
 transition plans to Afghan control. Assessments of Kandahar, Herat, and
 Mazar-e-Sharif airfields are planned.450 DoD is preparing to transition air-
 space management from the U.S. Combined Air Component Command to
 Afghan control, as well as helping to build up Ministry of Transport and
 Civil Aviation capacity to international standards so that it can conduct
 civil-aviation operations independently.451
    Toward that end, DoT is embarking on a three-year, $10.6 million
 USAID-funded training program to teach International Civil Aviation
 Organization-compliant fundamentals to Afghan air traffic controllers, tech-
 nicians, and flight safety inspectors.452 These U.S. efforts are also aimed at




 REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2013               145
ECONOMIC AND SOCIAL DEVELOPMENT




overturning the European Union’s current ban against Afghan airlines due
to safety standards concerns.453


EDUCATION
Since 2002, USAID has supported education through the building of
schools, the development of curricula, and training programs. USAID’s
ongoing priority programs in the Education sector funded through the ESF
this quarter include:
•	 Basic Education, Literacy, and Technical-Vocational Education and
   Training (BELT)
•	 Higher Education Project (HEP)
•	 American University of Afghanistan (AUAF)

Basic Education, Literacy, and Technical-Vocational
Education and Training
Basic Education, Literacy, and Technical-Vocational Education and
Training (BELT) is a three-year (December 2011–October 2014), $173 mil-
lion on-budget program that aims to improve access to quality basic
education through community-based education in areas typically outside
the reach of the government. It provides technical-vocational educa-
tion and training, as well as literacy programs. As of December 31, 2012,
USAID allocated $32 million for teacher training ($12 million through
the Afghanistan Reconstruction Trust Fund) and textbooks for grades




A U.S. Air Force officer helps an Aghan child with a school exercise at Bagram Airfield,
part of an effort to reduce insurgency through positive interactions with local people.
(U.S. Air Force photo)




  146                   SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 1-6 ($20 million to the Ministry of Education).454 The biggest challenges
 to BELT’s success are the ministry’s weak capacity to monitor activities
 and results at the provincial, district, and school level, and to distribute
 USAID-funded textbooks. Lack of security and winter weather make some
 locations unreachable.455
    USAID said it will monitor results through the ministry’s Education
 Information Management System, which tracks student attendance, school
 location, and maintenance needs, as well as teacher numbers and qualifica-
 tions. The ministry, with World Bank support, will report on teacher training
 and associated activities. Finally, an annual review of achievements will be
 conducted with new targets set for the next year.456

 Higher Education Project
 Since the Higher Education Project (HEP) began in 2006, it has success-
 fully supported the Ministry of Higher Education with the execution of
 its National Higher Education Strategic Plan, according to USAID. In its
 latest iteration (February 2011–August 2013), HEP provides technical assis-
 tance to increase ministry capacity, including professional training, quality
 assurance and accreditation, curriculum review, university partnerships,
 academic policies, and regulation. HEP also established a master’s in public
 policy and administration at Kabul University with the first class of 10 men
 and 10 women admitted in August 2012. As of December 31, 2012, USAID
 had allocated $21.2 million toward HEP.457
     According to USAID, HEP’s greatest strengths are its ability to continu-
 ously create and implement high-quality education programs, in accordance
 with international standards, in an environment replete with logistical
 and security challenges. However, while the program successfully moni-
 tors inputs and outputs through quarterly reports, it currently does not
 have significant outcome data to quantify its impact. USAID is considering
 an evaluation design for the follow-on HEP (2013–2017) that will include
 greater attention to outcome measures and data collection.458

 American University of Afghanistan
 This five-year (August 2008–July 2013), $42 million program is designed to
 support development of American University of Afghanistan’s (AUAF’s)
 English-language undergraduate and continuing-education programs, with
 a concentration on liberal arts. Undergraduate degrees include business
 administration, information technology and computer science, political sci-
 ence and public administration, and mass communication. AUAF also offers
 a master’s degree in business administration. As of December 31, 2012,
 USAID had allocated $39.6 million toward this effort. The biggest challenge
 for AUAF is financial. USAID cautions that without funding at or near cur-
 rent levels for at least the next five years, AUAF cannot survive and perform
 at its current level.459




 REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2013           147
ECONOMIC AND SOCIAL DEVELOPMENT




Labor Market Surveys
SIGAR has previously noted the generally poor quality of Afghanistan’s
higher-education curriculum. The country’s public-sector technical schools
and vocational trainers do not have career-specific goals or targets for num-
bers of students to meet business or industry requirements. To start aligning
Afghanistan’s education goals with industry needs, USAID is conducting
four labor-market surveys of small and medium enterprises in the six larg-
est urban areas: Kabul, Mazar-e-Sharif, Jalalabad, Herat, Kandahar, and
Kunduz. These four surveys are being repeated at six-month intervals over a
two-year period.460
   The first survey was completed in April 2012 and found, in part, that 36%
of small and medium enterprises indicated a demand for skilled employees
(workers with technical skills) while 35% indicated a demand for profes-
sional employees (workers with advanced training and usually a degree).461
   This quarter, survey results indicated:462
•	 Kunduz suffers from high underemployment rates, yet its employers
    are highly dissatisfied with the availability of labor skills. This market
    should respond well to technical-vocational education training; USAID
    will focus on this province.
•	 Kabul has average underemployment rates and general employer
    satisfaction with the current availability of labor force skills. Because
    of Kabul’s large population, USAID will focus technical-vocational
    education training to promote positive Afghan perceptions about, and
    encourage participation in, the technical-vocational training program.
•	 Jalalabad has low underemployment and little incentive to partake in
    technical-vocation training.
•	 Kandahar, Mazar-e-Sharif, and Herat offer a more receptive market for
    technical-vocational training.
•	 Technical-vocational training should emphasize broadly transferable
    skills, combining industry-specific skills like accounting, marketing, and
    computer literacy with industry-transferable skills like machine repair
    and operations.


HEALTH
Despite having one of the highest mother-and-child mortality rates in the
world, Afghanistan has experienced marked improvements in its health indi-
cators since 2002. Afghan children and adults are living longer, with fewer
maternal deaths during childbirth. Adult life expectancy has improved by as
much as 15–20 years according to the USAID-funded Afghanistan Mortality
Study 2010, described by SIGAR in its January 2012 quarterly report.463
   DoD reports that there are more than 1,970 primary healthcare facilities
in Afghanistan compared to only 498 in 2002.464 The United States supports
approximately 540 of these, including six hospitals, across 13 provinces.




 148                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 When completed under Corps of Engineers supervision, the Shindand Hospital will
 have 28 beds and provide much-needed medical care for the local population.
 (U.S. Army Corps of Engineers photo)

 With this assistance, 60% of the population can now reach a healthcare facil-
 ity within one hour by foot, compared to 9% in 2002.465 Healthcare in urban
 areas is accessible to 97% of the populace, but that number drops to 63% in
 rural areas and 46% among nomads.466
     USAID’s highest priority programs in the health sector this quarter include:
  •	 Partnership Contracts for Health (PCH) Services
  •	 Health Policy Project (HPP)
  •	 Leadership, Management, Governance Project (LMG)

 Partnership Contracts for Health Services
 A five-year (July 2008–January 2014), $236 million program, Partnership
 Contracts for Health (PCH) supports the Ministry of Public Health’s
 (MoPH’s) efforts to provide the Basic Package of Health Services and the
 Essential Package of Hospital Services in more than 540 health facilities
 and over 6,000 health posts across Afghanistan.467 As of December 16, 2012,
 USAID had allocated $190 million to this program.468 PCH delivers health
 care ranging from basic to highly specialized diagnostic and treatment ser-
 vices. It also supports Community Midwifery Education contracts, which
 help reduce both maternal and child mortality. An estimated 12 million
 patients, 76% of them women and children, visit USAID-supported health
 facilities annually.469

 Health Policy Project
 The Health Policy Project (HPP), an 18-month (June 2012–November 2013),
 $18 million program, is building MoPH capacity to address basic health
 needs through public-private partnerships. As of December 16, 2012,
 USAID had obligated $9 million to the program.470 HPP works to expand




 REPORT TO THE UNITED STATES CONGRESS     I   JANUARY 30, 2013                149
ECONOMIC AND SOCIAL DEVELOPMENT




private-sector capacity to deliver high-quality services, improve HIV care
and prevention policies, and promote behavioral change through social
media marketing.471 Early accomplishments of the HPP include fully staff-
ing a Public Private Partnership Unit within the MoPH, completing a MoPH
structural assessment to determine its readiness to implement private-sec-
tor policies and regulations, supporting the launch of MoPH’s National HIV
Policy and Strategy, and conducting gender-based violence training with
public-sector health service providers in Kabul.472

Leadership, Management, Governance Project
This 18-month (September 2012–February 2014), $26 million Leadership,
Management, Governance (LMG) Project program ($20 million in health
funds; $6 million in education funds) works with the MoPH and the Ministry
of Education, at both the provincial and central level to build leadership,
management, and governance capacity within Afghanistan’s health and
education systems. It also aims to improve transparency and accountability
within the MoPH and helps both ministries manage on-budget assistance.
As of December 16, 2012, USAID had obligated $16.2 million for the pro-
gram ($13.7 million for health, $3.7 million for education).473
    USAID tracks programmatic results of their health initiatives through
household surveys, the MoPH’s health management information system,
USAID-contracted data quality assessments, implementing-partner reports,
and external evaluations and assessments. However, USAID faces several
challenges to implementing its Afghanistan programs. The government
health system is weak and requires continued technical and management
assistance. The government cannot generate sufficient revenues to sustain
its health system and depends on continued donor assistance. Additionally,
a lack of security across the country hampers the delivery of health ser-
vices, especially for women and children. These issues will become more
acute as the transition draws nearer, and as donor assistance wanes.474


PRIVATE SECTOR DEVELOPMENT
The United States is supporting private-sector development through the
ESF, TFBSO, and CERP. USAID’s priority economic-growth projects, funded
through the ESF, include:475
•	 Assistance in Building Afghanistan by Developing Enterprises (ABADE)
•	 Economic Growth and Governance Initiative (EGGI)
•	 Trade Accession and Facilitation for Afghanistan (TAFA) I and II

Assistance in Building Afghanistan by Developing
Enterprises
This quarter, USAID launched the $105 million Assistance in Building
Afghanistan by Developing Enterprises (ABADE) program to help




 150                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 productive Afghan small-to-medium enterprises add employment, increase
 investment, and improve sales of domestic products and services. ABADE
 will support private-sector businesses that offer the best leverage and
 opportunity for sustained economic growth. As of December 2012, the pro-
 gram is hiring staff and finalizing the work plan and performance metrics.476

 Economic Growth and Governance Initiative
 The $92 million Economic Growth and Governance Initiative (EGGI) pro-
 gram aims to strengthen government capacity to conduct more effective
 public financial management. It provides assistance in national and provin-
 cial budgeting, tax administration, and revenue generation. It also provides
 Women in Government internships to increase women’s civil-service partici-
 pation. The program graduated 110 women in FY 2012, 85% of whom found
 full-time government employment.477
    As of December 27, 2012, EGGI had also helped 38 government entities
 develop and submit their SY 1391 (2012-2013) program budgets on time
 to the Budget Committee. Assistance to the MoF’s nationwide provincial
 budget training program resulted in 88% of provincial governments sub-
 mitting their first round budget submissions on-time and 98% on time in
 the second round.478
    Currently, EGGI is facing implementation challenges. The MoF sus-
 pended activities in its provincial budgeting program, and Afghanistan’s
 civil service commission is changing recruitment procedures. Once com-
 plete, the Women in Government internship program will need to re-align its
 efforts to adhere to any new requirements.479

 Trade Accession and Facilitation for Afghanistan I and II
 TAFA I and II, at a combined of cost $83 million, are designed to generate
 economic growth, trade, and investment by improving the conditions for
 international trade and transit for both the government and private sector.
 TAFA does so by assisting the Afghan government in three areas: trade-policy
 liberalization, customs reform, and trade facilitation. TAFA promotes the
 New Silk Road initiative by facilitating Afghanistan’s accession to the World
 Trade Organization, developing bilateral and regional trade agreements,
 and streamlining customs and export procedures. Despite successes in all
 these areas, TAFA has not been able to reach an agreement with the Afghan
 government over the composition of future assistance under the Strategic
 Objective Agreement. This, in turn, has caused delays in TAFA receiving its
 allocated funding, and threatened its ability to provide timely services.480

 Task Force for Business and Stability Operations
 In addition to its work in helping the Afghan government develop natu-
 ral resources, TFBSO has supported other private-sector initiatives. In
 May 2011, TFBSO established the Business Incubator Project, which




 REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2013            151
ECONOMIC AND SOCIAL DEVELOPMENT




provides business management consulting to small- and medium-sized
enterprises across sectors in Herat and Kabul. As of December 31, 2012,
TFBSO has sourced and conducted due diligence on over 600 companies
as part of an effort to develop individual investment opportunities between
Afghan companies and regional investors, and created an investment pipe-
line for an emerging-market private equity fund. This quarter, the incubator
helped 23 companies employing more than 500 Afghans generate over
$2.7 million. The Business Incubator Project is looking to expand that
success and is finalizing an agreement with the AUAF to house and help
manage an incubator in Kabul, and to sustain it after 2014.481


COMMUNICATIONS
Afghanistan’s private-sector-led telecommunications sector is growing rap-
idly, and is one of the country’s economic success stories.482 In 2010/2011,
telecom contributed to 45% of total tax revenue and is expected to continue
driving economic growth and development next year.483
   This quarter, the Ministry of Telecommunication and Information
Technology (MCIT) signed contracts worth $23 million with three companies
to extend Afghanistan’s fiber optic network to five central and northeastern
provinces (Bamyan, Daikundi, Ghor, Takhar, and Badakhshan) over the
next two years. The network is already in 20 other provinces.484 Additionally,
MCIT signed six contracts to provide mobile governance, capacity building,
and culture innovation projects by expanding broadband connectivity and
the use of mobile applications across the government, as well as building IT
capacity to improve service delivery and economic development.485
   Also this quarter, the International Security Assistance Force (ISAF)
signed a memorandum of agreement with the Afghan government to cre-
ate the Ministerial Spectrum Management Office (MSMO), which will focus
on cooperative radio spectrum management, bring Afghanistan’s security
management activities online, and allow it to coordinate with other nations.
MSMO will be a national security organization comprising of the Ministries
of Defense, Interior, and the National Directorate of Security.486


TRADE
According to the World Bank’s Ease of Doing Business 2013 report released
this quarter, Afghanistan ranks 168 out of 185 countries for ease of doing
business, and is last in providing investor protections. While Afghanistan
ranks fourth in the least number of procedures required to start a business,
and seventh in the number of days to do so, it is also considered one of the
most difficult places from which to export goods, taking an average of 10
documents, 74 days, and $3,545 per shipping container.487




 152                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




     The results of Afghanistan’s regional economic integration, as
 called for in the New Silk Road initiative, have been mixed, accord-
 ing to a Congressional Research Service report. U.S. efforts to convince
 Afghanistan’s neighbors to put the country’s stability in the region above
 their particular interests have been difficult.488 A 2012 report from the
 Center for Strategic and International Studies questioned whether
 Pakistan, for example, would make cooperation with, and development of,
 Afghanistan a high priority. The report added that neither Russia nor China
 has sufficient incentive to support Afghanistan at levels that would take
 some of the financial pressure off other donors during transition.489 While
 Afghanistan-Pakistan relations have improved over the last six months,
 DoD stated that tensions and mistrust remain a significant challenge to
 “sustainable cross-border cooperation and coordination.”490
     On December 1–5, 2012, the U.S. Department of Commerce, with the sup-
 port of USAID, held the first U.S.-Afghanistan Franchising Trade Conference
 in Kabul to build trade partnerships between Afghan businesses and U.S.
 franchise companies.491 Four U.S. companies participated:492
  •	 AlphaGraphics, Inc. – printing and marketing solutions
  •	 Hertz Equipment Rental – high quality equipment rentals
  •	 RadioShack – mobile technology products and services
  •	 Tutor Doctor – personalized tutoring and training services

 World Trade Organization Accession
 At the third Working Party Meeting on December 7, 2012, the World Trade
 Organization expressed support for making Afghanistan’s early accession
 into the World Trade Organization a priority in 2013. Afghanistan applied
 for membership in November 2004 with the goal of joining by the end of
 2014. Its membership is still dependent on economic, trade, and legislative
 reforms. The working group sought clarification in several policy areas,
 including state-ownership, intellectual property rights, trading rights, and
 food safety.493 USAID is assisting Afghanistan in this effort through its Trade
 and Accession Facilitation program.494




 REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2013             153
4   OTHER AGENCY
    OVERSIGHT




        155
                                               CONTENTS
                                               CONTENTS
                                               Completed Oversight Activities	                           158
                                               Ongoing Oversight Activities	                             164




Photo on previous page
An air drop brings supplies to a forward operating base in the Afghan mountains in December 2012 after
winter weather made road resupply too difficult. (U.S. Army photo)




                                                  156
               OTHER AGENCY OVERSIGHT




OTHER AGENCY OVERSIGHT
SIGAR’s enabling legislation requires it to keep the Secretary of State
and the Secretary of Defense fully informed about problems relating to
the administration of reconstruction programs, and to submit a report to
Congress on SIGAR’s oversight work and on the status of the U.S. recon-
struction effort no later than 30 days after the end of each fiscal quarter.
Each quarter, SIGAR requests updates from other agencies on completed
and ongoing oversight activities. This section contains these updates.
    The descriptions appear as submitted, with minor changes to maintain
consistency with other sections of this report: acronyms and abbreviations
in place of full names; standardized capitalization, hyphenation, punc-
tuation, and preferred spellings; and third-person instead of first-person
construction.
    These agencies perform oversight activities in Afghanistan and provide
results to SIGAR:
 •	 Department of Defense Office of Inspector General (DoD OIG)
 •	 Department of State Office of Inspector General (State OIG)
 •	 Government Accountability Office (GAO)
 •	 U.S. Army Audit Agency (USAAA)
 •	 U.S. Agency for International Development Office of Inspector General
    (USAID OIG)




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2013           157
                                                               OTHER AGENCY OVERSIGHT




                                                               COMPLETED OVERSIGHT ACTIVITIES
                                                               Table 4.1 lists the six oversight projects related to reconstruction that par-
                                                               ticipating agencies reported as completed this quarter.
TABLE 4.1	


RECENTLY COMPLETED OVERSIGHT ACTIVITIES OF OTHER U.S. AGENCIES, AS OF DECEMBER 31, 2012
 Agency          Report Number             Date Issued               Project Title
                                                                     Counterintelligence Screening Needed to Reduce Security Threat That Unscreened Local National
 DoD OIG         DODIG-2013-030            12/7/2012
                                                                     Linguists Pose to U.S. Forces
                                                                     U.S. Army Corps of Engineers Needs to Improve Contract Oversight of Military Construction Projects at
 DoD OIG         DODIG-2013-024            11/26/2012
                                                                     Bagram Airfield, Afghanistan
                                                                     Performance Framework and Better Management of Resources Needed for the Ministry of Defense
 DoD OIG         DODIG-2013-005            10/5/2012
                                                                     Advisors Program
                                                                     Afghanistan Drawdown Preparations: DoD Decision Makers Need Additional Analyses to Determine Costs
 GAO             GAO-13-185-R              12/19/2012
                                                                     and Benefits of Returning Excess Equipment
                                                                     Afghanistan Development: Agencies Could Benefit from a Shared and More Comprehensive Database on
 GAO             GAO-13-34                 11/7/2012
                                                                     U.S. Efforts
 USAID OIG       F-306-13-001-S            10/12/2012                Audit of USAID/Afghanistan’s Performance Based Governors’ Fund

Sources: DoD OIG, response to SIGAR data call, 12/21/2012; DoS OIG, response to SIGAR data call, 1/2/2013; GAO, response to SIGAR data call, 12/21/2012; USAAA, response to SIGAR data
call 12/18/2012; USAID OIG, response to SIGAR data call, 12/17/2012.



                                                               U.S. Department of Defense Office of Inspector General
                                                               During this quarter, DoD OIG issued three reports related to Afghanistan
                                                               reconstruction.

                                                               Counterintelligence Screening Needed to Reduce Security
                                                               Threat That Unscreened Local National Linguists Pose to
                                                               U.S. Forces
                                                               (Report No. DODIG-2013-030, Issued December 7, 2012)
                                                               This report is for official use only.

                                                               U.S. Army Corps of Engineers Needs to Improve Contract
                                                               Oversight of Military Construction Projects at Bagram
                                                               Airfield, Afghanistan
                                                               (Report No. DODIG-2013-024, Issued November 26, 2012)
                                                               U.S. Army Corps of Engineers (USACE) Afghanistan Engineering District-
                                                               North (TAN) quality assurance (QA) personnel did not properly monitor
                                                               contractor performance and fulfill quality assurance responsibilities for
                                                               the four military construction projects reviewed at Bagram Airfield, valued
                                                               at $49.6 million. Specifically, QA personnel did not: develop supplemen-
                                                               tal project QA plans; approve contractors’ quality control plans before
                                                               contractors began construction; maintain QA documentation of QA
                                                               personnel-surveillance activities; follow responsibilities in the contract-
                                                               ing officer’s designation memoranda; and request technical specialists to
                                                               perform technical inspections. In addition, QA personnel relied on the




                                                                  158                          SPECIAL INSPECTOR GENERAL                I   AFGHANISTAN RECONSTRUCTION
                OTHER AGENCY OVERSIGHT




Logistics Civil Augmentation Program contractor to perform infrequent
technical inspections and relied on their own experience to identify con-
struction deficiencies.
   These conditions occurred because USACE-TAN officials did not pro-
vide sufficient oversight of QA personnel. For example, QA personnel
stated they were not aware of their responsibilities because USACE-TAN
officials did not provide enough guidance or training to QA personnel
operating in a contingency environment. Further, QA personnel stated they
were either unaware of, did not see a need for, did not have time to fol-
low, or did not have proper personnel to follow QA guidance. As a result,
USACE did not have reasonable assurance that contractors’ quality control
programs were effective and that the four MILCON projects met or would
meet contract requirements.

Performance Framework and Better Management of Resources
Needed for the Ministry of Defense Advisors Program
(Report No. DODIG-2013-005, Issued October 5, 2012)
Ministry of Defense Advisors (MoDA) program officials did not establish
a performance management framework to include goals, objectives, and
performance indicators to assess progress and measure program results.
Instead, program officials relied on North Atlantic Treaty Organization
Training Mission-Afghanistan/U.S. Combined Security Transition Command-
Afghanistan [the Command] officials to determine whether MoDAs were
effectively building ministerial capacity in the Afghanistan Ministry of
Defense and Ministry of Interior. Also, program officials did not establish
goals and objectives to determine whether an adequate number of MoDA
positions were filled in a timely manner.
    This occurred because program and Command officials did not establish
a cooperative agreement to identify roles and responsibilities and commu-
nicate and share information. Other contributing factors cited by program
officials included an absence of DoD guidance on building ministerial
capacity and the tentative nature of a pilot program creating uncertainty of
its future. Without a framework, program officials cannot fully assess the
effectiveness of the program in building ministerial capacity or hold indi-
viduals accountable for achieving program results.
    In addition, Command officials may not have effectively and efficiently
managed MoDA resources. Specifically, officials were unable to justify the
need for all 97 authorized MoDA positions and placed five of 28 MoDAs
interviewed into nonadvisory positions with Afghan officials. This occurred
because Command officials did not develop criteria to identify and validate
MoDA positions. As a result, MoDAs may be unable to fully exchange exper-
tise and build long-term relationships with Afghan ministry officials.




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2013          159
OTHER AGENCY OVERSIGHT




U.S. Department of State Office of Inspector General–Middle
East Regional Office
During this quarter, State OIG issued no reports related to Afghanistan
reconstruction.


Government Accountability Office
During this quarter, GAO issued two reports related to Afghanistan
reconstruction.

Afghanistan Drawdown Preparations: DoD Decision Makers
Need Additional Analyses to Determine Costs and Benefits
of Returning Excess Equipment
(Report No. GAO-13-185R, Issued December 19, 2012)
In summary, GAO found:
•	 The military services and DoD agencies have applied some, but not all,
    of the relevant lessons learned from the Iraq drawdown to their planning
    for equipment reductions in Afghanistan. For example, the drawdown
    from Iraq demonstrated the importance of early planning for equipment
    drawdown, and the military services have already issued guidance
    and orders outlining the processes and procedures for drawing down
    equipment in Afghanistan. However, not all relevant lessons learned
    from the Iraq drawdown have been applied in Afghanistan. For example,
    during the Iraq drawdown, the Army required that contractor equipment
    be inventoried and entered into an automated records accounting
    system, yet inventories in Afghanistan did not include contractor
    equipment. GAO notes, however, that USFOR-A officials told us they are
    establishing a contractor-drawdown cell that would improve visibility of
    contractor equipment in Afghanistan.
•	 DOD has planned for the reduction of equipment from Afghanistan
    in that it has (a) established command structures and guidance; (b)
    made efforts to improve property accountability; and (c) established
    and expanded transportation options; but challenges still remain.
    Command structures and guidance, property accountability, and
    transportation options are three areas that GAO has previously
    identified as important for drawdown operations. Concerning command
    structures and guidance, CENTCOM has established USFOR-A as the
    supported command for retrograde operations, and USFOR-A has
    published a base-closure-and-transfer guide that outlines processes for
    handling equipment during transition. Regarding planning for property
    accountability, in September 2011, USFOR-A directed an inventory of all
    the equipment in Afghanistan to identify items not previously accounted
    for in DoD’s systems of record. However, as described in Objective
    1, DoD officials acknowledge that they lack visibility over contractor




 160                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                OTHER AGENCY OVERSIGHT




   equipment. In the area of transportation options, DoD has established
   and increased the potential capacity of transportation routes out of
   Afghanistan. However, some of the transportation options have limited
   operational capability for the return of equipment due to the region’s
   complex geopolitical environment.
•	 Consistent with DoD’s supply-chain materiel-management policy, DoD
   has issued additional guidance requiring the services to analyze the
   costs and benefits of transferring or destroying equipment. However,
   there is no specific guidance requiring the military services to assess
   and document the costs and benefits associated with the return of
   equipment from Afghanistan, and they have not done so. Some services
   told us that they conduct informal cost-benefit analyses to support
   the return of major end items from Afghanistan. However, none of the
   services was able to provide us with documentation of these cost-
   benefit analyses. As a result, the extent to which these analyses are
   being performed is uncertain. Based on analysis, this is particularly
   problematic when considering whether or not to return equipment that
   is excess to current requirements. When an excess item is returned
   without consideration of the costs and benefits, there is increased
   risk of unnecessary expenditures on transportation and storage of
   unneeded items.

   In conclusion, the military services can return major end items without
documentation of cost and benefit considerations or analyses used in the deci-
sion-making process. Because the services have not consistently performed
and documented analyses to support decision making concerning the return
of excess major end items from Afghanistan, there is a risk that the costs of
returning excess items may outweigh the benefits of returning them.

Afghanistan Development: Agencies Could Benefit from a
Shared and More Comprehensive Database on U.S. Efforts
(Report No. GAO-13-34, Issued November 7, 2012)
The four main U.S. agency Afghan development programs and accounts
have similar goals and activities and hence overlap to some degree. In fiscal
year 2011, the Economic Support Fund (ESF) and other smaller accounts
administered by the U.S. Agency for International Development (USAID),
and the Commander’s Emergency Response Program (CERP), administered
by the Department of Defense (DoD), funded similar activities related to
agriculture; democracy and governance; education and health; energy and
electricity; economic growth; and transportation. Both funded activities in
33 of Afghanistan’s 34 provinces and in 249 of Afghanistan’s 399 districts.
The Task Force for Business and Stability Operations (TFBSO), adminis-
tered by DoD, and the Afghanistan Infrastructure Fund (AIF), administered
by DoD and the Department of State (State), also funded efforts in some




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2013            161
OTHER AGENCY OVERSIGHT




of the same categories of assistance as ESF and CERP in fiscal year 2011.
According to agency officials, these overlapping development efforts can
be beneficial, provided that agencies leverage their respective expertise and
coordinate efforts.
   GAO’s analysis of USAID’s development activities and DoD’s CERP activi-
ties in six Afghan districts identified 28 USAID- and 28 DoD CERP-funded
activities that were potentially duplicative. GAO could not, however, conclu-
sively determine whether these efforts had resulted in duplication because
of gaps and inconsistency in the level of detail on activity descriptions in
USAID’s and DoD’s respective databases. Moreover, some USAID develop-
ment activities may not have been included because information provided by
USAID indicated that Afghan Info—the database designated by the embassy
as the official repository for U.S. assistance—did not include 13 active
awards, including some assistance to the Afghan government, representing
about 10% of USAID’s obligations for development efforts in fiscal year 2011.
These omissions limited GAO’s ability to evaluate whether similar activities
were providing the same goods or services to the same beneficiaries. USAID
also lacks complete standardized procedures for implementing partners to
report information on their development activities in Afghan Info, and for
USAID personnel to verify the information on these activities.
   While U.S. agencies use a variety of methods to coordinate development
efforts in Afghanistan, they lack a database to share and retain data. USAID
and DoD officials cited informal communication and interagency meetings
as the primary method of coordinating USAID and CERP efforts. For AIF
efforts, USAID, DoD, and State conduct interagency planning and obtain
formal concurrence by relevant agency officials, as required by law. For
TFBSO efforts, DoD coordinates through quarterly briefings with USAID
and State officials in Kabul and a formal concurrence process. However, the
effectiveness of such coordination may depend on the priorities of the staff
involved and could be hampered by high staff turnover and the lack of data
retention. To address these limitations, GAO has previously recommended
that agencies report their development efforts in a shared database. USAID
agreed and DoD partially agreed with this recommendation. While Afghan
Info has been designated as the central repository of data for U.S. foreign
assistance efforts in Afghanistan, DoD still has not reported its CERP proj-
ects in a shared database such as Afghan Info, citing concerns with the
sensitive nature of its data, which USAID noted could be mitigated by the
internal controls in Afghan Info.


U.S. Army Audit Agency
The USAAA did not complete any audits related to Afghanistan reconstruc-
tion this quarter.




 162                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                OTHER AGENCY OVERSIGHT




U.S. Agency for International Development Office of
Inspector General
During this quarter, USAID OIG issued one report related to Afghanistan
reconstruction.

Audit of USAID/Afghanistan’s Performance-Based
Governors’ Fund
(Report No. F-306-13-001-S, Issued October 12, 2012)
A management letter was issued October 12, 2012, entitled “USAID/
Afghanistan’s Performance-Based Governors’ Fund,” Number F-306-13-
001-S. USAID OIG initially conducted the audit to determine whether the
Performance-Based Governors’ Fund (PBGF) met its primary goal of pro-
viding financial and technical assistance to governors and their teams so
that they are better able to meet community outreach needs, enhance their
relationships with citizens, and improve their overall management capacity.
The management letter includes the following issues:
•	 Performance targets and baselines were omitted from the performance
   management plan. Performance indicator targets and baselines are a
   required component of a complete performance management plan.
   PBGF’s plan did not contain any baseline values and included only one
   target value for a single strategic objective among its 103 performance
   measurements. The one target included focused on the inclusion of all
   34 Afghan provinces to be provided with “USG Assistance.”
•	 PBGF has too many performance indicators. A performance
   management plan should have as many indicators as are necessary and
   cost effective for results management and reporting purposes. Although
   not all labeled as “performance indicators,” the PBGF’s plan contained
   over 100 performance measurements.
•	 Performance management plan was not updated. Performance
   management plans should be updated regularly and such updates are
   usually performed annually. However, the PBGF’s plan has not been
   updated to reflect both the reduction in the number of performance
   indicators used and modifications made to the indicators.
•	 Program’s results should be clear and universally understood.
   A principal step in performance management is establishing a
   performance management framework, which identifies the hierarchy
   of results that a program is intended to achieve. However, program
   documents and key program officials do not consistently articulate the
   intended results of the PBGF.
•	 Costs charged may represent budgeted amounts that were not actual
   costs. Generally, costs charged to an award should equal costs incurred.
   During the pilot phase of the program, the Asia Foundation reported
   that it had made $9,188,518 in disbursements to provincial governors,
   which equated to a success rate of 90% of the estimated disbursement




REPORT TO THE UNITED STATES CONGRESS    I   JANUARY 30, 2013        163
OTHER AGENCY OVERSIGHT




   amount. However, an Asia Foundation financial report, prepared and
   submitted to USAID/Afghanistan, revealed that the Foundation charged
   the entire estimated cost of the program without taking into account
   the undisbursed funds of $1,020,000.
•	 Most of provincial governor offices’ spending was for purchases of
   vehicles and equipment. According to PBGF’s cooperative agreement,
   the purpose of the program is to provide interim assistance to
   governors so they are better able to meet operational and community
   outreach needs, enhance their relationships with citizens and improve
   their overall management capacity. However, overall spending on
   vehicles and equipment reached an average of 51% of the total program
   funds disbursed; spending on community outreach averaged 18%; and
   spending on capacity building averaged 5% of the total spending.
•	 Database reporting was not performed. PBGF’s cooperative agreement
   requires that the Asia Foundation provide program information
   quarterly to USAID/Afghanistan’s management information system.
   However, to date, the only data reported in the database on PBGF is for
   the first quarter of fiscal year 2011.
•	 Performance management plan was not approved. PBGF’s cooperative
   agreement asserts that it is the responsibility of the Agreement Officer’s
   Technical Representative (AOTR) to review and provide approval of the
   monitoring and evaluation plan. When asked to prove that the plan had
   been approved, neither the implementer nor USAID/Afghanistan staff
   provided documentation that the plan had been approved.
The management letter included eight suggested actions to address
these issues.


ONGOING OVERSIGHT ACTIVITIES
As of December 31, 2012, the participating agencies reported 32 ongo-
ing oversight activities related to reconstruction in Afghanistan. The
activities reported are listed in Table 4.2 and described in the following
sections by agency.


Department of Defense Office of Inspector General
The Department of Defense continues to face many challenges in executing
its Overseas Contingency Operations (OCO). The Department of Defense
Office of Inspector General (DoD OIG) has identified priorities based on
those challenges and high risks. In FY 2013, DoD OIG is focusing over-
sight on overseas contingency operations with a majority of its resources
supporting operations in Afghanistan. The DoD OIG focus in Afghanistan
continues in the areas of the management and execution of the Afghanistan
Security Forces Fund, military construction, safety of personnel, and the




 164                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                        OTHER AGENCY OVERSIGHT




TABLE 4.2


ONGOING OVERSIGHT ACTIVITIES OF OTHER U.S. AGENCIES, AS OF DECEMBER 31, 2012
 Agency             Project Number                     Date Initiated Project Title
                                                                         Assessment of Planning for the Effective Development and Transition of Critical Afghanistan National
 DoD OIG            D2013-D00SPO-0087.000              12/18/2012
                                                                         Security Forces Enablers to Post-2014 Capabilities
                                                                         Examination of Department of Defense Execution of North Atlantic Treaty Organization Contributing
 DoD OIG            D2013-D000FL-0056.000              12/3/2012         Countries Donations to Afghanistan National Army Trust Fund for Approval Sustainment Projects as of
                                                                         September 30, 2012
 DoD OIG             D2013-D000AS-0052.000             11/1/2012         Shindand Training Contracts
                                                                         Surveillance Structure on Contracts Supporting the Afghanistan Rotary Wing Program for the U.S.
 DoD OIG             D2013-D000AS-0001.000             10/5/2012
                                                                         Transportation Command
                                                                         Contract Management and Oversight of Military Construction Projects for the Special Operation Forces
 DoD OIG             D2012-D000JA-0221.000             9/28/2012
                                                                         Complexes at Bagram Airfield, Afghanistan
 DoD OIG             D2012-D000JB-0209.000             8/23/2012         Controls Over the Distribution of Funds for the Ministry of Defense Advisors Program
                                                                         Assessment of U.S. Government and Coalition Efforts to Train, Equip, and Advise the Afghan Border
 DoD OIG             D2012-D00SPO-0210.000             8/21/2012
                                                                         Police
 DoD OIG             D2012-D00SPO-0202.000             8/10/2012         Assessment on Equipping the Afghanistan National Security Forces
 DoD OIG             D2012-D000AT-0170.000             5/11/2012         Availability of Spare Parts for the C-27A/G222
                                                                         Oversight of U.S. Military and Coalition Efforts to Improve Healthcare Conditions and to Develop
 DoD OIG             D2012-D00SPO-0163.000             4/25/2012
                                                                         Sustainable ANSF Medical Logistics at the Dawood National Military Hospital
                                                                         Oversight Processes and Procedures for the Afghan National Police Mentoring/Training and Logistics
 DoD OIG             D2012-D000AS-0137.000             3/9/2012
                                                                         Support Contract
 DoD OIG             D2012-D000AT-0129.000             3/8/2012          Datron Radio Contracts To Support the Afghan National Security Forces
                                                                         Air Force Center for Engineering and the Environment’s Contract Management and Oversight of Military
 DoD OIG             D2012-D000JB-0126.000             3/8/2012
                                                                         Construction Projects in Afghanistan
 DoD OIG             D2012-D00SPO-0090.000             2/28/2012         U.S. and Coalition Efforts to Develop Leaders in the Afghan National Army
                                                                         Technical Assessment of Military Construction Compliance with Fire Suppression Standards at Select
 DoD OIG             D2012-DT0TAD-0002.000             2/14/2012
                                                                         Facilities in Afghanistan
                                                                         Technical Assessment of Military Construction Compliance with Electrical Standards at Select Facilities
 DoD OIG             D2012-DT0TAD-0001.000             2/14/2012
                                                                         in Afghanistan
 DoD OIG             D2012-D00SPO-0085.000             1/6/2012          U.S. Efforts to Develop the Afghan National Security Forces Command and Control System
 DoD OIG             D2012-D000AS-0075.000             12/7/2011         Task Orders for Mi-17 Overhauls and Cockpit Modifications
 DoD OIG             D2012-D000AS-0031.000             11/17/2011        Afghanistan Rotary Wing Transport Contracts for the U.S. Transportation Command
 DoS OIG-MERO        12AUD79                           12/2012           Audit of the Department of State Transition Planning for a Reduced Military Presence in Afghanistan
                                                                         Audit of the Bureau of International Narcotics and Law Enforcement Affairs’ Correction System Support
 DoS OIG-MERO        12AUD30                           12/2011
                                                                         Program in Afghanistan
 DoS OIG-MERO        11MERO1875                        6/2011            Evaluation of the Emergency Action Plan – Embassy Kabul
 GAO                 351772                            9/20/2012         DoD’s Approach to Identifying Post Combat Role of U.S. Forces in Afghanistan
 GAO                 320924                            7/5/2012          Key Afghan Issues
 GAO                 351747                            6/11/2012         DoD’s Transition to the Afghan Public Protection Force
 GAO                 351742                            5/11/2012         Security Force Assistance Roles for DoD Forces
 GAO                 351743                            5/11/2012         Advisory Teams in Afghanistan
 USAID OIG           FF100712                          11/28/2012        Audit of USAID/Afghanistan’s Transition Plans
 USAID OIG           FF101412                          10/14/2012        Review of USAID/Afghanistan’s Use of Third Country National Employees
 USAID OIG           FF100612                          10/9/2012         Review of USAID/Afghanistan’s Management Controls over Premium Pay
 USAID OIG          FF101112                           5/1/2012          Audit of USAID/Afghanistan’s Kandahar Power Initiative
 USAID OIG          FF101712                           10/25/2011        Review of USAID/Afghanistan’s Use of the Commander’s Emergency Response Program Funds for Selected Projects
Sources: DoD OIG, response to SIGAR data call, 12/21/2012; DoS OIG, response to SIGAR data call, 1/2/2013; GAO, response to SIGAR data call, 12/21/2012; USAAA, response to SIGAR data
call, 12/18/2012; USAID OIG, response to SIGAR data call, 12/17/2012.




REPORT TO THE UNITED STATES CONGRESS                     I   JANUARY 30, 2013                                   165
OTHER AGENCY OVERSIGHT




administration and oversight of contracts supporting coalition forces. DoD
OIG oversight in Afghanistan will also address matters pertaining to the
drawdown of forces in Afghanistan and shifting of operations.
   As billions of dollars continue to be spent in Afghanistan, a top priority will
continue to be the monitoring and oversight of acquisition and contracting
processes focused on training, equipping, and sustaining Afghanistan National
Security Forces (ANSF). The DoD OIG planned oversight efforts address the
administration and oversight of contracts for equipping ASF, such as rotary
wing aircraft, airplanes, ammunition, radios, and night vision devices. The
DoD OIG will also continue to review and assess the Department’s efforts in
managing and executing contracts to train the Afghan National Police.
   As military construction continues in Afghanistan to build or reno-
vate new living areas, dining and recreation facilities, medical clinics,
base expansions, and police stations, DoD OIG will continue to provide
aggressive oversight of contract administration and military construc-
tion projects. DoD OIG will also continue to focus on the accountability
of property, such as contractor-managed government-owned property
and Army high-demand items; the Department’s efforts to strengthen
institutional capacity at the Afghan Ministry of Defense; and financial man-
agement controls.
   The DoD OIG-led Southwest Asia Joint Planning Group coordinates and
deconflicts Federal and DoD OCO-related oversight activities. The DoD
OIG continues to work with the SIGAR as well as fellow Inspectors General
and Defense oversight community members to execute the now-issued
Fiscal Year 2013 strategic audit plan for the oversight community working
in Afghanistan. This SIGAR-led effort provides the Congress and key stake-
holders with more effective oversight of reconstruction programs.


Office of the Deputy Inspector General for Auditing
Ongoing Operation Enduring Freedom-related oversight addresses the
safety of personnel with regard to construction efforts; force protection
programs for U.S. personnel; accountability of property; improper pay-
ments; contract administration and management including construction and
on construction projects; oversight of the contract for training the Afghan
police; logistical distribution within Afghanistan; health care; and acquisi-
tion planning and controls over funding for Afghan security forces.

Assessment of Planning for the Effective Development and
Transition of Critical Afghanistan National Security Forces
Enablers to Post-2014 Capabilities
(Project No. D2013-D00SPO-0087.000, Initiated December 18, 2012)
The DoD OIG is determining whether U.S. and Coalition goals, objectives,
plans, guidance, and resources are sufficient to effectively develop, manage,




  166                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                OTHER AGENCY OVERSIGHT




and transition critical ANSF operational enablers to Afghan National Army
and Afghan National Police capabilities. In addition DoD OIG is determin-
ing what critical enabling task capabilities will require further development
beyond the end of 2014. Also, DoD OIG is determining whether mitigating
actions are planned and what they consist of for any critical ANSF enabling
capabilities that are expected to be or may still be under development after
2014. In essence, DoD OIG will review what plans and activities are in place
to mature enabling force functions deemed critical for the ANSF to conduct
and sustain independent operations.

Examination of Department of Defense Execution of North
Atlantic Treaty Organization Contributing Countries Donations
to Afghanistan National Army Trust Fund for Approval
Sustainment Projects as of September 30, 2012
(Project No. D2013-D000FL-0056.000, Initiated December 3, 2012)
The Under Secretary of Defense (Comptroller)/Chief Financial Officer, DoD
[USD(C)/CFO] requested this examination. The USD(C)/CFO plans to assert
that the following schedules are fairly presented in all material respects:
•	 Schedule of Contributing Country Donations to Afghanistan National Army
   Trust Fund Approved Sustainment Projects as of September 30, 2012
•	 Schedule of Financial Status of Contributing Country Donations to
   Afghanistan National Army Trust Fund Transferred to the United States
   of America for Approved Sustainment Projects as of September 30, 2012

   The DoD OIG is determining whether the USD(C)/CFO fairly presented
receipts and expenditures of funds contributed to the Afghanistan National
Army Trust Fund and transferred to DoD for execution under the terms of
the Memorandum of Understanding Among the United States of America
and North Atlantic Treaty Organization and Supreme Headquarters Allied
Powers-Europe Regarding Management and Administration of Trust Fund
Donations for Support and Sustainment of the Afghanistan National Army. In
addition, DoD OIG will review internal controls over financial reporting and
compliance with laws and regulations as it relates to its engagement objec-
tive. The USD(C)/CFO is responsible for the aforementioned schedules. The
DoD OIG’s responsibility is to express an opinion based on its examination.

Shindand Training Contracts
(Project No. D2013-D000AS-0052.000, Initiated November 1, 2012)
The DoD OIG is determining whether pilot training contracts for fixed-
wing and rotary-wing aircraft at Shindand Air Base are properly managed
and administered in accordance with Federal and DoD requirements.
Specifically, DoD OIG will determine whether contract requirements are
being met and evaluate the effectiveness of contract oversight.




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2013           167
OTHER AGENCY OVERSIGHT




Surveillance Structure on Contracts Supporting the Afghanistan
Rotary Wing Program for the U.S. Transportation Command
(Project No. D2013-D000AS-0001.000, Initiated October 5, 2012)
The DoD OIG is conducting its second in a series of audits on the
Afghanistan rotary-wing transport contracts. The overall objective is
to determine whether U.S. Transportation Command and U.S. Central
Command officials have adequate oversight of processes and procedures
for the contracts. The first audit was “Afghanistan Rotary Wing Transport
Contracts for the U.S. Transportation Command” (D2012-D000AS-0031.000).

Contract Management and Oversight of Military Construction
Projects for the Special Operation Forces Complexes at
Bagram Airfield, Afghanistan
(Project No. D2012-D000JA-0221.000, Initiated September 28, 2012)
The DoD OIG is determining whether DoD is providing effective oversight
of military construction projects in Afghanistan. Specifically, DoD OIG will
determine whether the U.S. Army Corps of Engineers is properly monitor-
ing contractor performance and adequately performing quality assurance
oversight responsibilities for construction projects for Special Operations
Forces at Bagram Airfield.

Controls Over the Distribution of Funds for the Ministry of
Defense Advisors Program
(Project No. D2012-D000JB-0209.000, Initiated August 23, 2012)
The DoD OIG is determining whether Ministry of Defense Advisors pro-
gram officials established adequate controls over the distribution of funds
to other DoD agencies. This audit is the second in a series of audits on the
Ministry of Defense Advisors program (Project No. D2012-D000JB-0093.000
was the first audit in this series)

Assessment of U.S. Government and Coalition Efforts to Train,
Equip, and Advise the Afghan Border Police
(Project No. D2012-D00SPO-0210.000, Initiated August 21, 2012)
The DoD OIG is determining whether the planning and operational imple-
mentation of efforts by U.S. and Coalition Forces to train, equip, and
advise in the development of the Afghan Border Police (ABP) is effective.
This includes evaluating output/outcome at ABP locations at various stages
of their life cycle to determine the effectiveness of U.S. and Coalition
involvement in developing the ABP and Minister of Interior ability to man-
age the program.




  168                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                 OTHER AGENCY OVERSIGHT




Assessment on Equipping the Afghanistan National
Security Forces
(Project No. D2012-D00SPO-0202.000, Initiated August 10, 2012)
The DoD OIG is determining whether equipment and ammunition for the
ANSF, using funding provided by the Afghan Security Forces Fund, have
been procured in excess of currently stated requirements. In addition,
the OIG will also determine whether NATO Training Mission-Afghanistan/
Combined Security Transition Command Afghanistan has developed a
plan for ANSF utilization of currently identified excess ANSF equipment/
supplies, if any. Also, the OIG will determine whether DoD has prepared a
proposal to amend the ASFF legislation to provide Congressional authority,
should it be needed, for the disposition or reutilization of identified excess
equipment and ammunition, if any. Further, the OIG plans to determine
whether DoD has prepared plans for the disposition or reutilization, outside
of the ANSF, of identified excess equipment and ammunition procured with
funding provided by the ASFF, if any.

Availability of Spare Parts for the C-27A/G222
(Project No. D2012-D000AT-0170.000, Initiated May 11, 2012)
DoD OIG is determining whether the cost and availability of spare parts for
the C-27A/G222 transport plane will allow for continued sustainability of the
aircraft for the Afghan Air Force.

Oversight of U.S. Military and Coalition Efforts to Improve
Healthcare Conditions and to Develop Sustainable ANSF
Medical Logistics at the Dawood National Military Hospital
(Project No. D2012-D00SPO-0163.000, Initiated April 25, 2012)
The DoD OIG is periodically reviewing the status of U.S. and Coalition
efforts to improve the healthcare management and treatment of patients,
and the related sanitation conditions and medical logistics processes, at the
Dawood National Military Hospital (NMH), Kabul, Afghanistan. This effort
responds specifically to the intent of the Inspector General to “Conduct
a periodic walk-through at NMH and continue oversight of the develop-
ment of a sustainable ANSF medical logistics and healthcare capability.”
That message was communicated in a DoD OIG memorandum to the
Commander, Combined Security Transition Command-Afghanistan, dated
December 2, 2011.

Oversight Processes and Procedures for the Afghan National
Police Mentoring/Training and Logistics Support Contract
(Project No. D2012-D000AS-0137.000, Initiated March 9, 2012)
DoD OIG is conducting the second in a series of audits on the ANP
Mentoring/Training and Logistics support contract. The overall objective
for the series of audits is to determine whether DoD officials are using




REPORT TO THE UNITED STATES CONGRESS    I   JANUARY 30, 2013           169
OTHER AGENCY OVERSIGHT




appropriate contracting processes to satisfy mission requirements and are
conducting appropriate oversight of the contract in accordance with federal
and DoD policies.
   For this audit, DoD OIG will determine whether the Army, NTM-A/
CSTC-A, and DCMA had adequate oversight processes and procedures
for the contract. Additionally, DoD OIG will determine whether the Army,
NTM-A/CSTC-A, and DCMA conducted adequate contractor surveillance.
The first audit in this series is “Afghan National Police Mentoring/Training
and Logistics Support Contract,” report number DODIG-2012-094, issued
May 30, 2012.

Datron Radio Contracts To Support the Afghan National
Security Forces
(Project No. D2012-D000AT-0129.000, Initiated March 8, 2012)
DoD OIG is determining whether the U.S. Army Communications-
Electronics Command implemented effective policies and procedures for
awarding Datron radio contracts, negotiating fair and reasonable prices,
verifying timely deliveries, and establishing quality assurance measures in
accordance with applicable requirements

Air Force Center for Engineering and the Environment’s
Contract Management and Oversight of Military Construction
Projects in Afghanistan
(Project No. D2012-D000JB-0126.000, Initiated March 8, 2012)
DoD OIG is determining whether Air Force Center for Engineering and
the Environment officials are providing effective oversight of construction
projects in Afghanistan. This is the second in a series of audits on contract
management and oversight of military construction projects in Afghanistan.
The first project, D2012-D000JB-0071.000, focuses on U.S. Army Corps of
Engineers contract management and oversight of military construction proj-
ects in Afghanistan.

U.S. and Coalition Efforts to Develop Leaders in the Afghan
National Army
(Project No. D2012-D00SPO-0090.000, Initiated February 28, 2012)
DoD OIG is assessing the sufficiency and effectiveness of the coalition’s leader
programs for developing ANA officers and non-commissioned officers.

Technical Assessment of Military Construction Compliance with
Fire Suppression Standards at Select Facilities in Afghanistan
(Project No. D2012-DT0TAD-0002.000, Initiated February 14, 2012)
DoD OIG is determining whether fire-suppression systems built by mili-
tary construction in selected U.S.-occupied facilities in Afghanistan are in
compliance with the U.S. Central Command Unified Facilities Criteria and




  170                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                OTHER AGENCY OVERSIGHT




National Fire Protection Association standards. DoD OIG will assess U.S.-
occupied facilities at Kandahar Airfield, Bagram Airfield, Camp Eggers, and
other locations as necessary. The assessment will also report the status of
DoD OIG recommended corrective actions from previous fire-suppression
system assessments.

Technical Assessment of Military Construction Compliance
with Electrical Standards at Select Facilities in Afghanistan
(Project No. D2012-DT0TAD-0001.000, Initiated February 14, 2012)
DoD OIG is determining whether electrical systems built by military
construction in selected U.S.-occupied facilities in Afghanistan are in com-
pliance with United States Central Command Unified Facilities Criteria and
National Electrical Code standards. DoD OIG will assess U.S.-occupied
facilities at Kandahar Airfield, Bagram Airfield, Camp Eggers, and other
locations as necessary. DoD OIG will also assess the status of DoD OIG–rec-
ommended corrective actions from previous electrical system assessments.

U.S. Efforts To Develop the Afghan National Security Forces
Command and Control System
(Project No. D2012-D00SPO-0085.000, Initiated January 6, 2012)
DoD OIG is determining whether DoD will complete development of
the ANSF Command and Control System by established end-state dates.
Specifically, DoD OIG will assess whether U.S. government and coalition
strategy, guidance, plans, and resources are adequate for the develop-
ment and operational implementation of an effective ANSF Command and
Control System.

Task Orders for Mi-17 Overhauls and Cockpit Modifications
(Project No. D2012-D000AS-0075.000, Initiated December 7, 2011)
DoD OIG is determining whether DoD officials properly awarded and
administered task orders for the overhaul and modification of Mi-17
aircraft in accordance with federal and DoD regulations and policies.
Contracting officers issued the task orders under IDIQ contract number
W58RGZ-09-D-0130.

Afghanistan Rotary Wing Transport Contracts for the U.S.
Transportation Command
(Project No. D2012-D000AS-0031.000, Initiated November 17, 2011)
DoD OIG plans to conduct a series of audits relating to Afghanistan
rotary-wing transportation contracts to determine whether Transportation
Command officials are properly managing and administering the contracts
in accordance with Federal Acquisition Regulation and DoD guidance
while contracting for services performed in a contingency environment.
For this first audit in the planned series, DoD OIG will determine whether




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2013          171
OTHER AGENCY OVERSIGHT




contracting officials have adequate controls over the transportation of sup-
plies, mail, and passengers in Afghanistan.


Department of State Office of Inspector General–Middle
East Regional Office
State OIG initiated one new project this quarter related to Afghanistan
reconstruction.

Audit of the Department of State Transition Planning for a
Reduced Military Presence in Afghanistan
(Project No. 12AUD79, Initiated December 2012)
The overall audit objective is to evaluate the Department’s planning for
the transition from a predominately military to a civilian-led mission in
Afghanistan. Specifically, OIG will determine whether the Department has
adequately defined its mission and support requirements, evaluated its per-
sonnel and funding needs, and integrated its planning with the Department
of Defense and other relevant U.S. agencies, the Government of Afghanistan,
and other non-U.S. government agencies. OIG will also determine whether
planning has incorporated lessons learned from the transition in Iraq.

Audit of the Bureau of International Narcotics and Law
Enforcement Affairs’ Correction System Support Program
in Afghanistan
(Project No. 12AUD30, Initiated December 2011)
The audit objective is to evaluate the effectiveness of the INL Correction
System Support Program (CSSP) in building a safe, secure, and humane
prison system that meets international standards and Afghan cultural
requirements. Specifically, OIG will evaluate whether INL is achieving
intended and sustainable results through the following CSSP components:
training and mentoring; capacity building; Counter-Narcotics Justice
Center and Judicial Security Unit compound operations and mainte-
nance; Pol-i-Charkhi management and stabilization team; Central Prison
Directorate engagement and reintegration team; and Kandahar expansion
and support team.

Evaluation of the Emergency Action Plan – Embassy Kabul
(Project No. 11MERO1875, Initiated June 2011)
The audit objective is to evaluate and assess the status and effectiveness
of the Emergency Action Plan for Embassy Kabul to determine the reason-
ableness and their level of coordination and cooperation with the military
commanders in-country.




 172                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                 OTHER AGENCY OVERSIGHT




Government Accountability Office
DoD’s Approach to Identifying Post-Combat Role of
U.S. Forces in Afghanistan
(Project No. 351772, Initiated September 20, 2012)
GAO will review the nature and extent of planning underway by DoD for
the role of the U.S. military and the Department in Afghanistan post 2014,
including progress in: (1) developing a framework for making key decisions
such as assigning organizational responsibilities and structures within DoD;
(2) establishing a planning approach to include identifying: (a) key assump-
tions about the environment in Afghanistan and role of the Department, the
U.S. military, and contractors; (b) how the Department will collaborate with
other agencies; and (c) issues to be resolved such as the level of support
DoD will provide to other agencies and the disposition of U.S. equipment
and assets; (3) identifying key decision points and related milestones for
taking actions to implement decisions; and (4) identifying potential risks
and mitigation strategies.

Key Afghan Issues
(Project No. 320924, Initiated July 5, 2012)
GAO has issued several recent reports addressing the billions of dollars
allocated toward U.S. efforts in Afghanistan. GAO will update and identify
key issues the 113th Congress may wish to consider including: transition
of security lead to Afghan National Security Forces; the drawdown of U.S.
forces; reliance on donor support, oversight of U.S. contracts; preparation
for a permanent diplomatic presence in Afghanistan. For each, GAO will:
(1) describe the issue; (2) highlight past work; and (3) identify key ques-
tions for oversight.

DoD’s Transition to the Afghan Public Protection Force
(Project No. 351747, Initiated June 11, 2012)
The Afghan Public Protection Force (APPF) is to assume security responsibili-
ties for DoD installations by March 2013. Key questions: (1) To what extent has
DoD developed cost estimates related to the transition to the APPF and what
actions are being taken to minimize costs? (2) To what extent has DoD identi-
fied and implemented oversight and management mechanisms to ensure that
the APPF and risk-management companies are providing services as agreed
upon? (3) What impact(s) has the transition of convoy security from private
security contractors to the APPF had on DoD operations in Afghanistan, and
what actions, if any, has DoD taken to mitigate any negative impacts? (4) To
what extent has DoD planned for the transition of static security from private
security contractors to the APPF, including the degree to which DoD has
developed base-security contingency plans?




REPORT TO THE UNITED STATES CONGRESS      I    JANUARY 30, 2013         173
OTHER AGENCY OVERSIGHT




Security Force Assistance Roles for DoD Forces
(Project No. 351742, Initiated May 11, 2012)
DoD plans to rely on special-operations forces to conduct security-force
assistance activities, while continuing to institutionalize these capabilities
within the general-purpose force. Objectives are to determine the extent
to which DoD has (1) delineated the roles and responsibilities of general-
purpose and special-operations forces; (2) distinguished between the types
of situations or environments where the respective types of forces would be
used to conduct security-force assistance activities; and (3) identified, syn-
chronized, and prioritized the respective requirements and resource needs
for building the capabilities of both types of forces.

Advisory Teams in Afghanistan
(Project No. 351743, Initiated May 11, 2012)
Regarding the use of security-force assistance advisory teams in
Afghanistan, GAO is to determine the extent to which (1) DoD has defined
intended roles, missions, and command relationships for the advisory teams;
(2) the Marine Corps and Army have defined personnel, equipment, and
training requirements; (3) DoD plans to adjust its current use of augmented
brigade/regimental combat teams for advisory missions; and (4) the Marine
Corps and Army have been able to fill personnel and equipment require-
ments for the advisory teams, including any impacts on reported readiness.


U.S. Army Audit Agency
This quarter, the USAAA has no ongoing audits related to reconstruction
initiatives.


U.S. Agency for International Development Office of
Inspector General
Audit of USAID/Afghanistan’s Transition Plans
(Project No. FF100712, Initiated November 28, 2012)
Does USAID/Afghanistan have plans to address contingencies related to the
U.S. Government’s transition in Afghanistan?

Review of USAID/Afghanistan’s Use of Third Country
National Employees
(Project No. FF101412, Initiated October 14, 2012)
To determine if USAID/Afghanistan is using third country nationals for
implementing mission programs efficiently while training Afghan staff to
assume their responsibilities.




  174                  SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
                 OTHER AGENCY OVERSIGHT




Review of USAID/Afghanistan’s Management Controls over
Premium Pay
(Project No. FF100612, Initiated October 9, 2012)
Objective: To determine if USAID/Afghanistan is using sufficient manage-
ment controls over the submission, authorization, approval and certification
of premium pay benefits for its staff in accordance with federal time and
attendance policies and procedures.

Audit of USAID/Afghanistan’s Kandahar Power Initiative
(Project No. FF101112, Initiated May 1, 2012)
Objective: Is the Kandahar Power Initiative meeting its main goals to
increase the supply and distribution of electrical power from Afghanistan’s
South East Power System, with particular emphasis given to the city of
Kandahar, in support of the U.S. government’s counterinsurgency strategy?

Review of USAID/Afghanistan’s Use of the Commander’s
Emergency Response Program Funds for Selected Projects
(Project No. FF101712, Initiated October 25, 2011)
Objective: To determine whether the Commander’s Emergency Response
Program (CERP) funds distributed by U.S. Forces-Afghanistan to USAID for
specific projects were used for their intended purposes, were in compliance
with applicable laws and regulations, and whether the costs charged to
CERP-funded projects were reasonable, allowable, and allocable.


DoD OIG, Defense Criminal Investigative Service (DCIS)
The DCIS continues to conduct significant fraud and corruption investiga-
tions in Afghanistan and Southwest Asia. Currently, there are six DCIS
agents assigned to the International Corruption Task Force in three loca-
tions: Kabul, Bagram and Kandahar Airfields. DCIS expects to increase its
ICCTF assigned agents to seven within the next several weeks. The DCIS
continues to assign one special agent to Task Force 2010. The DCIS and
SIGAR are in partnership with seven other agencies to conduct major fraud
and corruption investigations that affect DoD and Afghanistan reconstruc-
tion programs. In addition to these forward-deployed special agents, 110
DCIS agents based in the United States and Europe are currently conduct-
ing investigations related to fraud and corruption in Southwest Asia.
   As of December 31, 2012, DCIS has 120 open OCO investigations involv-
ing Afghanistan. Of the open investigations, 32 are joint with SIGAR,
including one project.
   As of December 31, 2012, DCIS has closed 146 OCO investigations involv-
ing Afghanistan, including 19 projects.




REPORT TO THE UNITED STATES CONGRESS    I   JANUARY 30, 2013         175
CONTENTS

Appendix A 	                                                 178
Appendix B 	                                                 182
Appendix C	                                                  184
Appendix D	                                                  188
Appendix E	                                                  191
Endnotes	194




The Official Seal of SIGAR
The Official Seal of SIGAR represents the coordination of efforts between the United States
and Afghanistan to provide accountability and oversight of reconstruction activities. The
phrase along the top side of the seal’s center is in Dari and means “SIGAR.” The phrase
along the bottom side of the seal’s center is in Pashtu and has the same meaning.




   176                 SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
APPENDICES
AND ENDNOTES




       177
                                   APPENDICES




                                   APPENDIX A
                                   CROSS-REFERENCE OF REPORT TO
                                   STATUTORY REQUIREMENTS
                                   This appendix cross-references the pages of this report to the quarterly
                                   reporting and related requirements under SIGAR’s enabling legislation, the
                                   National Defense Authorization Act for Fiscal Year 2008, P.L. No. 110-181,
                                   § 1229 (Table A.1).




TABLE A.1


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER P.L. NO. 110-181, § 1229
Public Law Section      SIGAR Enabling Language                                                SIGAR Action                       Report Section
Purpose
Section 1229(a)(3)      To provide for an independent and objective means of keeping           Ongoing; quarterly report          Full report
                        the Secretary of State and the Secretary of Defense fully and
                        currently informed about problems and deficiencies relating to the
                        administration of such programs and operations and the necessity
                        for and progress on corrective action.
Supervision
Section 1229(e)(1)      The Inspector General shall report directly                            Report to the Secretary of State   Full report
                        to, and be under the general supervision                               and the Secretary of Defense
                        of, the Secretary of State and the Secretary of Defense
Duties
Section 1229(f)(1)      OVERSIGHT OF AFGHANISTAN RECONSTRUCTION —                              Review appropriated/               Full report
                        It shall be the duty of the Inspector General to conduct, supervise,   available funds
                        and coordinate audits and investigations of the treatment,
                        handling, and expenditure of amounts appropriated or otherwise         Review programs, operations,
                        made available for the reconstruction of Afghanistan, and of the       contracts using appropriated/
                        programs, operations, and contracts carried out utilizing such         available funds
                        funds, including subsections (A) through (G) below.
Section 1229(f)(1)(A)   The oversight and accounting of the obligation and expenditure of      Review obligations and             SIGAR Oversight
                        such funds                                                             expenditures of appropriated/      Funding
                                                                                               available funds
Section 1229(f)(1)(B)   The monitoring and review of reconstruction activities funded by       Review reconstruction activities   SIGAR Oversight
                        such funds                                                             funded by appropriations and
                                                                                               donations
Section 1229(f)(1)(C)   The monitoring and review of contracts funded by such funds            Review contracts using             Note 1
                                                                                               appropriated and available
                                                                                               funds
Section 1229(f)(1)(D)   The monitoring and review of the transfer of such funds and            Review internal and external       Appendix B
                        associated information between and among departments,                  transfers of appropriated/
                        agencies, and entities of the United States, and private and           available funds
                        nongovernmental entities
Section 1229(f)(1)(E)   The maintenance of records on the use of such funds to facilitate      Maintain audit records             SIGAR Oversight
                        future audits and investigations of the use of such fund[s]                                               Appendix C
                                                                                                                                  Appendix D




                                      178                          SPECIAL INSPECTOR GENERAL            I   AFGHANISTAN RECONSTRUCTION
                                                                    APPENDICES




TABLE A.1 (CONTINUED)


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER P.L. NO. 110-181, § 1229
Public Law Section              SIGAR Enabling Language                                                 SIGAR Action                       Report Section
Section 1229(f)(1)(F)           The monitoring and review of the effectiveness of United States         Monitoring and review              Audits
                                coordination with the Governments of Afghanistan and other donor        as described
                                countries in the implementation of the Afghanistan Compact and
                                the Afghanistan National Development Strategy
Section 1229(f)(1)(G)           The investigation of overpayments such as duplicate payments            Conduct and reporting of           Investigations
                                or duplicate billing and any potential unethical or illegal actions     investigations as described
                                of Federal employees, contractors, or affiliated entities, and the
                                referral of such reports, as necessary, to the Department of Justice
                                to ensure further investigations, prosecutions, recovery of further
                                funds, or other remedies.
Section 1229(f)(2)              OTHER DUTIES RELATED TO OVERSIGHT —                                     Establish, maintain, and           Full report
                                The Inspector General shall establish, maintain, and oversee            oversee systems, procedures,
                                such systems, procedures, and controls as the Inspector General         and controls
                                considers appropriate to discharge the duties under paragraph (1)
Section 1229(f)(3)              DUTIES AND RESPONSIBILITIES UNDER INSPECTOR GENERAL ACT                 Duties as specified in Inspector   Full report
                                OF 1978 —                                                               General Act
                                In addition,. . .the Inspector General shall also have the duties and
                                responsibilities of inspectors general under the Inspector General
                                Act of 1978
Section 1229(f)(4)              COORDINATION OF EFFORTS —                                               Coordination with the              Other Agency
                                The Inspector General shall coordinate with, and receive the            inspectors general of              Oversight
                                cooperation of, each of the following: (A) the Inspector General        DoD, DoS, and USAID
                                of the Department of Defense, (B) the Inspector General of the
                                Department of State, and (C) the Inspector General of the United
                                States Agency for International Development
Federal Support and Other Resources
Section 1229(h)(5)(A)           ASSISTANCE FROM FEDERAL AGENCIES —                                      Expect support as                  Full report
                                Upon request of the Inspector General for information or                requested
                                assistance from any department, agency, or other entity of the
                                Federal Government, the head of such entity shall, insofar as is
                                practicable and not in contravention of any existing law, furnish
                                such information or assistance to the Inspector General, or an
                                authorized designee
Section 1229(h)(5)(B)           REPORTING OF REFUSED ASSISTANCE —                                       None reported                      N/A
                                Whenever information or assistance requested by the Inspector
                                General is, in the judgment of the Inspector General, unreasonably
                                refused or not provided, the Inspector General shall report the
                                circumstances to the Secretary of State or the Secretary of
                                Defense, as appropriate, and to the appropriate congressional
                                committees without delay.




REPORT TO THE UNITED STATES CONGRESS              I   JANUARY 30, 2013                                 179
                                    APPENDICES




TABLE A.1 (CONTINUED)


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER P.L. NO. 110-181, § 1229
Public Law Section      SIGAR Enabling Language                                                  SIGAR Action                     Report Section
Reports
Section 1229(i)(1)      QUARTERLY REPORTS —                                                      Report – 30 days after the       Full report
                        Not later than 30 days after the end of each fiscal-year quarter,        end of each calendar quarter     Appendix B
                        the Inspector General shall submit to the appropriate commit-
                        tees of Congress a report summarizing, for the period of that            Summarize activities of the
                        quarter and, to the extent possible, the period from the end of          Inspector General
                        such quarter to the time of the submission of the report, the
                        activities during such period of the Inspector General and the           Detailed statement of all
                        activities under programs and operations funded with amounts             obligations, expenditures, and
                        appropriated or otherwise made available for the reconstruction of       revenues
                        Afghanistan. Each report shall include, for the period covered by
                        such report, a detailed statement of all obligations, expenditures,
                        and revenues associated with reconstruction and rehabilitation
                        activities in Afghanistan, including the following –
Section 1229(i)(1)(A)   Obligations and expenditures of appropriated/donated funds               Obligations and expenditures     Appendix B
                                                                                                 of appropriated/donated
                                                                                                 funds
Section 1229(i)(1)(B)   A project-by-project and program-by-program accounting of the            Project-by-project and           Funding
                        costs incurred to date for the reconstruction of Afghanistan,            program-by-program account-      Note 1
                        together with the estimate of the Department of Defense,                 ing of costs. List unexpended
                        the Department of State, and the United States Agency for                funds for each project or
                        International Development, as applicable, of the costs to com-           program
                        plete each project and each program
Section 1229(i)(1)(C)   Revenues attributable to or consisting of funds provided by              Revenues, obligations, and       Funding
                        foreign nations or international organizations to programs and           expenditures of donor funds
                        projects funded by any department or agency of the United States
                        Government, and any obligations or expenditures of
                        such revenues
Section 1229(i)(1)(D)   Revenues attributable to or consisting of foreign assets seized or       Revenues, obligations, and       Funding
                        frozen that contribute to programs and projects funded by any            expenditures of funds from
                        U.S. government department or agency, and any obligations or             seized or frozen assets
                        expenditures of such revenues
Section 1229(i)(1)(E)   Operating expenses of agencies or entities receiving amounts             Operating expenses of            Funding
                        appropriated or otherwise made available for the reconstruction          agencies or any organization     Appendix B
                        of Afghanistan                                                           receiving appropriated funds
Section 1229(i)(1)(F)   In the case of any contract, grant, agreement, or other funding          Describe contract details        Note 1
                        mechanism described in paragraph (2)* —
                        (i) The amount of the contract or other funding mechanism;
                        (ii) A brief discussion of the scope of the contract or other funding
                        mechanism;
                        (iii) A discussion of how the department or agency of the United
                        States Government involved in the contract, grant, agreement,
                        or other funding mechanism identified and solicited offers from
                        potential contractors to perform the contract, grant, agreement, or
                        other funding mechanism, together with a list of the potential indi-
                        viduals or entities that were issued solicitations for the offers; and
                        (iv) The justification and approval documents on which was based
                        the determination to use procedures other than procedures that
                        provide for full and open competition




                                       180                          SPECIAL INSPECTOR GENERAL             I   AFGHANISTAN RECONSTRUCTION
                                                                                  APPENDICES




TABLE A.1 (CONTINUED)


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER P.L. NO. 110-181, § 1229
Public Law Section                       SIGAR Enabling Language                                                    SIGAR Action                          Report Section
Section 1229(i)(3)                       PUBLIC AVAILABILITY —                                                      Publish report as directed at         Full report
                                         The Inspector General shall publish on a publicly available                www.sigar.mil
                                         Internet website each report under paragraph (1) of this subsec-
                                                                                                                    Dari and Pashtu translation
                                         tion in English and other languages that the Inspector General
                                                                                                                    in process
                                         determines are widely used and understood in Afghanistan
Section 1229(i)(4)                       FORM —                                                                     Publish report as directed            Full report
                                         Each report required under this subsection shall be submitted
                                         in unclassified form, but may include a classified annex if the
                                         Inspector General considers it necessary
Section 1229(j)(1)                       Inspector General shall also submit each report required under             Submit quarterly report               Full report
                                         subsection (i) to the Secretary of State and the Secretary of
                                         Defense.
Note 1: Although this data is normally made available on SIGAR’s website (www.sigar.mil), the data SIGAR has received is in relatively raw form and is currently being
reviewed, analyzed, and organized for all future SIGAR purposes.

* Covered “contracts, grants, agreements, and funding mechanisms” are defined in paragraph (2) of Section 1229(i) of P.L. No. 110-181 as being:

“any major contract, grant, agreement, or other funding mechanism that is entered into by any department or agency of the United States Government that involves the use
of amounts appropriated or otherwise made available for the reconstruction of Afghanistan with any public or private sector entity for any of the following purposes: To build
or rebuild physical infrastructure of Afghanistan.

To establish or reestablish a political or societal institution of Afghanistan.

To provide products or services to the people of Afghanistan.”




REPORT TO THE UNITED STATES CONGRESS                         I   JANUARY 30, 2013                               181
                                                                APPENDICES



                                                                APPENDIX B
                                                                U.S. FUNDS FOR AFGHANISTAN RECONSTRUCTION ($ MILLIONS)
                                                                Table B.1 lists funds appropriated for Afghanistan reconstruction by program,
                                                                per year, as of December 31, 2012.
                                                                TABLE B.1

                                                                 U.S. FUNDING SOURCES                                            AGENCY          TOTAL     FY 2002
                                                                 SECURITY
                                                                   Afghanistan Security Forces Fund (ASFF)                       DoD           49,625.70        0.00
                                                                   Train & Equip (DoD)                                           DoD              440.00        0.00
                                                                   Foreign Military Financing (FMF)                              DoS            1,059.14       57.26
                                                                   International Military Education and Training (IMET)          DoS               11.90        0.18
                                                                   NDAA Section 1207 Transfer                                    Other              9.90        0.00
                                                                 Total - Security                                                             51,146.64       57.44
                                                                 GOVERNANCE & DEVELOPMENT
                                                                   Commander's Emergency Response Program (CERP)                 DoD            3,448.94        0.00
                                                                   Afghanistan Infrastructure Fund (AIF)                         DoD              699.00        0.00
                                                                   Task Force for Business and Stability Operations (TFBSO)      DoD              601.13        0.00
                                                                   Economic Support Fund (ESF)                                   USAID         15,053.33      117.51
                                                                   Development Assistance (DA)                                   USAID            883.34       18.30
                                                                   Afghanistan Freedom Support Act (AFSA)                        DoD              550.00        0.00
                                                                   Child Survival & Health (CSH + GHAI)                          USAID            554.28        7.52
                                                                   Commodity Credit Corp (CCC)                                   USAID             31.65        7.48
                                                                   USAID (other)                                                 USAID             49.59        0.00
                                                                   Non-Proliferation, Antiterrorism, Demining & Related (NADR)   DoS              505.70       44.00
                                                                   Provincial Reconstruction Team Advisors                       USDA               5.70        0.00
                                                                   Treasury Technical Assistance                                 Treasury           4.45        0.90
                                                                 Total - Governance & Development                                             22,387.11      195.71
                                                                 COUNTER-NARCOTICS
                                                                   International Narcotics Control & Law Enforcement (INCLE)     DoS            3,578.24       60.00
                                                                   Drug Interdiction & Counter-Drug Activities (DoD CN)          DoD            2,439.85        0.00
                                                                   Drug Enforcement Administration (DEA)                         DoJ              127.37        0.58
                                                                 Total - Counter-Narcotics                                                     6,145.47       60.58
                                                                 HUMANITARIAN
                                                                   P.L. 480 Title I                                              USDA               5.00        0.00
                                                                   P.L. 480 Title II                                             USAID            716.71      159.50
                                                                   Disaster Assistance (IDA)                                     USAID            500.13      197.09
                                                                   Transition Initiatives (TI)                                   USAID             36.08        8.07
Notes: Numbers have been rounded. DoD transferred
$101 million from FY 2011 AIF to FY 2011 ESF to fund an
                                                                   Migration & Refugee Assistance (MRA)                          DoS              812.75      135.47
infrastructure project to be implemented by USAID.
a	Figures in the FY 2013 column show agency-reported obli-
                                                                   Voluntary Peacekeeping (PKO)                                  DoS               69.33       23.93
  gations against the FY 2013 continuing resolution as of          Emergency Refugee & Migration Assistance (ERMA)               DoS               25.20       25.00
  December 31, 2012. At the end of the reporting period, most      Food for Progress                                             USDA             109.49        0.00
  agencies had FY 2012 funds available for obligation.
                                                                   416(b) Food Aid                                               USDA              95.18       46.46
Sources: DoD, responses to SIGAR data call, 1/17/2013,             Food for Education                                            USDA              50.49        0.00
1/15/2013, 1/4/2013, 1/2/2013, 10/22/2012,
10/14/2009, and 10/1/2009; State, responses to                     Emerson Trust                                                 USDA              22.40        0.00
SIGAR data call, 1/8/2013, 1/4/2012, 10/5/2012
and 6/27/2012; Treasury, response to SIGAR data call,
                                                                 Total - Humanitarian                                                          2,442.75      595.52
1/4/2013; OMB, response to SIGAR data call, 1/3/2013;            INTERNATIONAL AFFAIRS OPERATIONS
USAID, responses to SIGAR data call, 1/3/2013,
10/15/2010, 1/15/2010, and 10/9/2009; DoJ, response              Oversight                                                                        194.20        0.00
to SIGAR data call, 7/7/2009; USDA, response to SIGAR            Other                                                                          6,442.40      155.60
data call, 4/2009; P.L. 112-74, 12/23/2011; P.L. 112-10,
4/15/2011; P.L. 111-212, 10/29/2010; P.L. 111-118,               Total - International Affairs Operations                                      6,636.60      155.60
12/19/2009; FY 2010 Defense Explanatory Statement.
                                                                 TOTAL FUNDING                                                                88,758.57     1,064.85




                                                                  182                        SPECIAL INSPECTOR GENERAL             I     AFGHANISTAN RECONSTRUCTION
                                                           APPENDICES




                                                                                                                                   FY 2013
  FY 2003     FY 2004     FY 2005     FY 2006     FY 2007 FY 2008       FY 2009     FY 2010     FY 2011     FY 2012     FY 2013 a REQUEST

       0.00       0.00       968.18    1,908.13     7,406.40 2,750.00    5,606.94    9,166.77 10,619.28 11,200.00           0.00    5,749.17
       0.00     150.00       290.00        0.00         0.00     0.00        0.00        0.00      0.00      0.00           0.00        0.00
     191.00     414.08       396.80        0.00         0.00     0.00        0.00        0.00      0.00      0.00           0.00        0.00
       0.39       0.67         0.95        0.98         1.19     1.66        1.40        1.76      1.56      1.18           0.00        1.50
       0.00       0.00         0.00        0.00         0.00     9.90        0.00        0.00      0.00      0.00           0.00        0.00
    191.39     564.75     1,655.92    1,909.11     7,407.59 2,761.56    5,608.34    9,168.53 10,620.84 11,201.18           0.00    5,750.67

       0.00       40.00      136.00     215.00        209.00   488.33      550.67    1,000.00      400.00      400.00       9.94      200.00
       0.00        0.00        0.00       0.00          0.00     0.00        0.00        0.00      299.00      400.00       0.00      350.00
       0.00        0.00        0.00       0.00          0.00     0.00       15.00       59.26      239.24      241.82      45.82       93.00
     239.29      893.83    1,279.50     473.39      1,210.71 1,399.51    2,088.32    3,346.00    2,168.51    1,836.76       0.00    1,849.30
      42.54      153.14      169.25     183.96        166.81   148.65        0.40        0.30        0.00        0.00       0.00        0.00
     165.00      135.00      250.00       0.00          0.00     0.00        0.00        0.00        0.00        0.00       0.00        0.00
      49.68       33.40       38.00      41.45        100.77    63.02       58.23       92.30       69.91        0.00       0.00        0.00
       1.33        0.00        0.00       0.00          0.00    10.77        4.22        4.22        3.09        0.55       0.00        0.00
       0.50        5.00        0.00       0.00          0.00    20.37        3.55        4.90        6.25        7.18       1.84        1.84
      34.70       66.90       38.20      18.20         36.60    26.60       48.60       57.80       69.30       64.80       0.00       54.30
       0.00        0.00        0.00       0.00          0.00     0.00        5.70        0.00        0.00        0.00       0.00        0.00
       1.00        0.06        0.95       0.19          0.13     0.75        0.47        0.00        0.00        0.00       0.00        0.00
    534.04    1,327.33    1,911.89     932.19      1,724.02 2,157.99    2,775.17    4,564.78    3,255.29    2,951.11      57.59    2,548.44

       0.00     220.00      709.28      232.65       251.74    307.57     484.00      589.00      400.00      324.00        0.00     600.00
       0.00      71.80      224.54      108.05       290.97    192.81     230.06      392.27      376.53      420.47      132.35     387.10
       2.87       3.72       16.77       23.66        20.38     40.59      18.80        0.00        0.00        0.00        0.00       0.00
      2.87     295.52      950.59      364.36       563.09    540.97     732.86      981.27      776.53      744.47      132.35     987.10

       5.00       0.00        0.00        0.00         0.00      0.00       0.00        0.00        0.00        0.00        0.00        0.00
      46.10      49.20       56.60       60.00        60.00    177.00      65.41       27.40       15.50        0.00        0.00        0.00
      85.52      11.16        4.22        0.04         0.03     16.90      27.16       29.84       66.74       61.41        0.00        0.00
      11.69      11.22        1.60        0.00         0.00      0.00       0.75        0.87        1.13        0.73        0.02        0.02
      61.50      63.30       47.10       41.80        53.80     44.25      76.79       81.48       65.00       87.26       55.00       65.00
       9.90      20.00       15.50        0.00         0.00      0.00       0.00        0.00        0.00        0.00        0.00        0.00
       0.00       0.00        0.00        0.00         0.00      0.00       0.20        0.00        0.00        0.00        0.00        0.00
       4.96       9.08       30.10       23.24         9.47     20.55      12.09        0.00        0.00        0.00        0.00        0.00
      14.14      34.58        0.00        0.00         0.00      0.00       0.00        0.00        0.00        0.00        0.00        0.00
       9.27       6.12       10.02       25.08         0.00      0.00       0.00        0.00        0.00        0.00        0.00        0.00
       0.00       0.00        0.00        0.00         0.00     22.40       0.00        0.00        0.00        0.00        0.00        0.00
    248.08     204.66      165.14      150.16       123.30    281.10     182.40      139.60      148.37      149.40       55.02       65.02

       0.00       0.00        0.00        0.00         2.50     14.30       25.20       34.40      37.20        59.00      21.60      60.60
      35.30     207.60      136.10      131.90       207.80    434.40    1,060.70    1,761.70     905.10     1,406.20       0.00     243.20
     35.30     207.60      136.10      131.90       210.30    448.70    1,085.90    1,796.10     942.30     1,465.20      21.60     303.80
  1,011.68    2,599.86    4,819.64    3,487.72 10,028.31 6,190.32 10,384.67 16,650.27 15,743.33 16,511.36                266.56    9,655.02




REPORT TO THE UNITED STATES CONGRESS        I   JANUARY 30, 2013                    183
APPENDICES




APPENDIX C
SIGAR WRITTEN PRODUCTS
SIGAR AUDITS
Completed Audits
SIGAR completed three audits during this reporting period:

COMPLETED SIGAR AUDITS AS OF JANUARY 30, 2013
Report Identifier    Report Title                                                           Date Issued
13-4                 Afghan National Army: Controls over Petroleum, Oil, and Lubricants     1/2013
                     for Vehicles, Generators, and Power Plants Need Strengthening to
                     Prevent Fraud, Waste, and Abuse
13-3                 Afghan National Police Vehicle Maintenance Contract: Actions           1/2013
                     Needed to Prevent Millions of Dollars from Being Wasted
13-2                 Afghanistan’s National Power Utility: $12.8 Million in DoD-            12/2012
                     Purchased Equipment Sits Unused, and USAID Paid a Contractor for
                     Work Not Done


New Audits
SIGAR initiated two audits during this reporting period:

NEW SIGAR AUDITS AS OF JANUARY 30, 2013
Audit Identifier    Project Title                                                           Date Initiated
SIGAR 073A          Training of Afghan Justice Sector Personnel                             12/2012
SIGAR 072A          Afghan National Security Literacy Training                              11/2012


Ongoing Audits
SIGAR had 11 audits in progress during this reporting period:

ONGOING SIGAR AUDITS AS OF JANUARY 30, 2013
Audit Identifier    Project Title                                                           Date Initiated
SIGAR 071A          $230 Million in Missing Repair Parts                                    10/2012
SIGAR 070A          Afghan National Police Petroleum, Oils, and Lubricants                  9/2012
SIGAR 069A          Ongoing Construction Projects for the ANSF                              9/2012
SIGAR 068A          USAID’s Direct Assistance to the Ministry of Public Health              8/2012
SIGAR 066A          DoD Compliance with the Prohibition on Contracting with the Enemy       8/2012
SIGAR 065A          State’s Financial Audit Coverage of Costs in Afghanistan                8/2012
SIGAR 063A          U.S. Government Efforts to Assist in the Commercialization of the       7/2012
                    Afghanistan Electricity Utility—Da Afghanistan Breshna Sherkat (DABS)
SIGAR 064A          Air Mobility Support for Afghan Drug Interdiction Operations            7/2012
SIGAR 060A          Tariffs, Taxes, or other Fees Imposed by the Government of the          6/2012
                    Islamic Republic of Afghanistan on U.S. Contractors Conducting
                    Reconstruction Activities in Afghanistan




 184                       SPECIAL INSPECTOR GENERAL              I   AFGHANISTAN RECONSTRUCTION
                                                                     APPENDICES




ONGOING SIGAR AUDITS AS OF JANUARY 30, 2013 (CONTINUED)
Audit Identifier   Project Title                                                            Date Initiated
SIGAR 056A         USAID Planning for Sustainability of its Development Programs in         5/2012
                   Afghanistan
SIGAR 058A         USAID’s Southern Region Agricultural Development Project’s               4/2012
                   Partnership with International Relief and Development, Inc.


New Financial Audits
SIGAR initiated 12 financial audits during this reporting period:

SIGAR FINANCIAL AUDITS AS OF JANUARY 30, 2013
Audit Identifier   Project Title                                                            Date Initiated
                   DoD Contract with Afghan Integrated Support Services (Joint Venture
SIGAR-F001         between Anham FZCO and AECOM) for ANA’s Technical Equipment              11/2012
                   Maintenance Program
                   USAID Contract with Chemonics for Alternative Livelihoods Program in
SIGAR-F002                                                                                  11/2012
                   Helmand Province
                   USAID Contract with Development Alternatives, Inc. for Alternative
SIGAR-F003                                                                                  11/2012
                   Livelihoods Program in Nangarhar Province
                   USAID Cooperative Agreement with The Asia Foundation for Strategic
SIGAR-F004                                                                                  11/2012
                   Support to the Afghan Government
                   USAID Contract with International Relief and Development, Inc. for
SIGAR-F005                                                                                  11/2012
                   the Human Resources and Logistic Support Program
                   USAID Cooperative Agreement with Management Sciences for Health
SIGAR-F006                                                                                  11/2012
                   for Technical Support to the Ministry of Public Health
                   USAID Contract with ARD, Inc. for the Alternative Development and
SIGAR-F007                                                                                  11/2012
                   Alternative Livelihoods Program Expansion North and West Project
                   USAID Contract with Emerging Markets Group for the Afghanistan
SIGAR-F008                                                                                  12/2012
                   SOE Privatization, Excess Land Privatization, and Land Titling Project
                   USAID Contract with Futures Group International, LLC for the
SIGAR-F009         Expanding Access to Private Sector Health Products and Services          12/2012
                   Program
                   USDA Cooperative Agreement with Volunteers for Economic Growth
SIGAR-F010         Alliance (VEGA) for the Capacity Building and Change Management          11/2012
                   Program for the Ministry of Agriculture, Irrigation, and Livestock
                   State Grants with Huda Development Organization for University
SIGAR-F011                                                                                  11/2012
                   Media Operations Center Projects
                   USAID Cooperative Agreement with International Relief and
SIGAR-F012         Development, Inc for the Strategic Provincial Roads Project in           1/2013
                   Southern and Eastern Afghanistan




REPORT TO THE UNITED STATES CONGRESS               I   JANUARY 30, 2013                            185
APPENDICES




SIGAR INSPECTIONS
Completed Inspections
SIGAR completed two inspections during this reporting period:

COMPLETED SIGAR INSPECTIONS AS OF JANUARY 30, 2013
Report Identifier       Report Title                                                         Date Issued
SIGAR Inspection        Imam Sahib Border Police Company Headquarters in Kunduz              1/2013
13-5                    Province: $7.3 Million Facility Sits Largely Unused
SIGAR Inspection        Kunduz Afghan National Police Provincial Headquarters: After         1/2013
13-4                    Construction Delays and Cost Increases, Concerns Remain about the
                        Facility’s Usability and Sustainability


New Inspections
SIGAR initiated two inspections during this reporting period:

NEW SIGAR INSPECTIONS AS OF JANUARY 30, 2013
Inspection Identifier      Project Title                                                     Date Initiated
SIGAR 1009                 Inspections of the Kajaki Dam and Related Construction Projects   1/2013
                           in Helmand Province
SIGAR 1008                 Inspections of Medical, Education, Police, and Agricultural       1/2013
                           Facilities in the Western Provinces



Other SIGAR Written Products
SIGAR Alert Letter
SIGAR issued one alert letter during this reporting period:

NEW SIGAR ALERT LETTERS ISSUED AS OF JANUARY 30, 2013
Letter Title                                                                                 Date Issued
Geospatial Database Has Incorrect Coordinates for Some Sites                                 1/2013


SIGAR Investigations

COMPLETED INVESTIGATIVE REPORTS
SIGAR published one investigative report during this period:

COMPLETED SIGAR INVESTIGATIVE REPORTS AS OF JANUARY 30, 2013
Report Identifier          Report Title                                                      Date Issued
Investigative Report       Afghan National Army: $201 Million in DoD Fuel Purchases Still    12/2012
13-1                       Unaccounted for Because Records Were Shredded




 186                           SPECIAL INSPECTOR GENERAL              I   AFGHANISTAN RECONSTRUCTION
                                                                  APPENDICES




SIGAR Special Projects

COMPLETED SPECIAL PROJECTS
SIGAR published two special project reports during this reporting period:

COMPLETED SIGAR SPECIAL PROJECTS AS OF JANUARY 30, 2013
Report Identifier    Report Title                                                        Date Issued
SIGAR SP-13-2        Afghan National Security Forces: Limited Visibility over Fuel       1/2013
                     Imports Increases the Risk That U.S.-Funded Fuel Purchases Could
                     Violate U.S. Economic Sanctions Against Iran
SIGAR SP-13-1        Anti-Corruption Measures: Persistent Problems Exist in Monitoring   12/2012
                     Bulk Cash Flows at Kabul International Airport


NEW SPECIAL PROJECTS
SIGAR announced one new special project during this reporting period:

COMPLETED SIGAR INVESTIGATIVE REPORTS AS OF JANUARY 30, 2013
Project Identifier   Project Title                                                       Date Initiated
SP-3                 Evaluation of Culvert Denial System                                 12/2012




REPORT TO THE UNITED STATES CONGRESS             I   JANUARY 30, 2013                           187
                                                       APPENDICES




                                                       APPENDIX D
                                                       SIGAR INVESTIGATIONS AND HOTLINE
FIGURE D.1
                                                       SIGAR Investigations
                                          This quarter, SIGAR opened 63 new investigations and closed 14, bringing
SIGAR INVESTIGATIONS: NEW INVESTIGATIONS, the total number of open investigations to 268. Of the new investigations,
OCTOBER 1–DECEMBER 31, 2012               most involved procurement fraud, public corruption, and bribery, as
                                          shown in Figure D.1. Of the closed investigations, most were closed due to
                 Total: 63                unfounded allegations, as shown in Figure D.2.
                                                       FIGURE D.2

                       Miscellaneous
                       Criminal Activity               SIGAR INVESTIGATIONS: CLOSED INVESTIGATIONS, OCTOBER 1–DECEMBER 31, 2012
                       20

             Procurement              Public                         Unfounded Allegations                                                                           9
             Fraud                    Corruption/
             24                       Bribery
                                      11                Merged with Ongoing Investigations                             2


  Civil Investigation                                               Declined for Prosecution                           2
  1                                     Theft
               Assessment               4
               3                                                                   Miscellaneous               1

                                                                                                   0               2                   4               6         8        10
Source: SIGAR Investigations Directorate, 1/10/2013.                                                                                       Total: 14
                                                       Source: SIGAR Investigations Directorate, 1/10/2013.




FIGURE D.3
                                                       SIGAR Hotline
                                                       Of the 55 Hotline complaints received this quarter, most were received by
SOURCE OF SIGAR HOTLINE COMPLAINTS,                    email, as shown in Figure D.3. Of these complaints, most were closed, as
OCTOBER 1–DECEMBER 31, 2012                            shown in Figure D.4.
                                                       FIGURE D.4
                        Total: 55
                                                       STATUS OF SIGAR HOTLINE COMPLAINTS, OCTOBER 1–DECEMBER 31, 2012


                    Electronic                                       Closed                                                                                              20
                    (email, web, or fax)
                    53                                       Under Review                                                                                   15

                                                                Assigned for                                                                           14
                                                       Further Investigation

                                                              Referred Out                                 5
      Walk-in                         Phone
      Complaint                       1                Referred in for S&D            1
      1                                                                                                5                        10                         15        20
                                                                               0
                                                                                                                           Total: 55
Source: SIGAR Investigations Directorate, 1/3/2013.
                                                       Note: S&D = suspension and debarment.
                                                       Source: SIGAR Investigations Directorate, 1/3/2013.




                                                          188                             SPECIAL INSPECTOR GENERAL                        I   AFGHANISTAN RECONSTRUCTION
                                                                   APPENDICES




Suspensions and Debarments From SIGAR Referrals
As of December 31, 2012, SIGAR’s referrals for suspension and debarment
have resulted in 58 suspensions and 46 debarments, as shown in chrono-
logical order in Table D.1.

TABLE D.1


SUSPENSIONS AND DEBARMENTS AS OF DECEMBER 31, 2012
 Suspensions                                      Debarments
 Al-Watan Construction Company                    Farooqi, Hashmatullah
 Basirat Construction Firm                        Hamid Lais Construction Company
 Brophy, Kenneth                                  Hamid Lais Group
 Naqibullah, Nadeem                               Lodin, Rohullah Farooqi
 Rahman, Obaidur                                  Bennett & Fouch Associates, LLC
 Campbell, Neil Patrick                           Brandon, Gary
 Borcata, Raul A.                                 K5 Global
 Close, Jarred Lee                                Ahmad, Noor
 Logistical Operations Worldwide                  Noor Ahmad Yousufzai Construction Company
 Robinson, Franz Martin                           Ayeni, Sheryl Adenike
 Taylor, Zachery Dustin                           Cannon, Justin
 Aaria Group Construction Company                 Constantino, April Anne
 Aaria Group                                      Constantino, Dee
 Aaria Herai General Trading                      Constantino, Ramil Palmes
 Aaria M.E. General Trading LLC                   Crilly, Braam
 Aaria Middle East                                Drotleff, Christopher
 Aaria Middle East Company LLC                    Fil-Tech Engineering and Construction Company
 Aaria Middle East Company Ltd. – Herat           Handa, Sdiharth
 Aaria Supplies Company LTD                       Jabak, Imad
 Aaria Supply Services and Consultancy            Jamally, Rohullah
 Aftech International                             Khalid, Mohammad
 Aftech International Pvt., Ltd.                  Khan, Daro
 Alam, Ahmed Farzad                               Mariano, April Anne Perez
 Albahar Logistics                                McCabe, Elton Maurice
 American Aaria Company LLC                       Mihalczo, John
 American Aaria LLC                               Qasimi, Mohammed Indress
 Barakzai, Nangialai                              Radhi, Mohammad Khalid
 Formid Supply and Services                       Safi, Fazal Ahmed
 Greenlight General Trading                       Shin Gul Shaheen, a.k.a. “Sheen Gul Shaheen”
 Kabul Hackle Logistics Company                   Espinoza-Loor, Pedro Alfredo
 Sharpway Logistics                               Campbell, Neil Patrick
 United States California Logistics Company       Hazrati, Arash
 Yousef, Najeebullah                              Midfield International
 Rahimi, Mohammad Edris                           Moore, Robert G.




REPORT TO THE UNITED STATES CONGRESS          I   JANUARY 30, 2013                            189
APPENDICES




TABLE D.1 (CONTINUED)


SUSPENSIONS AND DEBARMENTS AS OF DECEMBER 31, 2012
 Suspensions                                      Debarments
 Wooten, Philip Steven                            Noori, Noor Alam, a.k.a. “Noor Alam"
 Domineck, Lavette Kaye                           Northern Reconstruction Organization
 Markwith, James                                  Shamal Pamir Building and Road Construction
                                                  Company
 All Points International Distributors, Inc.      Wade, Desi D.
 Cipolla, James                                   Blue Planet Logistics Services
 Hercules Global Logistics                        Mahmodi, Padres
 Schroeder, Robert                                Mahmodi, Shikab
 AISC LLC                                         Saber, Mohammed
 American International Security Corporation      Watson, Brian Erik
 Brothers, Richard S.                             Afghan Builder's Consortium, d.b.a. "ABC"
 David A Young Construction & Renovation Inc.     Mohammad, Ghani
 Force Direct Solutions LLC                       Mohammad, Taj
 Harris, Christopher
 Hernando County Holdings LLC
 Hide-A-Wreck LLC
 Panthers LLC
 Paper Mill Village, Inc
 Shrould Line LLC
 Spada, Carol
 Taylor, Michael
 Welventure LLC
 World Wide Trainers LLC
 Young, David
 Espinoza, Mauricio




  190                           SPECIAL INSPECTOR GENERAL    I    AFGHANISTAN RECONSTRUCTION
                                                                  APPENDICES




APPENDIX E
ABBREVIATIONS AND ACRONYMS
ACRONYM OR
ABBREVIATION      DEFINITION
ABP               Afghan Border Police
ADB               Asian Development Bank
AGO               Attorney General’s Office
AIF               Afghanistan Infrastructure Fund
AIHRC             Afghanistan Independent Human Rights Commission
AIP               Afghanistan Infrastructure Program
ALP               Afghan Local Police
ANA               Afghan National Army
ANCOP             Afghan National Civil Order of Police
ANP               Afghan National Police
ANSF              Afghan National Security Forces
APAP              Afghanistan Parliamentary Assistance Program
APPF              Afghan Public Protection Force
APRP              Afghan Peace and Reintegration Plan
ARTF              Afghanistan Reconstruction Trust Fund
ASFF              Afghanistan Security Forces Fund
ASYCUDA           Automated System for Customs Data
AUP               Afghan Uniform Police
CERP              Commander’s Emergency Response Program
CIA               Central Intelligence Agency (U.S.)
CJIATF            Combined Joint Interagency Task Force
CM                Capability Milestone
CNPA              Counter-Narcotics Police of Afghanistan
CPD               Central Prison Directorate (Afghan)
CSSP              Correction System Support Program
CSTC-A            Combined Security Transition Command-Afghanistan
CUAT              Commander’s Unit Assessment Tool
DABS              Afghan national utility company
DCIS              Defense Criminal Investigative Service (U.S.)
DEA               Drug Enforcement Administration (U.S.)
DoD               Department of Defense (U.S.)
DoD CN            Department of Defense Drug Interdiction and Counter-Drug Activities fund (U.S.)
DoD OIG           Department of Defense Office of Inspector General
DoS               Department of State (U.S.)
DoS OIG           DoS Office of Inspector General
DoT               Department of Transportation (U.S.)
DST               District Support Team
ECF               Extended Credit Facility
EIA               enemy initiated attack




REPORT TO THE UNITED STATES CONGRESS           I   JANUARY 30, 2013                          191
APPENDICES




ACRONYM OR
ABBREVIATION   DEFINITION
ESF            Economic Support Fund
EVAW           Elimination of Violence Against Women law
FBI            Federal Bureau of Investigation (U.S.)
FDRC           Financial Disputes Resolution Commission
GAO            Government Accountability Office (U.S.)
GDP            gross domestic product
HOO            High Office of Oversight for Anti-Corruption (Afghan)
IARCSC         Independent Administrative Reform and Civil Service Commission
ICAO           International Civil Aviation Organization
ICCTF          International Contract Corruption Task Force
IDEA-NEW       Incentives Driving Economic Alternatives for North, East, and West
IDLG           Independent Directorate of Local Governance (Afghan)
IEC            Independent Election Commission (Afghan)
IED            improvised explosive device
IJC            International Security Assistance Force Joint Command
IMF            International Monetary Fund
INCLE          International Narcotics Control and Law Enforcement (U.S.)
INL            Bureau of International Narcotics and Law Enforcement Affairs (U.S.)
ISAF           International Security Assistance Force
JSSP           Justice Sector Support Program
KCI            Kabul City Initiative
LOTFA          Law and Order Trust Fund for Afghanistan
MCC            China Metallurgical Group Corporation
MCIT           Ministry of Communications and Information Technology (Afghan)
MCN            Ministry of Counter Narcotics (Afghan)
MCTF           Major Crimes Task Force (Afghan)
MEC            Monitoring and Evaluation Committee (Afghan)
MoD            Ministry of Defense (Afghan)
MoF            Ministry of Finance (Afghan)
MoI            Ministry of Interior (Afghan)
MoJ            Ministry of Justice (Afghan)
MoM            Ministry of Mines (Afghan)
MoPH           Ministry of Public Health (Afghan)
MRRD           Ministry of Rural Rehabilitation and Development (Afghan)
NATO           North Atlantic Treaty Organization
NGO            non-governmental organization
NIU            National Interdiction Unit (Afghan)
NKB            New Kabul Bank
NPP            National Priority Program
NPTC           National Police Training Center
NTM-A          NATO Training Mission-Afghanistan
OCO            Overseas Contingency Operations
OMB            Office of Management and Budget (U.S.)




  192              SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
                                                                   APPENDICES




ACRONYM OR
ABBREVIATION      DEFINITION
OTA               Office of Technical Assistance (U.S. Treasury)
P.L.              Public Law
PJST              Provincial Joint Secretariat Team (Afghan)
PM/WRA            Bureau of Political-Military Affairs - Office of Weapons Removal and Abatement
POL               petroleum, oil, and lubricants
PPC               Provincial Peace Council
PRT               Provincial Reconstruction Team
PSC               private security contractor
PTEC              Power Transmission Expansion and Connectivity
RAMP-UP           USAID Regional Afghan Municipalities Program for Urban Populations
RC                Regional Command (ISAF)
RC Window         Recurrent Cost Window
SCC               Special Cases Committee (Afghan)
SIGAR             Special Inspector General for Afghanistan Reconstruction
SY                solar year
TAPI              Turkmenistan-Afghanistan-Pakistan-India Pipeline
TFBSO             Task Force for Business and Stability Operations in Afghanistan
TMR               transportation movement request
UN                United Nations
UNDP              United Nations Development Programme
UNHCR             UN High Commissioner for Refugees
UNODC             UN Office on Drugs and Crime
USAAA             U.S. Army Audit Agency
USACE             U.S. Army Corps of Engineers
USACE-TAN         U.S. Army Corps of Engineers-Transatlantic Afghanistan North
USAID             U.S. Agency for International Development
USAID OIG         USAID Office of Inspector General
USDA              U.S. Department of Agriculture
USFOR-A           U.S. Forces-Afghanistan
USGS              United States Geological Survey
UXO               unexploded ordnance
VSO               Village Stability Operations
WTO               World Trade Organization




REPORT TO THE UNITED STATES CONGRESS             I   JANUARY 30, 2013                        193
                                                              ENDNOTES




1.	   Department of Defense, Sustaining U.S. Global Leadership:                 21.	  Associated Press via the Washington Post, “At NATO, Clinton
      Priorities for 21st Century Defense, January 2012, p. 6.                        tells US allies they must fulfill aid pledges for Afghan security
2.	   Public Law 107-40, Joint Resolution to authorize the use of                     after 2014,” 12/5/2012.
      the United States Armed Forces against those responsible for              22.	 DoD, 1230 Report, December 2012, p. 47.
      the recent attacks launched against the United States, §2(a),             23.	 DoD, 1230 Report, December 2012, p. 48.
      September 18, 2001.                                                       24.	 SIGAR Audit 13-1, Afghan National Security Forces Facilities:
3.	   White House Office of the Press Secretary, speech transcript,                   Concerns with Funding, Oversight, and Sustainability for
      “President Bush Discusses Progress in Afghanistan, Global War                   Operation and Maintenance, October 2012.
      on Terror,” delivered in Washington, DC, February 15, 2007.               25.	 SIGAR Audit 11-7, Commander’s Emergency Response Program
4.	   White House Office of the Press Secretary, “Remarks by                          in Laghman Province Provided Some Benefits, but Oversight
      President Obama in Address to the Nation from Afghanistan,”                     Weaknesses and Sustainment Concerns Led to Questionable
      delivered at Bagram Air Base, 5/1/2012.                                         Outcomes and Potential Waste, January 2011.
5.	   SIGAR Audit 12-12, Fiscal Year 2011 Afghanistan Infrastructure            26.	 SIGAR Audit 12-12, Fiscal Year 2011 Afghan Infrastructure Fund
      Fund Projects Are behind Schedule and Lack Adequate                             Projects are behind Schedule and Lack Adequate Sustainment
      Sustainment Plans, July 30, 2012, pp. 7-8.                                      Plans, July 2012.
6. 	 SIGAR Inspection 13-4: Kunduz Afghan National Police                       27.	 GAO report GAO-11-907, Afghanistan Governance: Performance-
      Provincial Headquarters: After Construction Delays and Cost                     Data Gaps Hinder Overall Assessment of U.S. Efforts to Build
      Increases, Concerns Remain About the Facility’s Usability and                   Financial Management Capacity, September 2011.
      Sustainability, January 2013. SIGAR Inspection 13-5: Afghan               28.	 CRS Report R42827, Does Foreign Aid Work? Efforts to
      Border Police Facilities: Imam Sahib Border Police Company                      Evaluate U.S. Foreign Assistance, November 19, 2012, p. 3.
      Headquarters in Kunduz Province: $7.3 million Facility Sits               29.	 SIGAR Audit 12-8, USAID Spent Almost $400 million on an
      Largely Unused, January 2013.                                                   Afghan Stabilization Project despite Uncertain Results, but Has
7.	   SIGAR Audit 11-13, Limited Interagency Coordination and                         Taken Steps to Better Assess Similar Efforts, April 2012, ii.
      Insufficient Controls over U.S. Funds in Afghanistan Hamper               30.	 P.L. 112-175, 9/28/2012; DoD, response to SIGAR data call,
      U.S. Efforts to Develop the Afghan Financial Sector and                         1/17/2013; USAID, response to SIGAR data call, 1/3/2013; State,
      Safeguard U.S. Cash, July 2011.                                                 response to SIGAR data call, 1/8/2013; P.L. 112-74, 12/23/2011.
8.	   Asian Development Bank, TA 7637 (AFG) Power Sector Master                 31.	 See Appendix B of this report.
      Plan, 11/30/2012.                                                         32.	 P.L. 111-32, “Supplemental Appropriations Act 2009,” 6/24/2009.
9.	   DoD, “Report on Progress Toward Security and Stability in                 33.	 DoD, response to SIGAR vetting, 7/20/2009.
      Afghanistan” (commonly known as the “1230 Report,” for the NDAA           34.	 See Appendix B of this report; DoD, response to SIGAR data
      section that requires its submission to Congress), December 2012, p. 5.         call, 1/17/2013.
10.	 USAID OIG/Afghanistan Director memo, “Review of USAID/                     35. 	 DoD, response to SIGAR data call, 1/17/2013.
      Afghanistan’s Monitoring and Evaluation System,” 9/26/2012, p. 1.         36.	 DoD OIG, “Distribution of Funds and the Validity of Obligations
11. 	 SIGAR Audit 12-9, USAID Has Disbursed $9.5 Billion for                          for the Management of the Afghanistan Security Forces Fund -
      Reconstruction and Funded Some Financial Audits as Required,                    Phase I,” 11/5/2007, p. 2.
      But Many Audits Face Significant Delays, Accountability                   37.	 DoD, response to SIGAR data call, 1/17/2013.
      Limitations, and Lack of Resources, May 2012.                             38.	 DoD, response to SIGAR data call, 1/17/2013.
12. 	 SIGAR Audit 11-3: ANP District Headquarters Facilities In Helmand         39.	 DoD, Financial Management Regulation, “Commander’s
      and Kandahar Provinces Have Significant Deficiencies Due to Lack                Emergency Response Program: Vol. 12, Ch. 27,” 1/2009, p. 27-3.
      of Oversight and Poor Contractor Performance, October 2010.               40.	 USFOR-A, “Commander’s Emergency Response Program (CERP)
13.	 The Asia Foundation, Afghanistan in 2012: A Survey of the                        SOP,” USFOR-A Pub 1-06, 2/2011, p. 35; P.L. 112-74, 12/23/2011.
      Afghan People, asiafoundation.org, November 2012, p. 20.                  41.	 See Appendix B of this report.
14.	 Transparency International, Corruptions Perception Index 2012,             42.	 DoD, response to SIGAR data call, 1/15/2013.
      December 2012.                                                            43.	 U.S. Senate Committee on Armed Services, press release,
15.	 The Asia Foundation, Afghanistan in 2012: A Survey of the                        “Senate Passes Ike Skelton National Defense Authorization Act
      Afghan People, asiafoundation.org, November 2012, p. 8.                         for Fiscal Year 2011,” 12/22/2010.
16.	 Independent Joint Anti-Corruption Monitoring and Evaluation                44.	 DoD, response to SIGAR data call, 1/17/2013; P.L. 112-74,
      Committee, “Second Six-Month Report,” 7/25/2012, p. 4.                          12/23/2011; P.L. 112-10, 4/15/2011.
17.	 Ministry of Foreign Affairs of Japan, “Annex: Mutual                       45.	 TFBSO, “About TFBSO,” accessed 10/20/2011; DoD, response to
      Accountability Framework,” English text, Point 13, 7/8/2012.                    SIGAR data call, 7/22/2011.
18. 	 SIGAR Audit 10-15, U.S. Reconstruction Efforts in Afghanistan             46.	 See Appendix B of this report.
      Would Benefit from a Finalized Comprehensive U.S. Anti-                   47.	 DoD, response to SIGAR data call, 1/4/2013.
      Corruption Strategy, August 2010.                                         48.	 DoD, “Drug Interdiction and Counter-Drug Activities, Defense
19.	 Tokyo Conference on Afghanistan, The Tokyo Declaration                           FY 2009 Supplemental Request Drug Interdiction and
      Partnership for Self-Reliance in Afghanistan From Transition to                 Counterdrug Activities,” accessed 4/13/2010.
      Transformation, 7/8/2012, para. 15.                                       49.	 DoD OIG, “Independent Auditor’s Report on the DoD FY 2011
20.	 World Bank/IMF, “Debt Sustainability Analysis Update,” 6/19/2012                 Detailed Accounting Report of the Funds Obligated for National Drug
      p. 1; IMF, “Country Report No. 12/245,” August 2012, p. 25.                     Control Program Activities,” Report No. DODIG-2012-04, 1/30/2012.




                                                       194                      SPECIAL INSPECTOR GENERAL         I   AFGHANISTAN RECONSTRUCTION
                                                            ENDNOTES




50.	   DoD, response to SIGAR data call, 1/2/2013.                           83.	    DoD, “Report on Progress Toward Security and Stability in
51.	   USAID, “U.S. Foreign Assistance Reference Guide,” 1/2005, p.6.                Afghanistan,” 12/2012, pp. 34–35.
52.	   USAID, response to SIGAR data call 1/3/2013.                          84.	    DoD, “Report on Progress Toward Security and Stability in
53.	   USAID, responses to SIGAR data call, 1/3/2013 and 10/2/2012.                  Afghanistan,” 12/2012, p. 34.
54.	   State, response to SIGAR data call, 10/13/2009.                       85.	    DoD, response to SIGAR vetting, 1/11/2013.
55.	   State, response to SIGAR data call, 1/8/2013.                         86.	    DoD, “Report on Progress Toward Security and Stability in
56.	   State, responses to SIGAR data call, 1/8/2013 and 10/11/2012.                 Afghanistan,” 12/2012, p. 37.
57.	   SIGAR, “Quarterly Report to the U.S. Congress,” 7/30/2010, p. 51.     87.	    DoD, response to SIGAR data call, 1/2/2013.
58.	   World Bank, “ARTF: Administrator’s Report on Financial Status         88.	    DoD, response to SIGAR data call, 1/2/2013; DoD, response to
       as of December 20, 2012,” p. 5.                                               SIGAR vetting, 1/11/2013.
59.	   World Bank, “ARTF: Administrator’s Report on Financial Status         89.	    DoD, response to SIGAR data call, 1/2/2013.
       as of December 20, 2012,” p. 1.                                       90.	    DoD, “Report on Progress Toward Security and Stability in
60.	   World Bank, “ARTF: Administrator’s Report on Financial Status                 Afghanistan,” 10/2011, p. 4.
       as of December 20, 2012,” p. 5.                                       91.	    DoD, “Report on Progress Toward Security and Stability in
61.	   World Bank, “Quarterly Country Update: Afghanistan,” 4/2011, p. 16.           Afghanistan,” 12/2012, p. 16.
62.	   World Bank, “ARTF: Administrator’s Report on Financial Status         92.	    DoD, “Report on Progress Toward Security and Stability in
       as of December 20, 2012,” p. 7.                                               Afghanistan,” 4/2012, p. 4.
63.	   World Bank, “Quarterly Country Update: Afghanistan,” 4/2011, p. 16.   93.	    DoD, “News Briefing with George Little from the Pentagon,” 9/4/2012.
64.	   World Bank, “ARTF: Administrator’s Report on Financial Status         94.	    DoD, “Report on Progress Toward Security and Stability in
       as of December 20, 2012,” p. 7.                                               Afghanistan,” 12/2012, pp. 45, 56.
65.	   EC, “Afghanistan: State of Play, January 2011,” 3/31/2011, p. 7.      95.	    DoD, “Report on Progress Toward Security and Stability in
66.	   UNDP, “LOTFA Phase VI Quarterly Progress Report Q3/2012,”                     Afghanistan,” 12/2012, pp. 45, 56.
       Annex 1, 12/4/2012; SIGAR analysis of UNDP’s quarterly and            96.	    CSTC-A, response to SIGAR data call, 01/02/2013.
       annual LOTFA reports, 1/15/2013.                                      97.	    CSTC-A, response to SIGAR data call, 01/02/2013; NTM-A/
67.	   UNDP, “LOTFA Phase VI Quarterly Progress Report Q3/2012,”                     CSTC-A, response to SIGAR vetting, 1/14/2013.
       Annex 2, 12/4/2012; SIGAR analysis of UNDP’s quarterly and            98.	    SIGAR Audit 11-10, “Despite Improvements in MoI’s Personnel
       annual LOTFA reports, 1/15/2013.                                              Systems, Additional Actions Are Needed to Completely Verify ANP
68.	   UNDP, “LOTFA Phase VI Quarterly Progress Report Q3/2012,”                     Payroll Costs and Workforce Strength,” 4/25/2011, ii, 3, 6–7.
       Annex 1, 12/4/2012.                                                   99.	    DoD OIG, “Distribution of Funds and Mentoring of Finance
69.	   UNDP, “LOTFA Phase VI Quarterly Progress Report Q3/2012,”                     Officers for the Afghanistan National Army Payroll Need
       Annex 1, 12/4/2012; SIGAR analysis of UNDP’s quarterly and                    Improvement,” Report No. DODIG-2012-058, 2/29/2012, p. 8.
       annual LOTFA reports, 1/15/2013.                                      100.	   CSTC-A, response to SIGAR data call, 10/1/2012.
70.	   DoD, response to SIGAR data call, 1/17/2013.                          101.	   NTM-A/CSTC-A, response to SIGAR vetting, 1/14/2013.
71.	   The Hill, “Obama Signs $633B Defense Bill,” 1/3/2013;                 102.	   ISAF, response to SIGAR data call, 12/20/2012.
       Conference Report, “National Defense Authorization Act for            103.	   SIGAR, Audit 10-11, “Actions Needed to Improve the Reliability
       Fiscal Year 2013,” pp. 1571–1572.                                             of Afghan Security Force Assessments,” 6/29/2010, ii, 2.
72.	   Public Law 112-175, “Making Continuing Appropriations for             104.	   CSTC-A, response to SIGAR data call, 12/20/2012.
       Fiscal Year 2013, and for Other Purposes,” 9/28/2012, p. 126          105.	   GAO-12-951T, “Long-standing Challenges May Affect Progress
       STAT. 1314.                                                                   and Sustainment of Afghan National Security Forces,” 7/24/2012.
73.	   DoD, “Report on Progress Toward Security and Stability in             106.	   SIGAR, “Quarterly Report to the United States Congress,”
       Afghanistan,” 12/2012, p. 5.                                                  10/30/2012, p. 80.
74.	   DoD, “Report on Progress Toward Security and Stability in             107.	   CSTC-A, response to SIGAR data call, 12/20/2012.
       Afghanistan,” 12/2012, p. 42.                                         108.	   CSTC-A, response to SIGAR data call, 12/20/2012; IJC, response
75.	   DoD, “Report on Progress Toward Security and Stability in                     to SIGAR vetting, 1/10/2012.
       Afghanistan,” 12/2012, p. 9.                                          109.	   CSTC-A, response to SIGAR data call, 12/20/2012.
76.	   DoD, “Report on Progress Toward Security and Stability in             110.	   CSTC-A, response to SIGAR data call, 12/20/2012.
       Afghanistan,” 12/2012, p. 43.                                         111.	   NTM-A, “MoD/GS Assessment ACG-AD Jan–Mar 2012,” p. 3.
77.	   The White House, “Joint Statement by President Obama and              112.	   CSTC-A, response to SIGAR data call, 1/2/2013.
       President Karzai,” 1/11/2013.                                         113.	   CSTC-A, response to SIGAR data call, 1/2/2013.
78.	   The White House, “Joint Statement by President Obama and              114.	   DoD, response to SIGAR data call, 1/17/2013.
       President Karzai,” 1/11/2013.                                         115.	   CSTC-A, response to SIGAR data call, 1/2/2012.
79.	   DoD, “Report on Progress Toward Security and Stability in             116.	   DoD, response to SIGAR data call, 1/17/2013.
       Afghanistan,” 12/2012, p. 20.                                         117.	   CSTC-A, response to SIGAR data call, 1/2/2013.
80.	   DoD, “Report on Progress Toward Security and Stability in             118.	   CSTC-A, response to SIGAR data call, 1/2/2013.
       Afghanistan,” 12/2012, p. 21–24.                                      119.	   DoD OIG, “Distribution of Funds and Mentoring of Finance
81.	   DoD, “Report on Progress Toward Security and Stability in                     Officers for the Afghanistan National Army Payroll Need
       Afghanistan,” 12/2012, p. 27.                                                 Improvement,” Report No. DODIG-2012-058, 2/29/2012, pp. 4–5.
82.	   DoD, response to SIGAR vetting, 1/11/2013.                            120.	   CSTC-A, response to SIGAR data call, 1/2/2013.




REPORT TO THE UNITED STATES CONGRESS            I   JANUARY 30, 2013                         195
                                                        ENDNOTES




121.	 CSTC-A, response to SIGAR data call, 1/2/2013.                     168.	  CENTCOM, response to SIGAR data call, 1/2/2013.
122.	 DoD IG, “Distribution of Funds and Mentoring of Finance            169.	  DoS, PM/WRA, response to SIGAR data call, 12/31/2012.
      Officers for the Afghanistan National Army Payroll Need            170.	  DoS, PM/WRA, response to SIGAR data call, 12/31/2012.
      Improvement,” Report No. DODIG-2012-058, 2/29/2012, i.             171.	  See Appendix B of this report.
123.	 DoD, response to SIGAR data call, 1/17/2013.                       172.	  DoS, INL, response to SIGAR data call, 12/31/2013.
124.	 CSTC-A, response to SIGAR data call, 1/2/2013.                     173.	  DoS, INL, response to SIGAR data call, 12/31/2013.
125.	 CSTC-A, response to SIGAR data call, 1/2/2013.                     174.	  DoD, response to SIGAR vetting, 1/11/2013.
126.	 DoD, “Justification for FY 2013 Overseas Contingency Operations,   175.	  DoS, INL, response to SIGAR data call, 12/31/2013.
      Afghanistan Security Forces Fund (ASFF),” 2/2012, pp. 8­–17.       176.	  DoS, INL, response to SIGAR data call, 12/31/2013; DoS, INL,
127.	 DoD, response to SIGAR data call, 1/17/2013.                              response to SIGAR vetting, 1/11/2013.
128.	 CSTC-A, response to SIGAR data call, 1/2/2012.                     177.	 UNODC, “Afghanistan Opium Survey 2012: Summary Findings,”
129.	 CSTC-A, response to SIGAR data call, 1/2/2012.                            11/2012, pp. 3–4.
130.	 DoD, “Justification for FY 2013 Overseas Contingency Operations,   178.	 UNODC, “Afghanistan Opium Survey 2012: Summary Findings,”
      Afghanistan Security Forces Fund (ASFF),” 2/2012, pp. 5­–6.               11/2012, pp. 3–4.
131.	 DoD, response to SIGAR data call, 1/17/2013.                       179.	 INL, “Afghanistan National Urban Drug Use Survey 2012,
132.	 CSTC-A, response to SIGAR data call, 1/2/2013.                            12/2012, pp. 3–4.
133.	 CSTC-A, response to SIGAR data call, 1/2/2013.                     180.	 INL, “An Outcome Evaluation of Drug Abuse Treatment in
134.	 CSTC-A, response to SIGAR data call, 1/2/2013; NTM-A/CSTC-A,              Afghanistan: Executive Summary,” 10/2012, pp. 1–2.
      response to SIGAR vetting, 1/14/2013.                              181.	 INL, “An Outcome Evaluation of Drug Abuse Treatment in
135.	 NTM-A/CSTC-A, response to SIGAR vetting, 1/14/2013.                       Afghanistan: Executive Summary,” 10/2012, pp. 1–2.
136.	 CSTC-A, response to SIGAR data call, 1/2/2013; NTM-A/CSTC-A,       182.	 UNODC, “Misuse of Licit Trade for Opiate Trafficking in Western
      response to SIGAR vetting, 1/14/2013.                                     and Central Asia: A Threat Assessment,” 10/2012, pp. 7, 9.
137.	 CSTC-A, response to SIGAR data call, 1/2/2013.                     183.	 CSTC-A, response to SIGAR data call, 1/2/2013.
138.	 CSTC-A, response to SIGAR data call, 1/2/2013; NTM-A/CSTC-A,       184.	 CSTC-A, response to SIGAR data call, 1/2/2013.
      response to SIGAR vetting, 1/14/2013.                              185.	 DoD, response to SIGAR data call, 1/10/2013.
139.	 CSTC-A, response to SIGAR data call, 1/2/2013.                     186.	 DoD, response to SIGAR data call, 1/10/2013.
140.	 CSTC-A, response to SIGAR data call, 1/2/2013.                     187.	 DoD, response to SIGAR data call, 1/10/2013.
141.	 CSTC-A, response to SIGAR data call, 1/2/2013.                     188.	 DoD, response to SIGAR data call, 1/10/2013.
142.	 DoD, response to SIGAR vetting, 1/11/2013.                         189.	 See Appendix B of this report.
143.	 DoD, response to SIGAR data call, 1/17/2013.                       190.	 AP, “France Hosts Secretive Inter-Afghan Meeting,” 12/20/2012;
144.	 CSTC-A, response to SIGAR data call, 1/2/2013.                            “Afghan, Taliban Officials Discuss Country’s Future,” 12/20/2012;
145.	 DoD, response to SIGAR data call, 1/17/2013.                              DoS/SCA, response to SIGAR data call, 1/4/2013; The White
146.	 CSTC-A, response to SIGAR data call, 1/2/2013.                            House, “Joint Press Conference by President Obama and
147.	 CSTC-A, response to SIGAR data call, 1/2/2013.                            President Karzai,” 1/11/2013.
148.	 CSTC-A, response to SIGAR data call, 1/2/2013.                     191.	 UN Secretary-General, “The Situation in Afghanistan and Its
149.	 CSTC-A, response to SIGAR data call, 1/2/2013.                            Implications for International Peace and Security,” 12/6/2012, p.
150.	 DoD, response to SIGAR data call, 1/17/2013.                              4; Radio Free Europe/Radio Liberty, “Taliban Prisoner Releases
151.	 CSTC-A, response to SIGAR data call, 1/2/2013.                            Are High-Risk, Low-Reward,” 1/15/2013.
152.	 DoD, response to SIGAR data call, 1/17/2013.                       192.	 DoS/SCA, response to SIGAR data call, 1/4/2013.
153.	 CSTC-A, response to SIGAR data call, 1/2/2013.                     193.	 DoS/SCA, response to SIGAR data call, 1/4/2013.
154.	 CSTC-A, response to SIGAR data call, 1/2/2013.                     194.	 DoS/SCA, response to SIGAR data call, 1/4/2013.
155.	 DoD, “Justification for FY 2013 Overseas Contingency Operations,   195.	 DoS/SCA, response to SIGAR data call, 1/4/2013.
      Afghanistan Security Forces Fund (ASFF),” 2/2012, pp. 5­–6.        196.	 DoS/SCA, response to SIGAR data call, 1/4/2013.
156.	 DoD, response to SIGAR data call, 1/17/2013.                       197.	 DoS/SCA, response to SIGAR data call, 1/4/2013.
157.	 CSTC-A, response to SIGAR data call, 1/2/2013; NTM-A/CSTC-A,       198.	 DoS/SCA, response to SIGAR data call, 1/4/2013.
      response to SIGAR vetting, 1/14/2013.                              199.	 DoS/SCA, response to SIGAR data call, 1/4/2013; SIGAR,
158.	 CSTC-A, response to SIGAR data call, 1/2/2013.                            “Quarterly Report to Congress,” p. 104, October 30, 2012.
159.	 CSTC-A, response to SIGAR data call, 1/2/2013; NTM-A/CSTC-A,       200. 	 DoS/SCA, response to SIGAR data call, 1/4/2013.
      response to SIGAR vetting, 1/14/2013.                              201.	 DoS/SCA, response to SIGAR data call, 1/4/2013.
160.	 CSTC-A, response to SIGAR data call, 1/2/2013.                     202.	 DoD, “Report on Progress Toward Security and Stability in
161.	 CSTC-A, response to SIGAR data call, 1/2/2013.                            Afghanistan,” 12/2012, p. 103.
162.	 CENTCOM, response to SIGAR data call, 12/27/2012.                  203.	 USAID, response to SIGAR data call, 12/23/2012.
163.	 SOJTF, response to SIGAR vetting, 1/8/2012.                        204.	 USAID, response to SIGAR data call, 12/23/2012.
164.	 CENTCOM, response to SIGAR data call, 12/27/2012.                  205.	 USAID, response to SIGAR data call, 12/23/2012.
165.	 CSTC-A, response to SIGAR data call, 1/2/2013.                     206.	 USAID, response to SIGAR data call, 12/23/2012; USAID, response to
166.	 CSTC-A, response to SIGAR data call, 1/2/2013.                            SIGAR vetting, 1/14/2013; DoS, response to SIGAR data call, 1/11/2013.
167.	 NTM-A, “Afghan Public Protection Force to become Afghan’s          207.	 USAID, response to SIGAR data call, 12/23/2012; USAID, response to
      Newest Guards,” 8/9/2012, accessed 1/14/2013.                             SIGAR vetting, 1/14/2013; DoS, response to SIGAR data call, 1/11/2013.




                                                  196                    SPECIAL INSPECTOR GENERAL           I   AFGHANISTAN RECONSTRUCTION
                                                            ENDNOTES




208.	 U.S. Embassy Kabul, “U.S. Embassy Statement On the                     252.	 USAID, response to SIGAR data call, 12/23/2012.
      Announcement by the Afghan Independent Election                        253.	 DoD, “Report on Progress Toward Security and Stability in
      Commission,” 10/31/2012.                                                      Afghanistan,” 12/2012, p. 103.
209.	 UN Secretary-General, “The Situation in Afghanistan and Its            254.	 DoD, “Report on Progress Toward Security and Stability in
      Implications for International Peace and Security,” 12/6/2012, p. 2.          Afghanistan,” 12/2012, p. 103.
210.	 UN Secretary-General, “The Situation in Afghanistan and Its            255.	 DoD, “Report on Progress Toward Security and Stability in
      Implications for International Peace and Security,” 12/6/2012, p.             Afghanistan,” 12/2012, p. 112.
      2; USAID, response to SIGAR data call, 12/23/2012.                     256.	 DoD, “Report on Progress Toward Security and Stability in
211.	 DoS, response to SIGAR data call, 1/11/2013.                                  Afghanistan,” 12/2012, p. 112.
212.	 DoS, response to SIGAR data call, 1/11/2013.                           257.	 USAID, response to SIGAR data call, 12/23/2012.
213.	 DoS, response to SIGAR data call, 1/11/2013.                           258.	 DoD, “Report on Progress Toward Security and Stability in
214.	 DoS, response to SIGAR data call, 1/11/2013.                                  Afghanistan,” 12/2012, p. 112.
215.	 USAID, response to SIGAR data call, 12/23/2012; USAID,                 259.	 UN Secretary-General, “The Situation in Afghanistan and Its
      response to SIGAR vetting, 1/14/2013.                                         Implications for International Peace and Security,” 12/6/2012,
216.	 USAID, response to SIGAR data call, 12/23/2012.                               pp. 10–11.
217.	 USAID, response to SIGAR data call, 12/23/2012.                        260.	 DoD, “Report on Progress Toward Security and Stability in
218.	 USAID, response to SIGAR data call, 12/23/2012.                               Afghanistan,” 12/2012, p. 104.
219.	 DoS/INL, response to SIGAR data call, 12-31/2012.                      261.	 UN Secretary-General, “The Situation in Afghanistan and Its
220.	 USAID, response to SIGAR data call, 12/23/2012.                               Implications for International Peace and Security,” 12/6/2012,
221.	 USAID, response to SIGAR data call, 12/23/2012.                               pp. 10-11.
222.	 UN Secretary-General, “The Situation in Afghanistan and Its            262.	 DoD, “Report on Progress Toward Security and Stability in
      Implications for International Peace and Security,” 12/6/2012, p. 3.          Afghanistan,” 12/2012, p. 104.
223.	 MoF, “1391 Revenue Collection & Target,” accessed online 1/11/2013.    263.	 DoS/INL, response to SIGAR data call, 12/31/2012; CRS,
224.	 DoD, “Report on Progress Toward Security and Stability in                     “Afghanistan: Politics, Elections, and Government
      Afghanistan,” 12/2012, p. 110.                                                Performance,” 11/30/2012, p. 10.
225.	 Treasury Department, response to SIGAR data call, 12/21/2012.          264.	 DoS/INL, response to SIGAR data call, 12/31/2012.
226.	 Treasury Department, response to SIGAR data call, 12/21/2012.          265.	 DoS/INL, response to SIGAR data call, 12/31/2012.
227.	 DoD, “Report on Progress Toward Security and Stability in              266.	 DoS/INL, response to SIGAR data call, 12/31/2012.
      Afghanistan,” 12/2012, p. 110.                                         267.	 DoS/INL, response to SIGAR data call, 12/31/2012.
228.	 DoD, “Report on Progress Toward Security and Stability in              268.	 USAID, response to SIGAR data call, 12/23/2012.
      Afghanistan,” 12/2012, p. 106.                                         269.	 USAID, response to SIGAR data call, 12/23/2012.
229.	 Treasury Department, response to SIGAR data call, 12/21/2012.          270.	 USAID, response to SIGAR data call, 12/23/2012.
230.	 Treasury Department, response to SIGAR data call, 12/21/2012.          271.	 USAID, response to SIGAR data call, 12/23/2012.
231.	 DoD, “Report on Progress Toward Security and Stability in              272.	 USAID, response to SIGAR data call, 12/23/2012.
      Afghanistan,” 12/2012, pp. 106-107.                                    273.	 USAID, response to SIGAR data call, 12/23/2012.
232.	 DoD, “Report on Progress Toward Security and Stability in              274.	 DoS/INL, response to SIGAR data call, 12/31/2012.
      Afghanistan,” 12/2012, p. 107.                                         275.	 DoS/INL, response to SIGAR data call, 12/31/2012.
233.	 DoD, “Report on Progress Toward Security and Stability in              276.	 DoS/INL, response to SIGAR data call, 12/31/2012.
      Afghanistan,” 12/2012, p. 107.                                         277.	 DoS/INL, response to SIGAR data call, 12/31/2012.
234.	 DoS/SCA, response to SIGAR data call, 1/4/2013.                        278.	 DoS/INL, response to SIGAR data call, 10/4/2012; INL, response
235.	 DoS/SCA, response to SIGAR data call, 1/4/2013.                               to SIGAR vetting, 1/11/2013.
236.	 DoS/SCA, response to SIGAR data call, 1/4/2013.                        279.	 Transparency International, “Corruption Perceptions Index,”
237.	 DoS/SCA, response to SIGAR data call, 1/4/2013.                               12/5/2012.
238.	 UN Secretary-General, “The Situation in Afghanistan and Its            280.	 Transparency International, “Corruption Perceptions Index,”
      Implications for International Peace and Security,” 12/6/2012, p. 4.          12/5/2012.
239.	 USAID, response to SIGAR vetting, 1/14/2013.                           281.	 DoS/INL, response to SIGAR data call, 12/31/2012.
240.	 USAID, response to SIGAR data call, 12/27/2012.                        282.	 DoS/INL, response to SIGAR data call, 12/31/2012.
241.	 USAID, response to SIGAR data call, 12/27/2012.                        283.	 DoS/INL, response to SIGAR data call, 12/31/2012.
242.	 USAID, response to SIGAR data call, 12/27/2012.                        284.	 DoS/INL, response to SIGAR data call, 12/31/2012.
243.	 USAID, response to SIGAR data call, 12/27/2012.                        285.	 DoS/INL, response to SIGAR data call, 12/31/2012; CENTCOM,
244.	 USAID, response to SIGAR data call, 12/27/2012.                               response to SIGAR data call, 1/3/2012.
245.	 USAID, response to SIGAR data call, 12/27/2012.                        286.	 DoS/INL, response to SIGAR data call, 12/31/2012.
246.	 USAID, response to SIGAR data call, 12/27/2012.                        287.	 DoS/INL, response to SIGAR data call, 12/31/2012.
247.	 USAID, response to SIGAR data call, 12/27/2012.                        288.	 USAID, response to SIGAR data call, 12/23/2012.
248.	 DoD/OSD, response to SIGAR data call, 1/10/2013.                       289.	 USAID, response to SIGAR data call, 12/23/2012.
249.	 USAID, response to SIGAR data call, 12/27/2012.                        290.	 DoS/INL, response to SIGAR data call, 12/31/2012.
250.	 USAID, response to SIGAR data call, 12/27/2012.                        291. 	 DoD, “Report on Progress Toward Security and Stability in
251.	 USAID, response to SIGAR data call, 12/23/2012.                               Afghanistan,” 12/2012, p. 118.




REPORT TO THE UNITED STATES CONGRESS             I   JANUARY 30, 2013                     197
                                                            ENDNOTES




292.	  DoS/INL, response to SIGAR data call, 12/31/2012.                      322.	 MoF, “H.E. Finance Minister’s Speech for Mishrano Jirga Regarding
293.	  DoS/SCA, response to SIGAR data call, 1/3/2013.                              Submission of 1392 National Budget,” 11/6/2012, accessed 12/14/2012.
294.	  DoS/SCA, response to SIGAR data call, 1/3/2013.                        323.	 DoD, “Report on Progress Toward Security and Stability in
295.	  UNAMA, “Still a Long Way to Go: Implementation of the Law on                 Afghanistan,” 12/2012, accessed 12/24/2012.
       Elimination of Violence against Women in Afghanistan,” p. 2.           324.	 DoD, “Report on Progress Toward Security and Stability in
296.	 UNAMA, “Still a Long Way to Go: Implementation of the Law on                  Afghanistan,” 12/2012, accessed 12/24/2012.
       Elimination of Violence against Women in Afghanistan,” p. 2.           325.	 DoD, “Report on Progress Toward Security and Stability in
297.	 UNAMA, “Still a Long Way to Go: Implementation of the Law on                  Afghanistan,” 12/2012, accessed 12/24/2012.
       Elimination of Violence against Women in Afghanistan,” p. 2.           326.	 MoF, “Revenue Department,” accessed 1/8/2013.
298.	 UNAMA, “Still a Long Way to Go: Implementation of the Law on            327.	 World Bank, “Afghanistan Economic Update,”10/2012, accessed
       Elimination of Violence against Women in Afghanistan,” p. 2.                 12/14/2012; DoD, “Report on Progress Toward Security and
299.	 DoS/PRM, response to SIGAR data call, 12/19/2012.                             Stability in Afghanistan,” 12/2012, accessed 12/24/2012.
300.	 DoS/PRM, response to SIGAR data call, 12/19/2012; DoS/PRM,              328.	 World Bank, “Afghanistan Economic Update,”10/2012, accessed
       response to SIGAR vetting, 1/11/2013.                                        12/14/2012.
301.	 GAO, “Afghanistan Development, Agencies Could Benefit from              329.	 World Bank, “Afghanistan Economic Update,”10/2012, accessed
       a Shared and More Comprehensive Database on U.S. Efforts,”                   12/14/2012.
       11/2012, accessed 12/14/2012.                                          330.	 World Bank, “Afghanistan Economic Update,”10/2012, accessed
302.	 GAO, “Afghanistan Development, Agencies Could Benefit from                    12/14/2012.
       a Shared and More Comprehensive Database on U.S. Efforts,”             331.	 DoD, “Report on Progress Toward Security and Stability in
       11/2012, accessed 12/14/2012.                                                Afghanistan,” 12/2012, accessed 12/24/2012; MoF, “H.E. Finance
303.	 World Bank, “Afghanistan Economic Update,”10/2012, accessed                   Minister’s Speech for Mishrano Jirga Regarding Submission of
       12/14/2012.                                                                  1392 National Budget,” 11/6/2012, accessed 12/14/2012.
304.	 World Bank, “Afghanistan Overview,” 10/2012, accessed 1/8/2013.         332.	 Treasury, response to SIGAR data call, 12/21/2012.
305.	 GAO, “Afghanistan Development, Agencies Could Benefit from              333.	 Treasury, response to SIGAR data call, 12/21/2012; Treasury,
       a Shared and More Comprehensive Database on U.S. Efforts,”                   response to SIGAR data call, 9/28/2012.
       11/2012, accessed 12/14/2012.                                          334.	 Treasury, response to SIGAR data call, 12/21/2012.
306.	 The White House, “Joint Statement by President Obama and                335.	 Treasury, response to SIGAR data call, 12/21/2012; Treasury,
       President Karzai,” 1/11/2013, accessed 1/15/2013.                            response to SIGAR data call, 9/28/2012.
307.	 World Bank, “Afghanistan Economic Update,”10/2012, accessed             336.	 DoS/DoD “U.S.-Civil Military Strategic Framework for
       12/14/2012.                                                                  Afghanistan,” October 1, 2012, accessed 12/14/2012; SIGAR,
308.	 Treasury, response to SIGAR data call, 12/21/2012.                            “Quarterly Report to Congress,” 10/2012, p. 129.
309.	 TFBSO, response to SIGAR data call, 1/3/2013.                           337.	 DoS, response to SIGAR vetting, 1/11/2013.
310.	 TFBSO, response to SIGAR data call, 1/3/2013.                           338.	 ACTA, “1392 National Budget Review,” 12/2/2012, accessed 1/11/2013.
311.	 RFE/RL, “11 Cabinet Ministers Face Impeachment,” 12/12/2012,            339.	 DoS, response to SIGAR data call, 12/31/2012.
       accessed 1/8/2013.                                                     340.	 Al Jazeera, “EU suspends aid to Afghanistan,” 11/12/2012,
312.	 SIGAR, “Quarterly Report to Congress,” 7/2012, pp. 113-114.                   accessed 1/6/2013; RT “Aid unpaid: EU reduces financial help to
313.	 World Bank, “Afghanistan Economic Update,”10/2012, accessed                   Afghanistan,” 11/13/2012, accessed 1/6/2013.
       12/14/2012.                                                            341.	 DoS, response to SIGAR data call, 12/31/2012.
314.	 SIGAR, “Quarterly Report to Congress,” 10/2012, p. 128.                 342.	 DoS/DoD “U.S.-Civil Military Strategic Framework for
315.	 MoF, “H.E. Finance Minister’s Speech for Mishrano Jirga Regarding             Afghanistan,” October 1, 2012, accessed 12/14/2012; SIGAR,
       Submission of 1392 National Budget,” 11/6/2012, accessed 12/14/2012.         “Quarterly Report to Congress,” 10/2012, p. 129.
316.	 ACTA, “1392 National Budget Review,” 12/2/2012, accessed                343.	 DoD, “Report on Progress Toward Security and Stability in
       1/11/2013; MoF, “1392 National Budget Approved by                            Afghanistan,” 12/2012, accessed 12/24/2012.
       Parliament,” accessed online 1/22/2013.                                344.	 DoS/DoD “U.S.-Civil Military Strategic Framework for
317. 	 MoF, “1392 National Budget Approved by Parliament,” accessed                 Afghanistan,” October 1, 2012, accessed 12/14/2012.
       online 1/22/2013; MoF, “H.E. Finance Minister’s Speech for             345.	 DoS/DoD “U.S.-Civil Military Strategic Framework for
       Mishrano Jirga Regarding Submission of 1392 National Budget,”                Afghanistan,” October 1, 2012, accessed 12/14/2012.
       11/6/2012, accessed 12/14/2012.                                        346.	 SIGAR, “Quarterly Report to Congress,” 10/2012, p. 147.
318.	 MoF, “H.E. Finance Minister’s Speech for Mishrano Jirga                 347.	 DoD, “Report on Progress Toward Security and Stability in
       Regarding Submission of 1392 National Budget,” 11/6/2012,                    Afghanistan,” 12/2012, accessed 12/24/2012.
       accessed 12/14/2012.                                                   348.	 World Bank, “Afghanistan Economic Update,”10/2012, accessed
319.	 ACTA, “1392 National Budget Review,” 12/2/2012, accessed 1/11/2013.           12/14/2012; DoD, “Report on Progress Toward Security and
320.	 MoF, “H.E. Finance Minister’s Speech for Mishrano Jirga                       Stability in Afghanistan,” 12/2012, accessed 12/24/2012.
       Regarding Submission of 1392 National Budget,” 11/6/2012,              349.	 DoD, “Report on Progress Toward Security and Stability in
       accessed 12/14/2012.                                                         Afghanistan,” 12/2012, accessed 12/24/2012.
321.	 DoD, “Report on Progress Toward Security and Stability in               350.	 MEC, “Report of the Public Inquiry Into the Kabul Bank
       Afghanistan,” 12/2012, accessed 12/24/2012.                                  Crisis,”11/15/2012, accessed 1/8/2013.




                                                      198                     SPECIAL INSPECTOR GENERAL          I   AFGHANISTAN RECONSTRUCTION
                                                          ENDNOTES




351.	 GIRoA, “Report on Kabul Bank Asset Recovery,” 12/26/2012,            380.	  SIGAR, “Quarterly Report to Congress, 10/2012, pp. 142-143.
      accessed 1/11/2013.                                                  381.	  DoS, response to SIGAR data call, 12/31/2012.
352.	 MEC, “Report of the Public Inquiry Into the Kabul Bank               382.	  DoS, response to SIGAR data call, 12/31/2012.
      Crisis,”11/15/2012, accessed 1/8/2013; SIGAR, “Quarterly Report      383.	  DoD, “Report on Progress Toward Security and Stability in
      to Congress,” 10/2012, p. 131.                                              Afghanistan,” 12/2012, accessed 12/24/2012.
353.	 SIGAR, “Quarterly Report to Congress,” 7/2012, p. 118; Tokyo         384.	 MoM, “Contracts for Nahreen Coal of Baghlan Province and
      Mutual Accountability Framework, 7/8/2012, accessed 1/9/2013;               Gazistan Coal of Takhar Province Signed,” 12/31/2012, accessed
      IMF, “First Review Under the Extended Credit Facility                       1/4/2013.
      Arrangement, Request for Waiver of Nonobservance of a                385.	 TFBSO, response to SIGAR data call, 1/3/2013.
      Performance Criterion, Modification of Performance Criteria,         386.	 DoS, response to SIGAR data call, 12/31/2012.
      and Rephasing of Disbursements,” 6/19/2012, accessed 10/3/2012.      387.	 MoM, “Global Firms Seek Afghan Oil and gas Reserves,”
354.	 GIRoA, “Report on Kabul Bank Asset Recovery,” 12/26/2012,                   11/12/2012, accessed 1/4/2013; TFBSO, response to SIGAR data
      accessed 1/11/2013.                                                         call, 1/3/2013.
355.	 DoS, response to SIGAR data call, 12/19/2012; SIGAR,                 388.	 TFBSO, e-mail follow-up response to SIGAR data call, 1/3/2013;
      “Quarterly Report to Congress,” 10/2012, p. 131.                            TFBSO, response to SIGAR vetting. 1/8/2013.
356.	 SIGAR, “Quarterly Report to Congress,” 7/2012, p. 118.               389.	 DoD, “Report on Progress Toward Security and Stability in
357.	 DoS, response to SIGAR data call, 12/19/2012; Treasury,                     Afghanistan,” 12/2012, accessed 12/24/2012.
      response to SIGAR data call, 12/21/2012.                             390.	 TFBSO, response to SIGAR data call, 1/3/2013.
358.	 DoS, response to SIGAR data call, 12/19/2012.                        391.	 DoS, response to SIGAR data call, 12/31/2012.
359.	 DoS, response to SIGAR data call, 12/19/2012; SIGAR,                 392.	 TFBSO, response to SIGAR data call, 1/3/2013.
      “Quarterly Report to Congress,” 7/2012, pp. 118-119.                 393.	 World Bank, “Afghanistan Economic Update,”10/2012, accessed
360.	 DoS, response to SIGAR data call, 12/19/2012.                               12/14/2012.
361.	 SIGAR, “Quarterly Report to Congress,” 10/2012, p. 132.              394.	 DoS, response to SIGAR data call, 12/31/2012.
362.	 Treasury, response to SIGAR data call, 12/21/2012.                   395.	 DoD, “Report on Progress Toward Security and Stability in
363.	 The Daily Outlook Afghanistan,” New Kabul Bank Draws Five                   Afghanistan,” 12/2012, accessed 12/24/2012; TFBSO, response to
      Possible Bids,” 12/3/2012, accessed 12/31/2012.                             SIGAR vetting, 1/8/2013.
364.	 Treasury, response to SIGAR data call, 12/21/2012.                   396.	 TFBSO, response to SIGAR data call, 1/3/2013.
365.	 World Bank, “Afghanistan Economic Update,”10/2012, accessed          397.	 TFBSO, response to SIGAR data call, 1/3/2013.
      12/14/2012.                                                          398.	 DoS, response to SIGAR data call, 12/31/2012.
366.	 UN, “Security Council 1988 Sanctions Committee Adds                  399.	 USDA, “Agriculture in Afghanistan Overview,” accessed 1/14/2013.
      Individual Abdul Rauf Zakir, Entity Haqqani Network (HQN)            400.	 NSC, “Report in Response to Section 1535(c) of the Ike Skelton
      To Its Sanctions List,” 11/5/2012, accessed 1/2/2012; Treasury,             National Defense Authorization Act for Fiscal Year 2011 (P.L.
      response to SIGAR data call, 12/21/2012.                                    111-383),” accessed 9/18/2012.
367.	 CRS, “Terrorism and Transnational Crime: Foreign Policy Issues       401.	 SIGAR analysis of USAID-OFM Major Grants and Contracts, 12/2012.
      for Congress,” 10/19/2012, accessed 1/2/2013.                        402.	 USAID, response to SIGAR data call, 12/17/2012.
368.	 CRS, “Terrorism and Transnational Crime: Foreign Policy              403.	 USAID, response to SIGAR data call, 9/30/2012.
      Issues for Congress,” 10/19/2012, accessed 1/2/2013; Combating       404.	 USAID, response to SIGAR data call, 9/30/2012.
      Terrorism Center at West Point, “Haqqani Network Financing:          405.	 USAID, response to SIGAR data call, 9/30/2012.
      The Evolution of an Industry,” 7/2012, accessed 10/10/2012.          406.	 USAID, response to SIGAR data call, 9/30/2012.
369.	 Treasury, response to SIGAR data call, 12/21/2012.                   407. 	 USAID, response to SIGAR data call, 12/30/2012; SIGAR analysis
370.	 Treasury, response to SIGAR data call, 12/21/2012.                          of USAID contracts.
371.	 Treasury, response to SIGAR data call, 12/21/2012.                   408. 	 DoD, responses to SIGAR data call, 12/27/2012 and 1/8/2013.
372.	 TFBSO, response to SIGAR data call, 1/4/2013.                        409.	 ADB, “TA 7637 (AFG) Power Sector Master Plan,”11/30/2012,
373.	 World Bank, “Afghanistan Economic Update,”10/2012, accessed                 accessed 1/9/2013.
      12/14/2012.                                                          410.	 ADB, “TA 7637 (AFG) Power Sector Master Plan,”11/30/2012,
374.	 DoS, response to SIGAR data call, 12/31/2012; SIGAR,                        accessed 1/9/2013.
      “Quarterly Report to Congress, 10/2012, p. 143.                      411.	 USAID, response to SIGAR data call, 12/30/2012.
375.	 World Bank, “Afghanistan Economic Update,”10/2012, accessed          412.	 DoS, response to SIGAR data call, 12/31/2012.
      12/14/2012; SIGAR, “Quarterly Report to Congress, 10/2012, p. 143.   413.	 USAID, response to SIGAR data call, 12/30/2012.
376.	 DoD, “Report on Progress Toward Security and Stability in            414.	 USAID, response to SIGAR data call, 12/30/2012.
      Afghanistan,” 12/2012, accessed 12/24/2012.                          415.	 USAID, response to SIGAR data call, 12/30/2012.
377.	 SIGAR, “Quarterly Report to Congress, 10/2012, p. 142.               416.	 USAID, response to SIGAR data call, 12/30/2012.
378.	 MoM, “Preferred Bidder for Current Mineral Tenders,”                 417.	 USAID, “Sheberghan Gas Field Development Project (SGFDP),”
      12/6/2012, accessed 1/4/2013; TFBSO, response to SIGAR data                 6/2011, accessed 1/4/2013.
      call, 1/3/2013; MoM, “Preferred Bidder for Zarkashan Project,”       418.	 DoS, response to SIGAR data call, 12/31/2012.
      12/16/2012, accessed 1/4/2013.                                       419.	 USAID, response to SIGAR data call, 12/30/2012.
379.	 SIGAR, “Quarterly Report to Congress, 10/2012, pp. 142-143;          420.	 USAID, response to SIGAR data call, 12/30/2012; USAID, “ADS
      DoS, response to SIGAR data call, 12/31/2012.                               Chapter 315 Cargo Preference,” 8/30/2012, accessed 1/14/2013.




REPORT TO THE UNITED STATES CONGRESS           I   JANUARY 30, 2013                     199
                                                          ENDNOTES




421.	   SIGAR, “Quarterly Report to Congress, 4/2012, p. 116.              459.	 USAID, response to SIGAR data call, 12/30/2012.
422.	   USAID, response to SIGAR data call, 12/30/2012.                    460.	 SIGAR, “Quarterly Report to Congress, 10/2012, p. 145.
423.	   USAID, response to SIGAR data call, 12/30/2012.                    461.	 USAID, response to SIGAR data call, 9/30/2012; USAID,
424.	   USAID, response to SIGAR data call, 12/30/2012.                           “Request for Proposals No. 306-11-0037,” 5/16/2012, accessed
425.	   DoD, response to SIGAR data call, 1/3/2012.                               10/5/2012; USAID, response to SIGAR vetting, 10/14/2012.
426.	   SIGAR Audit 12-12, “Fiscal Year 2011 Afghanistan Infrastructure    462.	 USAID, response to SIGAR data call, 12/30/2012.
        Fund Projects Are behind Schedule and Lack Adequate                463.	 SIGAR, “Quarterly Report to Congress, 1/2012, p. 125.
        Sustainment Plans,” 7/2012.                                        464.	 DoD, “Report on Progress Toward Security and Stability in
427.	   DoD, response to SIGAR data call, 1/3/2012.                               Afghanistan,” 12/2012, accessed 12/24/2012.
428.	   USAID, response to SIGAR data call, 12/27/2012.                    465.	 DoD, “Report on Progress Toward Security and Stability in
429.	   DoD, response to SIGAR data call, 1/3/2012.                               Afghanistan,” 12/2012, accessed 12/24/2012; USAID, response to
430.	   SIGAR Audit 13-2 (Interim Report), “Afghanistan’s National Power          SIGAR vetting, 1/14/2013.
        Utility:$12.8 Million in DOD-Purchased Equipment Sits Unused,      466.	 DoD, “Report on Progress Toward Security and Stability in
        And USAID Paid a Contractor For Work Not Done,” 12/2012.                  Afghanistan,” 12/2012, accessed 12/24/2012.
431.	   DoD, response to SIGAR data call, 1/3/2012.                        467.	 USAID, response to SIGAR data call, 12/29/2012; USAID,
432.	   SIGAR Audit 12-12, “Fiscal Year 2011 Afghanistan Infrastructure           response to SIGAR vetting, 1/14/2013.
        Fund Projects Are behind Schedule and Lack Adequate                468.	 USAID, response to SIGAR data call, 12/29/2012.
        Sustainment Plans,” 7/2012.                                        469.	 USAID, response to SIGAR data call, 12/29/2012.
433.	   DoD, response to SIGAR data call, 1/3/2012.                        470.	 USAID, response to SIGAR data call, 12/29/2012; USAID,
434.	   USAID, response to SIGAR data call, 12/27/2012.                           response to SIGAR vetting, 1/14/2013.
435.	   USAID, “Afghanistan, Infrastructure, Description,” 5/22/2012,      471.	 USAID, response to SIGAR data call, 12/29/2012.
        accessed 1/14/2013.                                                472.	 USAID, response to SIGAR data call, 12/29/2012.
436.	   DoD, response to SIGAR data call, 12/20/2012.                      473.	 USAID, response to SIGAR data call, 12/29/2012; USAID,
437.	   DoD, “Report on Progress Toward Security and Stability in                 response to SIGAR vetting, 1/14/2013.
        Afghanistan,” 12/2012, accessed 12/24/2012.                        474.	 USAID, response to SIGAR data call, 12/29/2012.
438.	   SIGAR, “Quarterly Report to Congress, 1/2012, p. 126.              475.	 USAID, response to SIGAR data call, 12/30/2012.
439.	   ADB, “ADB Provides $340 Million to Complete Afghan Ring            476.	 USAID, response to SIGAR data call, 12/30/2012.
        Road,” 1/17/2012, accessed 12/30/2012.                             477.	 USAID, response to SIGAR data call, 12/30/2012.
440.	   DoS, response to SIGAR data call, 12/19/2012.                      478. 	 USAID, response to SIGAR data call, 12/30/2012.
441.	   ADB, “ADB Provides $340 Million to Complete Afghan Ring            479. 	 USAID, response to SIGAR data call, 12/30/2012.
        Road,” 1/17/2012, accessed 12/30/2012; ADB, “Annual Report         480.	 USAID, response to SIGAR data call, 12/30/2012.
        2011 Volume 1,” 4/11/2012, accessed 12/30/2012.                    481.	 TFBSO, response to SIGAR data call. 1/3/2013.
442.	   DoS, response to SIGAR data call, 12/19/2012.                      482.	 World Bank, “Afghanistan Economic Update,” 10/2011, accessed
443.	   DoD, response to SIGAR data call, 12/20/2012.                             1/13/2013.
444.	   DoS, response to SIGAR data call, 12/19/2012; DoD, response to     483.	 World Bank, “Afghanistan in Transition: Looking Beyond
        SIGAR data call, 12/20/2012.                                              2014,” 5/2012, accessed 10/13/2012; World Bank, “Afghanistan
445.	   DoT, response to SIGAR data call, 1/3/2013.                               Overview,” 10/2012, accessed 1/8/2013.
446.	   SIGAR, “Quarterly Report to Congress, 7/2012, p. 130.              484.	 MCIT, “Agreement of Fiber Optic Project Signs for Central and
447.	   DoS, response to SIGAR data call, 12/19/2012; DoD, “Report on             Northeastern Provinces,” 12/2/2012, accessed 1/11/2013.
        Progress Toward Security and Stability in Afghanistan,” 12/2012,   485.	 MCIT, “MCIT Signs Contracts of Six m-Governance, Capacity
        accessed 12/24/2012.                                                      Building and Culture Innovation Projects,” 12/9/2012, accessed
448.	   DoS, response to SIGAR data call, 12/19/2012.                             1/11/2013.
449.	   DoT, response to SIGAR data call, 1/3/2013.                        486.	 ISAF, “ISAF, Afghan Officials Sign Agreement on Telecom “Silk
450.	   DoD, “Report on Progress Toward Security and Stability in                 Road,”” 12/19/2012, accessed 11/11/2013.
        Afghanistan,” 12/2012, accessed 12/24/2012; DoT, response to       487.	 World Bank, “Doing Business 2013,” 10/22/2012, accessed 1/11/2013.
        SIGAR vetting, 1/15/2013.                                          488.	 CRS, “Afghanistan: Post-Taliban Governance, Security, and U.S.
451.	   DoD, response to SIGAR data call, 12/20/2012; DoD, “Report on             Policy,” 1/4/2013, accessed 1/11/2013.
        Progress Toward Security and Stability in Afghanistan,” 12/2012,   489.	 CSIS, “Afghanistan: The Failing Economics of Transition,”
        accessed 12/24/2012.                                                      7/20/2012, accessed 1/11/2013.
452.	   DoT, response to SIGAR data call, 1/3/2013.                        490.	 DoD, “Report on Progress Toward Security and Stability in
453.	   DoS, response to SIGAR data call, 12/19/2012.                             Afghanistan,” 12/2012, accessed 12/24/2012.
454.	   USAID, response to SIGAR data call, 12/30/2012.                    491.	 Commerce, “Franchising Conference Success in Kabul,”
455.	   USAID, response to SIGAR data call, 12/30/2012; USAID,                    accessed 1/11/2013.
        response to SIGAR vetting, 1/14/2013.                              492.	 U.S. Embassy Kabul, “U.S.-Afghanistan Franchising Trade
456.	   USAID, response to SIGAR data call, 12/30/2012.                           Conference,” accessed 1/16/2013.
457.	   USAID, response to SIGAR data call, 12/30/2012.                    493.	 WTO, “Afghanistan’s WTO Accession Negotiations Accelerate,”
458.	   USAID, response to SIGAR data call, 12/30/2012; USAID,                    12/7/2012, accessed 1/8/2013.
        response to SIGAR vetting, 1/14/2013.                              494.	 USAID, response to SIGAR data call, 12/27/2012.




                                                    200                    SPECIAL INSPECTOR GENERAL         I   AFGHANISTAN RECONSTRUCTION
                       The National Defense Authorization Act for FY 2008 (P.L. 110-181)
                       established the Special Inspector General for Afghanistan
                       Reconstruction (SIGAR).
                       SIGAR’s oversight mission, as defined by the legislation, is to provide for the
                       independent and objective
                       •	 conduct and supervision of audits and investigations relating to the programs
                          and operations funded with amounts appropriated or otherwise made available
                          for the reconstruction of Afghanistan.
                       •	 leadership and coordination of, and recommendations on, policies designed
                          to promote economy, efficiency, and effectiveness in the administration of the
                          programs and operations, and to prevent and detect waste, fraud, and abuse
                          in such programs and operations.
                       •	 means of keeping the Secretary of State and the Secretary of Defense fully
                          and currently informed about problems and deficiencies relating to the
                          administration of such programs and operation and the necessity for and
                          progress on corrective action.
                       Afghanistan reconstruction includes any major contract, grant, agreement,
                       or other funding mechanism entered into by any department or agency of the
                       U.S. government that involves the use of amounts appropriated or otherwise made
                       available for the reconstruction of Afghanistan.

                       Source: P.L. 110-181, “National Defense Authorization Act for FY 2008,” 1/28/2008.


                       (For a list of the congressionally mandated contents of this report, see Section 3.)




                       Cover photo:
                       Children in Farah Province, Afghanistan, play with kites given to them by Afghan Local Police officers.   Afghan children get water from a village well, one of more than 3,000 built or rehabilitated with USAID funds to
                       (DoD/USMC photo)                                                                                          reduce waterborne diseases that kill 40,000 children each year. (USAID photo)




Jan2013_Cover.indd 2                                                                                                                                                                                                                                1/15/2013 9:42:50 AM
                                                                                                                sigar
   SIGAR




                                    SIGAR | Quarterly Report to the United States Congress | January 30, 2013
   Special Inspector General
   for Afghanistan Reconstruction
                                                                                                                                 Special Inspector General for    Jan 30
                                                                                                                                 Afghanistan Reconstruction        2013
   2530 Crystal Drive
   Arlington, VA 22202

   www.sigar.mil




                                                                                                                 Quarterly Report to the United States Congress




                                    1

Jan2013_Cover.indd 1                                                                                                                                                  1/15/2013 9:42:47 AM
